                   U.S. Department of Agriculture

                      Office of Inspector General
                       Financial & IT Operations




         Audit Report

 U.S. Department of Agriculture’s
Consolidated Financial Statements
  for Fiscal Years 2008 and 2007




                         Report No. 50401-65-FM
                                 November 2008
                     UNITED STATES DEPARTMENT OF AGRICULTURE
                                 OFFICE OF INSPECTOR GENERAL

                                   Washington, D.C. 20250




November 14, 2008


REPLY TO
ATTN OF: 50401-65-FM

TO:          Charles R. Christopherson, Jr.
             Chief Financial Officer
             Office of the Chief Financial Officer

ATTN:        Kathy Donaldson
             Audit Liaison Officer
             Office of the Chief Financial Officer
             Planning and Accountability Division

FROM:        Phyllis K. Fong                /s/
             Inspector General

SUBJECT: U.S. Department of Agriculture’s Consolidated Financial Statements
         for Fiscal Years 2008 and 2007


This report presents the results of our audits of the U.S. Department of Agriculture’s
consolidated financial statements for the fiscal years ending September 30, 2008, and
2007. The report contains an unqualified opinion for fiscal year 2008 and a qualified
opinion for fiscal year 2007, as well as the results of our assessment of the Department’s
internal control over financial reporting and compliance with laws and regulations. Your
response is included in its entirety as exhibit C.

In accordance with Departmental Regulation 1720-1, please furnish a reply within
60 days describing the corrective actions taken or planned, including the timeframes, on
our recommendations. Please note that the regulation requires a management decision to
be reached on all findings and recommendations within a maximum of 6 months from
report issuance.

We appreciate the courtesies and cooperation extended to us during the audits.
This report is intended solely for the information of the management of USDA, OMB, and
Congress, and is not intended to be, and should not be, used by anyone other than these specified
parties.


/s/

Phyllis K. Fong
Inspector General


November 14, 2008




USDA/OIG-A/50401-65-FM                                                                      Page 3
being audited will not be prevented or detected. Because of inherent limitations in any internal
control, misstatements due to error or fraud may occur and not be detected.

We noted certain matters described in the “Findings and Recommendation” involving the internal
control over financial reporting and its operation that we consider to be significant deficiencies as
follows:

      •   improvements are needed in overall financial management (Section 1); and

      •   improvements are needed in information technology (IT) security and controls (Section 1).

We believe that these two deficiencies are also material weaknesses.

Additional Other Procedures

As required by OMB Bulletin No. 07-04, we considered USDA’s internal controls over Required
Supplementary Information (RSI) and Required Supplemental Stewardship Information (RSSI) by
obtaining an understanding of the internal controls, determining whether these internal controls
had been placed in operation, assessing control risk, and performing tests of controls. Our
procedures were not designed to provide assurance on internal controls over such, RSI and RSSI;
accordingly, we do not provide an opinion on such controls. However, as a result of such limited
procedures, we believe that the RSI related to deferred maintenance is lacking controls to ensure
the accuracy, completeness, and timeliness of the reported information.

The material weaknesses noted above were disclosed in USDA’s FMFIA report.

This report is intended solely for the information and use of the management of USDA, OMB, and
Congress, and is not intended to be, and should not be, used by anyone other than these specified
parties.


/s/

Phyllis K. Fong
Inspector General

November 14, 2008




USDA/OIG-A/50401-65-FM                                                                        Page 5
This report is intended solely for the information and use of the management of USDA, OMB, and
Congress, and is not intended to be, and should not be, used by anyone other than these specified
parties.


/s/

Phyllis K. Fong
Inspector General

November 14, 2008




USDA/OIG-A/50401-65-FM                                                                        Page 7
FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                             Table of Contents
Message from the Secretary ....................................................................................................................ii
About this Report ................................................................................................................................. iv
1.    Management’s Discussion and Analysis........................................................................................... 1
      An Overview of the Department of Agriculture ...........................................................................................................1
      Resources .......................................................................................................................................................................5
      Performance Goals, Objectives, and Results .................................................................................................................7
      Management Challenges ...............................................................................................................................................9
      Future Demands, Risks, Uncertainties, Events, Conditions, and Trends...................................................................17
      USDA’s Results Agenda—Implementing Federal Management Initiatives...............................................................18
           Federal Managers’ Financial Integrity Act Report on Management Control.....................................................35
           Federal Financial Management Improvement Act Report on Financial Management Systems ........................39
           Inspector General Act Amendments of 1988: Management’s Report on Audit Follow-Up .............................40
           FY 2008 Results ..................................................................................................................................................41
           Management’s Report on Audit Follow-Up .......................................................................................................44
2.    Annual Performance Report ......................................................................................................... 49
      Strategic Goal 1: Enhance International Competitiveness of American Agriculture .................................................49
      Strategic Goal 2: Enhance the Competitiveness and Sustainability of Rural and Farm Economies .........................59
      Strategic Goal 3: Support Increased Economic Opportunities and Improved Quality of Life In Rural America.....72
      Strategic Goal 4: Enhance Protection and Safety of the Nation’s Agriculture and Food Supply ..............................80
      Strategic Goal 5: Improve the Nation’s Nutrition and Health...................................................................................88
      Strategic Goal 6: Protect and Enhance the Nation’s Natural Resource Base and Environment ...............................95
      Program Assessment Rating Tool (PART) Evaluations...........................................................................................106
      Program Evaluations of Performance Information ...................................................................................................108
3.    Financial Statements, Notes, Supplemental and Other Accompanying Information ..................... 117
      Message from the Chief Financial Officer ................................................................................................................117
      Consolidated Balance Sheet ......................................................................................................................................119
      Notes to the Consolidated Financial Statements ......................................................................................................124
      Required Supplementary Stewardship Information ..................................................................................................188
      Required Supplementary Information.......................................................................................................................196
4.    Other Accompanying Information .............................................................................................. 207
      Appendix A—Management Challenges ...................................................................................................................207
      Appendix B—Improper Payment and Recovery Auditing Details ...........................................................................254
      Appendix C—Table of Exhibits................................................................................................................................279
      Appendix D—Acronyms...........................................................................................................................................280




                                                                                                                                                                                           i
                                         DRAFT FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                          Message from the Secretary
In fulfillment of our responsibilities to the President, Congress, and the people of the
United States, I am pleased to share the 2008 Performance and Accountability Report
of the U.S. Department of Agriculture (USDA).
Upon its creation in 1862, President Abraham Lincoln called USDA “the people’s
department,” because it affects so many people’s lives in so many different ways, and
earlier, President Thomas Jefferson, a farmer, noted that “cultivators of the earth are the
most valuable citizens.” USDA works hard to keep these sentiments alive as it pursues
its mission to provide leadership on food, agriculture, natural resources, and related
issues based on sound public policy, the best available science, and efficient
management.
In fiscal year (FY) 2008, to support this mission, USDA’s diverse workforce of more than 100,000 employees
served as stewards of more than $96.5 billion in taxpayer dollars to:
 Meet the needs of farmers and ranchers, promoting use of state-of-the-art agricultural research and technology
   and ensuring that the domestic agricultural sector continues to grow and remain competitive;
 Expand economic opportunities in international markets for farmers, ranchers, and rural communities—
   realizing a record $114.06 billion in U.S. agricultural exports in FY 2008;
 Use the best available science and technology to protect the safety of the Nation’s food supply;
 Facilitate access to a healthy diet for needy Americans, providing $34.0 billion in food stamp benefits;
 Prevent and fight devastating wildfires as well as restore fire-ravaged land;
 Introduce the Fight Hunger Initiative for individuals and organizations wishing to help USDA fight hunger in
   communities across America;
 Expand the availability of fruits and vegetables in School Lunch and nutrition programs;
 Modernize the nutrition guidance USDA provides the Nation to reflect the latest scientific information and
   combat our country’s obesity epidemic;
 Develop renewable energy and demonstrate how biofuels help keep gas prices down, reduce America’s
   dependence on oil, and reduce greenhouse gas emissions;
 Eradicate and control invasive pests and prevent pest infestations;
 Prevent introduction and fight animal diseases such as avian influenza;
 Implement mandatory country-of-origin labeling;
 Implement a national animal tracking system to help prevent disease spread;
 Continue to improve and expand soil, water, and other natural resource conservation programs;
 Work closely with the Federal Emergency Management Agency to assist in clean-up efforts following a
   devastating hurricane season; and
 Invest in infrastructure that will bring new economic opportunities and jobs to rural areas.

In response to the Government Accountability Office’s placement of USDA’s Food Safety and Inspection Service
(FSIS) on its high-risk list in 2007, FSIS is working to reduce illness caused by contamination of the food supply
by:
 Implementing the Salmonella Initiative Program to provide incentives for meat and poultry plants whose
    processes control foodborne pathogens;
 Enhancing FSIS’ ability to comprehensively evaluate food safety systems and take action as appropriate;




 ii
                               FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
 Building a quality public health infrastructure with data that are readily accessible to key decision-makers and
  front-line personnel; and
 Conducting real-time surveillance of high-risk shipments of meat, poultry, and egg products coming into the
  United States as well as vulnerability assessments focused on imports with the Food and Drug Administration,
  and the Department of Homeland Security’s U.S. Customs and Border Protection.
The Department’s Senior Management Control Council continues to oversee USDA’s assessment of internal
control over its programs, operations, financial systems, and financial reporting. The Department’s work is
consistent with the provisions of the Federal Managers’ Financial Integrity Act (FMFIA) and the Federal Financial
Management Improvement Act (FFMIA). Through the work of the Council, valuable information on the state of
our systems allows us to provide a reasonable assurance that the content of this report is based on sound, accurate
data.
Nevertheless, continued improvement is needed to remediate existing material weaknesses and financial system
noncompliances. To accomplish this goal, USDA management is continuing to monitor corrective action plan
activities. Therefore, I provide qualified assurance that, except for the areas in need of improvement as described in
the Management Assurances section of this report, USDA’s internal control over operations, financial systems, and
financial reporting meet the objectives of FMFIA and FFMIA. The financial and performance information
presented herein is complete and accurate and is in accordance with the law and with Office of Management and
Budget guidance.
Agriculture holds answers to some of the most pressing problems faced by our Nation and world—from meeting
needs for renewable energy, and increasing crop yields to fight hunger, protecting the food supply to improving our
environment and optimizing international trade. I hope that this report will provide you with an enhanced
appreciation of USDA’s role in this dynamic industry as well as a deeper understanding of agriculture’s critically
important role throughout America and around the world.




                                                                                                                   iii
                              FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                       About this Report
The Government Performance and Results Act of 1993 requires all Federal agencies to engage in a strategic
planning process that directly aligns resources with results and enhances the accountability of all government
endeavors to the American taxpayers who finance them.
This results-oriented process includes the development and implementation of a five-year strategic plan; annual
reporting that sets specific, measurable targets for performance at the beginning of each fiscal year; and a concrete,
data-based assessment at year-end of the success of these endeavors.
This Fiscal Year 2008 Performance and Accountability Report is the year-end progress report of the Department of
Agriculture (USDA). It reviews the strategic goals and objectives the Department set for itself at the beginning of
the fiscal year and compares initial targets to actual performance. The data used by USDA to measure actual
performance are collected using standardized methodology that has been vetted by Federally employed scientists
and policymakers and, ultimately, by the undersecretaries of the respective mission areas, all of whom attest to the
completeness, reliability, and quality of the data.
In addition to promoting accountability and enhancing the management of USDA programs, this report also helps
illuminate the strategic allocation of resources in the future by directly linking program performance to budgetary
decisions.
This report assists policymakers to make informed decisions. It also strives to provide transparency to all Americans
interested in the workings of their government and USDA’s ability to “manage for results” in performing its many
vital public functions.




 iv
                               FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                     Management’s
                                                     Discussion and
                                                     Analysis
An Overview of the Department of Agriculture
The Department of Agriculture (USDA) is a diverse and complex organization with
programs that touch the lives of all Americans every day. More than 100,000 employees
deliver more than $96.5 billion in public services through USDA’s more than 300
programs worldwide, leveraging an extensive network of Federal, State, and local
cooperators.
Founded by President Abraham Lincoln in 1862, when more than half of the Nation’s
population lived and worked on farms, USDA’s role has evolved with the economy. Today,
USDA improves the Nation’s economy and quality of life by:
 Enhancing economic opportunities for U.S. farmers and ranchers;
 Ensuring a safe, affordable, nutritious, and accessible food supply;
 Caring for public lands and helping people care for private lands;
 Supporting the sound, sustainable development of rural communities;
 Expanding global markets for agricultural and forest products and services; and
 Working to reduce hunger and improve America’s health through good nutrition.

Addressing these timeless concerns in the modern era presents its share of challenges.
America’s food and fiber producers operate in a global, technologically advanced, rapidly
diversifying, and highly competitive business environment driven by sophisticated
consumers.
This report provides information on USDA’s core performance measures as described in its
Strategic Plan for FY 2005-2010. They are:
 To enhance international competitiveness of American agriculture;
 To enhance the competitiveness and sustainability of rural and farm economies;
 To support increased economic opportunities and improved quality of life in rural
   America;
 To enhance protection and safety of the Nation’s agriculture and food supply;
 To improve the Nation’s nutrition and health; and
 To protect and enhance the Nation’s natural resource base and environment.




                                                                                            1
                         MANAGEMENT’S DISCUSSION AND ANALYSIS
These six goals mirror USDA’s commitment to provide first-class service, state-of-the-art science, and consistent
management excellence across the Department. USDA uses the Program Assessment Rating Tool (PART) to
assess and improve program performance so that the Department can achieve better results. The PART identifies
how well and efficiently a program is working and what specific actions can be taken to improve its performance.
PART ratings and analysis for all Federal Government programs can be found on the internet at ExpectMore.gov.
Other internal and external program evaluations related to the goals and conducted during Fiscal Year (FY) 2008
are included in this document.
Although change has been a constant in the evolution of the United States farm and food sector, the current
marketplace emphasizes the growing importance to consumer preferences and the reach of global markets. USDA’s
objectives reflect this. Through these objectives, USDA will strive to:
 Expand international trade for agricultural products and support international economic development;
 Expand domestic marketing opportunities for agricultural products and strengthen risk management, the use of
   financial tools, and the provision of sound information to help farmers and ranchers in their decision-making
   process;
 Further develop alternative markets for agriculture products and activities;
 Provide financing needed to help expand job opportunities and improve housing, utilities, and infrastructure in
   rural America;
 Enhance food safety by taking steps to reduce the prevalence of foodborne hazards from farm to table and
   safeguard agriculture from natural and intentional threats;
 Improve nutrition by providing food assistance and nutrition education and promotion; and
 Manage and protect America’s public and private lands working cooperatively with other levels of Government
   and the private sector.
Exhibit 1: Headquarters Organization

                                                                                   SECRETARY

                                                                                 Deputy Secretary




                 Chief Information         Chief Financial           Inspector                     Executive             Director of                 General
                      Officer                  Officer                General                      Operations          Communications                Counsel



     Under Secretary for     Under Secretary for         Under Secretary         Under Secretary for     Under Secretary for     Under Secretary for        Under Secretary for
     Natural Resources        Farm and Foreign              for Rural            Food, Nutrition and        Food Safety          Research, Education          Marketing and
      and Environment        Agricultural Services        Development            Consumer Services                                 and Economics           Regulatory Programs
      Forest Service          Farm Service              Rural Utilities           Food and Nutrition      Food Safety and          Agricultural Research    Agricultural Marketing
      Natural Resources       Agency                    Service                   Service                 Inspection               Service                  Service
      Conservation            Foreign Agricultural      Rural Housing             Center for Nutrition    Service                  Cooperative State        Animal and Plant
      Service                 Service                   Service                   Policy and Promotion                             Research, Education,     Health Inspection
                                                                                                                                   and Extension            Service
                              Risk Management           Rural Business-                                                            Service
                              Agency                    Cooperative Service                                                                                 Grain Inspection,
                                                                                                                                   Economic Research
                                                                                                                                                            Packers and
                                                                                                                                   Service
                                                                                                                                                            Stockyards
                                                                                                                                   National Agricultural    Administration
                                                                                                                                   Statistics Service
                                                                                                                                   National Agricultural
                                                                                                                                   Library




                                       Assistant Secretary for                Assistant Secretary for              Assistant Secretary for
                                      Congressional Relations                    Administration                         Civil Rights




 2
                                               FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                        USDA’s FY 2008 key milestones include:
                Mission Statement
                                                         Preserving over $7 billion in foreign trade through
                                                            resolution of trade barriers;
    The Department of Agriculture provides
                                                         Providing over 15,000 loans to beginning, minority, and
    leadership on food, agriculture, natural                women farmers;
    resources, quality of life in rural America and      Offering over $88 billion in Federal crop insurance
    related issues based on sound public policy, the        protection;
    best-available science and efficient                 Creating or saving over 70,000 jobs in rural America;
    management.                                          Maintaining loans to help 2.5 million rural families with
                                                            housing loans including 64,000 new loans;
    Eradicating the Asian Longhorned Beetle, an invasive pest, from Illinois;
    Providing Food Stamp assistance to more than 28 million people on average each month;
    Distributing more than 3 billion pieces of nutrition guidance materials via the Web and print;
    Improving over 30 million acres of land using conservation measures;
    Treating almost 2.9 million acres with hazardous fuel reduction programs and conserving over 128,000 acres of
     wetland habitats; and
    Funding 22,500 years of graduate student forestry studies.
MISSION AREAS
To ensure that USDA’s efforts focus squarely on meeting its real world objectives, the Department’s work is
organized by mission areas, which are a collection of agencies that work together to achieve USDA’s
aforementioned strategic goals. A description of USDA’s seven mission areas follows.
Natural Resources and Environment
The Natural Resources and Environment (NRE) mission area ensures the health of the land through sustainable
management. Its agencies work to prevent damage to natural resources and the environment, restore the resource
base, and promote good land management. NRE consists of the Forest Service (FS) and the Natural Resources
Conservation Service (NRCS). FS manages public lands in national forests and grasslands, which encompass 193
million acres. NRCS provides leadership in a partnership effort to help America's private land owners and
managers conserve their soil, water, and other natural resources. Both agencies work in partnership with Tribal,
State, and local Governments; communities; related groups; and other Federal agencies to protect the Nation’s
soils, watersheds, and ecosystems.
Farm and Foreign Agricultural Services
The Farm and Foreign Agricultural Services (FFAS) mission area helps keep America's farmers and ranchers in
business as they face the uncertainties of weather and markets. FFAS delivers commodity, credit, conservation,
disaster, and emergency assistance programs that help improve the stability and strength of the agricultural
economy. The mission area is comprised of the Farm Service Agency (FSA), the Foreign Agricultural Service
(FAS), and the Risk Management Agency (RMA). FSA administers and manages farm commodity, credit,
conservation, disaster, and loan programs as laid out by Congress through a network of Federal, State, and county
offices. FAS works to improve international market access for U.S. products, build new markets, improve the
competitive position of domestic agriculture in the global marketplace, and provide food aid and technical
assistance to other countries. RMA helps producers manage their business risks through effective, market-based
risk management solutions.




                                                                                                                 3
                                     MANAGEMENT’S DISCUSSION AND ANALYSIS
This mission area also includes two Government-owned corporations. The Commodity Credit Corporation (CCC)
works to stabilize farm income to help ensure an adequate, affordable supply of food and fiber. This corporation is a
financial mechanism by which agricultural commodity, credit, export, conservation, disaster, and emergency
assistance is provided. The Federal Crop Insurance Corporation (FCIC) improves the economic stability of
agriculture through a sound system of crop insurance.
Rural Development
The Rural Development (RD) mission area focuses on helping improve the economy and quality of life in all of
rural America. RD provides financial programs to support such essential public facilities and services as water and
sewer systems, housing, health clinics, emergency service facilities, and electric and telephone service. It promotes
economic development by providing loans to businesses through banks and community-managed lending pools,
while also assisting communities to participate in community empowerment programs. RD provides grants, loans,
and loan guarantees to farmers, ranchers, and rural small businesses to assist in developing renewable energy
systems and make energy efficient improvements.
Food, Nutrition and Consumer Services
The Food, Nutrition and Consumer Services (FNCS) mission area works to harness the Nation's agricultural
abundance to reduce hunger and improve health in the United States. Its agencies administer Federal domestic
nutrition assistance programs. FNCS is comprised of the Food and Nutrition Service (FNS) and the Center for
Nutrition Policy and Promotion (CNPP). FNS administers USDA’s 15 Federal nutrition assistance programs.
CNPP works to improve the health and well-being of Americans by developing and promoting dietary guidance
that links scientific research to the nutrition needs of consumers.
Food Safety
The Food Safety and Inspection Service (FSIS) is the public health agency responsible for ensuring that the
Nation’s commercial supply of meat, poultry, and egg products is safe, wholesome, and labeled and packaged
correctly.
Research, Education and Economics
The Research, Education and Economics (REE) mission area is dedicated to the creation of a safe, sustainable,
competitive U.S. food and fiber system, as well as the development of strong communities, families, and youth
through integrated research, analysis, and education. REE is comprised of the Agricultural Research Service
(ARS); the Cooperative State Research, Education and Extension Service; the Economic Research Service; the
National Agricultural Statistics Service (NASS); and the National Agricultural Library.
Marketing and Regulatory Programs
The Marketing and Regulatory Programs mission area facilitates the domestic and international marketing of U.S.
agricultural products and ensures the health and care of animals and plants. MRP is made up of the Agricultural
Marketing Service (AMS); the Animal and Plant Health Inspection Service (APHIS); and the Grain Inspection,
Packers, and Stockyards Administration (GIPSA). AMS administers programs that facilitate the efficient, fair
marketing of U.S. agricultural products, including food, fiber, and specialty crops. APHIS provides leadership in
ensuring the health and care of animals and plants. GIPSA facilitates the marketing of livestock, poultry, meat,
cereals, oilseeds, and related agricultural products.
DEPARTMENTAL OFFICES
Department-level offices provide centralized leadership, coordination, and support for USDA’s policy and
administrative functions. Their efforts maximize the energy and resources agencies devote to the delivery of services
to USDA customers and stakeholders.



 4
                               FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Resources
Congressional appropriations are the primary funding source for USDA operations. FY 2008 program obligations
totaled $137.7 billion, an increase of $9.8 billion compared to FY 2007. These are current year obligations from
unexpired funds. They do not include prior year upward or downward obligation adjustments.
Exhibit 2:     FY 2008 and 2007 USDA Program Obligations Dedicated to Strategic Goals

                                            USDA Program Obligations Dedicated to Strategic Goals
                                                      FY 2008 Actual Program Obligations

                      Goal 1 — Enhance
                                                                            Goal 2 — Enhance the Competitiveness
                      International Competitiveness
                      of American Agriculture—4%                            and Sustainability of Rural and Farm
                                                                            Economies—25%




             Goal 6 — Protect and Enhance
             the Nation's Natural Resource                                                   Goal 3 — Support Increased Economic
             Base and Environment—9%                                                         Opportunities and Improved Quality of
                                                                                             Life in Rural America—14%




                                                                                           Goal 4 — Goal 4-Enhance Protection and
                                                                                           Safety of the Nation's Agriculture and Food
                 Goal 5 — Improve the Nation's                                             Supply—2%
                 Nutrition and Health—46%


                                                      FY 2007 Actual Program Obligations

                                                                           Goal 2 — Enhance the Competitiveness
                      Goal 1 — Enhance                                     and Sustainability of Rural and Farm
                      International Competitiveness                        Economies— 29%
                      of American Agriculture — 4%


             Goal 6 — Protect and
             Enhance the Nation's Natural
             Resource Base and                                                              Goal 3 — Support Increased Economic
             Environment —9%                                                                Opportunities and Improved Quality of
                                                                                            Life in Rural America— 12%




                                                                                        Goal 4 — Goal 4-Enhance Protection and
                                                                                        Safety of the Nation's Agriculture and Food
                  Goal 5 — Improve the Nation's                                         Supply —2%
                  Nutrition and Health— 45%




                                                                                                                                         5
                                              MANAGEMENT’S DISCUSSION AND ANALYSIS
Exhibit 3:     FY 2008 and 2007 USDA Staff Years Dedicated to Strategic Goals

                                                     USDA Staff Dedicated to Strategic Goals
                                                           FY 2008 Actual Staff Years

                                                                          Goal 2 — Enhance the Competitiveness
                                                                          and Sustainability of Rural and Farm
                     Goal 1 — Enhance
                                                                          Economies— 20%
                     International Competitiveness
                     of American Agriculture — 2%

                                                                                        Goal 3 — Support Increased Economic
                                                                                        Opportunities and Improved Quality of
                                                                                        Life in Rural America— 6%

                                                                                           Goal 4 — Enhance Protection and Safety of the
                                                                                           Nation's Agriculture and Food Supply — 21%
             Goal 6 — Protect and
             Enhance the Nation's Natural
             Resource Base and
             Environment —49%                                                   Goal 5 — Improve the Nation's
                                                                                Nutrition and Health— 2%


                                                           FY 2007 Actual Staff Years

                                                                            Goal 2 — Enhance the Competitiveness
                                                                            and Sustainability of Rural and Farm
                     Goal 1 — Enhance
                                                                            Economies— 22%
                     International Competitiveness
                     of American Agriculture — 2%

                                                                                         Goal 3 — Support Increased Economic
                                                                                         Opportunities and Improved Quality of
             Goal 6 — Protect and                                                        Life in Rural America— 6%
             Enhance the Nation's Natural
             Resource Base and
             Environment — 50%                                                               Goal 4 — Support Increased Economic
                                                                                             Opportunities and Improved Quality of Life
                                                                                             in Rural America— 18%


                                                                                  Goal 5 — Improve the Nation's
                                                                                  Nutrition and Health— 2%




  6
                                        FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Performance Goals, Objectives, and Results
Of the 33 performance goals contained in USDA’s FY 2009 and Revised FY 2008 Budget Summary and Annual
Performance Plan, 28 were met or exceeded, 4 were unmet, and 1 was deferred. The following Performance
Scorecard table, organized by USDA’s strategic goals and objectives, provides a summary of the Department’s
performance results. Measure 3.2.5 consolidates two separate measures from the Budget Summary. Additional
analyses of these results can be found in the Performance Section of this report.

                                                 PERFORMANCE SCORECARD FOR FY 2008
                 Objectives                                                    Annual Performance Goals                                      Result
                            Strategic Goal 1: Enhance International Competitiveness of American Agriculture
 1.1   Expand and Maintain International           1.1.1   Dollar value of agricultural trade expanded through trade agreement                Unmet
       Export Opportunities                                negotiation, monitoring, and enforcement (Non-Sanitary and Phytosanitary)
 1.2   Support International Economic              1.2.1   Number of countries in which substantive improvements have been made in           Exceeded
       Development and Trade Capacity                      national trade policy and regulatory frameworks that increase market access
       Building
                                                   1.2.2   Food Aid Targeting Effectiveness Ratio                                            Exceeded
 1.3   Improved Sanitary and Phytosanitary         1.3.1   Value of trade preserved annually through USDA staff interventions leading to     Exceeded
       (SPS) System to Facilitate Agricultural             resolutions of barriers created by SPS or Technical Barrier to Trade (TBT)
       Trade                                               measures

                   Strategic Goal 2: Enhance the Competitiveness and Sustainability of Rural and Farm Economies
 2.1   Expand Domestic Market Opportunities        2.1.1   Number of items designated as biobased for Federal procurement                    Exceeded
 2.2   Increase the Efficiency of Domestic         2.2.1   Timeliness – Percent of time official reports are released on the date and time    Unmet
       Agricultural Production and Marketing               pre-specified to data users
       Systems
                                                   2.2.2   Percent of market-identified quality attributes for which USDA has provided       Exceeded
                                                           standardization
 2.3   Provide Risk Management and Financial       2.3.1  Increase the normalized value of risk protection provided to agriculture             Met
       Tools to Farmers and Ranchers                      producers through FCIC-sponsored insurance ($ Billion)
                                                   2.3.2 Increase percentage of eligible crops with Noninsured Crop Disaster                  Unmet
                                                          Assistance Payments (NAP) coverage.
                                                   2.3.3. Increase percentage of beginning farmers, racial and ethnic minority farmers,        Met
                                                          and women farmers financed by USDA.

            Strategic Goal 3: Support Increased Economic Opportunities and Improved Quality of Life in Rural America
 3.1   Expand Economic Opportunities by            3.1.1   Jobs Created or Saved                                                               Met
       Using USDA Financial Resources to
       Leverage Private Sector Resources and
       Create Opportunities for Growth
 3.2   Improve the Quality of Life Through         3.2.1   Number of borrowers/subscribers receiving new and/or improved electric            Exceeded
       USDA Financing of Quality Housing,                  facilities
       Modern Utilities, and Needed                3.2.2   Number of borrowers/subscribers receiving new or improved                         Exceeded
       Community Facilities                                telecommunication services (Broadband)
                                                   3.2.3   Number of borrowers/subscribers receiving new or improved service from            Exceeded
                                                           agency funded water facility
                                                   3.2.4   Homeownership opportunities provided                                              Exceeded
                                                   3.2.5   Percentage of customers who are provided access to new and/or improved
                                                           essential community facilities –                                                    Met
                                                           • Health facilities
                                                           • Safety facilities




                                                                                                                                                     7
                                                 MANAGEMENT’S DISCUSSION AND ANALYSIS
                                                PERFORMANCE SCORECARD FOR FY 2008
                Objectives                                                    Annual Performance Goals                                         Result
                    Strategic Goal 4: Enhance Protection and Safety of the Nation’s Agriculture and Food Supply
4.1   Reduce the Incidence of Foodborne           4.1.1   Reduce overall public exposure to generic Salmonella from broiler carcasses            Met
      Illnesses Related to Meat, Poultry, and             using existing scientific standards
      Egg Products in the U.S.                    4.1.2   Reduce the overall public exposure to Listeria monocytogenes in ready-to-eat           Met
                                                          products
                                                  4.1.3   Reduce the prevalence of E. coli O157:H7 on ground beef                               Unmet
4.2   Reduce the Number and Severity of           4.2.1   Number of significant introductions of foreign animal diseases or pests that           Met
      Agricultural Pest and Disease Outbreaks             spread beyond the original area of introduction and cause severe economic or
                                                          environmental damage, or damage to the health of animals or humans
                                                  4.2.2   Improve the capabilities of animal and plant diagnostic laboratories                   Met
                                                          • Specific plant diseases labs are prepared to detect
                                                          • Specific animal diseases labs are prepared to detect

                                         Strategic Goal 5: Improve the Nation’s Nutrition and Health
5.1   Ensure Access to Nutritious Food            5.1.1   Participation levels for the major Federal nutrition assistance programs (millions     Met
                                                          per month):
                                                          • Food Stamp Program (FSP)
                                                          • National School Lunch Program (NSLP)
                                                          • School Breakfast Program (SBP)
                                                          • Special Supplemental Nutrition Program for Women, Infants, and Children
                                                              (WIC)
5.2   Promote Healthier Eating Habits and         5.2.1   Application and usage level of nutrition guidance tools (pieces of nutrition         Exceeded
      Lifestyles                                          guidance distributed)
5.3   Improve Nutrition Assistance Program        5.3.1   Increase Food Stamp payment accuracy rate                                            Deferred
      Management and Customer Service
                    Strategic Goal 6: Protect and Enhance the Nation’s Natural Resource Base and Environment
6.1   Protect Watershed Health to Ensure          6.1.1   Comprehensive nutrient management plans applied (number of plans)                      Met
      Clean and Abundant Water                            • Conservation Technical Assistance
                                                          • Environmental Quality Incentives Program
                                                  6.1.2   Increase Conservation Reserve Program (CRP) acres of riparian and grass              Exceeded
                                                          buffers
6.2   Enhance Soil Quality to Maintain            6.2.1   Cropland with conservation applied to improve soil quality (millions of acres)         Met
      Productive Cropland Base                            • Conservation Technical Assistance Program
                                                          • Environmental Quality Incentives Program
                                                          • Conservation Security Program
6.3   Protect Forests and Grasslands              6.3.1   Number of acres of hazardous fuel treated that are in the wildland urban               Met
                                                          interface
                                                  6.3.2   Number of acres of hazardous fuel treated that are in condition classes 2 or 3 in      Met
                                                          Fire Regimes I, II, or III outside the wildland-urban interface
                                                  6.3.3   Number of acres in condition classes 2 or 3 in Fire Regimes I, II, or III treated      Met
                                                          by all land management activities that improve condition class
                                                  6.3.4   Grazing and forest land with conservation applied to protect and improve the         Exceeded
                                                          resource base (millions of acres)
                                                          • Conservation Technical Assistance
                                                          • Environmental Quality Incentives Program




8
                                       FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                 PERFORMANCE SCORECARD FOR FY 2008
                  Objectives                                                  Annual Performance Goals                                          Result
                 Strategic Goal 6: Protect and Enhance the Nation’s Natural Resource Base and Environment (cont’d)
 6.4   Protect and Enhance Wildlife Habitat to     6.4.1   Wetlands created, restored, or enhanced (acres)                                    Exceeded
       Benefit Desired, At-Risk, and Declining
       Species
                                                           •   Conservation Technical Assistance
                                                           •   Wetlands Reserve Program
                                                           •   Conservation Reserve Program

ACTIONS ON UNMET AND DEFERRED GOALS
USDA continuously works to improve its performance across all of its strategic goals and objectives. Sometimes
circumstances arise that result in the Department falling short of its goals. At other times, the Department
consciously alters its approach in ways that enhance its service to the public, but that make a specific performance
goal a less effective indicator of real progress. The Annual Performance Report section of this report offers further
discussion of the Department’s actions on its goals.

Management Challenges
In August, USDA’s Office of Inspector General (OIG) prepared a report on the most significant management
challenges within the Department (Appendix A). These challenges have been identified as potential issues that
could hamper the delivery of its programs and services. To mitigate these challenges, USDA management provides
accomplishments for the current fiscal year and/or planned actions for the upcoming one. The Department is
reporting on nine management challenges for FY 2008. Although one challenge from FY 2007 was removed, a new
challenge was added for the current year. This addition leaves the total count of management challenges unchanged
from the previous fiscal year. The following table summarizes those challenges that changed from FY 2007 to
FY 2008.
               FY 2007 Management Challenges                                                           FY 2008 Changes
 (Challenge #1)                                                         (Challenge #1)
 Interagency Communication, Coordination, and Program Integration       New Issue Added—Increase communication and coordination on issues related
 Need Improvement                                                       to agricultural inspection policies and procedures
 (Challenge #2)                                                         Issue Revised
 Issue—Strengthen quality control, publish sanction procedures and      Strengthen quality control and perform required reconciliation of producer/policy
 perform required reconciliation in the Federal Crop Insurance          holder data in the Federal Crop Insurance Program
 Program
 (Challenge #3)                                                         Issue Revised (added NRCS)
 Issue—Improve Forest Service internal controls and management          Improve FS and NRCS internal controls and management accountability to
 accountability to effectively manage its resources, measure its        effectively manage its resources, measure its progress towards goals and
 progress towards goals and objectives, and accurately reports its      objectives, and accurately report its accomplishments
 accomplishments
 (Challenge #4)                                                         (Challenge Removed by the Office of the Inspector General)
 Issue—Implementation of Improper Payments Information Act
 Requirements Needs Improvement
 (Challenge #5)                                                         (Now Challenge #4) Issue Revised
 Issue—Continue vulnerability risk assessments to determine the         Implement commodity inventory systems that provide critical homeland security
 adequacy of food safety and security over agricultural commodities     features and complete security clearances for employees involved in commodity
 that the Department manages, handles, transports, stores, and          inventory management activities and in risk assessments
 distributes




                                                                                                                                                       9
                                              MANAGEMENT’S DISCUSSION AND ANALYSIS
                 FY 2007 Management Challenges                                                       FY 2008 Changes
 Challenge #5                                                          (Now Challenge #4) Issue Revised
 Issue—Work with States in preparing for and handling avian            Continue to strengthen ability to respond to avian influenza outbreaks and
 influenza occurrences in live bird markets or other “off-farm”        strengthen controls over live animal imports
 environments
 Challenge #5                                                          (Now Challenge #4) Issue Removed by the Office of the Inspector General
 Issue—Ensure animal disease surveillance testing protocols are
 based on emerging science
 Challenge #5                                                          (Now Challenge #4) Issue Removed by the Office of the Inspector General
 Issue—Continue to work with other USDA agencies to ensure
 effective coordination and implementation of Homeland Security
 Presidential Directive-9; e.g., develop animal and plant diagnostic
 and tracking networks

The following table includes FY 2008 accomplishments and/or FY 2009 planned actions as well as ongoing
activities to address the Department’s challenges.
USDA’s Management Challenges
 1) Interagency Communications, Coordination, and Program Integration Need Improvement.
 • Integrate the information management systems used to implement the crop insurance, conservation, and farm programs;
 • Increase organizational communication and understanding among the agencies that administer the farm, crop insurance, and conservation
     programs; and
 • Increase communication and coordination on issues related to agricultural inspection policies and procedures.
      Fiscal Year 2008 Accomplishments
        − Published the Routine Uses for System of Records in the Federal Register to allow producer and member information to be disclosed to RMA
             and, subsequently, approve insurance providers, their agents, and loss adjusters under contract with RMA;
        − Established future common reporting requirements for producer, State, and county offices based on recommendations from RMA/FSA
             working group;
        − RMA and FSA Production Workgroup analyzed current agency production data to determine incorporation into the Comprehensive
             Information Management System (CIMS);
        − Finalized crop categorization table;
        − RMA and NRCS met to further pursue the collection, sharing, and definitions of common data;
        − Initiated common reporting requirements for prevented planting acreage; and
        − Developed a Transportation and Export database for monitoring and reconciling shipments.
      Planned Actions for Fiscal Year 2009
        − Incorporate RMA and FSA production and Common Land Unit data into the CIMS database;
        − Develop a single acreage reporting process for insured producers to reduce duplicate reporting requirements for producers for common
            elements and eliminate the need for reconciliation;
        − Continue to develop reports and procedures for accessing and utilizing CIMS Projects;
        − Begin incorporating FSA member entity data and production data into CIMS;
        − Provide access to CIMS applications using eAuth for current CIMS’ users including State Offices;
        − Continue developing the Lean Six Sigma Grants Process to better integrate the management of grants and financial assistance programs.
            This process will include cost share, easements, stewardship, emergency landscapes, and traditional grants;
        − Enhance NRCS Easement Business Tool to data mine and data share between USDA agencies;
        − Pilot the National Easement Programs Management System in four states;
        − Develop the National Grant Programs Management System, which will facilitate the consistent management of traditional grants across the
            Department;
        − Develop the National Emergency Watershed Protection Programs Management System, which will facilitate the consistent management of all
            watershed programs across the Department;
        − Meet weekly to coordinate issues and opportunities common to the conservation agencies and related to program financial assistance
            eligibility, Section 1614 reporting, CIMS and the Federal Financial Accountability and Transparency Act;
        − Perform risk assessments for several rail cargo pathways; and
        − Develop guidance on the use of Transportation and Exportation permits.



 10
                                         FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
2) Implementation of Strong, Integrated Internal Control Systems Still Needed.
• Develop Rural Housing Service controls over administering disaster housing assistance programs to ensure aid is provided to the needy and avoid
    benefits duplication.
   Planned Actions for Fiscal Year 2009
   − Establish procedures to compare Federal Emergency Management Agency (FEMA) numbers for duplication after a disaster and upgrade the
       Multi-Family Information System to reject duplicate FEMA numbers; and
   − Develop procedures to monitor owners and management agents immediately following a disaster.
• Strengthen quality control and perform required reconciliation of producer/policy holder data in the Federal Crop Insurance Program.
   Fiscal Year 2008 Accomplishments
   − Reviewed selected RMA Approved Insurance Providers operations to determine their compliance with the quality control guidelines listed in the
       Standard Reinsurance Agreement and associated Appendix IV.
  Planned Actions for Fiscal Year 2009
  − Continue reviews of selected Approved Insurance Providers operations to determine compliance with quality control guidelines listed in the
      Standard Reinsurance Agreement and associated Appendix IV;
  − RD will coordinate with other Departments and Agencies to compare disaster assistance and procedures related to housing; and
  − RD will establish procedures to monitor assistance in response to a disaster.
• Improve FS and NRCS internal controls and management accountability to effectively manage resources, measure progress towards goals and
  objectives and accurately report accomplishments.
   Fiscal Year 2008 Accomplishments
   − Completed corrective actions to successfully implement the Government Performance and Results Act;
   − Performed an annual systems assessment of all FS financial/mixed financial systems;
   − Conducted oversight reviews on performance accountability within various regions; and
   − Continued to implement corrective actions identified through the Office of Management and Budget (OMB) Circular A-123, “Management’s
       Responsibility for Internal Control,” Appendix A, OIG/Government Accountability Office (GAO) audits.
  Planned Actions for Fiscal Year 2009
  − Continue to improve oversight within FS of national firefighting contract crews by implementing corrective actions in response to OIG audit
      reports;
  − Complete an annual systems assessment of all FS financial/mixed financial systems;
  − FS will conduct oversight reviews on performance accountability within various regions;
  − FS will continue to implement corrective actions identified through the OMB Circular A-123, Appendix A process and OIG/ GAO audits;
  − NRCS will hire two more staff members to write financial policy to strengthen management controls; and
  − NRCS will Increase monitoring to ensure effective resource management.
• Capitalize on FSA compliance activities to improve program integrity.
   Fiscal Year 2008 Accomplishments
   − Monitored the National Compliance Review database for compliance; and
   − Initiated the assessment of results from compliance reviews and took the necessary actions to correct identified internal control weaknesses.
   Planned Actions for Fiscal Year 2009
   − Analyze results from compliance reviews to identify any program weaknesses and revise procedures to address those weaknesses.



3) Continuing Improvements Needed in Information Technology (IT) Security.
• Emphasize security program planning and management oversight and monitoring.
   Fiscal Year 2008 Accomplishments
   − Enhanced Cyber Security Scorecard reporting requirements to reflect security components of the Privacy Act, OMB Circular A-123, Appendix A,
       and the President’s Management Agenda;
   − Continued to use the Federal Informantion Security Management Act of 2002 (FISMA) Cyber Security Scorecard and issue monthly to Senior IT
       leadership and executive management within the Department;
   − Converted data from a legacy system to Cyber Security Assessment and Management (CSAM) reporting tool on schedule;
   − Converted the General Support System information for the Office of the Chief Information Officer (OCIO) and Service Center Agencies to
       CSAM;



                                                                                                                                                     11
                                             MANAGEMENT’S DISCUSSION AND ANALYSIS
     −   Completed and verified system categorizations in CSAM; and
     −   Utilized the monthly FISMA Cyber Security scorecard to track agency compliance with key security program elements. The scorecard is used by
         Departmental executives to maintain open dialog with agency heads and program administrators on the health of USDA’s IT risk management
         initiatives and vulnerability mitigation actions.
     Planned Actions for Fiscal Year 2009
     − Leverage the CSAM tool to manage IT Security Program Compliance and Oversight;
     − Evaluate performance metrics through analysis of the Cyber Security Score Card, CSAM, and Cyber Security Communications Center;
     − Implement redefined performance metrics and develop strategic plan;
     − Monitor and assist agency progress using the Cyber Security Score Card, CSAM, and Cyber Security Communications Center; and
     − Develop tactical plans, as needed.
• Establish an internal control program throughout the systems’ life cycle.
     Fiscal Year 2008 Accomplishments
     − Integrated OMB Circular A-123, Appendix A, and FISMA program elements into a system’s life cycle;
     − Updated policy and procedures, and implemented new scorecard reporting elements;
     − Completed revisions to the security awareness training policy, the disaster recovery planning guidelines, scanning and patching requirements,
         and the incident response policy and procedures to align with current National Institutes of Standards and Technology (NIST) and OMB
         guidance;
     − Reviewed a wireless local area network in the Washington, D.C., Headquarters complex to validate and verify security program compliance;
     − Reviewed incident handling procedures compliance and improved reporting oversight to ensure that all policy and procedures are followed
         timely and completely; and
     − Developed Standard Operating Procedures to document internal business processes–Incident Handling, Privacy Act Assessments/System of
         Records Notice reviews, System Boundary, and System Categorization Verification.
     Planned Actions for Fiscal Year 2009
     − Continue to integrate OMB Circular A-123, Appendix A, and FISMA program elements into the system’s life cycle;
     − Continue with policy and procedure updates;
     − Implement new scorecard reporting elements, as needed;
     − Continue to work with agencies to monitor and improve IT controls; and
     − Utilize CSAM to eliminate duplicate OMB Circular A-123, Appendix A, and FISMA testing.
• Identify, test and mitigate IT security vulnerabilities (risk assessments).
     Fiscal Year 2008 Accomplishments
     − Identified and published critical IT security controls;
     − Reviewed Plans of Action and Milestones (POA&Ms) closures;
     − Ensured ongoing oversight of program compliance and risk mitigation activities;
     − Reviewed the wireless access points in the Washington, D.C., Headquarters complex and USDA agencies’ adherence to proper incident
         handling procedures;
     − Formalized internal procedures for monitoring the Department’s compliance with incident handling procedures;
     − Issued updated standards on Password Complexity and Wireless Network Security; and
     − Drafted revised IT Contingency and Disaster Planning policy.
     Planned Actions for Fiscal Year 2009
     − Ensure that risk ratings are properly assigned, system self-assessments are performed, POA&Ms are generated, and tasks and milestones are
         managed appropriately;
     − Review risk ratings (systems categorizations) early in the certification and accreditation process to ensure security testing and evaluations are
         performed for the appropriate level;
     − Review POA&M closure documentation and control testing, and monitor progress using scorecard and CSAM;
     − Initiate policy gap analysis and revise the Access Control and Configuration Management policies and procedures;
     − Publish revised policy and procedures for Access Control;
     − Continue compliance monitoring efforts; and
     − Publish revised policy and procedures on Continuity Planning.
• Improve access controls.
     Fiscal Year 2008 Accomplishments
     − Addressed access control issued in IT and the service center agencies. Significant progress has been made to reduce the number of
         unnecessary accounts on the Information Technology Services network;


12
                                        FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
   −   Issued operating system specific hardening guides. These guides help users to secure theirUSDA computers;
   −   Published security configuration guides for Windows 2000 Server, Win Mobile, Solaris 10, UNIX, AS/4090, Personal Electronic Devices, Web
       Farm, and Oracle on Win server 2003; and
   −   Drafted and issued Operating System Technical Configuration Standards for Access Controls.
   Planned Actions for Fiscal Year 2009
   − Ensure that technical, operational, and management controls for IT access are documented and monitored; and
   − Review and revise USDA Security Policies to ensure comprehensive and consistent guidance for the management of user access controls.
• Implement appropriate application and system software change control.
   Fiscal Year 2008 Accomplishments
   − Organized a team of USDA personnel to discuss the testing and implementation of the Federal Desktop Core Configuration (FDCC);
   − Reviewed Configuration Management Plans for NIST compliance during the concurrency reviews of Certification and Accreditation
       documentation;
   − Monitored USDA agencies’ compliance with FDCC; and
   − Reviewed and validated selected USDA agency network/system patching reports.
   Planned Actions for Fiscal Year 2009
   − Update regulations to meet the NIST and other Federal requirements relating to change control processes; and
   − Review configuration management guidance and update, as needed.
• Develop disaster contingency (service continuity) plans.
   Fiscal Year 2008 Accomplishments
   − Reviewed USDA agency contingency plans for completeness and compliance with NIST guidelines; and
   − Updated and issued guidance on the preparation of Disaster Recovery plans.
  Planned Actions for Fiscal Year 2009
  − Successfully test all USDA agencies’ continuity of operations plans;
  − Ensure that disaster recovery plans are in the Enterprise Contingency Planning Program System and all systems are accounted for through a
      comprehensive inventory process; and
  − Monitor USDA agencies’ compliance with disaster recovery plan testing through the Cyber Security Scorecard, Certification, and Accreditation
      concurrency process, and CSAM.
• Determine overall risks, prioritize those risks, and develop and implement a time-phased plan to systematically mitigate identified risks.
   Planned Actions for Fiscal Year 2009
   − Develop agency and Departmental level Security Program Security plans and identify common/critical security risks; and
   − Develop preliminary time-phased plan to mitigate common/critical security risks.



4) Departmental Efforts and Initiatives in Homeland Security Need to be Maintained.
• Implement commodity inventory systems that provide critical homeland security features and complete security clearances for employees involved in
   commodity inventory management activities and risk assessments.
   Fiscal Year 2008 Accomplishments
   − Initiated the development of a Web-Based Supply Chain Management system to include the business processes, applications, data, security
       and controls, technical infrastructure, and training and change management solutions for a commodity inventory system that will provide critical
       homeland security features; and
   − Granted clearance for current FSA employees involved in the risk assessment process and the inventory management activities.
   Planned Actions for Fiscal Year 2009
   − Continue implementation of the Web-Based Supply Chain Management system; and
   − Ensure that future FSA employees will have the appropriate security clearances, as needed.
• Continue to strengthen controls over select agents and toxins.
   Fiscal Year 2008 Accomplishments
   − Developed Standard Operating Procedures for performing inspections; and
   − Conducted select agent security training for inspectors.




                                                                                                                                                      13
                                              MANAGEMENT’S DISCUSSION AND ANALYSIS
  Planned Actions for Fiscal Year 2009
  − Implement an annual Compliance Inspection Program for all agriculture registered entities.
• Continue efforts to coordinate with the Department of Homeland Security in implementing effective control systems to ensure the safety and security
    of agricultural products entering the country.
     Fiscal Year 2008 Accomplishments
     − Initiated the development of guidance for the electronic reporting of refused-entry data. A dedicated mailbox was created specifically for this
         purpose. APHIS’s Veterinary Services (VS), reviewed the data weekly for trends and contacted Mexico’s animal health agency officials as
         needed for corrective actions. Shipments are rejected routinely at the southern United States border if import requirements are not met.
  Planned Actions for Fiscal Year 2009
  − Implement guidance for the electronic reporting of refused-entry data.
• Continue to strengthen ability to respond to avian influenza outbreaks.
     Fiscal Year 2008 Accomplishments
     − Prepared APHIS strategic plan to include detailed goals, objectives, and activities for addressing avian influenza during FY 2009 through
         FY 2012; and
     − Revised APHIS guidance related to internal (State-Federal) communication of foreign animal disease outbreaks and indicated the specific
         responsibilities of the state animal health official, the Federal area veterinarian in charge, the foreign animal disease diagnostician, diagnostic
         laboratories, and Federal regional offices and headquarters.
  Planned Actions for Fiscal Year 2009
  − Issue manual which will detail the live bird marketing system to include specific biosecurity measures that should be implemented to prevent or
      mitigate the spread of high consequence diseases; respond to highly contagious diseases, including cleaning and disinfection protocols; and
      develop a continuity of business planning for an outbreak;
  − Revise the outbreak surveillance response for Highly Pathogenic avian influenza (HPAI) including surveillance in the live bird market system and
      other off-farm surveillance;
  − Develop an APHIS animal disease incident planning system to provide a framework for existing documents, such as emergency management
      guidelines and disease-specific response plans (HPAI and foot-and-mouth disease); and
  − Prepare proactive risk assessments for the movement of eggs and egg products to facilitate business continuity.
• Strengthen controls over live animal imports.
     Fiscal Year 2008 Accomplishments
     −   Developed a protocol for the importation of camelids from Canada into the United States;
     −   Updated health certificate requirements for horses imported from Canada;
     −   Developed a protocol for the transiting of Canadian cattle to Mexico; and
     −   Developed an alert on “Inspection Procedures for Bovines from Canada at Canadian Land Border Ports of Entry.”
     Planned Actions for Fiscal Year 2009
     − Collect monthly data on Canadian cattle import discrepancies and implement resolution, as needed;
     − Develop a VS Process Streamlining Live Animal Import Module to contain records of all live animal entries and refusals. The module will provide
         data quality and management reports, and fully implement internal automated controls enforcing strict business rules and data standards. This
         process will lessen the opportunity for database errors;
     − Initiate efforts for APHIS to develop the ability to exchange electronic data, acquired and validated with secure, electronic signatures, for
         inclusion into VS specific animal health and surveillance management systems. The project will be piloted with Canadian officials in supporting
         the ability to exchange secure, electronic data, both for import and export U.S. trade; and
     − Develop protocols with the Canadian Food Inspection Agency for evaluating zoning policies and procedures for Foreign Animal Diseases (FAD)
         and mutual recognition of zoning decisions following detection of an FAD in either country.



5) Material Weaknesses Continue to Persist in Civil Rights Control Structure and Environment.
• Develop a plan to process complaints timely and effectively.
     Fiscal Year 2008 Accomplishments
     − Developed automated intake report for pending complaints;
     − Established formal procedures for prompt resolution of complaints not processed timely;
     − Developed automated adjudication reports for pending complaints;



14
                                         FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
   −    Reassessed performance standards for specialists in the Employment Complaints Division to include the timely completion of assigned cases;
        and
   −    Required contract agreements for investigations to include a standard provision for timely and quality services.
  Planned Actions for Fiscal Year 2009
  − Request the Equal Employment Opportunity Commission to conduct training and provide technical assistance with investigations and
      processing of complaints.
• Ensure integrity of complaint data in the system.
   Fiscal Year 2008 Accomplishments
   − Finalized formal plan for business rules;
   − Created audit procedures for reviewing sample cases for data integrity;
   − Created automated quality control tool; and
   − Conducted audit of sample cases.
• Develop procedures to control and monitor case file documentation and organization.
   Fiscal Year 2008 Accomplishments
   − Posted vacancy announcement for records management.
   Planned Actions for Fiscal Year 2009
   − Develop comprehensive records management procedures for Equal Employment Opportunity (EEO) case files;
   − Implement procedures for transferring and safeguarding documents part of an EEO complaint file; and
   − Obtain the services of an external contractor to inventory and review EEO case files and establish record retention procedures.



6) USDA Needs To Develop a Proactive, Integrated Strategy To Assist American Producers To Meet the Global Trade Challenge.
• Continue to strengthen genetically engineered organism field testing controls to prevent inadvertent genetic mixing with agricultural crops for export.
   Fiscal Year 2008 Accomplishments
   − Signed a Memorandum of Understanding between APHIS, AMS, and GIPSA, clarifying each agency’s roles when responding to incidents of
       low-level presence of regulated, genetically engineered material in commerce.
  Planned Actions for Fiscal Year 2009
  − Revise regulations for the importation, interstate movement, and environmental release of genetically engineered organisms; and
  − Develop standards and guidelines for the APHIS Biotechnology Quality Management System.
• Develop a global market strategy.
  Planned Actions for Fiscal Year 2009
  − Expand outreach activities to key countries;
  − Incorporate the Country Strategy Statements (CSS) into the FAS Mission Strategic Planning process; and
  − Redefine the CSS development process to incorporate regional and global perspective encompassing USDA interests in individual countries
      and regions.
• Strengthen trade promotion operations.
   Planned Actions for Fiscal Year 2009
   − Analyze and reassess market development programs by coordinating industry trade partners’ program initiatives with USDA functional area
       efforts;
   − Continue developing new program management software and ongoing efforts to streamline program administration;
   − Further develop evaluation criteria and processes to demonstrate the effectiveness of market development program administration and funding
       allocations; and
   − Conduct annual review/reassessment of FAS outreach effort.




                                                                                                                                                        15
                                              MANAGEMENT’S DISCUSSION AND ANALYSIS
7) Better Forest Service Management and Community Action Needed to Improve the Health of the National Forests and Reduce the Cost of
Fighting Fires.
• Develop methods to improve forest health; and
• Establish criteria to reduce the threat of wildland fires.
     Fiscal Year 2008 Accomplishments
     − Developed national guidance for the regions to use in assessing the risks from wildfires;
     − Monitored the effectiveness of hazardous fuel treatments and restoration projects;
     − Developed partnerships with States and counties to develop and deliver fire prevention ordinances for use in planning and zoning in wildland
         urban interface areas; and
     − Conducted large fire cost reviews.
     Planned Actions for Fiscal Year 2009
     − Continue to conduct large fire cost reviews and implement corrective actions, as applicable;
     − Monitor the effectiveness of hazardous fuel treatments and restoration projects;
     − Obtain clarification from the Office of the General Counsel (OGC) on both FS and States’ protection responsibilities in the wildland urban
         interface and other private properties threatened by wildfires; and
     − Develop partnerships with States and counties to develop and deliver fire prevention ordinances for use in planning and zoning in wildland urban
         interface areas.




8) Improved Controls Needed for Food Safety Inspection Systems.
• Develop a time-phased plan to complete assessments of establishment food safety systems control plans and production processes, including a
    review program that includes periodic reassessment;
• Develop a process to accumulate, review, and analyze all data available to assess the adequacy of food safety system; and
• Improve the accuracy of data available in the systems.
     Fiscal Year 2008 Accomplishments
     − Conducted a number of analyses to determine the temporal relationships among the factors that may be used for assessing an establishment’s
         ability to control risk;
     − Developed a project management plan to use certified agency project managers to assert appropriate control using American National Scientific
         Institute (ANSI)-earned value management standards to measure and control costs and schedule;
     − Issued FSIS Directive 5100.1, Revision 2, “Enforcement, Investigations, and Analysis Officer Comprehensive Food Safety Assessment
         Methodology;”
     − Developed a risk-based approach to prioritize food safety assessments;
     − Met monthly to prioritize analytical and reporting needs. Business requirements were developed, including recommendations on reports that
         district analysts should be generating;
     − Programmed tracking system for monitoring the completion of In-Plant Performance System (IPPS) assessments. These assessments allow
         users to generate reports displaying lists of individuals who have outstanding IPPS reviews;
     − Updated the AssuranceNet Users Guide to provide additional guidance to supervisors reviewing IPPS assessments. The new guidance
         instructed them to specifically focus on the extent to which applicable elements and sub-elements are completed over the course of the year. It
         also ensured their oversight reviews include a determination of whether there is a match between the narrative comments and what is in the
         follow-up boxes; and
     − Maintained data and information systems infrastructure adequate to support inspection activities.
     Planned Actions for Fiscal Year 2009
     − Test the electronic food safety assessments. As data are collected, they will be evaluated and analyzed. FSIS will examine relevant time
         windows prior to establishing its exact use in estimating risk;
     − Implement a modernization effort to continue to improve the security, quality, and sustainability of the system infrastructure (ongoing);
     − Continue to utilize the Enterprise Architecture Blueprint to provide the foundation for documenting, assessing, and improving the lines of agency
         business processes, and ensuring they are properly aligned to the system’s capabilities and needs. The blueprint also provides the mechanism
         to align and improve system data capture and automation capabilities further (ongoing); and
     − Continue to utilize the Public Health Information Consolidation Projects (PHICP) and the Public Health Data Communication Infrastructure
         Systems (PHDCIS) to plan, track, and report on IT operational and development activities better. PHICP tracks and reports the development of
         information systems for FSIS. PHDCIS contains the operational, maintenance, and infrastructure hardware and activities (ongoing).



16
                                        FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
 • Complete corrective actions on prior recommendations.
   Fiscal Year 2008 Accomplishments
   − Implemented a tracking system for audit recommendations that notifies FSIS program managers monthly about their obligations to respond to
       and take final action on OIG recommendations. The system is used to track results and produce a variety of reports.
 • Continue to develop and implement a strategy for hiring and training inspectors.
    Fiscal Year 2008 Accomplishments
    − Trained public health veterinarians to conduct food safety assessments.
    Planned Actions for Fiscal Year 2009
    − Conduct a review of the effectiveness of its training programs;
    − Conduct surveys of inspection program personnel and their supervisors following training to verify that inspectors are performing key job duties
        as instructed; and
    − Develop refresher training to reinforce inspection duties.




 9) Implementation of Renewable Energy Programs at USDA
 • Develop and implement a viable and comprehensive renewable energy strategy for USDA agencies and programs; and
 • Establish internal controls to ensure that renewable energy research is not duplicated and meets the needs of the current marketplace.
    Planned Actions for Fiscal Year 2009
    − Establish an inter-agency working group to review and make recommendations to the USDA Energy Council. The group will address strategic
        planning goals and results measurements, and develop Department-wide guidance to eliminate duplicate funding for renewable energy projects;
    − Develop Department-wide policies and procedures that require agencies to check for duplicate funding within USDA; and
    − Develop a database to check for duplicate funding with other Federal agencies.


Future Demands, Risks, Uncertainties, Events, Conditions, and Trends
USDA is influenced by many of the same forces that shape the American economy—globalization of markets,
scientific advances, and fundamental changes in the Nation’s family structure and workforce. Farmers and food
companies operate in highly competitive markets with constantly changing demand for high quality food with a
variety of characteristics, including convenience, taste, and nutrition.
Additionally, homeland security is a significant, ongoing priority for USDA. The Department is working with the
Department of Homeland Security to help protect agriculture from intentional and accidental acts that might affect
America’s food supply or natural resources.
External factors that challenge USDA’s ability to achieve its desired outcomes include:
 Weather-related hardships and other uncontrollable events at home and abroad;
 Domestic and foreign macroeconomic factors, including consumer purchasing power, the strength of the U.S.
   dollar, and political changes abroad that can impact domestic and global markets greatly at any time;
 The availability of funds for financial assistance provided by Congress and the local and national economies;
 Sharp fluctuations in farm prices, interest rates, and unemployment also impact the ability of farmers, other rural
   residents, communities, and businesses to qualify for credit and manage their debts;
 The impact of future economic conditions and actions by a variety of Federal, State, and local Governments that
   will influence the sustainability of rural infrastructure;
 The increased movement of people and goods, which provides the opportunity for crop and animal pests and
   diseases, such as avian influenza and bovine spongiform encephalopathy, to move quickly across national and
   foreign boundaries;




                                                                                                                                                     17
                                              MANAGEMENT’S DISCUSSION AND ANALYSIS
 Potential exposure to hazardous substances, which may threaten human health and the environment and the
  ability of the public and private sectors to collaborate effectively on food safety, security, and related emergency
  preparedness efforts;
 The risk of catastrophic fire is dependent on weather, drought conditions, and the expanding number of
  communities in the wildland-urban interface; and
 Efforts to reduce hunger and improve dietary behaviors depend on strong coordination between USDA and a
  wide array of Federal, State, and local partners.

USDA’s Results Agenda—Implementing Federal Management Initiatives
USDA works to strengthen its focus on results through vigorous execution of the President’s Management Agenda
(PMA). This agenda focuses on management improvements that help USDA consistently deliver more efficient
and effective programs to its stakeholders. This process is designed to improve customer service and provide more
effective stewardship of taxpayer funds. As discussed in the Department’s Strategic Plan for FY 2005-2010, USDA
plans to:
 Ensure an efficient, high-performing, diverse workforce, aligned with mission priorities and working
    cooperatively with partners and the private sector;
 Enhance internal controls, data integrity, management information, and program and policy improvements as
    reflected by an unqualified audit opinion;
 Reduce spending and burden on citizens, partners, and employees by simplifying access to the Department’s
    information. This enhancement is added by implementing business processes and information technology
    needed to make its services available electronically;
 Link budget decisions and program priorities more closely with program performance and consider the full cost
    of programs and activities;
 Reduce improper payments by developing targets and implementing corrective action plans;
 Efficiently and effectively manage its real property;
 Transform Information Technology (IT) enterprise infrastructure to be cost effective and consistent across all
    agencies and geographic regions;
 Improve its research and development investments by using objective criteria; and
 Support the essential work of faith-based and community organizations.

USDA employees are charged with executing these management initiatives, which they do with an emphasis on
customer service. The PMA calls for the Office of Management and Budget (OMB) to score departments on each
initiative. Green indicates success, yellow indicates mixed results, and red indicates an unsatisfactory score. There
are two scores awarded. “Status” indicates that a department is meeting the standards established for success.
“Progress” indicates that it is progressing adequately in meeting established deliverables and timelines. The arrows
next to the scores indicate whether the score has improved (↑), declined (↓), or remained the same (↔) compared
to FY 2007.
      Status                            Progress      The PMA challenges Federal Government leaders to think
               HUMAN CAPITAL                          boldly and strategically to improve the management and
       ↔                                   ↔          performance of Government. Nowhere is this challenge more
                                                      important than in the strategic management of human capital.
USDA continues to build upon its success in completing the human capital initiatives and objectives set forth in its
December 2006 Strategic Human Capital Plan. To that end, USDA has established a team of agency Human Capital
representatives to review and update the 2006 Plan to meet the criteria in 5 CFR 250 and to align with USDA’s
strategic plan, including mission, goals, objectives, and budget that include an implementation plan with targets,
milestones, and measures. USDA’s Strategic Human Capital Plan focuses on five strategic goals that drive USDA’s
human capital initiatives:

 18
                               FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
   Human capital management strategies are aligned with the Department’s mission, goals, and organizational
    objectives and integrated into strategic plans, performance plans, and budgets;
   Leaders and managers effectively manage people, ensure continuity of leadership, and sustain a learning
    environment that drives continuous improvements;
   Skills, knowledge, and competency gaps/deficiencies in mission-critical occupations have been closed and
    meaningful progress toward closing skills, knowledge, and competency gaps/deficiencies in all agency
    occupations has been made;
   The workforce is diverse, results-oriented, and high-performing, and the performance management system
    differentiates between high and low levels of performance and links individual/team/unit performance to
    organizational goals and desired results effectively; and
   Human capital management decisions are guided by a data-driven, results-oriented planning and accountability
    system.
To attract a diverse, highly skilled workforce, USDA markets itself as the “Employer of Choice” in the Federal
Government. Through the use of targeted recruitment efforts and automated hiring systems, USDA has achieved
some of the best hiring timelines Government wide. For its General Schedule (GS) positions, employment offers
are made within 25 days, on average. Offers for Senior Executives average 28 days. The GS timeframe is less than
the 45-day metric established by the Office of Personnel Management and the Senior Executive timeframe is
consistently the best in government.
USDA continues to use Career Pattern (CP) initiatives by designing vacancy announcements that market USDA as
an employer of choice. By identifying appropriate applicant pools and their attractors, building environments
suitable for those attractors and designing vacancy announcements highlighting the attractors, the Department has
attracted a broader pool of highly skilled applicants successfully. Foundation Financial Information System (FFIS)
uses career patterns language for GS-701 Veterinary Medical Science and GS-1863 Food Inspection vacancies; and
FNS uses career patterns language for its GS-630 Dietician and Nutritionist vacancies.
The ARS also recently recruited for a GS-301-5/7 Volunteer and Internship Program Coordinator to develop and
enhance formal and informal educational programs associated with research activities, grounds, and living displays
at the National Arboretum in Washington, D.C. Among its family friendly flexibilities, the position allows for an
adjustable work schedule that best suits the incumbent’s personal and professional needs, and the opportunity to
telecommute.
A USDA CP workgroup monitors compliance and implementation of the Career Patterns guidelines. The CP
workgroup meets quarterly to brainstorm ideas for vacancy announcements that will incorporate career patterns and
streamline announcements, thus making the process of searching for a job more applicant-friendly. The CP
workgroup plans to draft a template for Department-wide review in the near future.
Through the adoption of a strategic goal focusing solely on accountability, USDA has demonstrated its
commitment to excellence. The Department progressed substantially in completing its accountability reviews. It
conducted all required reviews. Implementation of the resulting recommendations has strengthened human
resources processes throughout USDA, which is enhancing its accountability program further by institutionalizing
and standardizing the delegated examining review process. Through more consistent and timely internal reviews,
USDA can focus additional accountability resources on strategic and workforce planning, leadership and knowledge
management, and talent management.
USDA scored green for status and yellow for progress on the September 30, 2008, scorecard.
USDA will continue to work with its human capital partners to create programs that will enhance employee
development. These programs will also increase the use of human capital flexibilities for managers in recruitment
and retention, streamline processes for more efficient and faster service, and ensure that the Department workforce
has the skills to meet the challenging demands of the 21st century. USDA is committed to leading by example and


                                                                                                                19
                                   MANAGEMENT’S DISCUSSION AND ANALYSIS
serving as the vanguard of the Federal Government’s overall human capital transformation efforts. Specifically, the
Department will:
 Continue reviewing opportunities for greater organizational and operational efficiencies within selected mission
   areas;
 Complete its scheduled accountability reviews and report; and
 Develop and maintain a diverse, talented workforce capable of achieving the USDA mission.


      Status                            Progress     The Office of the Chief Financial Officer (OCFO) oversees
                COMMERCIAL
                                                     USDA’s Commercial Services Management (CSM) initiative.
                 SERVICES
                                                     The Department implements CSM reasonably and rationally
     ↔          MANAGEMENT                 ↔         to achieve significant cost savings, improved performance, and
a better alignment of the agency’s workforce to its mission. This initiative is designed to improve the efficiency and
effectiveness of agency operations by employing a variety of management tools. In addition to commercial services
studies, which were previously the primary focus of this initiative, CSM uses management efficiency assessments to
identify projects for more in-depth analysis by means of other management tools. In addition to standard
commercial services studies, USDA employs other tools such as business process reengineering, Lean Six Sigma,
and High Performance Organizations for the purpose of continuing to simplify and improve the procedures for
evaluating operations and resources.
USDA requires that a management efficiency assessment, including a cost-benefit analysis, be completed prior to a
recommendation to use one of the CSM management tools referenced above. This strategy ensures that functions
selected for further evaluation result in an organization implemented with lower costs and increased operational
efficiencies. Assessments continue to be linked to agency human capital plans to ensure that workforce planning
and restructuring, and retention goals are met while achieving cost savings.
USDA continues to review its functions to identify those that can be evaluated to achieve efficiency and/or quality
improvement.
USDA has earned a yellow for status and a green for progress on the September 30, 2008, scorecard.
Commercial Services results are reported annually to Congress by December 31 for the preceding fiscal year. The
results through FY 2007 reflected actual accrued savings of more than $70 million.
Actions taken by USDA include:
 Activities seeking to improve productivity and produce savings:
    NRCS completed a competition of its Headquarters Administrative function of 39 full-time employees
       (FTE). The estimated gross savings is $3.1 million over the 5-year performance period;
    For FY 2009, USDA plans reviews covering more than 2,300 FTE. When the results of an efficiency
       assessment indicate a favorable return on investment and/or improved operational efficiency, an appropriate
       tool is implemented to achieve the desired outcome;
    The OCFO has two commercial services studies in progress as of the end of the fourth quarter;
    USDA continues to track completed competitions for annual accrued savings and desired performance
       targets; and
    A system of independent validation and post competition review has been further defined to monitor
       performance and verify annual accrued savings for completed competitions;
 Conducted training on OMB’s Commercial Services and Workforce Inventory Tracking system and the Federal
   Activities Inventory Reform (FAIR) Act Inventory; and
 Issued a CSM Plan which incorporates USDA’s major management improvement projects.




 20
                              FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Challenges
 Forest Service Legislative Restrictions—Congress, through the Department of Interior FY 2008 Appropriations
  Bill, placed a one-year moratorium on FS’ Commercial Services activities.
 Farm Service Agency and Rural Development Legislative Restriction Continues—The Consolidated Appropriations Act
  of 2008 prohibits funds to be used to study, complete a study of, or enter into a contract with a private party to
  execute a commercial services activity with the Secretary of Agriculture without a subsequent act of Congress.
  This act covers USDA support personnel relating to rural development or farm loan programs. This will require
  the FSA and Rural Development (RD) to use other management improvement tools under the CSM Initiative
  to achieve operational efficiencies and/or savings.
    Status                                    Progress      OCFO oversees USDA’s financial performance. The
                     FINANCIAL                              office works with all USDA agencies and staff offices to
     ↔             PERFORMANCE                     ↔        ensure the Department’s financial management reflects
                                                            sound business practices. Receiving an “unqualified”
financial audit opinion from an independent auditor indicates that the information reported in the financial
statements is free of significant errors or misstatements. It also certifies that USDA can account for the dollars
entrusted to it. The FY 2007 audit opinion was “qualified” because the independent auditors were unable to
complete their review, as RD did not provide sufficient evidence to support its changes to the Single Family
Housing Program cash flow model. Improvements were made to the quality and timeliness of the data provided to
the auditors. OIG was able to complete its audit by November 17, 2008. USDA received a clean opinion for 2008.
OCFO led efforts to improve financial management information by helping its agencies develop and access useful
and timely information. This information includes monthly financial reports, online access to real-time information
and program cost reporting. By enhancing the integrity of financial and administrative data, the Department
protects corporate assets and conserves scarce resources.
The Management Initiative Tracking System (MITS) is an interactive, Web-based database and management system
that monitors and manages an agency's progress in implementing management initiatives. A new module was
developed to integrate audit tracking processes. Data were tracked to monitor IT security and financial
management weaknesses. Another module will soon be going into production to track budget data requests. MITS
benefits employees and managers by reducing time, redundancy, and errors in reports and improving the timeliness
of management information. This corporate performance and reporting system also improved program oversight
and evaluations and increased visibility of performance and business data at USDA.
Financial Management Modernization Initiative (FMMI)—FMMI’s primary objective is to improve financial
management performance. It accomplishes the objective by efficiently providing agencies with a modern, core
financial management system. This system complies with Federal accounting and systems standards and provides
maximum support to the USDA mission. FMMI targets the replacement of FFIS and the legacy financial and
program ledgers used in the Department’s programs. Replacing FFIS, the core financial management system and
program ledgers, with a modern, Web-based core financial management system is also expected to eliminate the
need to operate and maintain many of USDA’s legacy feeder systems. It would also make the financial statements
data warehouse, currently required to produce timely external financial statements, obsolete.
The FMMI investment has the following key attributes:
 Integration with such existing and emerging eGovernment initiatives as eGovernment Travel Services, ePayroll,
  Grants.gov, and eLoans;
 Current corporate solutions for which financial results must be reflected in the budgetary and general ledger
  accounts of the Department (e.g., asset management and procurement);
 Program-specific systems that support the general ledger (e.g., programmatic loan systems);




                                                                                                                 21
                                   MANAGEMENT’S DISCUSSION AND ANALYSIS
 Integration with performance management and budgeting, allowing USDA to meet the PMA and Government
  Performance and Results Act requirements; and
 Compliance with the Federal Financial Management Improvement Act (FFMIA), including Federal financial
  management system requirements, applicable Federal accounting standards, and U.S. Government Standard
  General Ledger at the transaction level.
In FY 2008, FMMI Planning and Analysis phases were completed. The FMMI Design Phases for the USDA
Corporate Configuration and FMMI Hosting Services are underway. The FMMI integration of Earned Value
Management System has been certified as American National Standards Institute (ANSI) 748-A compliant.
The Managerial Cost Accounting Workgroup, led by OCFO, met to discuss accounting issues and guidance
reporting requirements. Workgroup members also discussed best practices within the Department. They continue
to work closely with their Chief Financial Officer (CFO) counterparts during FMMI’s design and implementation
to ensure that the system will meet the cost management needs of decision makers.
Eliminating/Reducing Material Weaknesses
 Credit Reform Quality Control Processes—The FY 2008 audit opinion on the RD financial statements audit
  confirmed that deficiencies in quality controls have been remediated. Additional work is needed to reduce the
  material weakness at the CCC. Improvements will be made in FY 2009 to ensure the timeliness and quality
  controls over changes made to the CCC credit reform models.
 Unliquidated Obligations—The assessment of test results for unliquidated obligations as of June 30, 2008, did not
  support downgrading this material weakness. USDA plans to develop a metric to measure agency compliance
  with Department guidance on review of obligations and assess additional tools needed for reviews.
 Funds Control—CCC needs to prepare a proposal request to replace and/or modify its non-compliant systems.
 Information Technology—The Department reviewed OMB Circular A-123, Appendix A assessment results for 17
  general support systems and major applications. Logical access controls, physical access controls, disaster
  planning, and configuration management/change controls remain a material weakness for the Department as a
  whole based on the results of OMB Circular A-123, Appendix A, General Computer Controls testing.
USDA’s plans to improve financial management include:
 Obtaining an unqualified audit opinion on its financial statements;
 Continuing to work toward eliminating all material weaknesses;
 Improving financial reporting procedures and systems; and
 Increasing the use of financial information in day-to-day decision-making.

USDA scored red for status and green for progress on the September 30, 2008, scorecard.
Actions taken by USDA in FY 2008 to achieve these results include:
 Met monthly with agency CFOs to discuss financial management policy, information systems, and quality
  assurance issues and initiatives. At these meetings, agencies are provided with financial indicator data to provide
  focus for financial reporting quality control activities;
 Improved agencies’ financial performance measures, targets, and milestones as part of their efforts to expand the
  use of financial information for decision-making. Financial Data Integration reporting is prepared quarterly.
  Reporting enhancements were implemented this year to improve synchronization with MITS and PMA
  reporting;
 Developed significant initiatives using the Lean Six Sigma methodology (LSS). LSS originated in
  manufacturing industries during a time of great demand for quality and speed. One initiative OCFO developed
  with the Forest Service is automating the contract invoice process, the LSS Transaction Process (LSTP). This
  move was designed to improve efficiency and shorten the time required for issuing payments, which will save

 22
                              FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
  interest. USDA completed the implementation schedule for two other LSS processes, one for grants and one for
  insurance payments;
 Continued its partnership with the Department of Veterans Affairs Financial Services Center in Austin, Texas,
  to process USDA telephone and utility bills through the Electronic Data Interchange (EDI) process. This new
  process will allow for the invoices to be received electronically rather than by mail in a paper invoice form. More
  than 250,000 bills will be processed annually through EDI; and
 Completed all in-scope cycles and results as required to implement OMB Circular A-123 Appendix A,
  “Internal Control over Financial Reporting.” During the past 2 fiscal years, USDA identified and tracked 218
  control deficiencies. Component agencies have corrected 172, or 72 percent, of the prior year’s deficiencies.

    Status                                    Progress   USDA continues its commitment to leadership in
                     EXPANDING                           Expanding Electronic Government under PMA and using
     ↓             E-GOVERNMENT                 ↔        IT to help respond more directly and effectively to its
                                                         stakeholders. The Department implements sound and
integrated enterprise architecture and manages secure IT investments that perform on schedule and within budget.
USDA also participates in 31 Presidential Initiatives and Lines of Business.
 Activities for FY 2008 support the following goals:
 Provide customers with single points of access to information and shared services;
 Simplify and unify business processes spanning multiple agencies;
 Establish information and service-delivery standards; and
 Consolidate redundant IT services and systems through shared USDA or Government-wide services.

USDA scored red for status and green for progress on September 30, 2008, scorecard, as compared to yellow for
status and red for progress on September 30, 2007. The status downgrade is due to an open Certification and
Accreditation process finding by the OIG. The improved progress score reflects USDA’s hard work in meeting its
milestones for the year.
Presidential E-Government Initiatives Activities in FY 2008
   Grants.gov—USDA grant-making agencies have posted 125 funding opportunities on Grants.gov and received
    7,704 electronic applications via Grants.gov in FY 2008. USDA continues to offer the option to apply
    electronically to 100 percent of its posted discretionary grants and cooperative agreements to applicants through
    the Web site.
   Grants Management Line of Business—USDA signed a letter of intent with the Department of Health and Human
    Services, Administration for Children and Families. By joining the consortium, USDA’s 14 grant-making
    agencies are collaborating with the consortia members to simplify the disparate application processes, improve
    timely reporting and delivery of services, and allow greater coordination among the Department’s service
    providers.
   Information Systems Security Line of Business (ISS LoB)—USDA leveraged Government-wide best practices in IT
    security through participation in the ISS LoB. USDA adopted an ISS LoB-approved cyber security awareness
    training course. USDA avoided significant costs of time and money by modifying an existing course rather than
    developing a course in order to meet the Federal standards as defined by the ISS LoB.
   Disaster Assistance Improvement Plan—USDA identified 10 internal programs related to disaster benefits and
    updated information about those programs on GovBenefits.gov. Through use of the Disaster Benefits Web site,
    those affected will be able obtain a list of benefits for which they may be eligible and apply for them all in one
    place. The Disaster Benefits Web site will be live on December 31, 2008.
   E-Clearance— USDA continues to meet or exceed requirements to process 95 percent or greater of background
    investigations through the Electronic Questionnaires for Investigations Processing system, a single electronic
    system that ensures compliance with government standards. USDA processed 100 percent of all National
    Security and Public Trust investigations for new employees in FY 2008.


                                                                                                                  23
                                    MANAGEMENT’S DISCUSSION AND ANALYSIS
Presidential Directives Activities in FY 2008
 Homeland Security Presidential Directive (HSPD) 12—USDA was a leader in implementation of HSPD-12 across the
  Federal government in FY 2008. USDA made strides internally to prepare the infrastructure necessary to
  support the new HSPD-12 credential, the LincPass. USDA rolled out a comprehensive plan to implement two
  unique methods of verifying identity (Two-Factor Authentication) processes and installed necessary hardware
  and software updates to enable 40 percent of targeted USDA laptops with the new security feature. USDA was
  at the forefront of deploying a nation-wide mobile enrollment station project that took human and technological
  resources to USDA employees throughout the continental United States, Alaska, Hawaii, and Guam.
 International Trade Data System (ITDS)—USDA is playing a leading role in designing and implementing the
  integrated government-wide system for the electronic collection, use, and dissemination of international trade
  data. ITDS will provide the framework to collect information on behalf of Federal agencies and will enable
  Customs and Border Protection (CBP) to more effectively assist them in enforcing regulations related to
  international trade. USDA agencies completed the following activities:
   Co-located USDA Food Safety and Inspection Service agency staff with CBP at the National Targeting
      Center;
   USDA implemented the Import Alert Tracking System (IATS) that enables better coordination in
      enforcement actions through quicker access to information collected on illegal entries;
   Supplemented by the access to entry summary data through the acceleration of Automated Commercial
      Environment Portal, FSIS detected and took enforcement action on 347 shipments (3.7 million pounds) of
      potentially ineligible shipments that entered U.S. commerce without FSIS inspection; and
   Initiated electronic transfer of certificate data elements from the New Zealand Food Safety Authority into
      the FSIS Automated Import Information System (AIIS).
USDA Shared Services Activities in FY 2008
 AgLearn—AgLearn now offers more than 2,300 agency-specific courses and in an average month, 20,348
  employees complete 4,599 courses. USDA’s Learning Management System (LMS) is now recognized as a LMS
  across the Federal government. Over 1.6 million courses were completed in more than 100 professional
  certification areas.
 USDA eAuthentication Service—The USDA eAuthentication Service has centralized the protection of 32 systems in
  FY 2008 and 284 USDA systems overall (in addition to 10 Federal systems). In a typical month, more than
  95,000 employees and approximately 190,000 customers have an active eAuthentication credential.
  eAuthentication Service customers use their credentials for nearly 2 million authentications of personal identify
  and over 65 million Web site authorizations for access to protected content every month.
 Enterprise Content Management (ECM)—USDA agencies have leveraged the common hardware and software
  infrastructure of this commercial off-the-shelf product to customize and fine-tune additional modules to meet
  unique business needs. A current list of ECM modules and brief descriptions of their impact on USDA's
  business processes follows:
 Correspondence Management Module—The Correspondence Management Module helps USDA employees at any
  organizational level manage correspondence and other documents from initial receipt through completion and
  archival storage. The module supports a paperless environment, eliminating document loss and reducing time
  required for document review and revision. Currently, there are 1,414 active users of this module and 2,154,654
  documents have been created since its launch;
   Content Analysis Module (CAM)—USDA is using CAM for non-correspondence applications such as viewing
     public comments solicited by USDA on the 2008 Farm Bill;
   General Use Module (GUM)—USDA uses GUM to track documents, record actions taken, and utilize archival
     storage. In RD, GUM is used to track payments and tenant certifications, maintain a running case record for
     their accounts, and for general tasking of employees;


 24
                               FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
     Invoice Processing Module (IPM)—Agencies and staff offices are using the IPM to store all USDA invoices in a
      centralized repository. USDA plans to use the module to follow the invoices through all stages of the
      business process; and
     Acquisition Management Module (AMM)—USDA’s Forest Service uses AMM to manage and document approval
      of acquisition requests for their procurement staff. As a result, procurement managers can track the status of
      these requests at any stage of the business process.
Other PMA Related Initiatives Activities in FY 2008
 Federal Desktop Core Configuration—USDA strengthened IT security by reducing the opportunity for hackers to
  access and exploit government computer systems and to reduce the threat of espionage and cyber crime by
  standardizing approximately 300 desktop settings on all Windows XP and Vista based computers.
 Trusted Internet Connections (TICs)—This initiative will improve the Federal government's security posture and
  incident response capability through the reduction and consolidation of external internet connections and
  provide centralized gateway monitoring at a select group of TIC Access Providers. USDA submitted a plan
  regarding consolidation of external connections based on the TIC requirements to OMB.
 Cyber Security Scorecard Program—The scorecard was a centerpiece in monthly briefings to USDA’s management.
  USDA maintained an aggressive posture toward IT security in several key areas:
   Cyber Security Assessment and Management (CSAM) Tool Migration: USDA continued monitoring the
     status of agency annual assessments and contacted agencies to resolve issues or provide additional training or
     instructions on how to document internal control testing through CSAM;
   Cyber Security Awareness and Privacy Basics Training: More than 120,000 employees and contracted
     partners completed the FY 2008 ISS LoB-approved IT security training courses; and
   Personally Identifiable Information (PII): USDA made significant progress toward better understanding and
     protecting PII. USDA completed a data call identifying systems containing PII throughout the Department.
     USDA also completed a review of all public facing Web sites for PII. USDA held a poster contest designed
     to increase awareness of PII and measures we can take to protect data.
   Capital Planning and Investment Control—USDA continues to successfully implement the Integrated IT
    Governance Process (IGP). IGP combines capital planning, security and privacy, enterprise architecture (EA),
    earned value management (EVM), and portfolio analysis to plan, manage, and control the Department’s IT
    investment portfolio more effectively.
     USDA provided current EVM cumulative and monthly performance data and variance analyses for projects
       in the major IT portfolio;
     Expanded the EA information base to support more robust analysis used to inform and guide the decision
       making process. EA establishes the enterprise-wide roadmap to support the capital planning and investment
       control process;
     Developed a geospatial segment architecture report detailing the “as-is” environment and began developing
       cost benefit and alternatives analyses as part of an effort to document all USDA geospatial information
       systems investments in a consolidated Unified Geospatial Environment business case; and
     Began the initial phases of developing the human capital resource management segment architecture.

    Status         PERFORMANCE                 Progress     USDA continues to improve how it integrates
                                                            performance information into its budget decisions and
                   IMPROVEMENT
                                                            throughout the budget process. This integration includes
     ↔               INITIATIVE                   ↔
                                                            the use of the Program Assessment Rating Tool (PART).
PART is designed to assess and improve program performance and efficiency to achieve better results. USDA
establishes its budget priorities based on the strategic goals and desired outcomes included in its strategic plan. The
Department continues to improve its ability to measure performance with an emphasis on measuring gains in
efficiency.


                                                                                                                    25
                                    MANAGEMENT’S DISCUSSION AND ANALYSIS
USDA plans to:
 Continue implementing Executive Order (EO) 13450: “Improving Government Program Performance;”
 Develop and improve the agencies’ strategic plans, annual performance plans, and annual performance reports,
  and ensure the use of such information in agency budget justifications;
 Create program goals that are aggressive, realistic, and accurately measured;
 Regularly convene agency program management personnel to assess and improve program performance and
  efficiency; and
 Assist agency leadership in the development and use within the agency of performance measures in personnel
  performance appraisals, particularly those of program managers, to ensure real accountability for greater
  effectiveness.
USDA scored green for status and progress on the September 30, 2008, scorecard. To achieve these results the
Department:
 Conducted seven PART assessments in conjunction with OMB. Of the seven PARTs, one rated “Moderately
  Effective,” five rated “Adequate” and one rated “Results Not Demonstrated (RND).” Based on actual funding
  levels for FY 2008, less than three percent of funding for USDA programs is associated with programs that have
  PART ratings of RND. Additionally, no USDA programs scored an “Ineffective” rating;
 Created an implementation plan for the new EO and actively participated with the Performance Improvement
  Council;
 Worked with agencies to ensure that the specific plans and milestones developed to address PART
  recommendations are reasonable and detailed enough to address them fully. The Department uses the internal
  scorecard process to track agency progress toward meeting performance targets and addressing PART
  recommendations;
 Developed budget requests and made budget decisions supported by sound and thorough analysis. This analysis
  considered the effects of funding decisions on costs and performance. These budget decisions were presented
  and justified to Congress and others using performance information;
 Defined targets for improvements in performance and efficiency, and developed action plans to achieve targets.
  The Deputy Secretary, subcabinet, and other senior managers continue to receive and discuss the Quarterly
  Budget and Performance Tracking Report. They use the report to monitor progress in achieving planned
  performance and efficiency gains and take action where needed to ensure targets are met. All PARTed USDA
  programs have at least one efficiency measure that indicates programmatic strides in cost-effectiveness; and
 Continued to use the Management Initiatives Tracking System (MITS) PART module to enable more active
  and efficient participation by senior Department officials during the PART process. MITS also provides
  managers with the ability to track the implementation of PART improvement plans and achievement of
  performance targets.
      Status                                 Progress      Executive Order 13327, “Federal Real Property Asset
                  REAL PROPERTY                            Management,”   establishes the framework for improved use
     ↑                                           ↔         and management of real property owned, leased, or
                                                           managed by the Federal Government. It is USDA policy
to promote the efficient and economical use of its real property assets and assure management accountability for
implementing Federal real property management reforms. Based on this policy, Department agencies recognize the
importance of real property resources through increased management attention, the establishment of clear goals and
objectives, improved policies and levels of accountability, and other appropriate actions. As the foundation of
USDA’s real property asset management program, the following strategic objectives will be used for real property
management improvement:




 26
                              FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                    USDA Real Property Asset Management Strategic Objectives
            1. Department’s holdings support agency missions and strategic goals and objectives
            2. Maximize facility utilization by co-locating agency operations when possible
            3. Accurately inventory and describe real property assets using the Corporate Property Automated Information System
            4. Use performance measures as part of the asset management decision process
            5. Employ life-cycle, cost-benefit analysis in the real property decision-making process
            6. Provide appropriate levels of investment
            7. Eliminate unneeded assets
            8. Use appropriate public and commercial benchmarks and best practices to improve asset management
            9. Advance customer satisfaction
            10. Provide for safe, secure, and healthy workplaces

USDA’s plans include:
 Achieving a green status score by July 1, 2009;
 Updating the USDA Asset Management Plan (AMP) and accompanying agency building block plans (BBP);
 Revising interim-year targets and out-year goals for asset management performance measures;
 Assessing agency progress with completing physical inventories and data validation;
 Maintaining a comprehensive inventory and profile of agency real property and providing timely and accurate
  information for inclusion into the Government-wide real property inventory database;
 Ensuring continued use of the Capital Programming and Investment Process to ensure scarce resources are
  directed to highest priority asset needs;
 Assembling Department-wide multi-year consolidated estimated capital requirements;
 Developing agency-specific methodologies for prioritizing assets for maintenance;
 Updating the Asset Management Initiatives and Three Year Timeline document for meeting goals and
  objectives of the AMP and BBPs; and
 Participating in such Government-wide management vehicles as the Federal Real Property Council (FRPC).
  FRPC provides a forum to address critical real estate and workplace issues challenging all Federal agencies.
USDA scored yellow for status and green for progress on the September 30, 2008, scorecard.
USDA took the following actions to progress toward achieving a green status score:
 Revised the comprehensive AMP, including agency-specific BBPs, with the latest policies, practices, and
  procedures for maintaining property holdings in an amount and type according to agency budget and mission.
  The AMP presents the Department’s strategic vision and plan of action for compliance with the Government-
  wide real property asset management initiative;
 Developed a methodology for prioritizing assets for maintenance;
 Developed a Process for Performing Condition Assessments;
 Specified the frequency for conducting condition surveys based on asset priority;
 Developed a process and requirements for establishing Operation and Maintenance Plans commensurate with
  the maintenance level required for the asset being managed;
 Developed a process and requirements for completing Facility Master Plans as the basis for multi-year planning;
 Assembled Department-wide multi-year consolidated estimated capital requirements;
 Developed guidance and procedures for allocating funding between capital improvement, maintenance and
  repair, and disposal activities;
 Assessed agency progress in meeting interim-year targets and out-year goals for asset management performance
  measures;
 Revised FY 2008-2010 interim-year targets and out-year goals for asset management performance measures;



                                                                                                                                  27
                                          MANAGEMENT’S DISCUSSION AND ANALYSIS
 Completed an implementation plan for the Deferred Maintenance Strategy;
 Ensured that USDA agencies closed data gaps in constructed asset-level reporting and required that agencies
  validated and verified data accuracy;
 Maintained a comprehensive inventory and profile of agency real property and provision of timely and accurate
  information for inclusion into the Government-wide real property inventory database;
 Submitted a final interagency agreement between USDA and the Departments of Interior and Labor regarding
  Job Corps Centers; and
 Updated the Asset Management Initiatives and Three Year Timeline document for meeting goals and objectives
  of the AMP and BBPs. The timeline includes a list of assets for disposition and an investment prioritization list
  for mission critical and dependent assets.

      Status                                  Progress    The Improper Payments Information Act (IPIA) of 2002
               ELIMINATE IMPROPER                         is an initiative to identify programs susceptible to
                    PAYMENTS
      ↑                                          ↔        significant improper payments and reduce the amount and
                                                          number of erroneous payments. The high risk program
measurements and action plans are also included in the PMA under the category of “Eliminating Improper
Payments.” The goal of this initiative is to improve the integrity of the government's payments and the efficiency of
its programs and activities.
USDA first reported on improper payments in the 2004 Performance and Accountability Report by disclosing error
rates and amounts for the Food Stamp Program and the Federal Crop Insurance Corporation Program. The
Department now measures and reports annually on 16 programs considered a high risk for significant improper
payments. Measuring and reporting improper payments is mandatory for five of the programs under OMB Circular
A-11, “Preparation, Submission, and Execution of the Budget,” USDA identified the additional 11 programs at
risk of significant improper payments through the Departmental risk assessment process.
IPIA requires that agencies measure their improper payments annually, establish reduction targets and corrective
action plans, and track the results annually to ensure that the corrective actions are effective. OCFO issued specific
policy guidance including templates and timelines for implementing IPIA and meeting the goals of the PMA
initiative. USDA continues to make progress in accurately measuring and reporting improper payments, developing
and implementing corrective actions, and recovering improper payments.
USDA scored green for status and green for progress on the PMA scorecard for September 30, 2008. The
Department’s overall goal is to remain “green” in FY 2009.
USDA measured the 16 programs with $67.4 billion in outlays using an OMB-approved statistical sampling
methodology. The measurement results estimate that the Department’s improper payments totaled $4.1 billion
(improper payment rate of 6.1 percent), down from the FY 2007 amount of $4.4 billion (improper payment rate of
6.1 percent). Of the estimated improper payments, $4.0 billion (5.9 percent) were due to incorrect disbursement
and $151 million (0.2 percent) were due to incomplete paperwork. The estimated improper payments consisted of
$3.4 billion (5.0 percent) in overpayments and $778 million (1.1 percent) in underpayments.
Seven high risk programs, representing 58 percent of $67.4 billion in high risk program outlays, reported improper
payment error rates below their reduction targets. This demonstrates that improper payments are being reduced and
consistent progress is being made as shown in the following FY 2008 results:
 NRCS’s Farm Security and Rural Investment Program Act programs achieved an error rate of 0.00 percent
   which was below their reduction target of 0.40 percent;
 Forest Service’s Wildland Fire Suppression Management Program achieved an error rate of 0.02 percent which
   was below their reduction target of 0.90 percent;


 28
                              FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
   FNS Food Stamp Program achieved an error rate of 5.64 percent which was below their reduction target of 5.80
    percent. The error rate is a new historic low for the program and is the fourth consecutive year below 6 percent,
    long considered the standard for recognition;
   FNS’ Child and Adult Care Food Program achieved an error rate of 1.56 percent which was below their
    reduction target of 1.64 percent;
   FSA’s Marketing Assistance Loan Program achieved an error rate of 1.76 percent which was below their
    reduction target of 7.00 percent;
   FSA’s Milk Income Loss Contract Program error rate of 0.21 percent which was below their reduction target of
    2.00 percent; and
   FSA’s Miscellaneous Disaster Programs error rate of 3.13 percent was below their reduction target of 5.00
    percent.
FSA programs continue to make significant improvement in reducing improper payments. FSA’s estimated
improper payments for all seven high risk programs were $186.6 million (improper payment rate of 1.3 percent),
down from $563 million (improper payment rate of 2.5 percent) for FY 2007 and down from $2.9 billion (improper
payment rate of 11.2 percent) for FY 2006. To achieve these reductions, FSA implemented aggressive corrective
action plans focusing on direct senior management involvement; provided agency-wide training; increased
accountability at all levels; created and used checklists; enhanced program eligibility verification; eliminated
automatic rollover of eligibility determination; improved documentation controls; engaged comprehensive re-
examination of payment files; and increased internal controls and independent audits.
Actions taken by USDA during FY 2008 include:
 Consolidated small and similar programs together for improved focus in the risk assessment process. USDA
  moved from 138 programs in FY 2007, to 124 programs;
 Completed 46 risk assessments as scheduled on a 3-year cycle. No new programs were declared high risk as a result of
  the risk assessments;
 Recovered $138 million in improper payments, exceeding the Departmental recovery target of $68 million;
 Developed corrective actions for all high risk programs and set reduction targets and recovery targets for
  programs where appropriate; and
 Measured 16 programs determined to be at risk for significant improper payments by statistical or other
  approved methods. The results of these measurements are shown in Appendix B of this report.
USDA’s plans for FY 2009 include:
 Maintaining the overall status of Green for the PMA initiative;
 Achieving results that allow one or more USDA programs being designated as no longer at high risk for
  significant improper payments;
 Revising sampling methodologies to provide improper payment rates nearer the time of payment, leading to more
  timely corrective actions;
 Setting and meeting appropriate improper payment reduction targets;
 Setting appropriate improper payment recovery targets and meeting the targets through aggressive recovery efforts;
 Creating aggressive correction plans with measured performance that demonstrate that the documentation and
  internal control issues have been addressed;
 Developing and implementing policies, controls, procedures, and checklists at appropriate levels to reduce the
  number of improper payments;
 Providing training to field personnel and cooperative partners on the importance of key internal controls, control
  procedures, and the potential risks of noncompliance;
 Providing technical assistance to State agencies and cooperative partners; and
 Increasing accountability at all levels by incorporating the employee’s individual results into their annual
  performance evaluations.


                                                                                                                  29
                                    MANAGEMENT’S DISCUSSION AND ANALYSIS
      Status                                   Progress    Improved Credit Program Management is a new initiative
                  IMPROVED CREDIT                          under the President’s Management Agenda. Beginning in
                PROGRAM MANAGEMENT
       ↔                                          ↑        FY 2006, this initiative required USDA to:

     Develop risk factors for predicting the cost of loan programs;
     Require that guaranteed lending partners have effective loan-portfolio management and loss recovery rates;
     Verify that lending partners have established quality collateral valuation processes;
     Calculate the cost of originating, servicing, and liquidating loans; and
     Comply with all relevant provisions of the Debt Collection Improvement Act.
USDA scored red for status and yellow for progress on the September 30, 2008, scorecard.
USDA’s loan portfolio is approximately $100 billion in outstanding public debt. It represents nearly one-third of all
debt in the Federal Government. In addition, USDA is the guarantor for another $30 billion in loans made by
lending partners. The Department’s mission often makes it the lender of last resort, to target borrowers at a higher
risk for default.
USDA continues to improve lending policies and practices to better manage the risk to the taxpayer. The
Department continually verifies that partner lenders utilize sound lending procedures and create proper collateral
valuation processes. The Department persistently looks for ways to reduce the cost of servicing and liquidating
loans while increasing recoveries. USDA strives to accomplish these goals while improving customer satisfaction
ratings.
USDA’s plans include:
 Setting goals related to reaching target borrowers and reducing deviation from risk standards;
 Setting goals to reduce the total cost of servicing and liquidating loans and improve the debt-recovery rate;
 Establishing customer satisfaction ratings that meet or exceed industry standards;
 Defining its target borrower segments clearly, regularly assessing whether its borrowers meet that definition and
  whether such borrowers comprise an acceptable risk that can be managed effectively;
 Establishing or verifying that partner lenders have established sound lending policies and procedures
  implemented in effective transaction-approval processes, loan portfolio management, and loss recovery;
 Establishing or verifying that partner lenders have created collateral valuation processes with clear policies and
  procedures ensuring independence in appraisals and valuations, and adequate monitoring of appraisers’ quality
  and certification;
 Maintaining a reasonable level of risk and productivity of taxpayer cash used in lending programs through
  effective management information reporting. This reporting includes indicators of loan volume, exceptions to
  underwriting standards, concentrations of credit risk, delinquency and default rates, rating changes, problem
  loans and charge offs, and using such information to improve program results;
 Establishing mutually agreeable goals that can be justified by comparisons to relevant programs to control the
  total cost of originating, servicing, and liquidating loans to improve the rate of debt recovery; and
 Complying with all relevant provisions of the Debt Collection Improvement Act.

Actions taken by USDA in FY 2008 include:
 RD has invested in its credit estimating capacity through the development of a new credit model for Utility
  Loans;
 FSA has recently introduced a new forward looking credit model for its Farm Loan Programs that incorporates
  risk factors detailed in the President’s Budget;
 USDA continues to be a leader in the Federal government in referring nearly all eligible delinquent debt to the
  Department of Treasury for collection. USDA referred 99.7 percent of the eligible $1.2 billion to the Treasury
  for collection utilizing their Offset Program; and



 30
                                FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
   USDA established Administrative Wage Garnishment (AWG) hearing procedures in 7 CFR Part 3, Debt
    Management, Final Rule, published in the Federal Register on January 2, 2008. AWG is an optional collection
    tool provided by the Debt Collection Improvement Act.
USDA is keenly aware of the pivotal role sound fiscal management plays to deliver the Department’s programs to
our citizens. It is important that taxpayers and customers know how resources are safeguarded and have confidence
that programs and services are operating in continually more efficient ways. Through the individual leadership and
collaborative efforts of USDA employees and lending partners, USDA made significant strides during this
Administration in advancing the Department’s impressive record of excellence in credit program management.
    Status                                   Progress    The Faith-Based and Community Initiative is working to
                 FAITH-BASED AND                         create a more open and competitive awards process. This
     ↔         COMMUNITY INITIATIVE             ↔        work helps ensure that the Federal Government partners
                                                         with the best organizations to deliver the most effective
services to those in need.
For years, USDA has partnered with faith-based and community organizations to help deliver food and other vital
assistance to the needy. The initiative works to strengthen these existing partnerships and create new ones to extend
the Department’s outreach. Faith-based and community groups already work with the individuals that USDA's
assistance programs serve. These groups are valuable to the Department’s efforts in reaching more people with its
programs and being more successful in alleviating hunger and building stronger communities.
The initiative works to:
 Promote opportunities and build the capacity of faith-based and community organizations through outreach and
  technical-assistance activities;
 Identify and eliminate barriers that impede the full participation of faith-based and community organizations in
  the Federal grants process;
 Ensure that equal treatment principles are understood at the Federal, State, and local levels of Government and,
  in turn, educate faith-based and community organizations receiving Federal funds on their responsibilities; and
 Develop and launch pilot programs to test new strategies and strengthen the partnership between faith-based
  and community organizations and the Federal Government.
USDA scored green for both status and progress on the September 30, 2008, scorecard.
Actions taken by USDA in FY 2008 to achieve these results include:
 Conducting 3,065 outreach and technical assistance activities to strengthen the ability of faith-based and
  community organizations to serve those in need;
 Hosting 496 educational activities for State and local Government agencies and faith-based and community
  groups on equal treatment principles;
 Developing additional toolkits and Web-based resources for State and local program administrators to help
  them learn about and expand partnerships with faith-based and community organizations;
 Updating compliance review materials to ensure continued implementation of equal treatment principles;
 Reducing barriers to access for faith-based and community organizations applying for Federal funds; and
 Creating new program partnership opportunities for faith-based and community groups.

FINANCIAL STATEMENT HIGHLIGHTS
Budgetary Resources
USDA receives most of its funding from appropriations authorized by Congress and administered by the U.S.
Department of the Treasury. Total budgetary resources consist of the balance at the beginning of the year,
appropriations received during the year, spending authority from offsetting collections and other budgetary




                                                                                                                 31
                                   MANAGEMENT’S DISCUSSION AND ANALYSIS
resources. Total budgetary resources was $172.7 billion for FY 2008 compared to $161.9 billion in FY 2007, an
increase of $10.8 billion.
The unobligated balance brought forward including recoveries of prior year unpaid obligations increased $8.7
billion, budget authority net of transfers and resources temporarily not available decreased $15.9 billion and
budgetary resources permanently not available increased $18.1 billion. The decrease of budget authority was
primarily due to less appropriations of $5.8 billion and less borrowing authority of $8.5 billion.


                          2008           2007           % Change   Obligations Incurred And Net Outlays
 Total Budgetary        $172,749       $161,918           7%
                                                       Obligations Incurred increased $10.4 billion in FY 2008. This
 Resources                                             increase is primarily due to a $6 billion increase at FNS for
 Obligations Incurred $139,357 $128,954       8%       food stamps and other programs; a $2.7 billion increase at RD
 Net Outlays          $96,182  $89,950        7%       for credit programs; a $2 billion increase at FSA for disaster
 Data in millions                                      payments; a $1.7 billion increase at RMA for insurance
delivery costs and underwriting gains; offset by a $4.2 billion decrease at CCC due to favorable market conditions
for commodities.
Net Outlays increased $6.2 billion in FY 2008, primarily in relation to the increase in obligations described above.
BALANCE SHEET
CONDENSED BALANCE SHEET DATA
AS OF SEPTEMBER 30, 2008 AND 2007 (IN MILLIONS)
                                                                               FY 2008      FY 2007       % CHANGE
                   Fund Balance with Treasury                                  $64,595      $47,340          36%
                   Accounts Receivable, Net                                     10,298       9,218           12%
                   Direct Loan and Loan Guarantees, Net                         81,774       80,348           2%
                   General Property, Plant and Equipment, Net                   2,973        4,931          -40%
                   Other                                                         733          651            13%
                   Total Assets                                                160,373      142,488          13%
                   Debt                                                         77,577       75,101           3%
                   Loan Guarantee Liability                                     1,333         1,258           6%
                   Benefits Due and Payable                                     2,764         2,854          -3%
                   Other                                                        39,298       35,568          10%
                   Total Liabilities                                           120,972      114,781           5%
                   Unexpended Appropriations                                    30,783       30,937           0%
                   Cumulative Results of Operations                             8,618        -3,230         -367%
                   Total Net Position                                           39,401       27,707          42%
                   Total Liabilities and Net Position                         $160,373      $142,488        13%
Total Assets
Total assets increased $17.9 billion in FY 2008. This increase is primarily due to an increase in Fund Balance with
Treasury for 30% of customs duties at AMS of $14.9 billion; an increase in accounts receivable at RMA of $1.2
billion for premiums due as a result of higher commodity prices; and the write-off of $2 billion in road prism costs
at the FS.
Direct Loan and Loan Guarantees, Net is the single largest asset on the USDA Balance Sheet. RD offers both
direct and guaranteed loan products for rural housing and rural business infrastructure. These represent 85 percent

 32
                                      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
of the total USDA loan programs. Loan programs administered by the FSA represent 8 percent of the total. FSA
provides support to farmers who are temporarily unable to obtain private, commercial credit. The remaining 7
percent represents commodity loans and credit programs administered by CCC. CCC’s loans are used to improve
economic stability and provide an adequate supply of agricultural commodities. CCC credit programs provide
foreign food assistance, expand foreign markets and provide domestic low-cost financing to protect farm income
and prices.
Total Liabilities
Total liabilities increased $6.2 billion in FY 2008. This increase is primarily due to a $2.5 billion increase in Debt
and a $2.9 billion increase at RMA for estimated underwriting gains and indemnities.
Debt represents amounts owed to Treasury primarily by CCC and RD. For CCC, the debt primarily represents
financing to support Direct and Counter Cyclical, Crop Disaster and Loan Deficiency programs. For RD, the debt
primarily represents financing to support Single and Multi Family Housing loan programs.
Total Net Position
Total net position increased $11.7 billion in FY 2008. This increase is primarily due to an increase in cumulative
results of operations at AMS of $13.6 billion for 30 % of customs duties and a decrease of $2 billion at the FS for
road prisms, both considered changes in accounting principles.
NET COST OF OPERATIONS
CONDENSED STATEMENT OF NET COST
For the Years Ended September 30, 2008 and 2007
(in millions)
                                                                                        FY 2008   FY 2007   % CHANGE
                    Goal 1: Enhance International
                    Competitiveness of American Agriculture                              $2,029    $1,484      37%
                    Goal 2: Enhance the Competitiveness and Sustainability of Rural
                    and Farm Economies                                                   17,159    15,099      14%
                    Goal 3: Support Increased Economic Opportunities and Improved
                    Quality of Life in Rural America                                      3,879     2,202      76%
                    Goal 4: Enhance Protection and Safety of the Nation’s Agriculture
                    and Food Supply                                                       2,439     2,509      -3%
                    Goal 5: Improve the Nation’s Nutrition and Health                    60,132    53,948      11%
                    Goal 6: Protect and Enhance the Nation’s Natural Resource Base
                    and Environment                                                      11,095    11,079      0%
                    Net Cost of Operations                                              $96,733   $86,321      12%

Net Cost of Operations
Net cost of operations increased $10.4 billion in FY 2008. This increase is primarily due to increased participation
and higer food costs in the food stamps and other programs at FNS of $ 6 billion; less revenue earned at CCC of
$3 billion because of favorable market conditions for commodities; and a $1 billion increase at RD for credit
programs.




                                                                                                                       33
                                               MANAGEMENT’S DISCUSSION AND ANALYSIS
Systems, Controls, and Legal Compliance
Management Assurances
STATEMENT OF ASSURANCE
      The Department of Agriculture’s (USDA) management is responsible for establishing and maintaining
      effective management control, financial management systems, and internal control over financial reporting
      that meet the objectives of the Federal Managers’ Financial Integrity Act (FMFIA). USDA provides a
      qualified statement of assurance that management control, financial management systems, and internal
      controls over financial reporting meet the objectives of FMFIA, with the exception of three material
      weaknesses and one financial system non-conformance. The details of the exceptions are provided in the
      FMFIA and the Federal Financial Management Improvement Act (FFMIA) sections of this report.
      USDA conducted its assessment of the financial management systems and internal control over 1) the
      effectiveness and efficiency of operations and compliance with applicable laws and regulations as of
      September 30, 2008, and 2) financial reporting as of June 30, 2008, which includes safeguarding of assets
      and compliance with applicable laws and regulations, in accordance with the requirements of OMB
      Circular A-123, “Management’s Responsibility for Internal Control.” Based on the results of these
      evaluations, USDA reduced its existing material weaknesses under financial reporting from four to three.
      USDA eliminated the duplicate reporting of “Funds Control Management” under Section 2 and 4 of
      FMFIA. Funds Control Management is now reported only under Section 4 in FMFIA. Therefore, a total
      of three material weaknesses and one system non-conformance is reported in Fiscal Year (FY) 2008.
      Other than the exceptions noted in the FMFIA and FFMIA sections, financial management systems
      conform substantially with the objectives of FMFIA and the internal controls were operating effectively
      and no other material weaknesses were found in the design or operation of the internal control over 1) the
      effectiveness and efficiency of operations and compliance with applicable laws and regulations as of
      September 30, 2008; and 2) financial reporting as of June 30, 2008. However, Department management
      reported in FY 2008 on prior year violations of the Anti-Deficiency Act that were not considered chronic
      or significant. The violations related to restrictions on the use of funds to combat forest fires and costs for
      donated food commodities.




 34
                                 FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Federal Managers’ Financial Integrity Act Report on Management Control
BACKGROUND
The Federal Managers’ Financial Integrity Act (FMFIA) requires ongoing evaluations of internal control and
financial management systems. These evaluations lead to an annual statement of assurance by the agency head that:
 Obligations and costs comply with applicable laws and regulations;
 Federal assets are safeguarded against fraud, waste, and mismanagement;
 Transactions are accounted for and properly recorded; and
 Financial management systems conform to standards, principles, and other requirements to ensure that Federal
   managers have timely, relevant, and consistent financial information for decision-making purposes.
FMFIA also authorizes the Office of Management and Budget (OMB), in consultation with the Government
Accountability Office (GAO), to periodically establish and revise the guidance to be used by Federal agencies in
executing the law.
In addition to FMFIA, the Federal Information Security Management Act (FISMA) requires agencies to report
any significant deficiency in information security policy, procedure, or practice identified (in agency reporting):
 As a material weakness in reporting under FMFIA; and
 If relating to financial management systems, as an instance of a lack of substantial compliance under FFMIA.
   (See the FFMIA Report on Financial Management Systems.)
 USDA conducts its annual evaluation of internal controls over financial reporting in accordance with OMB
   Circular A-123, “Management’s Responsibility for Internal Control,” Appendix A. Assessment results are
   reviewed and analyzed by the USDA Senior Assessment Team. Final assessment results are reviewed and
   approved by the Senior Management Control Council.
The Department operates a comprehensive internal control program to ensure compliance with FMFIA
requirements and other laws and OMB Circulars A–123, Appendix A, and A–127, “Financial Management
Systems.” All USDA managers must ensure that their programs operate efficiently and effectively and comply with
relevant laws. They must also ensure that financial management systems conform to applicable laws, standards,
principles, and related requirements. In conjunction with OIG and GAO, USDA management works
aggressively to determine the root causes of its material weaknesses to promptly and efficiently correct them.
USDA remains committed to reducing and eliminating the risks associated with its deficiencies, and efficiently and
effectively operating its programs in compliance with FMFIA.
FY 2008 Results
In FY 2007, USDA reported four material weaknesses: Information Technology, Funds Control Management,
Financial Reporting/Unliquidated Obligations and Financial Reporting/Credit Reform. The Department is
eliminating the duplicate reporting of Funds Control Management as a material weakness under Section 2 and a
financial system non-conformance under Section 4 of FMFIA. USDA is now reporting the Funds Control
Material Weakness under FMFIA Section 4 only to comply with OMB Circular A-136, “Financial Reporting
Requirements.”. Progress has been made regarding quality control over credit reform models although more work is
needed at the Commodity Credit Corporation to improve the timeliness and controls over model changes. The
Department now has three material weaknesses and one financial system non-conformance. Thus, the “Secretary’s
Statement of Assurance” provides qualified assurance that USDA’s system of internal control complies with
FMFIA objectives. The following exhibit summarizes the results reported in USDA’s Consolidated Financial
Statement Audit Report.




                                                                                                                   35
                                     MANAGEMENT’S DISCUSSION AND ANALYSIS
Exhibit 4: Summary of Financial Statement Audit

                    Audit Opinion                                                            Unqualified
                     Restatement                                                                  No
                                                         Beginning                                                              Ending
                   Material Weakness                      Balance         New        Resolved     Consolidated     Reassessed   Balance
  Improvements Needed in Overall Financial                   1                                                                     1
  Management
  Improvements Needed in Information                         1                                                                     1
  TechnologyTechnology Security and Controls
  TOTAL MATERIAL WEAKNESSES                                  2                                                                     2

The following exhibit provides a listing of USDA’s material weaknesses and the financial system non-conformance
as related to the management’s assurance for FMFIA and the certification for FFMIA.
Exhibit 5: Summary of Management Assurances

                                  Effectiveness of Internal Control Over Financial Reporting (FMFIA § 2)
         Statement of Assurance                                                            Qualified
                                                 Beginning                                                                      Ending
            Material Weakness                     Balance         New           Resolved     Consolidated        Reassessed     Balance
 Information Technology                              1                                                                             1
 Funds Control Management                            1                                             √                               0
 Financial Reporting – Unliquidated                  1                                                                             1
 Obligations
 Financial Reporting – Credit Reform                 1                                                                             1
 TOTAL MATERIAL WEAKNESSES                           4                                             1                               3
                                       Effectiveness of Internal Control Over Operations (FMFIA § 2)
         Statement of Assurance                                                         Unqualified
                                                 Beginning                                                                      Ending
            Material Weakness                     Balance         New           Resolved     Consolidated        Reassessed     Balance
 TOTAL MATERIAL WEAKNESSES                           0                                                                             0
                               Conformance with Financial Management System Requirements (FMFIA § 4)
         Statement of Assurance                                                            Qualified
                                                 Beginning                                                                      Ending
            Material Weakness                     Balance         New           Resolved     Consolidated        Reassessed     Balance
 Funds Control Management                            1                                                                             1
 TOTAL NON-CONFORMANCE                               1                                                                             1
                                Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                                 Agency                                          Auditor
      Overall Substantial Compliance                              No                                               No
 1. System Requirements                                            No
 2. Accounting Standards                                           No
 3. United States Standard General Ledger at                       No
    Transaction Level
 4. Information security policies, procedures,                     No
    and practices


 36
                                       FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
MATERIAL WEAKNESSES CONSOLIDATED
USDA consolidated one of its four prior-year material weaknesses in FY 2008.
Funds Control Management—This material weakness, identified in FY 2004, results from the inability of CCC’s legacy
financial systems to capture obligations at the transaction level. USDA categorized this deficiency as both a material
internal control weakness and a financial system non-conformance in FY 2007. Consistent with the reporting
requirements of OMB Circular A-136, “Financial Reporting Requirements,” the funds control weakness is now
reported under FMFIA Section 4 only.
Commodity Credit Corporation—Prepared a request for proposal to replace and/or modify non-compliant systems and
fund systems acquisition and development in FY 2009.

Summary of Outstanding Material Weaknesses
 Material Weakness          1. USDA Information Technology                         Overall Estimated Completion Date                  FY 2009
 Existing
                            Internal control design and operating effectiveness deficiencies in four areas: software change control, disaster recovery,
                            logical access controls, and physical access that aggregate to an overall IT material weakness.
 FY 2008 Accomplishments:                                                           FY 2009 Planned Actions:
 • Standardized and streamlined FISMA and A-123 testing by implementing            • Continue monitoring progress through the Information Technology
     NIST baseline security control objectives;                                         Executive Steering Committee;
 •   Fully implemented CSAM system throughout USDA;                                • Integrate the A-123 process with the FISMA monitoring and
 •   Executed internal control education plan for all levels and agencies               reporting process to streamline documentation and reporting;
     throughout USDA;                                                              • Develop baseline of inherited controls provided by service center
 •   Demonstrated substantial remediation progress in each of the 4 areas               providers to assess their impact on the assurance of the service
     contributing to the material weakness by completing 64 percent of the              center agencies;
     corrective actions identified in 2007;                                        •    Conduct reviews of POA&M closure and control testing
 •   Monitored agency progress through the Information Technology Executive             documentation and monitor progress using scorecard and the
     Steering Committee;                                                                CSAM;
 •   Chartered an Account Management Work Group tasked with providing              •    Initiate policy gap analysis and revise the Access Control and
     departmental oversight on system logical access issues;                            Configuration Management policies and procedures;
 •   Completed revisions to the security awareness training policy, the disaster   •    Publish revised policy and procedures for Access Control;
     recovery planning guidelines, scanning and patching requirements, and         •    Publish revised policy and procedures on Continuity Planning;
     the incident response policy and procedures to align with current NIST        •    Update regulations to meet the NIST and other Federal
     and OMB guidance;                                                                  requirements relating to Change Control processes;
 •   Reviewed Configuration Management Plans for NIST compliance during            •    Review configuration management guidance and update;
     the concurrency reviews of Certification and Accreditation documentation;     •    Test all USDA agencies’ Continuity of Operations plans;
 •   Reviewed and validated selected USDA agency network/system patching           •    Monitor USDA agencies’ compliance with disaster recovery plan
     reports;                                                                           testing requirements through the Cyber Security Scorecard,
 •   Reviewed USDA agency’s contingency plans for completeness and                      Certification and Accreditation concurrency review process, and
     compliance with NIST and Department guidelines; and                                CSAM; and
 •   Updated and issued guidance on the preparation of Disaster Recovery           •    Continue to review and validate selected USDA agency
     plans.                                                                             network/system patching reports.




                                                                                                                                                          37
                                               MANAGEMENT’S DISCUSSION AND ANALYSIS
 Material Weakness           2. Financial Reporting – Unliquidated                Overall Estimated Completion Date                      FY 2009
 Existing                    Obligations
                             Lack of consistent review and follow-up on unliquidated obligations.
 FY 2008 Accomplishments:                                                         FY 2009 Planned Actions:
 • Increased breadth of testing to better understand the scope and root           • Develop a metric and performance standard to measure component
      cause of this weakness.                                                          agency compliance with Departmental guidance;
                                                                                  • Assess the need for additional tools to assist component agencies in
                                                                                       performing and adequately documenting the results of periodic
                                                                                       reviews;
                                                                                  •    Revise Departmental guidance to require quarterly reviews and
                                                                                       certifications for obligations more than 1 year old.
                                                                                  •    Perform compliance monitoring on a sampling of obligation reviews
                                                                                       and the related obligations to ensure that justifications are adequate
                                                                                       and obligations are removed timely; and
                                                                                  •    Monitor component agency activities to remediate this deficiency.


 Material Weakness           3. Financial Reporting – Credit Reform                   Overall Estimated Completion Date                  FY 2009
 Existing
                             Controls are lacking in the credit reform quality assurance process to ensure that cash flow models, data inputs, estimates,
                             and reestimates are subject to appropriate management oversight.
 FY 2008 Accomplishments:                                                             FY 2009 Planned Actions:
 • RD developed and implemented standard operating procedures for model               CCC will:
      changes, data extracts, and re-estimates to improve quality assurance for       • Establish a team to review all model changes to include members
      credit program management;                                                         of both the budget and the accounting disciplines. OIG will be
 •    CCC provided training to personnel working with the direct credit and              invited to all Configuration Control Board meetings to monitor
      credit guarantee programs to enhance the collective departmental                   CCC's efforts;
      expertise in performing calculations and conducting effective                   • Establish a timeline for all model changes that will allow adequate
      management reviews; and                                                            time for test and review prior to delivery to the auditors;
 •    CCC created a specific policy for reviewing and implementing changes to         • Test all model changes/development results to ensure that model
      ensure that further cash-flow model enhancements are adequately                    outputs properly capture all elements of the cash flow, not just
      reviewed and approved.                                                             those affected by the change(s) in OMB’s Credit Subsidy
                                                                                         Calculator 2 to ensure that those results do not produce
                                                                                         unintended consequences; and
                                                                                      • Procure a contractor for Independent Verification and Validation
                                                                                         review and oversight for any newly developed models.
                                                                                      USDA will:
                                                                                      • Reinstitute Credit Reform Working Group to improve
                                                                                         communication and coordination of model changes.


SUMMARY OF OUTSTANDING SYSTEM NON-CONFORMANCE
 System Non-                 1. Funds Control Management                              Overall Estimated Completion Date                  FY 2012
 Conformance
 Existing                    System improvements needed in recording obligations at the transactions level.

 FY 2008 Accomplishments:                                                             FY 2009 Planned Actions:
 • Documented CCC obligations business events and developed solutions                 • Migrate to USDA’s enterprise solution under FMMI; and
      for providing pre-authorization of funds; and                                   • Develop functionality to do funds control at the time of obligation
 • Developed functionality to capture obligations within current financial                request from program applications.
      system.




 38
                                         FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Federal Financial Management Improvement Act Report on Financial Management Systems
BACKGROUND
FFMIA is designed to improve financial and program managers’ accountability, provide better information for
decision-making, and improve the efficiency and effectiveness of Federal programs. FFMIA requires that financial
management systems provide reliable, consistent disclosure of financial data in accordance with Generally Accepted
Accounting Principles and standards. These systems must also comply substantially with: (1) Federal Financial
Management System requirements; (2) applicable Federal Accounting Standards; and (3) the Standard General
Ledger at the transaction level. Additionally, FISMA requires that there be no significant weaknesses in
information security policies, procedures or practices to be substantially compliant with FFMIA (referred to as
Section 4 in the accompanying table).
Exhibit 6: Initiatives To Be Completed

                                                Outstanding Initiatives to Achieve FFMIA Compliance
                                                                                    Section of                                        Target Completion
                                   Initiative                                     Non-compliance                    Agency                   Date
         Information Technology¹                                            Sections 1 and 4                        Multiple                9/30/2009
         Funds Control Management                                           Section 1                                CCC                   9/30/2012
                                                                            Sections 1 and 3                          FS                   12/31/2008
                                                                            Sections 1, 2 and 3                      NRCS                  9/30/2009
         Sections:
         FFMIA:                                                                     FISMA:
         1 – Federal Financial Management System requirements.                      4 – Information Security Policies, Procedures, or Practices.
         2 – Federal Accounting Standards
         3 – Standard general ledger at the transaction level.
         ¹ The information technology material weakness, which is reported in the Federal Managers’ Financial Integrity Act Report on Management Control, is
         comprised of four issues: Software Change Control; Disaster Recovery; Logical Access Controls; and Physical Access Controls.

FY 2008 RESULTS
During FY 2008, USDA evaluated its financial management systems to assess substantial compliance with the Act.
In assessing FFMIA compliance, USDA considered all the information available. This information included the
auditor’s opinions on component agencies’ financial statements, the work of independent contractors and progress
made in addressing the material weaknesses identified in the FY 2007 Performance and Accountability Report –
Systems, Controls, and Legal Compliance section. The Department is not compliant with Federal Financial
Management System requirements, Federal accounting standards, and the standard general ledger at the
transaction level. Additionally, as reported in the FMFIA section of this report, USDA continues to have
weaknesses in information technology controls that result in non-compliance with the FISMA requirement. As
part of the financial systems strategy, USDA agencies continue to work to meet FFMIA and FISMA objectives.
The Information Technology Executive Steering Committee continues to monitor the correction of information
technology weaknesses in USDA’s financial systems. While the Department made substantial progress in
addressing its information technology weakness, more work is needed to comply substantially with the Act’s
requirements. The description of the corrective actions taken to address the information technology, financial
accounting and reporting, and funds control initiatives reported in FY 2008 are included in the FMFIA section of
this report.
Auditor-identified deficiencies at the Forest Service related to the requirement to record obligations in the standard
general ledger at the transaction level were identified in FY 2007. Transactions were not obligated as required by
appropriation law prior to payment. The transactions include temporary travel, grants, and other recurring utility
type transactions. Posting models were needed at the transaction level to accommodate transfers of stewardship
land acquisitions and record exchange review transactions to the proper general ledger accounts. Corrective action


                                                                                                                                                               39
                                                 MANAGEMENT’S DISCUSSION AND ANALYSIS
to implement the posting model for stewardship land acquisitions was completed in FY 2008. Other corrective
actions for recording obligations are not scheduled to be completed by FS until FY 2009. NRCS is developing
corrective action plans to address auditor-identified deficiencies: financial management systems did not
substantially comply with Federal Financial Management System Requirements, the United States Standard
General Ledger, and applicable Federal Accounting Standards for internal use software (including work in
progress), undelivered orders, unfilled customer orders, expense accruals, and capital leases. Deficiencies were also
noted regarding proper use of the United States Standard General Ledger.
The financial management system non-compliance portion of the CCC FY 2007 Funds Control material weakness
is now being reported under FFMIA. While additional work remains, CCC is implementing a funds control
system to remediate the financial system noncompliance.
Federal Financial Management System Requirements/Funds Control Management
CCC continued to develop a fully integrated funds control system within the financial management system that can
interface with CCC’s general ledger system at the transaction level. The system will also provide management with
timely information to periodically monitor and control the status of budgetary resources recorded in the general
ledger. FY 2008 accomplishments include:
 Developed the to-be process design;
 Prepared a request for proposal for replacement and/or modification of non-compliant processing systems;
 Documented CCC obligation business events and develop solutions for providing pre-authorization of funds;
 Prepared system requirements documentation to current FSA financial applications to accept obligation
   transactions; and
 Developed functionality to capture obligations within current FSA financial systems.

In FY 2009, CCC will:
 Develop functionality to do funds control at the time of obligation request from program applications.

In FY 2012, CCC will:
 Complete software modifications to program applications to send Obligation Transactions for Farm Programs,
   Farm Loan Programs, Foreign Programs, and Commodity Programs; and
 Select and implement software package.


Inspector General Act Amendments of 1988: Management’s Report on Audit Follow-Up
BACKGROUND
OIG audits USDA’s programs, systems, and operations. OIG then recommends improvements to management
based on its findings. USDA management may agree or disagree with the audit’s findings or recommendations. An
agreement is reached during the management-decision process. If management agrees with a recommendation, a
written plan for corrective action with a target completion date is developed. The plan is then submitted to OIG for
its concurrence. If both OIG and management agree that the proposed corrective action will correct the weakness,
management decision is achieved for that recommendation.
Audit follow-up ensures that prompt and responsive action is taken. USDA’s OCFO oversees audit follow-up for
the Department. An audit remains open until all corrective actions for each recommendation are completed. As
agencies complete planned corrective actions and submit closure documentation, OCFO reviews it for sufficiency
and determines if final action is completed.




 40
                               FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
FY 2008 Results
Exhibit 7: Decrease in Total Open Audit Inventory                                           USDA agencies closed 58 audits in FY 2008. The
                                                                                            Department’s current inventory of audits that have
                                                                                            reached management decision and require final action
                                                                                            to close totals 150. This figure includes 41 new audits
                                                                                            in FY 2008. One of these audits is in appeal status.
                                                                                            As shown in the accompanying exhibit, the
                                                                                            Department continued to reduce its inventory of
                                                                                            open audits in FY 2008. This is a 27-percent decrease
                                                                                            since FY 2004.
                                                                                            Audit Follow-Up Process
                                                                 The Inspector General Act Amendments of 1988
Note: The FY 2007 ending balance was revised from 154 to 167 to include 13 audits that
                                                                 require an annual report to Congress providing the
reached management decision in September 2007. These adjustments are also reflected
                                                                 status of resolved audits that remain open. Reports on
in the beginning balances for audits with disallowed costs and funds to be put to better
use shown in Exhibit 9 and Exhibit 11.                           resolved audits must include the elements listed in the
                                                                 first three of the accompanying bullets:
   Beginning and ending balances for the number of audit reports and dollar value of disallowed costs and funds to
    be put to better use (see definitions below);
   The number of new management decisions reached;
   The disposition of audits with final action (see definition below);
   Resolved audits that remain open 1 year or more past the management decision date require an additional
    reporting element; and
   The date issued, dollar value, and an explanation of why final action has not been taken. For audits in formal
    administrative appeal or awaiting a legislative solution, reporting may be limited to the number of affected
    audits.
Exhibit 8: Audit Follow-Up Definitions

        Term                                                                               Definition
 Disallowed Cost        An incurred cost questioned by OIG that management has agreed should not be chargeable to the Government.
 Final Action           The completion of all actions that management has concluded is necessary in its management decision with respect to the findings
                        and recommendations included in an audit report. In the event that management concludes no action is necessary, final action
                        occurs when a management decision is accomplished.
 Funds To Be Put        An OIG recommendation that funds could be used more efficiently if management took actions to implement and complete the
 to Better Use          recommendation, including:
 (FTBU)                 • Reductions in outlays;
                        • De-obligation of funds from programs or operations;
                        • Withdrawal of interest subsidy costs on loans or loan guarantees, insurance or bonds;
                        • Costs not incurred by implementing recommended improvements related to the operations of the establishment, a contractor or
                           grantee;
                        • Avoidance of unnecessary expenditures noted in pre-award reviews of contract or grant agreements; or
                        • Any other savings which are identified specifically.
 Management             Management’s evaluation of the audit findings and recommendations and the issuance of a final decision on corrective action
 Decision               agreed to by management and OIG concerning its response to the findings and recommendations.

OCFO works with component agencies and OIG to identify and resolve issues that affect the timely completion of
corrective actions. USDA agencies are required to prepare combined, time-phased implementation plans and
interim progress reports for all audits that remain open one or more years beyond the management decision date.
Time-phased implementation plans are updated and submitted at the end of each quarter. They are updated to
include newly reported audits that meet the 1-year-past-management decision criterion. These plans contain
corrective action milestones for each recommendation and corresponding estimated completion dates.


                                                                                                                                                      41
                                                     MANAGEMENT’S DISCUSSION AND ANALYSIS
Quarterly interim progress reports are provided to OCFO on the status of corrective action milestones listed in the
time-phased implementation plan. These reports show incremental progress toward the completion of planned
actions; changes in planned actions, actual or revised completion dates; and explanations for any revised dates.
The Department implemented an online, Web-based Audit Tracking Module (ATM) to improve the audit
tracking and management processes. The ATM was designed to 1) make the tracking process more efficient and
easier to manage; and 2) ensure that appropriate management and functional-level officials and staff have real-time
accurate information. It also allows for efficient coordination between USDA agencies, OCFO, and OIG.
Beginning and Ending Inventory for Audits with Disallowed Costs (DC) and Funds to Be Put to Better Use (FTBU)1
    Exhibit 9: Inventory of Audits with Disallowed Costs1                               Exhibit 10: Distribution of Adjustments to Disallowed Costs

                                                      # of            Amount
      Audits with Disallowed Costs                   Audits             ($)                              Category                        Amount ($)
    Beginning of the Period                             57         107,132,672          Changes in Management Decision                       354,875
       Plus: New Management Decisions                   11          31,163,685          Agency Appeals                                     1,123,163
       Total Audits Pending Collection of               68         138,296,357          Write-Offs                                         4,981,042
       Disallowed Costs
       Adjustments                                                   45,830,245         Agency Documentation                              39,878,164
       Revised Subtotal                                              92,466,112         Agency Discovery                                    -506,999
       Less: Final Actions (Recoveries)*                24         (16,467,492)         Total                                           45,830,245
        OIG adjustment change in code                   -1                31,856
    Audits with DC Requiring Final Action               43            75,966,764
    at the End of the Period
    *Recoveries do not include $338,852 interest collected.



                                            Exhibit 11: Inventory of Audits with Funds To Be Put to Better Use1

                                             Audits with Funds to be Put to Better               # of
                                                             Use                                Audits     Amount ($)
                                            Beginning of the Period                               26           81,969,496
                                                  Plus: New Management Decisions                  4        450,419,813
                                                  Total Audits Pending                            30       532,389,309
                                                  Less: Final Actions                             12           61,983,775
                                            Audits with FTBU Requiring Final Action at the        18       470,405,534
                                            End of the Period
                                            Disposition of Funds to Be Put to Better Use:
                                            FTBU Implemented                                                   61,767,897
                                            FTBU Not Implemented                                                 215,878
                                            Total FTBU Amounts for Final Action
                                                                                                               61,983,775
                                            Audits


Of the 58 audits that achieved final action during the fiscal year, 24 contained DCs. The number of DC audits
remaining in the inventory at the end of the fiscal year is 43 with a monetary value of $75,966,764.


1
 Exhibit 9 and Exhibit 11 include only those open audits with disallowed costs and funds to be put to better use, respectively. Additionally, some
audits contain both DC and FTBU amounts. For these reasons, the number of audits shown as the ending balances in Exhibit 9 and Exhibit 11
does not equal the total resolved audit inventory balance in Exhibit 7.


    42
                                               FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
For audits with disallowed costs that achieved final action in FY 2008, OIG and management agreed to collect
$62,297,737. Adjustments were made totaling $45,830,245 (74 percent of the total) because of: 1) changes in
management decision; 2) agency appeals; 3) write-offs; 4) USDA agencies’ ability to provide sufficient
documentation to substantiate disallowed costs; and 5) agency discovery. Management recovered the remaining
$16,467,492.
Final action occurred on 12 audits that involved FTBU amounts. USDA projects more efficient use for 99.7
percent of the amount identified based on the corrective actions implemented. The number of FTBU audits
remaining in the inventory to date is 18 with a monetary value of $470,405,534.
Audits Open One or More Years Past the Management Decision Date
Exhibit 12:   Decrease in Audits Open One or More Years Past           The number of audits open 1 or more years without
              Management Decision Date                                 final action decreased from 113 to 109 audits. USDA
                                                                       agencies continue to pursue compensating controls
                                                                       that address many of the underlying issues identified
                                                                       in these older audits.
                                                                       Five audits are proceeding as scheduled and 81 are
                                                                       behind schedule. Agencies have completed all
                                                                       planned corrective actions on 23 audits that are
                                                                       pending collection of associated disallowed costs.
                                                                       This represents a 30-percent decrease in FY 2008.
                                                                       While an additional six audits were scheduled for
                                                                       completion by September 30, 2008, final action
                                                                       documentation was not evaluated during this
reporting period.
Audits without final action 1 year or more past the management decision date and behind schedule are listed
individually in the table that follows. They are categorized by the reason final action has not occurred. More
detailed information on audits on schedule and audits under collection is available from OCFO.
The categories are pending the following activities:
 Issuance of policy/guidance;
 Conclusion of investigation, negotiation, or administrative appeal;
 Completion of IT system security weaknesses, systems development, implementation, reconciliation, or
  enhancement;
 Results of internal monitoring or program review;
 Results of agency request for change in management decision;
 Office of the General Counsel or OIG advice; and
 Administrative action.


Exhibit 13: Distribution of Audits Open 1 Year or More Past the Management Decision Date, Disallowed Costs, and FTBU

                           Audits On Schedule               Audits Behind Schedule               Audits Under Collection
         Agency      No.      DC ($)    FTBU ($)       No.       DC ($)      FTBU ($)      No.        DC ($)      FTBU ($)
        Totals        5         0           0          81      5,446,818    31,337,973     23      38,837,011    13,180,422




                                                                                                                              43
                                        MANAGEMENT’S DISCUSSION AND ANALYSIS
Management’s Report on Audit Follow-Up
Exhibit 14: Audits Open 1 Year or More Past the Management Decision Date and Behind Schedule
                                 Revised                                                                       Monetary Amount
                      Date      Completion
      Audits         Issued       Date                                 Audit Title                            DC           FTBU
 (35) Pending issuance of policy/guidance
 02601-1-CH          9/30/05      12/31/08     Agricultural Research Service Adequacy of Controls to           -             -
                                               Prevent the Improper Transfer of Sensitive Technology
                                               Force
 03601-11-AT        11/17/05      4/30/09      Minority Participation in Farm Service Agency’s Programs        -             -
 04004-3-AT          6/26/03      10/31/08     Rural Housing Service, Rural Rental Program, Tenant         $134,639      $3,183,305
                                               Income Verification – Gainesville, Florida
 04099-339-AT        3/23/05      12/31/08     Rural Housing Service Subsidy Payment Accuracy in Multi-        -             -
                                               Family Housing Program
 08001-1-AT          4/19/07      12/31/08     Forest Service Implementation of the Capital Improvement        -             -
                                               Program
 08601-38-SF         9/23/04      12/31/08     Forest Service Firefighting Safety Program                      -             -
 08601-41-SF         1/13/06      12/31/08     Forest Service Collaborative Ventures and Partnerships       $37,890          -
                                               with Non-Federal Entities
 08601-44-SF         12/7/06      12/31/08     Forest Service Large Fire Suppression Cost
 10099-10-KC        09/30/03      3/31/09      Natural Resources Conservation Service Protection of            -             -
                                               Federal Assets
 24501-1-FM         11/24/04      10/31/09     Food Safety and Inspection Service Application Controls -       -             -
                                               Performance Based Inspection Service System
 24601-1-CH         06/21/00      12/31/08     Food Safety and Inspection Service Laboratory Testing of        -             -
                                               Meat and Poultry Products
 24601-2-HY          6/9/04       10/31/09     Food Safety and Inspection Service Oversight of the             -             -
                                               Listeria Outbreak in the Northeastern United States.
 24601-6-CH          3/15/06      10/31/08     Food Safety and Inspection Service's In-Plant Performance       -             -
                                               System
 24601-7-CH          9/28/06      10/31/08     Food Safety and Inpsection Service Review of Pathogen           -             -
                                               Reduction Enforcement Program Sampling Procedures
 27601-3-CH         03/22/96      09/30/09     Food and Consumer Service Food Stamp Program—                   -             -
                                               Disqualified Recipient System – Alexandria, Virginia
 27601-27-CH        04/30/02      10/31/08     Food and Nutrition Service National School Lunch Program        -             -
                                               Food Service Management Companies
 33099-5-CH          4/20/05      9/30/08      Animal and Plant Health Inspection Service National             -             -
                                               Cooperative State/Federal Bovine Tuberculosis Eradication
                                               Program
 33099-11-HY       6/12/06        12/31/08     Animal and Plant Health Inspection Service Oversight of         -             -
                                               Avian Influenza
 33601-2-AT          6/23/05      12/31/08     Animal and Plant Health Inspection Service Evaluation of        -             -
                                               the Implementation of the Select Agents or Toxins
                                               Regulations (Phase 1)
 34099-2-AT         09/14/01      12/31/08     Rural Development Rural Business-Cooperative Service        $4,052,351        -
                                               Business and Industry Loan Program, OMNIVEST
                                               Resources, Inc. – Fort Gaines, Georgia
 34601-1-HY         07/22/98      12/31/08     Rural Development Business and Industry Loan                    -             -
                                               Program—Morgantown, West Virginia


 44
                                 FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                    Revised                                                                         Monetary Amount
                       Date        Completion
     Audits           Issued         Date                                   Audit Title                            DC           FTBU
34601-3-CH           03/11/03        12/31/08      Rural Development Processing of Loan Guarantees to               -             -
                                                   Members of the Western Sugar Cooperative
34601-7-SF           12/04/02        12/31/08      Rural Development Liquidation of a Business and Industry         -        $14,000,000
                                                   Guaranteed Loan Washington State
34601-8-SF            9/30/03        12/31/08      Rural Development Liquidation of Business and Industry        $45,246      $598,112
                                                   Guaranteed Loans
34601-15-TE          09/30/03        12/31/08      Rural Development Rural Business-Cooperative Service             -             -
                                                   National Report on the Business and Industry Loan
                                                   Program
50601-2-HY             9/9/05        11/30/08      Departmental Administration Review of Management                 -             -
                                                   Oversight of Federal Employees’ Compensation Act
                                                   Operations within the U.S. Department of Agriculture
50601-6-TE           03/04/04        12/30/08      Agricultural Research Service Controls Over Plant Variety        -             -
                                                   Protection and Germplasm Storage
50601-9-AT            3/24/04        12/31/08      Departmental Administration Controls Over Chemical and           -             -
                                                   Radioactive Materials at U.S. Department of Agriculture
                                                   Facilities
50601-10-AT            3/8/04        12/31/08      Homeland Security Follow-up Report on the Security of            -             -
                                                   Biological Agents at U.S. Department of Agriculture
                                                   Laboratories
50801-12-AT            9/9/02        11/30/08      Departmental Adminstration Management of Hazardous               -         $1,813,809
                                                   Materials Management Funds
60801-1-HQ            9/30/98        6/30/09       Evaluation of the Office of Civil Rights’ Efforts to Reduce      -             -
                                                   the Backlog of Program Complaints
60801-3-HQ            3/10/00        6/30/09       Office of Civil Rights Management of Employment                  -             -
                                                   Complaints
60801-4-HQ            3/10/00        9/30/09       Office of Civil Rights Status of the Implementation of           -             -
                                                   Recommendations Made in Prior Evaluations of Program
                                                   Complaints
89017-1-HY             3/1/07        10/31/08      Office of Procurement and Property Management Review             -             -
                                                   of Acquisition Planning and Processing
(1) Pending conclusion of investigation, negotiation or administrative appeal
04801-3-KC           03/31/99        10/31/08      Rural Housing Service – Rural Rental Housing Program          $146,690      $85,516
                                                   Bosley Management, Incorporated – Sheridan, Wyoming
(21) Pending completion of IT system security weaknesses, systems development, implementation, or enhancement
04601-14-CH           3/20/07        12/31/08      Improper Payments - Monitoring the Progress of Corrective        -             -
                                                   Action for High-Risk Programs in Rural Housing Service
06401-17-FM           11/5/04        09/30/09      Commodity Credit Corporations’ Financial Statements for          -             -
                                                   Fiscal Years 2004 and 2003
08401-2-FM           02/28/03        10/31/08      Forest Service’s Financial Statements for Fiscal Year 2002       -             -
                                                   – Summary of Information Technology Findings
08401-4-FM           11/10/04        12/31/08      Forest Service’s Financial Statements for Fiscal Years           -             -
                                                   2004 and 2003
08401-6-FM           11/24/06        12/31/08      Forest Service’s Financial Statements for Fiscal Years           -             -
                                                   2005 and 2004
08401-7-FM            2/27/08        12/31/08      Forest Service's Financial Statements for Fiscal Years           -             -
                                                   2006 and 2005




                                                                                                                                           45
                                           MANAGEMENT’S DISCUSSION AND ANALYSIS
                                    Revised                                                                      Monetary Amount
                       Date        Completion
     Audits           Issued         Date                                   Audit Title                          DC          FTBU
08601-2-HY           12/22/06        3/31/09       Forest Service Follow up on Recommendations Made on           -             -
                                                   the Maintenance of Forest Service Infrastructure
08601-6-AT           11/24/06        12/31/08      Forest Servcie Implementation of the Healthy Forests          -             -
                                                   Initiative
08601-30-SF          03/31/03        12/31/08      Forest Service Review of Security Over                        -             -
                                                   Explosives/Munitions/Magazines Located Within the
                                                   National Forest System
08601-40-SF           7/6/05         12/31/08      Forest Service Emergency Equipment Rental Agreements          -             -
10001-1-HY            3/20/07        3/31/09       Review of Contract Administration at the Natural              -             -
                                                   Resources Conservation Service
11099-44-FM          12/14/06        11/30/08      Departmental Administration Purchase Card Management          -             -
                                                   System Controls Need Strengthening
24601-3-CH            9/30/04        10/31/09      Food Safety and Inspection Service Use of Food Safety         -             -
                                                   Information Systems
33002-3-SF            9/30/05        12/31/08      Animal and Plant Health Inspection Service Animal Care        -         $562,761
                                                   Program Inspection and Enforcement of Activities
33501-1-CH           03/31/05        12/31/08      Animal and Plant Health Inspection Service Review of          -             -
                                                   Application Controls for the Import Tracking System
33601-1-HY            2/14/05        10/31/09      Animal and Plant Health Inspection Service Oversight of       -             -
                                                   the Importation of Beef Products from Canada
33601-4-CH           03/31/03          TBD         Animal and Plant Health Inspection Service Controls Over      -             -
                                                   Permits to Import Biohazardous Materials into the United
                                                   States
50401-59-FM          11/14/06      10/31/2008      Office of the Chief Financial Officer U.S. Department of      -             -
                                                   Agriculture’s Consolidated Financial Statements for Fiscal
                                                   Years FY 2006 and 2005
50501-4-FM           10/21/05        9/30/08       Office of the Chief Information Officer Review of the U.S.
                                                   Department of Agriculture’s Certification and Accreditation
                                                   Efforts
50801-2-HQ            2/27/97        3/31/09       Assistant Secretary for Civil Rights Report for the           -             -
                                                   Secretary on Civil Rights Issues, Phase I
60016-01-HY           9/8/05         9/30/09       Assistant Secretary for Civil Rights Follow up on Prior       -             -
                                                   Recommendations for Civil RightsProgram and
                                                   Employment Complaints
(3) Pending results of internal monitoring or program review
06401-4-KC            2/26/02        6/30/09       Commodity Credit Corporation’s Financial Statements for       -          $19,586
                                                   Fiscal Year 2001
08601-42-SF           3/14/06        12/31/08      Forest Service Firefighting Contract Crews                    -             -
08601-45-SF           7/13/06        3/31/08       Follow-up Review of Forest Service Security Over              -             -
                                                   Explosives/Munitions Magazines Located within the
                                                   National Forest System
(6) Pending results of request for change in management decision
03099-27-TE           5/24/01        10/01/08      Farm Service Agency Payment Limitations – Majority            -             -
                                                   Stockholders of Corporations
08099-6-SF           03/27/01        09/30/08      Forest Service Security Over USDA Information                 -             -
                                                   Technology Resources




46
                                    FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                      Revised                                                                      Monetary Amount
                       Date          Completion
     Audits           Issued           Date                               Audit Title                             DC           FTBU
08003-5-SF           12/15/00         09/30/08     Forest Service Land Acquisitions and Urban Lot                  -        $10,329,300
                                                   Management , Lake Tahoe Basin Management Unit –
                                                   South Lake Tahoe, CA
33601-7-CH            2/21/07         12/31/08     Animal and Plant Health Inspection Service Review of            -             -
                                                   Customs and Border Protection’s Inspection Activities
50601-9-CH            9/28/06         12/31/08     Animal and Plant Health Inspection Service’s Control Over       -             -
                                                   the Bovine Tuberculosis Eradication Program
50601-10-HQ          11/20/06         3/31/09     Natural Resources Conservation Service Saving the                -             -
                                                  Chesapeake Bay Watershed Requires Better Coordination
                                                  of Environmental and Agricultural Resource
(3) Pending Office of General Counsel (OGC) or OIG advice
04801-6-KC           12/18/00         10/31/08     Rural House Service Rural Rental Housing Program            $1,029,999     $9,000
                                                   Insurance Expenses – Washington, D.C.
24099-1-FM           08/11/03         10/31/08     Security Over Information Technology Resources at Food          -             -
                                                   Safety and Inspection Service
85401-13-FM           11/9/06         10/31/08     Rural Development Financial Statements for Fiscal Years         -             -
                                                   2006 and 2005
(13) Pending Administrative Action
05099-18-KC           6/1/04          9/30/08      Risk Management Agency Management and Security of               -             -
                                                   Information Technology Resources
05099-109-KC          1/27/05         12/31/10     Risk Management Agency Renegotiation of the Standard            -             -
                                                   Reinsurance Agreement
05600-1-TE           09/28/89         9/30/08      Risk Management Agency Crop Year 1988 Insurance                 -             -
                                                   Contracts with Claims
06401-15-FM          12/26/02         09/30/09     Commodity Credit Corporation’s Financial Statements for         -             -
                                                   Fiscal Year 2002
06401-21-FM          11/13/06         10/30/08     Commodity Credit Corporation’s Financial Statements for         -             -
                                                   Fiscal Year 2006
13001-3-TE            8/16/04          6/6/09      Cooperative State Research, Education, and Extension           $3         $482,400
                                                   Service’s Implementation of Agricultural Research,
                                                   Extension and Education Reform Act of 1998
33601-1-HY            2/14/05         10/31/09     APHIS (FSIS) Oversight of the Importation of Beef               -             -
                                                   Products from Canada
33601-4-CH           03/31/03           TBD        APHIS Controls Over Permits to Import Biohazardous              -             -
                                                   Materials
50401-59-FM          11/14/06        10/31/2008    OCFO USDA Consolidated Financial Statements FY 2006             -             -
                                                   and 2005
50501-4-FM           10/21/05         9/30/08      OCIO Review of the U.S. Department of Agriculture’s
                                                   Certification and Accreditation Efforts
50801-2-HQ            2/27/97         3/31/09      OASCR Evaluation Report for the Secretary on Civil Rights       -             -
                                                   Issues, Phase I
60016-01-HY           9/8/05          9/30/09      OASCR Follow up on the Recommendations Made to the              -             -
                                                   Office of Civil Rights for Program and Employment
(3) Pending results of internal monitoring or program review
06401-4-KC            2/26/02         6/30/09      CCC Financial Statements for FY 2001                            -          $19,586
08601-42-SF           3/14/06         12/31/08     FS Firefighting Contract Crews                                  -             -
08601-45-SF           8/8/06          3/31/08      FS Follow-up Review of FS Security Over                         -             -
                                                   Explosives/Munitions Magazines Located within the
                                                   National Forest System




                                                                                                                                        47
                                           MANAGEMENT’S DISCUSSION AND ANALYSIS
                                   Revised                                                                             Monetary Amount
                       Date       Completion
     Audits           Issued        Date                                   Audit Title                                DC           FTBU
(6) Pending results of request for change in management decision
03099-27-TE           5/24/01       10/01/08      FSA Payment Limitations – Majority Stockholders of                   -             -
                                                  Corporations
08099-6-SF           03/27/01       09/30/08      FS Security Over USDA Information Technology                         -             -
                                                  Resources
08003-5-SF           12/15/00       09/30/08      FS Land Acquisitions and Urban Lot Management Program                -        $10,329,300
33601-7-CH           8/14/07        12/31/08      APHIS Review of Customs and Border Protection                        -             -
                                                  Inspection Activities
50601-9-CH            9/28/06       12/31/08      APHIS Control Over the Bovine Tuberculosis Eradication               -             -
                                                  Program
50601-10-HQ           7/24/06        3/31/09      NRCS Chesapeake Bay Restoration Agricultural Impacts                 -             -
                                                  on Water Quality
(3) Pending Office of General Counsel (OGC) or OIG advice
04801-6-KC            12/18/00      10/31/08      RHS Rural Rental Housing Program Insurance Expenses,             $1,029,999      $9,000
                                                  Phase I
24099-1-FM            08/11/03      10/31/08      Security Over Information Technology Resources at FSIS               -             -
85401-13-FM            11/9/06      10/31/08      RD Financial Statements for FY 2006 and FY 2005                      -             -
(13) Pending Administrative Action
05099-18-KC           6/1/04         9/30/08      RMA Management and Security of Information Technology                -             -
                                                  Resources
05099-109-KC          1/27/05       12/31/10      RMA Activities to Renegotiate the Standard reinsurance               -             -
                                                  Agreement
05600-1-TE           09/28/89       9/30/08       RMA Crop Year 1988 Insurance Contracts with Claims                   -             -
0641-15-FM           12/26/02       09/30/09      CCC Financial Statements for FY 2002                                 -             -
06401-21-FM          11/13/06       10/30/08      CCC Financial Statements for FY 2006                                 -             -
13001-3-TE           8/16/04         6/6/09       Cooperative State Research, Education, and Extension                $3          $482,400
                                                  Service Implementation of Agricultural Research,
                                                  Extension and Education Reform Act of 1998
23801-1-HQ            8/20/98       12/31/08      Review of Office of Operations Contract with B&G                     -          $249,866
                                                  Maintenance, Incorporated – Washington, D.C.
24601-8-CH            8/23/07        3/31/09      Food Safety and Inspection Service Egg Products                      -             -
                                                  Processing Inspection
50099-11-HY          03/31/05       12/30/08      Research Education and Economics Implementation of                   -             -
                                                  Federal Research Misconduct Policy in the U.S.
                                                  Department of Agriculture
50099-13-AT          03/29/02       12/30/08      Multi-Agency Audit Oversight and Security of Biological              -             -
                                                  Agents at Laboratories Operated by the United States
                                                  Department of Agriculture
50099-17-KC           2/17/05       12/31/08      Cooperative State Research, Education, and Extension                 -           $4,318
                                                  Service Biosecurity Grant Funding Controls over
                                                  Biosecurity Grants Funds Usage
50601-10-KC           1/25/06       10/31/09      Animal and Plant Health Inspection Service Bovine                    -             -
                                                  Spongiform Encephalopathy (BSE) Surveillance Program –
                                                  Phase II and Food Safety and Inspection Service Controls
                                                  Over BSE Sampling, Specified Risk Materials and
                                                  Advanced Meat Recovery Products - Phase III
60801-2-HQ            3/24/99        9/30/09      Evaluation of the Office of Civil Rights Efforts to Implement        -             -
                                                  Civil Rights Settlements
Total Number Audits (81)                          Total                                                           $5,446,818    $31,337,973




48
                                   FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                    Annual
                                                    Performance
                                                    Report
The Department of Agriculture’s (USDA) mission is to provide leadership on food,
agriculture, natural resources, and related issues based on sound public policy, the best
available science, and efficient management. The Department executed this mission in
Fiscal Year (FY) 2008 through activities such as:
 Completing new free trade agreements, opening new international markets and
   maintaining existing markets;
 Meeting with experts from around the globe to discuss current and emerging economic
   opportunities;
 Providing farmers and ranchers with risk management and financial tools;
 Expanding economic opportunities by improving the quality of life through financing
   housing, utilities, and community facilities in rural areas;
 Ensuring the safety and protection of the Nation’s food supply;
 Helping millions of low-income households and most of America’s children improve
   their health and diets via targeted nutrition assistance programs;
 Fostering better nutrition and health with dietary guidance and promotion;
 Fighting potential pest and disease outbreaks;
 Working to ensure the health and protection of the environment; and
 Providing aid to those impacted by severe weather and other disasters.


Strategic Goal 1: Enhance International Competitiveness of American Agriculture
Expanding global markets for agricultural products will increase demand for agricultural
products and contribute directly to economic stability and prosperity for America’s farmers.
USDA accomplishes this through negotiation, monitoring, and enforcement of trade
agreements. Working with producers and commodity trade associations, USDA administers
an array of market development and export promotion programs designed to build long-
term markets abroad. The Department helps expand trade opportunities through technical
assistance and training programs. USDA also provides food assistance programs to
developing countries. These programs are designed to provide greater food security which
leads to greater economic stability in the recipient countries. These tools support
agricultural development and growth in developing countries. They also help these countries
participate in, and benefit from, international trade. USDA works to facilitate trade by
adopting and promoting science-based regulatory systems and standards. These activities
are reflected in the three objectives and four performance measures that follow.




                                                                                               49
                               ANNUAL PERFORMANCE REPORT
OBJECTIVE 1.1: EXPAND AND MAINTAIN INTERNATIONAL EXPORT OPPORTUNITIES

        Measure 1.1.1: Dollar value of agricultural trade preserved through trade agreement negotiation, monitoring,
                                                       and enforcement

Overview
                                                       The Department works closely with the Office of the U.S.
                      Key Outcome
                                                       Trade Representative (USTR) to negotiate new trade
        Increased Access to Global Markets for U.S.    agreements to expand access to global markets for U.S.
           Agricultural Producers and Exporters        agriculture. The largest multilateral negotiation, under the
                                                       auspices of the World Trade Organization (WTO), is the
Doha Development Agenda. USDA has led negotiations on the agricultural portions of the agreement. USDA
played an integral role in the July 21-29, 2008, WTO Ministerial meeting in Geneva aimed at reaching a final
agreement. While these meetings resulted in an impasse, primarily over the Special Safeguard Mechanism for
sensitive agricultural products, Foreign Agricultural Service (FAS) officials continue to work to advance a
convergence of proposals at the technical level.
To further expand global trade, U.S. officials negotiated bilateral accession agreements with countries seeking
WTO membership. In 2008, USDA played a critical role in negotiating such agreements with Russia, Kazakhstan,
and several other countries. The Department also helped Ukraine join the WTO in May 2008, thus opening the
country to American imports, notably poultry, beef, and pork. Estimates indicate that annual beef and pork exports
to Ukraine could reach $120 million.
USDA also works to expand U.S. agricultural export opportunities by supporting regional and bilateral free trade
agreements. The Department continues to negotiate the Malaysia Free Trade Agreement. USDA is awaiting
congressional approval of free trade agreements with Colombia, Panama, and Korea. It is also monitoring final
implementation of the Peru and Costa Rica trade agreements.
The Department oversaw the full implementation of the final provisions of the North American Free Trade
Agreement (NAFTA) between Canada, Mexico, and the U.S. USDA’s work lifted the final trade restrictions on a
handful of agricultural commodities, notably U.S. exports of corn, dry edible beans, nonfat dry milk, and high
fructose corn syrup.
The Department is also monitoring and taking action with respect to more than 500 trade barriers relating to
established trade agreements. Some barriers are being addressed through the WTO dispute-settlement process.
Others are being addressed bilaterally. Working closely with USTR, USDA successfully re-established a tariff rate
quota (TRQ) for poultry and pork trade with the Philippines in 2008. A TRQ provides an opportunity for
exporting a limited quantity of products with little or no tariffs.
Analysis of Results
USDA employs a performance measure that estimates the value of trade preserved through WTO agreement
enforcement, creation, and maintenance of free trade agreements and addressing trade barriers. USDA failed to
meet its targeted level of performance. The July collapse of the Doha Round of WTO negotiations and delays in
congressional approval of already negotiated free trade agreements were significant factors. Though USDA cannot
control such externalities, in FY 2009, the Department will continue to seek approval of pending agreements.
Extensively monitoring and enforcing existing trade agreements, which USDA can influence more effectively, will
help the Department reach its 2009 targets.



 50
                                FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                  Selected Results in Research, Extension and Statistics
              China in 21st Century Agricultural Markets—USDA researches how policy and economic developments in China affect global
              agricultural markets. Recent research, China Currency Appreciation Could Boost U.S. Agricultural Exports, shows that U.S.
              exports of soybeans and cotton to China have boomed in recent years. Despite the increases, the undervalued exchange rate for
              the Chinese yuan keeps the prices of most other U.S. food and agricultural products higher than their Chinese counterparts. With
              an undervalued exchange rate, China’s prices are not high enough to attract imports of grains or most livestock products. In
              another article, Who Will China Feed?, Department economists examined the growing resource constraints and environmental
              costs facing China’s agricultural sector. They also looked at a possible end to “easy” growth for Chinese agriculture.
              Increase in Commodity Prices—World market prices for such major food commodities, such as grains and vegetable oils, have
              risen sharply to historic highs of more than 60 percent above levels just 2 years ago. USDA’s Global Agricultural Supply and
              Demand: Factors Contributing to the Increase in World Food Commodity Prices report discusses the many factors contributing to
              the run-up in food commodity prices. Recent factors that have tightened world markets include increased global demand, adverse
              weather conditions in some major grain and oilseed producing areas, and the declining value of the U.S. dollar.



Exhibit 15: Increase U.S. Export Opportunities and Trends in Expanding and Retaining Market Access

                                                                      2004         2005        2006           2007                     Fiscal Year 2008
    Annual Performance Goals, Indicators and
                    Trends                                                                                                   Target          Actual          Result
 1.1.1   Dollar value of agricultural trade preserved                $3,950        $800         $14           $670             $900            $484           Unmet
         through trade agreement negotiation, monitoring,
         and enforcement (Non-Sanitary and
         Phytosanitary) ($ Mil) Baseline: 1999 = $2,567
 FY 2004 data is based on Sanitary and Phytosanitary (SPS) and non-SPS related trade barriers. FY 2005 - 2008 data is based on non-SPS trade barriers.
 Rationale for Met Range: The target for this measure is controlled by international parties. It reflects U.S. expectations for negotiating new agreements, addressing
 compliance with existing trade agreements and resolving trade access issues that arise so that domestic exports can continue. A met or exceeded target reflects USDA
 successes in addressing barriers to U.S. trade. An unmet target may conceal that USDA monitoring activities prevented noncompliance.
 • Data assessment metrics to meet the target allow for an actual number in the range 600-900.
Exhibit 16: Data Assessment of Performance Measure 1.1.1

 1.1.1 Dollar value of agricultural trade preserved annually through trade agreement negotiation, monitoring, and enforcement
       (non-SPS).
 Data for the World Trade Organization and tariff rates are projected estimates based on results posted to the performance tracking system within the
 FAS. Data for successfully retaining and assuring U.S. trade access to export markets are projected estimates based on results posted during the first
 three quarters of FY 2008.
 • Completeness of Data—Data for successfully retaining and assuring U.S. trade access to export markets are projected estimates based on results
     posted during the first three quarters of FY 2008.
 • Reliability of Data—Data are reliable and used by the Department to highlight successes in the trade-policy arena.
 • Quality of Data—USDA maintains a standardized methodology to forecast trade impacts. Calculation of trade benefits from preserving existing trade
     is fairly straightforward and easy using this standard methodology. The primary sources of trade data are Department of Homeland Security’s U.S.
     Customs and Border Protection, the Census Bureau, the USDA publication Foreign Agricultural Trade of the United States and other databases. In
     addition to trade data, other sources include market reports compiled by USDA and industry estimates. Since measuring expected trade benefits
     from broad new trade agreements is extremely difficult, the Department evaluates its estimates against other outside estimates when available.

Challenges for the Future
The key challenge for increasing access to global markets is progress in the WTO negotiations. The conclusion of
the Doha negotiations may be delayed into 2009 due to external factors and the difficulties inherent in negotiating
sensitive agricultural issues. Improvement in market opportunities under bilateral and regional trade agreements is
contingent on approval and implementation of agreements by all partners. Currently, three bilateral agreements are
pending approval by Congress and waiting implementation by our Free Trade Agreement partners. Approval
procedures may include legislative, administrative, and judicial processes.


                                                                                                                                                                         51
                                                              ANNUAL PERFORMANCE REPORT
The United States is engaged in a number of dispute settlement cases in the WTO. These are inherently lengthy
processes with favorable outcomes for U.S. trade sometimes taking years to realize.
OBJECTIVE 1.2: SUPPORT INTERNATIONAL ECONOMIC DEVELOPMENT AND TRADE CAPACITY BUILDING

      Measure 1.2.1: Number of countries in which substantive improvements have been made in national trade policy
                                 and regulatory frameworks that increase market access


Overview
                     Key Outcome                          One billion people in the developing world live with chronic
                                                          hunger, and more than 800 million are undernourished.
     Improved Ability in Developing Countries to Sustain  Today’s higher food prices pose significant risks to people
   Economic Growth and Benefit from International Trade   and nations already vulnerable to food insecurity and
                                                          poverty. Major goals of USDA trade and development
programs include increasing agricultural productivity, increasing trade with, and investment in, developing
countries to enhance economic growth, food security, and the supply and affordability of food. Linking producers
to markets with improved transportation, storage, market information, and food processing, as well as increasing
private-sector participation in the agricultural value chain, are also USDA priorities for strengthening rural
economic activity and moving food from surplus to deficit areas.
To strengthen global food security, USDA deploys experts and institutional resources to help developing countries
become economically stable and capable of supporting their populations, which is mutually beneficial. In
combination with food assistance that covers gaps in supplies and helps to keep the population healthy, USDA
trade and development programs assist foreign governments in adopting productivity-enhancing technologies,
reconstructing agriculture in post-conflict or disaster areas, developing sustainable natural resource management
systems, and strengthening agricultural research and extension programs. USDA also works with foreign
counterparts to advance market-based policies and institutions and expand international trade through trade
capacity building, which helps countries meet their WTO obligations, avoid or eliminate barriers to trade, and
strengthen policy and regulatory frameworks, with an emphasis on food safety and biotechnology.
USDA measures the number of countries that benefit from improved trade policy and regulatory frameworks.
These benefits help developing countries prosper, thus bolstering food security. To develop trade capacity and
facilitate market access for U.S. agricultural products, USDA implemented more than 140 technical assistance
activities in 2008. These activities targeted regulatory systems in Sub-Saharan Africa, the Middle East, Eastern
Europe, Central America, and Russia with emphasis on plant and animal disease diagnosis and mitigation,
laboratory efficiency, biotechnology, and Biosafety, as well as generally improving sanitary and phytosanitary (SPS)
systems.
Under the Central America–Dominican Republic–Free Trade Agreement (CAFTA-DR), for example, USDA
implemented capacity building projects to transfer skills in laboratory analysis, detection of pesticide residues, risk
assessment, diagnosis of animal health diseases, and policy regulations. In September, USDA facilitated a successful
Trade and Investment Mission in Guatemala for CAFTA-DR. USDA also implemented Asia Pacific Economic
Cooperation workshops on food defense, food safety, and biotechnology in cooperation with the Department of
State and the Food and Drug Administration. Work on the African Global Competitiveness Initiative (AGCI)
focused on activities related to food safety and plant health. A significant AGCI success was approval of a
streamlined regulatory process, which resulted in six new African commodities being eligible for export to the U.S.
market. In addition, USDA implemented successful Trade and Investment Missions to West and North Africa.


 52
                              FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
The Department led Good Agricultural Practices (GAP) training for Honduran fruit and vegetable producers
which trained roughly 80 fruit and vegetable producers and processors on GAP. For WTO accessions, FAS
specialists in WTO negotiations led training on the SPS Agreement and the Checklist of Illustrative SPS and
Technical Barriers to Trade (TBT) Issues for Consideration in Accessions.
USDA continues to encourage and support developing-country participation in international regulatory and
standard-setting organizations like the Codex Alimentarius Commission. The World Health Organization and the
Food and Agriculture Organization of the United Nations (FAO) created the commission to protect consumers
from unsafe food products and ensure fair practices in international food trade. In June, the Department
implemented Latin American and Caribbean regional workshops. The workshops presented the U.S. positions on
Codex Alimentarius issues. Collaborating closely with the FAO, the Environmental Protection Agency, Rutgers
University, and USDA co-sponsored a Minor Use Summit. The summit, attended by more than 40 countries,
covered issues relating to maximum pesticide levels for minor crops. In addition, the Department coordinated
closely with the Codex Office to sponsor outreach activities to increase international understanding of U.S.
positions on Codex issues.

Analysis of Results
The performance measure was exceeded, with impacts in nine countries. With training in agricultural
biotechnology via USDA’s Cochran Fellowship Program, four officials in Nicaragua provided expert consultations
to the Health Commission of the Nicaraguan National Assembly, prompting the Commission to send a positive
report on a comprehensive Biosafety Bill to the President of the National Assembly. In addition, Nicaraguan
officials established laws and regulations to support equivalence with the United States in meat and poultry
products, following USDA assistance on regulatory frameworks to ensure product safety.
Internationally recognized food safety laboratories are critical for ensuring that exported food products meet global
trade and health standards. The highest level of this recognition for laboratories is ISO 17025 accreditation,
provided by the International Organization for Standardization (ISO). The food safety laboratory in Guatemala is
the only Central American government laboratory to achieve this status. The Guatemalan laboratory actively
implemented the training content and has been recognized for it. USDA also provided regional training for the
laboratories on Exotic Newcastle Disease (END) that can be highly destructive to the poultry industry. As a result,
the food safety laboratory in Honduras has become highly proficient in testing and diagnosing the disease. Other
countries in the region now rely on Honduras as the region’s “reference laboratory” or authority for END.
Training for 19 officials from the Kenya Plant Health Inspectorate Service (KEPHIS) under the Cochran
Fellowship Program resulted in adoption of USDA’s organizational structure for conducting animal and plant
health inspections at ports of entry in Kenya, thus strengthening regional food security and trade. Other than South
Africa, Kenya's plant regulatory body, KEPHIS, is the model to which other national plant protection
organizations in sub-Saharan Africa aspire.
Following USDA participation in several projects in Vietnam intended to promote compliance with WTO
obligations, Vietnam has made five SPS-related notifications since January 2008, thus advancing the interests of
bilateral trade and improving the transparency of Vietnamese trade regulations. Vietnam’s WTO notification on
the biosafety management of genetically modified crops allowed the United States to comment on the importance
of science-based regulations.
As a result of an intensive, two-year USDA technical-assistance project that provided Egyptian officials training on
biotechnology, the Minister of Agriculture in Egypt approved commercialization of a genetically modified Bt corn
variety (MON 810). This marks the first genetically modified crop approved for domestic planting in Egypt.
USDA technical assistance in Iraq is building a greater understanding of the U.S. regulatory system and
international standards for animal health; facilitating the reintegration of Iraqi Ministry of Agriculture officials into
international standards-setting bodies; and re-establishing networks with their counterparts in the Middle East. As

                                                                                                                     53
                                            ANNUAL PERFORMANCE REPORT
a result, Iraq’s National Animal Health Program was developed in line with standards of the World Organization
of Animal Health and five animal disease-control strategies were adopted in 2008.
USDA experts have also been working with government officials in Armenia to achieve greater consistency and
transparency with international standards. As a result, new sample collection forms for the National Animal
Diseases Reporting System were approved by the Ministry of Agriculture, and two village-based Examination-and-
Therapy animal-holding units are serving as models for veterinary inspection in the Armenia National Animal
Health Program. More than 10,000 animals have been inspected and samples taken for the four priority animal
diseases in these units.
With the goal of facilitating Serbia’s accession to the WTO, USDA specialists led training in Belgrade on the
WTO SPS Agreement. By early 2008, the Serbian Ministries of Agriculture and Health had developed a new Food
Safety law that is more consistent with the WTO-SPS Agreement and is under consideration by the Government.

                                                    Selected Results in Research, Extension and Statistics
                International Investment in U.S. Agriculture—Several next-generation, larger-scale, pasture-based dairies owned by three
                New Zealand investment groups began operating in Missouri as a result of USDA-funded dairy grazing research and extension
                efforts being conducted by the University of Missouri. These efforts include the development of low-cost winter feeding systems
                for beef cattle. The largest of these dairies manages more than 3,000 cows and the smallest, 500. The New Zealand groups have
                invested more than $50 million to date with more farms being developed.
                USDA Provides Support for Trade Negotiations—USDA continues to provide the U.S. Trade Representative with analysis
                supporting Doha Round negotiators and that of the U.S.–South Korea free trade agreement. The Department’s program of trade-
                policy research has developed models, databases, and other analytical tools specifically designed to answer questions related to
                changes in trade policies and domestic policy instruments subject to multilateral or bilateral negotiation. USDA provided model-
                based analyses of negotiating proposals or questions related to impacts of tariff cuts, cuts in U.S. domestic support, changes in
                import quotas and special treatment for “sensitive” products or developing countries.


Exhibit 17: Support International Trade Capacity Building

                                                                            2004         2005          2006          2007                      Fiscal Year 2008
  Annual Performance Goals, Indicators and Trends                                                                                 Target           Actual         Result
 1.2.1       Number of countries in which substantive                        n/a          n/a            6            13              8              9        Exceeded
             improvements have been made in national trade
             policy and regulatory frameworks that increase
             market access.
 Rationale for Met Range: The target for this measure, based on three years of program history, is driven by international Governments and parties, and
 U.S. reimbursable-program funding levels. Annual targets reflect USDA expectations for substantive improvements in national trade policy and
 regulatory frameworks that increase market access for U.S. agricultural products in developing countries.
 •     Data assessment metrics to meet the target allow for an actual number in the range 5-8.
 Data Assessment of Performance Measure 1.2.1
 Data for the World Trade Organization and tariff rates are projected estimates based on results posted to the performance tracking system within the
 Foreign Agricultural Service (FAS). Data for successfully retaining and assuring U.S. trade access to export markets are projected estimates based on
 results posted during the first three quarters of FY 2008. Fourth quarter estimates were derived using the average quarterly reporting and discounting
 the results to reflect any large, one-time annual events not expected to be repeated in the final quarter.
 • Completeness of Data—Data are based on specific criteria developed for measuring intangible and qualitative outcomes, and those which are
    concrete and quantifiable.
 • Reliability of Data—Data are reliable, of good quality, and are used by Agency officials to highlight successes in the trade capacity building arena.
 • Quality of Data—Data for successfully verifying the numbers of countries in which USDA has made significant impact in trade capacity building are
    captured from a variety of credible sources, including:
         −     Reports from overseas posts and project offices, such as Global Agriculture Information Network reports and progress reports;
         −     Individual activity reports as provided by FAS partner institutions;




 54
                                              FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
     −     Questionnaires submitted by international participants regarding training programs;
     −     Reports from other USDA agencies, FAS offices, the Department of State, the Agency for International Development, and the Office of the U.S. Trade
           Representative, and U.S. embassies;
     −     Assessment of the progress of projects through interviews conducted with ministry officials and other host-country recipients on the impact of USDA technical
           assistance;
     −     Written and verbal observations by program managers who regularly monitor projects in the field;
     −     Internal evaluations of activities conducted by the agency and evaluations conducted by external parties;
     −     Special workshops designed to elicit feedback and evaluation on “how things are working;” and
     −     “Lessons learned” workshops conducted with facilitators to review what is working and what can be improved.


Challenges for the Future
Food insecurity is most prevalent in failed and weakened states characterized by stagnant growth, low-income
levels, conflict, dependence on the natural resource base, and poor governance and policy environments. The failure
of the growth process in these societies is the core concern and development challenge. Moreover, world market
prices for major food commodities have risen sharply to historic highs of more than 60 percent above levels of just
two years ago. According to USDA economists, factors including steep increases in prices for agricultural inputs
and in transportation costs, two years of poor harvests, export controls in many countries, low world grain-stocks,
and increased demand for food and biofuels have increased commodity costs. Although grain prices have fallen in
recent months, several of these factors are expected to continue for the foreseeable future continuing to impact
many countries for several years.
Since 2007, the McGovern-Dole Program received more than $20 million of additional, processed products
through the initiative. Moreover, USDA is developing a Department-wide Action Plan for Food Security, focusing
on improvements in policy frameworks, trade and investment, research and technology, natural resources
management, global information and monitoring systems, and food safety nets. The Department is also working
with other Federal agencies to finalize a consolidated U.S. Government strategy for worldwide food security.
Challenges to implementing the strategy and action plan include the factors mentioned above, as well as insufficient
global investment in agricultural innovation, research, and market infrastructure; inadequate veterinary and plant
protection services to control the spread of disease; and conversion of natural ecosystems to agriculture that could
exacerbate climate change, ultimately harming agricultural productivity.


                                               Measure 1.2.2: Food Aid Targeting Effectiveness Ratio


Overview
The goal for supporting developing countries is to help them become economically stable and capable of supporting
their populations. USDA participates in this effort, along with other Federal agencies, such as the U.S. Agency for
International Development (USAID). Priorities include reducing hunger and malnutrition with sustainable,
productivity-enhancing technologies and supporting agricultural reconstruction in post-conflict or disaster areas.
USDA currently administers two food assistance grant programs: the McGovern-Dole International Food for
Education and Child Nutrition Program and the Food for Progress program. The beneficiaries under the
McGovern-Dole program are developing countries’ school children and their mothers. The program provides for
the donation of U.S. agricultural commodities and associated financial and technical assistance for pre-school and
school-based feeding programs. McGovern-Dole also authorizes the support of maternal, infant, and child
nutrition programs. Its purpose is to support a healthy young population necessary for a stable society and a capable
workforce. A healthy and literate workforce attracts jobs, supports a sustainable economy, and helps establish a
secure food supply through domestic production and imports.




                                                                                                                                                                       55
                                                             ANNUAL PERFORMANCE REPORT
All private voluntary organizations that offer food aid through McGovern-Dole conduct extensive operational and
results surveys; USDA evaluates the results to determine the programs’ effectiveness. Additionally, semi-annual
reports share results and challenges.
The Food for Progress program provides for the donation of U.S. agricultural commodities to developing countries
and emerging democracies committed to introducing and expanding free enterprise in the agricultural sector.
Priority is given to countries, with the greatest need for food, that are making efforts to improve food security and
agricultural development, alleviate poverty, and promote broad-based, equitable, and sustainable development.
Americans want a world in which all countries are stable. The 2002 National Security Strategy of the United States
recognizes that the root of a foreign threat is the lack of economic development, which often results in political
instability. For most developing countries, a productive and sustainable agricultural sector bolsters economic well-
being. Thus, agricultural development is crucial to the National Security Strategy.

Analysis of Results
The Food Aid Targeting Effectiveness Ratio (FATER) applied to USDA programs was 56.9 percent, which
exceeded the performance target. USDA entered into a process in 2007 that refined priorities for food assistance,
resulting in the selection of a set of priority countries more in line with the FATER process. USDA food assistance
programs are now making a greater impact because of the priority-country process. Programs are targeting
countries where food gaps are greatest, and commodities furnished under USDA food assistance programs are
making more of a difference; hence the higher FATER percentage.
Exhibit 18: Support Foreign Food Assistance

                                                                  2004         2005          2006         2007                      Fiscal Year 2008
      Annual Performance Goals, Indicators
                   and Trends                                                                                         Target          Actual           Result
 1.2.2    Food Aid Targeting Effectiveness Ratio                40-44%1       30-35%1      30-35%1 38%        35%          56.9%,            Exceeded
 1 Measure was new in FY 2007; FY 2004-FY 2006 figures are estimates.
 Rationale for Met Range: The FATER is based on the Food Security Assessment conducted by the Economic Reporting Service of USDA. For
 countries with greater food insecurity, there is a larger estimated food gap. FATER measures the effectiveness of USDA food aid in closing the gap. The
 higher the FATER score, the larger the percentage of the estimated food gap met by Department food aid. In countries with greater food insecurity, the
 FATER value would be relatively low because of large food gaps in those countries. The FATER value would be higher in countries with less food
 insecurity, where the food gaps are smaller. A target of 35 percent represents a balance of food aid programming across countries with greater and
 lesser levels of food insecurity.
 • Data assessment metrics to meet the target allow for an actual number in the range 30%-35%.
 Data Assessment of Performance Measure 1.2.2
 Data on quantities and use of food aid commodities of food aid are captured through the USDA Food Assistance Division database.
 • Completeness of Data—Data for successfully reporting on the effectiveness ratio is based on the annual provision and use of food aid. Total
    quantities of commodities and how these commodities are used by the beneficiary in the country of donation is compiled by the Foreign Agricultural
    Service and submitted to the Economic Research Service for analysis. Data includes food aid provided by USDA.
 • Reliability of Data—Data are reliable, of good quality and used by agency officials to highlight the success and impacts of food aid programs, and
    strengthen food security.
 • Quality of Data— Data for successfully verifying the quantities and use of food aid commodities in which USDA analyzes to show the effectiveness
    of food aid are captured through the USDA Food Assistance Division database. The outcome from the analysis also is further confirmed through a
    variety of credible sources, including:
         −   Reports from FAS and Department of State personnel at overseas posts;
         −   Program activity reports as provided by FAS partner organizations;
         −   Follow-on evaluations conducted by FAS;
         −   Reports from other USDA agencies, FAS offices, the Department of State, and the U.S. Agency for International Development;
         −   On-going assessment of the progress of projects; and
         −   Evaluation of activities by outside consulting firms.




 56
                                           FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
 Data Assessment of Performance Measure 1.2.2
 Data on quantities and use of food aid commodities of food aid are captured through the USDA Food Assistance Division database.
 • Completeness of Data—Data for successfully reporting on the effectiveness ratio is based on the annual provision and use of food aid. Total
    quantities of commodities and how these commodities are used by the beneficiary in the country of donation is compiled by the Foreign Agricultural
    Service and submitted to the Economic Research Service for analysis. Data includes food aid provided by USDA.
 • Reliability of Data—Data are reliable, of good quality and used by agency officials to highlight the success and impacts of food aid programs, and
    strengthen food security.
 • Quality of Data— Data for successfully verifying the quantities and use of food aid commodities in which USDA analyzes to show the effectiveness
    of food aid are captured through the USDA Food Assistance Division database. The outcome from the analysis also is further confirmed through a
    variety of credible sources, including:
      −    Reports from FAS and Department of State personnel at overseas posts;
      −    Program activity reports as provided by FAS partner organizations;
      −    Follow-on evaluations conducted by FAS;
      −    Reports from other USDA agencies, FAS offices, the Department of State, and the U.S. Agency for International Development;
      −    On-going assessment of the progress of projects; and
      −    Evaluation of activities by outside consulting firms.



Challenges for the Future
USDA faces similar challenges in meeting its food assistance targets as it does with maintaining or expanding or
maintaining market access. Uncertainty about WTO negotiations, rising food prices, and the rising cost of shipping
are major challenges. There are also weather and fuel issues and that cannot be predicted. The effect of pockets of
foreign opposition to biotechnology is also a challenge.
Higher commodity and freight costs are one factor contributing to a reduction in the amount of commodities
shipped under the Food for Progress and McGovern-Dole programs. To address these challenges, USDA is
continuing the “Stocks-for-Food Initiative,” in which Credit Commodity Corporation (CCC)-owned, bulk
commodities are bartered in exchanges with U.S. food processors to obtain additional, processed agricultural
products for USDA’s international food assistance programs.
OBJECTIVE 1.3: IMPROVED SANITARY AND PHYTOSANITARY (SPS) SYSTEM TO FACILITATE AGRICULTURAL TRADE

           Measure 1.3.1: Value of trade preserved annually through USDA staff interventions leading to resolutions of
                             barriers created by SPS or Technical Barrier to Trade (TBT) measures


Overview
                                                       Sanitary and Phytosanitary (SPS) measures are those imposed
                          Key Outcome                  by governments to protect human, animal, and plant health
                                                       from pests, diseases, and contaminants. USDA works closely
           An Improved Global SPS System for           with USTR and other agencies to pursue and enforce trade
             Facilitating Agricultural Trade           agreements to ensure that technical regulations and measures
                                                       are designed to enhance food safety and protect plant and
animal health not to become unjustified barriers to trade. USDA staff working on such issues in more than 90
countries includes veterinarians, economists, marketing experts, plant pathologists, and others.
The largest single technical trade issue was the normalization of beef trade after the market closures caused by
findings of Bovine Spongiform Encephalopathy (BSE) in the U.S. beginning in 2003. BSE is a chronic degenerative
disease that affects the central nervous system of cattle. The 2007 classification of the United States as “controlled
risk” for BSE by the World Organization for Animal Health (OIE) Scientific Commission affects U.S. efforts to


                                                                                                                                                     57
                                                           ANNUAL PERFORMANCE REPORT
regain market access. An OIE consistent agreement was reached with South Korea, which should restore access to
an $800 million market. Further, the Philippines set a standard for other Asian nations by fully complying with
OIE standards on beef and allowing complete market access for U.S. beef and beef products of all ages. U.S. beef
exports to the Philippines reached $6.3 million in 2006 when partial market access was achieved. Under this new
agreement, USDA estimates that U.S. beef exports to the Philippines could double. In addition, Egypt removed its
restrictions on sourcing product from animals imported by the U.S. from Canada. This could expand U.S. exports
to Egypt by $40 million. Discussions on beef continue with Japan, China, and Taiwan. Expanding access to the
Japanese beef market remains a priority. Key trading partners remain resistant to establishing science-based import
requirements based upon OIE standards due to political and social factors.
The Department addressed other SPS and TBT in 2008. Notably, USDA helped persuade Korea to implement its
requirements for living modified organisms in a less restrictive manner, which preserved U.S. corn and soybean
trade, valued at $1 billion annually. Also, of note were successful efforts to eliminate China's requirement for
testing biotech seeds that could have affected all U.S. soybean exports to China. USDA earned Taiwan's approval
of Agrisure corn, which made uninterrupted exports of U.S. corn to Taiwan possible. The Department also gained
the European Union's (EU) approval of four biotech corn products. This agreement restarted U.S. corn gluten feed
exports to the EU. Meanwhile, workshops conducted by USDA for parties to the Cartagena Protocol on Biosafety
helped prevent the adoption of liability and redress provisions; adoption would have imposed major financial risks
on agricultural suppliers.
The EU also lifted destination testing of U.S. long grain rice for the presence of a genetically engineered trait. This
development allowed the resumption of U.S. rice exports to the EU. USDA negotiations with Chile and El
Salvador resulted in the opening of those markets to U.S. poultry. In response to U.S. objections raised at a WTO
SPS Committee meeting, Malaysia dropped a requirement that would have imposed a $27,000-per-plant
inspection fee on international meat and poultry plants. The fee would have stopped U.S. meat and poultry exports.

Analysis of Results
The Department measures the value of trade preserved by resolving trade barriers arising from SPS and TBT
measures imposed by foreign governments. Trade issues and their impact on U.S. exports depend primarily on
foreign action, sometimes in response to events in the U.S., such as a livestock disease outbreak. Both the problems
and the solutions are unpredictable. Solutions can range from a quick agreement with officials at the port of entry
to a long negotiation process followed by a lengthy regulatory or legislative process in the country in question. The
impact of an action can range from a few thousand to billions of dollars. While USDA can establish priorities in
advance for known constraints, unforeseen events will occur that require realigning priorities.

                                          Selected Results in Research, Extension, and Statistics
          Economic Analysis of Sanitary and Phytosanitary Systems—Increased trade helps meet U.S. consumers’ growing demand
          for a variety of fresh and processed foods. Imports rose from 4.7 percent of the total value of U.S. food and beverage
          consumption in 1995 to 6.8 percent in 2005. The import share of certain categories of foods (such as fruits and vegetables) has
          grown at a faster rate. Unfortunately, increased agricultural imports could inadvertently introduce foreign pests and diseases. The
          resulting damage to domestic crops, livestock, and the environment can reduce or offset some of the trade benefits. In the Amber
          Waves article, Regulating Agricultural Imports to Keep Out Foreign Pests and Disease, USDA noted that, while increasing
          agricultural imports benefits U.S. consumers, shipments can transport harmful foreign pests and diseases. The U.S. and other
          nations use a number of approaches to reduce agricultural risks to prevent pests and diseases entering through trade.




 58
                                     FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Exhibit 19: Increase U.S. Export Opportunities

                                                                        2004          2005          2006           2007                     Fiscal Year 2008
         Annual Performance Goals, Indicators,
                      and Trends                                                                                                 Target          Actual           Result
 1.3.1    Value of trade preserved annually through USDA                $3,950        $2,000       $2,600         $2,457          $2,000         $7,316          Exceeded
          staff interventions leading to resolutions of barriers
          created by SPS or Technical Barrier to Trade
          (TBT) measures. ($ Million).
 Baseline: 1999 = $2,567
 Rationale for Met Range: The target for this measure is controlled by international parties. It reflects U.S. expectations for addressing compliance with existing trade
 agreements and resolving trade access issues that arise so that domestic exports can continue. A met or exceeded target reflects USDA successes in addressing these
 barriers. An unmet target may conceal that USDA monitoring activities prevented noncompliance.
 • Data assessment metrics to meet the target allow for an actual number in the range 1,500-2,000.
 Data Assessment of Performance Measure 1.3.1
 USDA uses a performance tracking system to collect and analyze actual performance data. The data are collected from the Department’s network of
 overseas offices and headquarters staff. The staff conducts trade compliance and enforcement activities, provides trade negotiation support to the U.S.
 Trade Representative.
 • Completeness of Data—Data for successfully retaining and assuring U.S. trade access to export markets are projected estimates based on results
    posted during the first three quarters of FY 2008.
 • Reliability of Data—Data are reliable and used by agency and Agency officials to highlight successes in the trade-policy arena.
 • Quality of Data—In addition to audits and internal control review of the performance tracking system, an established procedure is maintained to
    review each reported success for verification and the prevention of double counting.


USDA’s selection of this performance measure reflects the growing importance of addressing unjustified SPS
barriers in order to maintain or expand trade. As the U.S. Government continues to negotiate new bilateral,
regional, and multilateral trade agreements, the challenge will be to monitor and enforce compliance with both
trade and technical commitments. This monitoring will ensure that U.S. agriculture receives full benefits from
negotiated reductions in tariff rates by preventing needless SPS and technical trade barriers.
Challenges for the Future
Given the increasing global flow of food and agricultural products, the ability of foreign countries to develop and
implement sound, science-based regulatory systems is vital to the long-term safety of U.S. agriculture and our food
supply. U.S. agriculture benefits greatly from the development of transparent and science-based regulatory
frameworks in other countries. Besides monitoring and enforcing its rights under the WTO SPS agreement,
USDA is working to support the development and adoption of science-based international standards and SPS
regulatory systems. These efforts are critical to the Department’s ability to bring developing countries into the
global trading system, so they can support further liberalization through multilateral trade negotiations.

Strategic Goal 2: Enhance the Competitiveness and Sustainability of Rural and Farm Economies
Rural America is of critical importance to the Nation’s prosperity. USDA enhances the competitiveness and
sustainability of rural and farm economies by expanding domestic market opportunities, increasing the efficiency of
domestic agricultural production and marketing systems, and providing risk management and financial tools to
farmers and ranchers.
OBJECTIVE 2.1: EXPAND DOMESTIC MARKET OPPORTUNITIES

                              Measure 2.1.1: Number of Items Designated as Biobased for Federal Procurement




                                                                                                                                                                            59
                                                               ANNUAL PERFORMANCE REPORT
Overview
                      Key Outcome                      Agricultural and forestry resources provide renewable raw
                                                       materials for a broad range of non-food and non-feed
     Increased use of biobased products throughout the products. These products include chemicals, fibers,
       U.S. Government and increase the demand for     construction materials, lubricants, and fuels. The
                 agricultural commodities              development and commercialization of such biobased and
                                                       bioenergy products provide new and expanded markets for
agricultural feedstock, accelerate market penetration, reduce U.S. dependence on international oil, and diversify
agriculture while fostering rural and sustainable development. Such products are friendlier to the environment than
their petroleum-based counterparts.
Section 9002 of the Farm Security and Rural Investment Act of 2002 (FSRIA) authorized the Federal Biobased
Products Preferred Procurement Program (FB4P). FB4P, also called “BioPreferred,” is designed to increase the
Government’s purchase and use of biobased products. FSRIA requires Federal agencies to purchase biobased
products instead of their petroleum-based counterparts. The products bought must be readily available, reasonably
priced and comparable in performance. As the single largest consumer in the U.S., purchasing roughly $400 billion
annually in goods and services, the Federal Government's preferred use of biobased resources will help create new
jobs in rural communities and provide new markets for farm commodities.
The Departmental Administration is implementing BioPreferred through successive rulemakings. BioPreferred
authorizes the preferred procurement of biobased products that fall under items (generic groupings of products)
designated by rulemaking. Congress created BioPreferred to:
 Spur demand growth for new biobased products;
 Increase domestic demand for agricultural commodities;
 Encourage the development of processing and manufacturing in rural communities;
 Capture environmental benefits; and
 Enhance the Nation’s energy security.

The first final rule (round 1) was published March 16, 2006. Subsequently, three more rules (rounds 2, 3, and 4)
were published in the Federal Register in 2008. Once finalized, these rules will add 30 designated items. Five more
rounds of designations are in the approval process. There are five more planned rounds of rulemaking.
Technical information to support each proposed rule is available at the BioPreferred Web site, www.biopreferred.gov.

Analysis of Results
The Department measures the number of items designated as biobased products as a proxy measure until data is
available to directly measure USDA’s impact on sales of biobased products. USDA exceeded its targets for this
performance measure because three rules were published designating 33 items. BioPreferred is expected to increase
the use of biobased products within the Federal Government significantly. This increased usage, in turn, will
encourage the production of biobased products.
USDA continues to inform farmers and other consumers about the benefits of biodiesel fuel and other biobased
products. The Department works with the manufacturers and vendors of biobased products, who must provide the
material and data necessary to test and evaluate biobased content, environmental attributes, and life-cycle costs.
This information will allow USDA to designate generic groupings of products for preferred procurement within the
program.




 60
                                FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                   Selected Results in Research, Extension, and Statistics
              Specialty Crops Program Contributes to the Economy—The USDA-funded Interregional Research Project number 4 (IR-4)
              Project is a cooperative program with the Land-Grant University Experiment Stations. The project develops data to support and
              expedite regulatory clearances of newer, reduced-risk, pest-control products for specialty crop growers. A study by the Center for
              Economic Analysis at Michigan State University concluded that, including direct, indirect and induced effects, IR-4 contributes
              nearly $7.7 billion to annual U.S. gross domestic product. The project also supports the employment of 113,411 workers who earn
              $4.8 billion annually.
               “Green” Cleaning Agents—USDA researchers in Albany, California, developed biobased cleaning products, charcoal
              briquettes, odor-removing non-woven substrates and biodegradable cleaning substrates that are “flushable” and still effective at
              scrubbing. The use of eco-compatible plant polymers in cleaning products and charcoal creates greener, more economical
              products. It also aids the American farmer by opening new markets for surplus crops, reduces U.S. dependence on petroleum
              and minimizes the carbon footprint of single-use products.



Exhibit 20: Number of Items Designated as Biobased for Federal Procurement.

                                                                2004         2005         2006         2007                           Fiscal Year 2008
   Annual Performance Goals, Indicators,
                and Trends                                                                                              Target              Actual               Result
 2.1.1    Number of items designated as biobased                 n/a       Deferred         6             6
          for Federal procurement                                                                                          26                  33              Exceeded
 Numbers signify Items published as final rule in Federal Register. Increase in FY 2008 target reflects larger number of items to be designated in the year’s series of
 rulemakings.
 Rationale for Met Range: Based on a count of items for designation, the target is a number with no range.
 Data Assessment of Performance Measure 2.1.1
 The performance measure is the number of items included in final rule designations for the BioPreferred Program (formerly known as the Federal
 Biobased Preferred Procurement Program).
 • Completeness of Data—The performance data are complete and unambiguous. The performance indicator for reporting past performance is a
    straightforward counting of the number of items included in final rule designations. Projections are based on “rule designations” in process.
 • Reliability of Data—The information is reliable. There is no subjectivity or ambiguity in determining the measure’s value.
 • Quality of Data—The quality of the data is very high due to its reliability. The data for projections are more ambiguous as they incorporate “rule
    designations” in process and expected progress by multiple Federal agencies in the process of designating additional rules. The performance
    measure, “items” included in final rule designations does not reflect the amount of BioPreferred program work. Multiple stakeholders and Federal
    agencies are involved. In addition, there are technical demands in reporting information and support of the program not reflected in the measure.



Challenges for the Future
USDA is addressing the challenge of marketing BioPreferred products by encouraging vendors to voluntarily post
product and contact information on the program Web site at www.biopreferred.gov. This will allow Federal
agencies to find biobased products for procurement.
USDA is developing a model procurement program for Federal agencies to help them meet their responsibilities
within the program’s parameters. The program will educate and help Federal agencies, manufacturers and vendors.
The Department seeks to better measure the increase in demand for biobased products as it seeks data and studies
to support enhanced performance measurement and management.
OBJECTIVE 2.2: INCREASE THE EFFICIENCY OF DOMESTIC AGRICULTURAL PRODUCTION AND MARKETING SYSTEMS

                      Measure 2.2.1: Timeliness: Percent of time official reports are released on the date and time
                                                     pre-specified to data users



                                                                                                                                                                          61
                                                                ANNUAL PERFORMANCE REPORT
Overview
                         Key Outcome                      USDA supports sound decision-making about agriculture by
                                                          providing readily available, accurate data, and assessments.
      Agricultural Producers Who Compete Effectively      The Agricultural Statistics Board (ASB) prepares and issues
                  in the Economic Market                  official national and State forecasts and estimates relating to
                                                          numerous agricultural subjects. ASB covers crop production,
stocks of agricultural commodities, livestock products, dairy products, poultry products, agricultural prices,
agricultural wage rates, chemical usage, and other related subjects. The reports calendar lists release dates and
specified times for USDA’s national agricultural statistics reports. These reports cover more than 120 crops and 45
livestock items. All 428 of the agricultural statistics reports, except for 2 scheduled by ASB, were released on time
to achieve the 99.5-percent performance target in FY 2008.

Analysis of Results
USDA seeks to enhance agricultural competitiveness by providing timely data, which is measured by the percentage
of statistical reports released on time. USDA did not meet its performance target of 100 percent. USDA was unable
to release two reports on time. One provider delivered data late for one report, and USDA experienced technical
difficulties with the second report.
USDA strives to release its ASB reports on time 100 percent of the time each year. It is imperative to deliver high-
quality, objective, relevant, timely and accurate statistics to producers, and other data users. Such statistics allow
users to make sound decisions. Official agricultural statistics promote a level playing field in production agriculture
with impartial information available to all at a publicized time. These data, provided throughout the year, are
important to the commodity and agricultural markets. They help provide a fair and equitable environment. Public
officials use the data to make informed decisions. USDA policymakers and Congress use this information to help
build a strong sustainable farm economy.


                                            Selected Results in Research, Extension, and Statistics
           Healthy Bee Populations—U.S. honeybees are important agricultural workers, pollinating an estimated $15 billion worth of fruit,
           seed, and fiber crops annually. In response to their declining population, a USDA-funded project team in Arizona developed a
           nutritional supplement, called MegaBeeTM. Colonies fed the nutritious “bee smoothie” retained 30 percent more adult bees and
           more efficiently converted food for young bees. MegaBeeTM increased adult bee populations and colony pollination.
           Increase Poultry Production—USDA-funded research at the University of Arkansas developed methods being implemented by
           the two largest poultry integrators in the Nation. Nearly half of all broilers produced in the U.S. have been produced utilizing these
           new methods for storing eggs during hatching. A 1-2 percent increase in hatchings across the U.S. would produce 2.5 to 5 million
           more chicks per week by the end of the year, This rise would result in a potential net increase of $1.25 million in direct chick-cost
           savings.
           Provide New Genetic Resources To Protect Corn From Genetic Vulnerability—While corn is the most widely grown domestic
           crop, it has a narrow genetic base. An expanded genetic base protects crops from new diseases and pests. USDA scientists in
           Ithaca, New York; Raleigh, North Carolina; and Columbia, Missouri, have produced more than 5,000 diverse corn lines to
           determine how complicated agronomic traits are genetically controlled in any species. The researchers broke down the lines to
           produce basic genetic maps using more than 18 million data points. This project will provide an unparalleled understanding of the
           number, location, and agronomically valuable gene forms that can be exploited for corn improvement.
           Provide Statistical Data to Promote Efficient Domestic Agricultural Production and Marketing Systems—USDA
           collaborates with the United Soybean Board (USB), supplying it with soybean samples from 11 States. USDA analyzes the
           samples to determine such variables as oil and protein content. These analyses help determine the quality of soybeans produced
           in the U.S. Researchers also compare them with those grown in other countries. This process helps USB provide analyses back
           to USDA for research.




 62
                                       FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
             Commodity Programs and Farm Structure—USDA examined the links between commodity payments and the changing
             structure of production for program commodities. Production is shifting to larger farms. The report assesses the pace of those
             shifts. It also identifies a strong relationship between commodity payments and shifts of production: those locations with the
             highest commodity payments per acre also have the most rapid consolidation of production into larger enterprises. The statistical
             relationship is large and pervasive. The report assesses several alternative explanations for the relationship.


Exhibit 21: Agricultural Statistics Reports Released On-Time

                                                               2004        2005        2006         2007                       Fiscal Year 2008
  Annual Performance Goals, Indicators, and
                  Trends                                                                                            Target            Actual            Result
 2.2.1   Timeliness – Percent of time official reports         99.4%       99.8%      100.0%       100.0%           100.0%             99.5%            Unmet
         are released on the date and time pre-
         specified to data users
 428 official reports were published in FY 2008.
 Rationale for Met Range: The target is a number with no variance. Any result less than 100% is considered unmet. This measure cannot be designated as exceeded.
 Data Assessment of Performance Measure 2.2.1
 The Agricultural Statistics Reports provide statistics to producers and data users. Other stakeholders use the data to make informed decisions and
 impact the commodity and agricultural markets.
 • Completeness of Data—The data are considered complete as of September 30, 2008.
 • Reliability of Data—The data are considered reliable and is supported by multiple data sources, public, and private. The data undergo extensive
   review and checks to ensure proper reporting.
 • Quality of Data—Data are obtained from farm and ranch operators, agribusinesses such as grain elevators, shippers, processors, and commercial
   storage firms. Scientifically designed sampling methods are used to determine the operations to be included in each survey. The national
   Agricultural Statistics Service (NASS) also maintains an area sampling frame, essentially the entire land mass of the United States. Detailed
   information on reports may be found at: http://www.nass.usda.gov/About_NASS/index.asp.



Challenges for the Future
Collecting and preparing large volumes of Agricultural data for the Department involves multiple stakeholders and
deadlines which may affect timely reporting. Delayed data collection from sources and unanticipated technical or
other difficulties impact timeliness.

           Measure 2.2.2: Percent of market-identified quality attributes for which USDA has provided standardization


Overview
                            Key Outcome               USDA facilitates the marketing of agricultural products in
                                                      domestic and international markets. The Department’s
    Economically Sound Agricultural Production Sector programs enhance the marketing and distribution of
                                                      agricultural products which benefits producers, traders, and
consumers of U.S. food and fiber products. Activities include:
 Disseminating market information;                        Developing organic standards and managing the
 Implementing and monitoring the Country of                  National Organic Program (NOP);
   Origin Labeling (COOL) Program;                         Conducting research, providing technical
 Purchasing specialty crops, meats, fish, and poultry        assistance, and establishing grants aimed at
   products that are provided to USDA nutrition               improving efficiency of food marketing and
   assistance programs;                                       distribution;



                                                                                                                                                                   63
                                                            ANNUAL PERFORMANCE REPORT
     Monitoring egg handling operations;                    Sampling and testing commodities for pesticide
     Developing commodity grade standards;                   residues and pathogens:
     Protecting producers from unfair marketing             Verifying pesticide recordkeeping; and
      practices;                                             Providing grading, certification, and audit
                                                              verification services to confirm marketing claims.
USDA improves market competitiveness and increases the efficiency of agricultural marketing systems through its
Market News program. Market News gathers and publishes price and other market data on specific agricultural
commodities. This timely, accurate, and unbiased market information covers local, regional, national, and
international markets.
NOP develops, implements and administers national production, handling and labeling standards for organic
agricultural products. It also accredits the certifying agents (domestic and international) who inspect organic
production and handling operations to certify that they meet USDA standards. Through these regulatory activities,
consumers may be assured that organically produced products meet a consistent standard. The activities also show
that the market can conduct commerce in fresh and processed food produced organically. The program provides the
infrastructure needed for an efficient and competitive system for the marketing of organic agricultural products.
During FY 2008, USDA reorganized NOP into three branches: Standards Development and Review;
Accreditation, Auditing, and Training; and Compliance and Enforcement. NOP worked closely with the National
Organic Standards Board (NOSB) and the rapidly expanding organic agriculture industry to strengthen operations
and communication. NOSB is charged with assisting the Secretary of Agriculture in developing standards for
substances to be used in organic production. Both NOP and NOSB looked to refine the definitions and
requirements for organic production and labeling. On July 14, 2008, USDA issued a proposed rule to amend the
legislatively mandated National List of Allowed and Prohibited Substances regulations. The changes reflected
recommendations submitted to the Secretary by NOSB.
Farmers markets allow consumers to buy locally grown farm-fresh produce. They also allow farmers to develop
personal relationships with their customers and gain their loyalty. To aid small farmers and the agriculture
community, USDA marketing experts provide technical advice and assistance to States and municipalities
interested in creating or upgrading wholesale market facilities, auction and collection markets, and retail farmers
markets.
Since 2006, many States have used specialty crop block grants funding for marketing programs to enhance the
competitiveness of these commodities. Some of these specialty crop programs promote State-grown products.
Specialty crops are defined as fruits and vegetables, tree nuts, dried fruits, and nursery crops (including floriculture).
All 50 States, the District of Columbia and the Commonwealth of Puerto Rico are eligible to participate.
Mandatory COOL labeling began in 2008 for beef and veal, lamb, pork, fish, chicken, goat, macadamia nuts,
pecans, ginseng, perishable agricultural commodities, and peanuts. The program includes activities related to
quality assurance, regulations, protocols, general administration, and program management. The 2008 Farm Bill
amended COOL to require retailers to notify their customers of the country of origin of an expanded list of food
products. The Farm Bill also added provisions for labeling products of multiple origin and specifications for
international compliance.
Additionally, the 2008 Farm Bill increased how much USDA will spend on fresh fruits, vegetables, and nuts to
provide nutritious foods for schools and service institutions participating in domestic nutrition-assistance programs.
Dietary Guidelines for Americans recommends increasing fruit and vegetable consumption. Since USDA’s nutrition
assistance programs reach 20 percent of Americans, this change will provide readily accessible servings of fruits and
vegetables to low-income populations and schools.



 64
                               FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Setting official standards for agricultural products and regulating and monitoring them enhance the marketing and
distribution of agricultural products. For example, USDA establishes the official U.S. standards for grain; conducts
official weighing and grain inspection activities; and grades rice, dry beans and peas, processed grain products, and
hops. USDA also establishes official U.S. Standards, specifications, and marketing claim descriptions for cotton,
dairy products, fruits, vegetables, other specialty crops, meat, poultry products, and eggs.

Analysis of Results
When new standards are needed, USDA initiates a process to develop and implement the standards. Measuring the
number of standards developed by the Department to meet market needs indicates how USDA is performing in its
efforts to support a sound agricultural sector in the economy. USDA accomplished its standards development goal
for FY 2008 by publishing quality standards for Llama/Alpaca Meat and Caprine Meat Carcasses and Cuts. These
standards were developed in conjunction with the United Nations Economic Commission for Europe (UNECE).
The purpose of these UNECE standards is to facilitate trade for meat products by an internationally recognized
description for use between buyer and seller for meat items commonly traded internationally. They also establish
and define a coding system for communication and electronic trade.
USDA issued revised U.S. Standards for Grades of Potatoes, Pineapples, and Tomatoes on the Vine. USDA also
proposed revised U.S. Standards for Beef Greens, Carrots, Frozen Okra, and Table Grapes (European or Vinifera
Type). The U.S. Standards for Grades of Olive Oil and Olive-Pomace Oil, and the U.S. Standards for Grades of
Frozen Onions are slated for publication in FY 2009.
USDA also developed three quality assessments for grain:
 A rapid, field-based test for Ochratoxin A, a mycotoxin which can occur in wheat and barley;
 Official inspection services for Blue Corn; and
 Amendments to the U.S. Standards for Sorghum.

Mycotoxins are produced by various fungi and can endanger humans and animals when consumed. Because many
U.S. trading partners have established tolerance levels for mycotoxins, USDA has approved rapid tests for use in its
official inspection system to certify toxin levels and facilitate grain trade.
The Department also established official inspection services for blue corn under the U. S. Grain Standards Act
(USGSA) at the request of blue corn producers. USGSA is designed to facilitate the marketing of grain, oilseeds,
pulses, rice, and related commodities. Additionally, the Department has laid the groundwork for additional colors
of specialty corn, such as red and purple, if they come into the market.
USDA revised the United States Standards for Sorghum to amend:
 The definitions of the classes of sorghum;
 The definition of non-grain sorghum;
 The grade limits for broken kernels and foreign material;
 The grade limits for the subfactor foreign material;
 The total count limit for other material into the standards; and
 The method of certifying test weight.

All changes were made in response to requests from the market. They were announced and finalized through the
public rulemaking process. The revised standards will promote the marketing of higher quality sorghum. They offer
better descriptions of the types of grain sorghum produced by American farmers. The standards also reduce the
allowable levels of broken sorghum kernels and foreign material in the various quality grades of sorghum.




                                                                                                                  65
                                          ANNUAL PERFORMANCE REPORT
Exhibit 22: Percent of market-identified quality attributes for which USDA has provided standardization

                                                                 2004         2005         2006           2007                      Fiscal Year 2008
  Annual Performance Goals, Indicators and
                  Trends                                                                                                Target           Actual              Result
 2.2.2   Percent of market-identified quality attributes          96%          96%          94%          95.7%            97%             98%                Exceeded
         for which USDA has provided standardization
 Rationale for Met Range: The target is a number with no variance. Any result greater than or less than 97% is considered unmet or exceeded, respectively.
 Data Assessment of Performance Measure 2.2.2
 The development of quality standards is a complex, multi-stage process requiring extensive review and discussion with the client industry. Thus, yearly
 milestones have been established for completing of the standards development process. For Agricultural Marketing Service (AMS), the development of
 a new standard requires a great deal of research into a wide range of activities, including: 1) a study of the product to determine the quality factors
 involved and the range of quality produced; 2) an investigation into the production practices in major producing areas, varieties or types of production,
 packing, processing techniques, and consumer-buying practices; 3) a statistical plan for sampling product; and 4) interviews with producers, packers,
 processors, shippers, receivers, consumers, and scientists.
 • Completeness of Data—Data used in conjunction with performance information are based on information reported by the Grain Inspection, Packers
    and Stockyards Administration (GIPSA) and each Commodity Standards Branch: Cotton,Tobacco, Dairy, Fruits and Vegetables, Livestock and
    Seed, and Poultry – through the end of the third quarter of the reporting year, and a projection for the fourth quarter of the fiscal year based on prior-
    year performance. The Department also calculates the quarterly and annual results based on a statistical model of percentage of goal attained by
    the AMS and Grain Inspection, Packers and Stockyards Administration for standards development.
 • Reliability of Data—The data are reliable because of extensive research and field testing. These tests are used to adjust the standard or
    specification until it is an accurate measure of the commodity. It is then made available for review and comment in the Federal Register by industry
    stakeholders, clients, and customers. Performance shortfalls may occur if resources are limited or if the standard under development is
    controversial.
 • Quality of Data—Data are projected based on industry requirements, program plans, and historical performance trends. The target information uses
    data dependent upon the baseline projections from AMS Commodity Standards programs. To the extent that any of the USDA projections are
    inaccurate, the projection of value also will be inaccurate.


Challenges for the Future
Keeping up with changes in consumer demand, domestic and international marketing practices, and new
technologies present challenges for USDA. New legislation may introduce the need to modify or add standards.
Standards bodies are another source of new or modified standards. USDA must react quickly to these changes
while continuing to monitor the entities that follow these standards.
OBJECTIVE 2.3: PROVIDE RISK MANAGEMENT AND FINANCIAL TOOLS TO FARMERS AND RANCHERS

                   Measure 2.3.1: Increase the normalized value of risk protection provided to agriculture producers
                                                 through FCIC-sponsored insurance

Overview
USDA provides and supports cost-effective means of managing risk for agricultural producers. This assistance is
designed to improve the economic stability of agriculture. It assesses the producers’ need and develop a variety of
suitable risk-management tools. These tools help farmers and ranchers protect their livelihood in times of disasters
or other uncontrollable conditions. USDA uses the value of risk protection to measure the effectiveness of risk
management. The value of risk protection denotes the amount of insurance used to protect and stabilize the
agricultural economy.
The USDA Federal Crop insurance program provides an actuarially sound risk management program to reduce
agricultural producers’ economic losses due to natural disasters. This program is available to producers solely
through private insurance companies. These companies market and provide full service on policies upon which they


 66
                                           FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
share the risk with USDA. A Standard Reinsurance Agreement (SRA) defines the amount of risk they share. The
SRA calls for insurance companies to deliver risk-management insurance products to eligible entities under certain
terms and conditions. Companies are responsible for all aspects of customer service and guarantee payment of
producer premiums to the Federal Crop Insurance Corporation (FCIC). In return, FCIC reinsures the policies and
provides premium subsidy to producers. It also reimburses for administrative and operating expenses associated
with the companies delivering the insurance products. During most of 2008, the number of participating companies
totaled 16 with another company approved effective July 1. The value of risk protection provided over the past year
to agricultural producers through FCIC-reinsured policies exceeded $88 billion in 2008 dollars. This amounts to a
three-fold increase in program liability during the last decade.
USDA also has implemented several initiatives to increase awareness and service to small and limited resource
farmers and ranchers and other under-served groups and areas. Through partnership agreements, the Department
provides a venue for public and private agricultural organizations, land grant colleges and universities community
based organizations, farmers and ranchers, and other stakeholders. USDA also partners with community-based
organizations, and Hispanic Serving Institutions. These partnerships provide technical program assistance and risk-
management education on strategies associated with legal, production, marketing, human resources, and labor risks.

Analysis of Results
Agricultural producers need protection from the multiple perils of weather, disease, wildlife, wildfire and market
volatility. For producers who experience severe losses, crop insurance proceeds can prevent mortgage defaults or
bankruptcy. USDA continued to assess producers’ needs and private risk-management tools to ensure that new and
innovative alternatives are available that result in increased program participation. Measuring the amount of risk-
protection offered to agricultural producers demonstrates how the Department helps provide a sound agricultural
economy by protecting its members from severe economic losses.
USDA exceeded its target by $0.3 billion in FY 2008. During the 2008 crop year, the economic risk of American
agricultural producers dropped by approximately $88.5 billion (liability) through Federal crop insurance coverage.
The performance measure illustrates the normalized/real dollar value of FCIC insurance within the agricultural
economy. It also shows the amount of potential collateral provided to qualify for commercial loans. Since the 1999
crop year, the normalized value of the liability of the policies has increased by approximately $19 billion. While
there are a number of factors that influence these figures, including market-price increases and inflation, they still
represent a major growth in the amount of the agricultural economy insured via FCIC-reinsured policies.
USDA has significantly increased the value of risk protection through FCIC-reinsured policies since FY 2000. The
Department continues to work closely with insurance companies that market and provide full service on crop
insurance policies. It researches and develops new products that address the needs of producers. USDA has
partnered with State departments of agriculture, universities, and farm organizations to deliver regionalized risk
management education programs for producers in the historically underserved States, and for specialty crop
producers. Due to these efforts, the Federal Crop Insurance Program should continue to provide actuarially sound
risk-management solutions to strengthen and preserve the economic stability of American agricultural producers.


                                         Selected Results in Research, Extension, and Statistics
          Adoption of Farm Management Tools—With USDA funding, Pennsylvania Extension teaches the use of farm financial-
          management tools. Armed with this knowledge, 1,668 participants in Pennsylvania indicated that they had implemented or
          adopted business plans, market research, decision-making tools, risk-management practices, and/or human resource
          management practices. With the extension’s help, another 1,328 indicated that they implemented or adopted sustainable
          agriculture or nutrient management practices and methods on their farm.




                                                                                                                                   67
                                                    ANNUAL PERFORMANCE REPORT
              Credit: Access, Constraints, and Implications for Farms and Sole Proprietorships—USDA’s Agricultural Resource
              Management Survey asked farmers about their use of debt. If the response was that debt was neither used in purchasing capital
              items nor acquiring operating inputs, a follow-up question asked why the operation did not take out loans or use a line of credit. A
              range of responses was allowed that extended from self-financing due to the sufficiency of available funds, to transaction costs,
              risk associated with debt, and the inability to obtain new or additional credit. Questions have also been asked to inquire whether a
              producer’s credit application has been rejected or reduced in amount. Initial research using these data is underway.



Exhibit 23: Providing Risk Management Tools to Farmers and Ranchers Economically Viable

                                                                                 2004         2005        2006          2007                  Fiscal Year 2008
      Annual Performance Goals, Indicators and Trends                                                                                Target         Actual      Result
 2.3.1   Increase the normalized value of risk protection provided to            $43.0        $45.3       $48.7         $50.7         $53.7          $51.01      Met
         agriculture producers through FCIC-sponsored insurance
         ($ Billion)
 As of October 2, 2008.
 New methodology described in the Analysis of Results has produced revised figures for previous years.
 1The total value in 2008 dollars is $88 billion.

 Rationale for Met Range: Annual targets for this measure, based on five years of program history, have consistently seen a variability of plus or minus 4.4.
 Data Assessment of Performance Measure 2.3.1
 The value of risk protection denotes the amount of insurance protecting and stabilizing the agricultural economy. The target is based on projections
 developed in November 2003. The baseline model uses the latest information from the crop insurance program and combines it with USDA baseline
 projections for major crops. In making the projections, the model holds various factors constant, such as premium rates and average coverage level. The
 model assumes that all non-major crops behave consistently with projections for major crops. The liability from the baseline projection is adjusted to
 remove the effect of year-to-year variations in price to produce “normalized liability” projections. The reference price used for the normalization is the
 average commodity price from 2002 to 2006. The baseline model is a tool for developing budget projections contained in Presidential budget requests.
 The budget and performance projections for the crop insurance program mainly depend on the baseline projections from numerous USDA agencies.
 • Completeness of Data—The data used in conjunction with performance information are based on information reported through the end of the third
    quarter. To provide the annual data, USDA projects the results for the fourth quarter of the fiscal year based on prior-year performance. Analysis has
    shown that normally 99 percent of the final actual data will be reported to USDA during the first quarter of the next fiscal year. The Department
    receives the actual data from insurance companies. It then maintains data through two integrated processing systems that validate the information
    transmitted by insurance companies. The data then are sent through the system to generate all accounting functions. These processing systems
    provide a mechanism to ensure that data received are accurate, errors are corrected quickly, and timely monthly accounting reports are provided.
    Reliability of Data—USDA deems this information to be reliable. The insurance companies receive data from the producers and transmit them to
    USDA. Once received, the Department takes extensive steps to verify the data’s accuracy and validity. The SRA also provides reinsured companies
    with disincentives for not following prescribed guidelines and procedures. A recent audit by the Office of the Inspector General (OIG) (see Audit OIG-
    05099-111-KC, under Goal 2 in the Program Evaluations section) found that the Risk Management Agnecy (RMA) information technology
    environment might be vulnerable to errors, misuse, abuse, unauthorized access, disruption of service, and willful destruction. RMA generally agreed
    with these findings and has implemented memorandums of understanding with their information partners with procedures to ensure reliable data.
 • Quality of Data—Data are projected based on historical performance and the target information uses information dependent upon the baseline
    projections from numerous USDA agencies. The accuracy of the projections directly affects the accuracy of the projections of value.


Challenges for the Future
USDA’s challenge is to continue expanding and improving insurance coverage and other risk-management
solutions, particularly for underserved States, areas, communities, and commodities. The Department needs to
address the management and financial information technology costs associated with operating and maintaining
existing program data needs. These systems and technologies also service new and revised products. USDA
continues to research how to deliver more crop and livestock products suited for a diverse agriculture and cover
specialty crops with unique agronomic and economic characteristics. This research includes reviewing and
approving private-sector insurance products reinsured by FCIC that are targeted to the unique needs of
underserved areas and various specialty crops. The Department also continues to evaluate the delivery of risk
management products to ensure their efficient delivery to agricultural producers. To further contribute to the


 68
                                             FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
producers’ ability to protect their financial stability, USDA will continue to provide education, outreach, and non-
insurance risk management assistance initiatives, and tools through partnerships.

                   Measure 2.3.2: Increase the percentage of eligible crops with Noninsured Crop Disaster Assistance
                                                      Payments (NAP) coverage

Overview
                            Key Outcome                                        Farmers must have access to timely and accurate information.
                                                                               Without it, they will not be able to compete in a rapidly
    Economically Sound Agricultural Production Sector                          growing marketplace. USDA provides farmers with the risk
                                                                               management and financial tools needed to minimize risk and
enhance their operations.
To help maintain the economic stability of agriculture, USDA has programs that reduce the volatility of price and
climate fluctuations. Stable commodity supplies and prices assure an affordable supply of food for the Nation. In
times of natural disaster, the Department also administers emergency loan and disaster relief programs to return
farms and ranches to their pre-disaster state as quickly as possible. USDA’s NAP provides financial assistance to
producers of non-insurable crops when natural disasters cause low yields or inventory loss, or prevent planting.
Those eligible for assistance through NAP are landowners, tenants, or sharecroppers who share in the risk of
producing an eligible crop. Eligible crops must be non-insurable agricultural commodities for which there is no
available crop insurance. By obtaining NAP coverage, producers are able to provide some level of assurance to
lending institutions that USDA will assume a portion of the insurance risk.

Analysis of Results
This measure, like the previous one, shows performance in providing a sound agricultural sector by helping mitigate
severe losses. USDA did not met its target for increasing the percentage of eligible crops with NAP coverage.
Participation in the program was lower because prior ad hoc disaster legislation mandated participation in NAP as a
precondition for receiving disaster payments. However, producers who had not purchased NAP were allowed to
participate in the disaster program if they agreed to purchase NAP for the following two crop years. This legislative
requirement expired with the 2007 crop; therefore, producers dropped out of the fee-based NAP program, resulting
in a drop in enrollments. Also, the NAP measure uses proxy data derived from claims made on the 2007 crop
year. NAP payments for the 2007 crop year were roughly half what they had been the prior year due to generally
favorable weather conditions. In low loss years the use of a proxy measure may result in underreporting the actual
performance of the program. Further, the program has documented increased enrollment for FY 2008 and should
trend upwards in the next fiscal year due to the requirement in the 2008 Farm Bill that a producer must have
obtained a policy or plan of insurance or NAP coverage to maintain eligibility for four of the five new standing
disaster programs.
Exhibit 24: Providing Tools to Help Farmers and Ranchers Stay Economically Viable

                                                                   2004         2005        2006          2007                        Fiscal Year 2008
  Annual Performance Goals, Indicators, and
                  Trends                                                                                                   Target             Actual             Result
 2.3.2   Increase percentage of eligible crops with               11.12%      12.82%       12.70%        11.76%           11.76 %              7.2%1             Unmet
         Noninsured Crop Disaster Assistance
         Payments (NAP) coverage
 • Estimated results as of September 30, 2008.
 • The target and threshold represents the value of crops participating in the program compared to the universe of the value of crops eligible to participate in the NAP
    program.
 Rationale for Met Range: Data assessment metrics to meet the target allow for an actual number in the range 10.76%-12.76%.




                                                                                                                                                                           69
                                                               ANNUAL PERFORMANCE REPORT
 Data Assessment of Performance Measure 2.3.2
 • Completeness of Data—The data are estimated as of September 30, 2008.
   Reliability of Data— The Farm Service Agency (FSA) collects performance information from key program partners that it uses to manage NAP and
   improve performance. RMA conducts numerous edit checks of its source data. NASS’ review of its data includes peer review. FSA correlates RMA
   and NASS data to NAP. It uses a simple formula approved by the Office of Management and Budget in the NAP Program Assessment Rating Tool
   process. External factors which contribute to and impact the program’s performance data include natural disasters, crop eligibility, legislated linkage
   requirements, and commodity price fluctuations. While the participation rate may fluctuate from year to year, the program is on track towards
   meeting long-term targets. The 2008 Farm Bill links eligibility requirements to receive disaster benefits to NAP participation.
 • Quality of Data—Data reviews for integrity and accuracy are conducted by FSA and its partner agencies. It is considered to be of high quality.


Challenges for the Future
Because of the volatile nature of the market and the unpredictability of natural disasters, USDA regularly reviews
NAP and other farm support programs in keeping with legislation to provide effective, customer-focused programs.
Information technology and infrastructure modernization also pose an ongoing challenge to the Department.
Significant costs are associated with providing adequate technical assistance to support USDA programs and
management.


                    Measure 2.3.3: Increase percentage of beginning farmers, racial and ethnic minority farmers,
                                              and women farmers financed by USDA


Overview
USDA Farm Loan Programs (FLP) provides loans and loan guarantees to eligible farmers and ranchers. The
programs are designed to promote, build, and sustain family farms, which help support a thriving agricultural
economy. Department assistance is particularly important to minorities, women, and beginning farmers. These
groups typically have limited financial assets or limited farming experience. Barriers to entering production
agriculture are quite high, and include the initial capital investment, high land values, and increasing input costs.
Beginning farmers, minorities, and women are particularly impacted by these barriers. Access to credit is an
important tool in overcoming the barriers and allowing these groups to begin or maintain a farming operation.

Analysis of Results
USDA met the performance measure target. The Department currently provides agricultural credit to more than
16.2 percent of the Nation’s minority, women, and beginning farmers. This credit includes direct and guaranteed
farm ownership and operating loans. Farm ownership loans are used to purchase farm real estate, enlarge existing
farms, construct or improve farm structures, and improve the environmental soundness of farms. Farm operating
loans are used for normal operating expenses, equipment, machinery and livestock purchases, and refinancing
existing debt. In FY 2008, USDA provided an estimate of 15,273 loans to the targeted groups – roughly $1.63
billion. USDA currently has 44,343 minority, women, and beginning farmers in its loan portfolio, a 33 percent
increase since FY 2000. This is a significant accomplishment when considering that the overall loan portfolio has
declined during that time period.




 70
                                        FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Exhibit 25: Providing Tools to Help Farmers and Ranchers Stay Economically Viable

                                                               2004        2005        2006         2007                        Fiscal Year 2008
     Annual Performance Goals, Indicators, and
                     Trends                                                                                         Target           Actual         Result
 2.3.3    Increase percentage of beginning farmers,           14.50%      15.00%      15.50%        15.9%               16.5%        16.22%1          Met
          racial and ethnic minority farmers, and
          women farmers financed by USDA
 1Estimated as of September 30, 2008.
 Rationale for Met Range: Data assessment metrics to meet the target allow for an actual number in the range 16%-17%.
 Data Assessment of Performance Measure 2.3.3
 FLP data reside in the Program Loan Accounting System, Guaranteed Loan System, Direct Loan System, and FLP Databases. Information obtained
 from the 2002 Census of Agriculture is also used for this performance measure. The measure is calculated by taking the total number of minority,
 women, and beginning farmers in the loan portfolio and dividing it by the number of members of those three groups listed in the 2002 Census of
 Agriculture with at least $10,000 in sales (this sales figure excludes hobby farms, which are not the intended market for FLPs).
 • Completeness of Data—Data reported will be considered final as of September 30, 2008.
    Reliability of Data—Data are considered reliable. System enhancements and built-in edits, coupled with comprehensive internal control review
    programs help ensure data reliability and quality. Census of Agriculture data are considered reliable. However, the resulting percentage reported
    likely understates the importance of USDA's service to these targeted groups. It does not account for how many of these farmers would meet
    USDA's test for credit. Given that less than 50 percent of farm operators have any debt, it is unlikely that all of the targeted farm operators identified
    in the census would meet the credit test. Despite this limitation, these data are the best available for estimating USDA's performance in reaching the
    targeted groups.
 • Quality of Data—FLP data is of high quality. Most FLP data originate from accounting systems, which are subject to OIG audit. FLP data are
    collected for multiple purposes and gathered throughout the normal lending process. Data derived from the 2002 Census of Agriculture were
    developed in FY 2006 and will be used until the next census is completed.


Challenges for the Future
The structure of U.S. agriculture continues to change as most farms become larger and increasingly dependent on
technology, resulting in increased capital needed to gain entry into farming. The costs of operating a farm continue
to increase because of higher input costs. These factors result in significant barriers and challenges for the groups
that the USDA farm loan programs are intended to assist. To keep pace, USDA will continue efforts to modernize
the program delivery system and refine and adjust program requirements to maximize opportunities for our nation's
minority, women, and beginning farmers.




                                                                                                                                                             71
                                                            ANNUAL PERFORMANCE REPORT
Strategic Goal 3: Support Increased Economic Opportunities and Improved Quality of Life In Rural America
OBJECTIVE 3.1: EXPAND ECONOMIC OPPORTUNITIES BY USING USDA FINANCIAL RESOURCES TO LEVERAGE PRIVATE SECTOR RESOURCES
AND CREATE OPPORTUNITIES FOR GROWTH


                                              Measure 3.1.1: Jobs Created or Saved


Overview
                                                           USDA’s programs help finance rural businesses and promote
                       Key Outcome
                                                           opportunities for economic growth as measured by jobs
      Enhanced Capital Formation for Rural Communities     created and saved.
                                                         One of USDA’s core missions is to ensure that rural residents
can enjoy the same economic opportunities other Americans do. This is not a simple mission. Credit limitations
and other market imperfections can prevent rural economies from creating jobs and generating incomes sufficient to
allow rural families to thrive. These factors also deter rural youth from staying in local communities. To address this
issue, USDA programs provide capital enhancement tools for rural America. These programs provide affordable
access to funding for investment in businesses and economic infrastructure.
The development of an Internet-based economy provides unique opportunities for rural America. A rural
broadband infrastructure can ease many limitations on rural business development caused by geographic distance
and a small local customer base. Thus, USDA is providing capital to finance access to broadband service for rural
communities. Internet access is critical to enable rural businesses to participate in the developing global economy.
The Department’s grant programs provide funds to under-resourced rural communities. The funds help improve
local infrastructure or expertise to be more attractive to new businesses and maintain appeal to local residents. For
instance, while rural improvements are usually funded by special local business tax assessments, in marginally viable
areas, such an assessment may not be affordable. USDA can help. Frequently, companies looking for a new location
need special skill sets, and USDA grants can fund small targeted job-training programs.
The USDA Value-Added Producer Grant is designed to help producers expand their customer base for the
products or commodities that they produce. It gives rural producers a chance to make more money from their
processed products. The program has allowed many agricultural producers to embrace new marketing opportunities
for their agricultural commodities.
Whether a grant of $20,000 is used to improve small town lighting or provide targeted training to attract a
business, all rural residents benefit from these investments. A USDA loan or grant to a rural business for start-up,
expansion or modernization enhances the local job market and tax base. The local economy is stimulated, jobs are
created, and the quality of life improves for most citizens.
Renewable energy projects funded by USDA loans and grants improve the local economy through new jobs at the
energy plants, enhanced tax base, and local profits. Recent funds allowed many small business owners to decrease
their energy consumption, and increasing profit margins.

Analysis of Results
USDA met its goals for this objective. The number of jobs created or saved is linked directly to the amount of total
available USDA business program funding, amounts obligated and disbursed to awardees, and local economic
conditions. Annual job targets are based on historical program operations, subsidy rates and annual appropriations.
The target job numbers assume a level funding horizon and timely allocations of funds without regard to the


 72
                                   FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
potential impact of major natural disasters. Annual budget authorities, subsidy rates, and program levels vary
annually. Recently, these factors caused a general decline in annual job numbers. The targets, results and usage of
funds for USDA programs fulfilled expectations. Any remaining program funds will be carried over into FY 2009
and continue to provide benefits to rural communities in the next fiscal year.


                                                    Selected Results in Research, Extension, and Statistics
             Helping Americans to Save for the Future—USDA-funded Cooperative Extension in 21 States has either led or participated in
             a coalition to offer 31 local Saves campaigns. One finding showed that 16,530 Savers enrolled in 2007 committed to a cumulative
             savings goal of $1.6 million monthly. The top five savings goals were emergency savings, education, debt repayment,
             homeownership, and investment/saving.


Exhibit 26: Strengthen Rural Businesses

                                                              2004       2005        2006         2007                     Fiscal Year 2008
  Annual Performance Goals, Indicators and
                  Trends                                                                                         Target         Actual         Result
 3.1.1   Jobs Created or Saved                               80,169      73,328     71,715       72,710           72,373        70,476          Met
 Numbers previously reported were adjusted for the new methodology. Newly revised numbers still meet original targets.
 Rationale for Met Range: Job projected data is gathered when projects are obligated in Guaranteed Loan System (GLS) based on a formula driven by
 historical results. Final job counts are verified on closing the loan and grant. A met range of 5 percent is used.
 • Data assessment metrics to meet the target allow for an actual number in the range 68,468-75,676.
 Data Assessment of Performance Measure 3.1.1
 Business program data are collected in various systems and ways. The finance office records and reports total loan and grant obligations as of the date
 they are executed. These data are collected as part of the obligation process. USDA also uses one of its own systems, the GLS, to collect additional
 information to satisfy reporting requirements, and for management and evaluation purposes. This information includes the number of jobs projected at
 obligation and verified jobs created or saved at the transaction’s closing. Data used to determine the Business and Industry Guaranteed Loan
 Program’s delinquency status are generally reported directly by lenders into GLS. For other programs, USDA staff reports delinquency information.
 • Completeness of Data—Business program data are considered final and complete as of September 30, 2008, unless there are any year-end
   closing adjustments.
 • Reliability of Data—Borrower financial performance is reported by many, but not all, lenders semi-annually to the Rural Business Cooperative
   Service. There is inconsistency in the time periods represented by lender reports. In lieu of a reliable, consistent and complete data set from
   lenders, the Finance Office’s financial data have been found acceptable to OIG, as are State office-verified data on the financial performance of
   loans. Data for jobs created or saved are obtained by State office staff from borrowers and lenders. They are entered into GLS at the same time
   obligations are recorded. These data are reliable when they have been updated and verified by State staff. USDA reports the computed jobs saved
   or created based on underlying market and financial feasibility projections that support loan applications. The jobs are counted only in one fiscal
   year, the year the loan is obligated. The delinquency rate, which excludes loans in bankruptcy, is based on reports supplied by lenders on the
   performance of each loan. While the percentage of States verifying third-party financial and jobs data have improved each year, further
   improvements are needed. Rural Development (RD) is testing an economic model to show the impact of business programs in rural areas more
   accurately and completely.
 • Quality of Data—While the percentage of States verifying third-party financial and jobs data has improved each year, further improvements are
   needed. The economic model described above should lead to these improvements.


Challenges for the Future
Rural economies face challenges different from those of urban and suburban areas. These challenges include:
 Historical dependence on local natural resources and farm commodities, subject to cyclical trends, and changing
  regulatory standards and oversight;
 Low profit margins on local commodity sales yet strong competition from international commodities;
 Large-scale changes in technology and related efficiency gains; and
 Inaccessibility and low-density populations resulting in limited foot traffic for retail establishments, and limited
  discretionary budgets for business improvements, upgrades, and modernization.



                                                                                                                                                        73
                                                          ANNUAL PERFORMANCE REPORT
Additionally, rural areas typically have underdeveloped public services that make it difficult to attract or retain
businesses. The lack of public funding for amenities which are common in urban areas, such as dedicated business
parks or expanded transportation links, creates additional challenges. Education, health care, and entertainment are
perceived to be marginally acceptable in rural areas.
OBJECTIVE 3.2: IMPROVE THE QUALITY OF LIFE THROUGH USDA FINANCING OF QUALITY HOUSING, MODERN UTILITIES, AND NEEDED
COMMUNITY FACILITIES

                                                             Measures 3.2.1–3.2.5
            3.2.1   Number of borrowers/subscribers with new and/or improved electric facilities
            3.2.2   Number of borrowers/subscribers with new or improved telecommunication services (Broadband)
            3.2.3   Number of borrowers/subscribers with new/improved service from agency funded water facility
            3.2.4   Homeownership opportunities provided
            3.2.5   Percentage of customers who are provided access to new and/or improved essential community facilities

Overview
                                                                  Basic infrastructure services are essential for rural
                         Key Outcome
                                                                  communities to compete in today’s rapidly changing
                                                                  economy. These communities need clean water, effective
            Improved Rural Quality of Life Through
                                                                  wastewater systems, and reliable and affordable electricity and
      Homeownership, New and/or Improved Facilities for
                                                                  telecommunications to survive. These services act as the
      Water, Waste Disposal, Electric, Telecommunications,        foundation of economic development.
              and Essential Community Facilities
                                                        While the largest number of loans and grants goes to fire,
rescue and public safety, historically, the greatest amount of community facilities funding has gone for health care
projects. More than $250 million was invested in 139 health care facilities serving 3 million rural residents. During
the same period 595 communities received more than $95 million to finance fire, rescue, and public safety facilities,
equipment, and vehicles. Overall, more than 12 million rural Americans will enjoy a better quality of life directly
attributable to the $500 million investment in essential community facilities.
USDA utilities programs help rural businesses build and maintain cost effective electrical infrastructure. USDA can
help businesses achieve favorable interest rates on loans to finance energy saving endeavors. Programs that help
rural businesses save on energy costs can also save rural jobs, since keeping energy costs down can mean the
difference between success and insolvency.
A New Mexico company used funds from 2 USDA telecommunications loans totaling $70 million to buy and
upgrade local telephone facilities. These facilities served portions of Navajo lands in the Four Corners and
Canoncito areas of northwestern New Mexico. The company’s efforts earned it a USDA Community Connect
Grant. The Community Connect Program serves rural communities where broadband service is least likely to be
available, but where it can make a tremendous difference in the quality of life for citizens. The grant was used to
build and manage an Internet training center and an e-commerce center. More than 2,000 visitors last year used the
center’s computers for school work, job searches, business research, medical information, and recreation. A retail
Web site was created to sell Navajo arts and crafts, benefitting Navajo artisans.
Through its water programs, USDA invested $1.36 billion to finance construction, repairs and upgrades in
FY 2008. While an infusion of Farm Bill funds may have contributed to the Department exceeding its goals,
USDA has also marketed its water programs aggressively to rural communities. This marketing has created brand-

 74
                                     FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
name recognition for its services and financial assistance. Additionally, upgraded underwriting tools have improved
the water programs’ performance by helping to identify communities with greater loan potential.
Community Facilities (CF) Programs are designed to develop essential community facilities for public use in rural
areas. In one instance, USDA approved a package of loans to finance the construction of a replacement hospital in
Michigan. The existing critical-access hospital, built in 1953, lacked adequate space and modern facilities to
accommodate changing health care needs. The Department approved a $10.4 million CF direct loan and
guaranteed another $26.8 million loan. A capital campaign raised $3 million and the Sault Ste. Marie Tribe of
Chippewa Indians contributed a 16.5-acre site valued at $1.2 million. The new 110,000-square-foot facility houses
15 acute care beds, 60 long-term care beds, a primary care rural health clinic, a renal dialysis unit and a tribal clinic
for the Sault Ste. Marie Indians. The town’s rural residents now have access to modern health care.
Home ownership remains important to strong, vibrant rural communities. Local economies strengthen, crime
drops, and incomes rise when families settle. USDA’s direct and guaranteed housing programs help fill the gap left
by private lenders as affordable home financing–especially in rural and remote areas–has largely disappeared. For
FY 2008, loan activity hit record levels. The Department provided more homeownership opportunities for rural
families than anytime during the past 25 years. In the early 1980s, the average home financed cost less than
$30,000, compared to more than $110,000 in 2008.
USDA’s housing programs have surpassed the $100 billion milestone. Since the Department began making and,
later, guaranteeing home loans in rural areas, more than 2.5 million families have obtained loans or loan guarantees
totaling more than $104 billion. In an effort to adhere to the Administration’s homeownership initiative, nearly 18
percent of the housing program customers are minorities, who comprise a little more than 13 percent of the
Nation’s rural population. The performance measure was exceeded as a result.

Analysis of Results
The electric and telecommunications programs fully utilized their FY 2008 loan-lending authority and exceeded
their target performance measures.
The water and environmental programs fully utilized their FY 2008 lending authority and exceeded their target
performance measures. Projections for FY 2009 and FY 2010 are 1,418,000 and 1,457,000 subscribers, respectively.
The community facilities program met its goal by emphasizing health care and public safety facilities. Department
staff provided outreach at national, State and regional conferences, showing its ability to provide facilities at
reasonable rates and terms for rural Americans.
The performance of the housing programs far exceeded goals. FY 2008 showed a greatly increased demand for the
guaranteed program and lower-than-expected average home costs for the direct program. Significant improvements
in program delivery through Guaranteed Underwriting System (GUS) made USDA’s Guaranteed Section 502
loans quicker and easier for lenders to obtain. These loans are designed to provide long-term financing at
reasonable rates and terms with no down payment.
Equally important, demand increased significantly for one of the few remaining no-down payment, affordable-
housing mortgage programs. A record $6.2 billion in guaranteed loans were provided through USDA’s Section 502
Guaranteed Loan Program in FY 2008. USDA anticipates a growing need for increased funding in coming years as
demand continues to spiral upwards.


                                         Selected Results in Research, Extension, and Statistics
          Healthier Homes—Through USDA’s “Healthy Indoor Air for America’s Homes,” 186,025 participants made behavior changes to
          improve indoor air quality. More than 55,000 homes were tested for radon and another 9,044 were mitigated. Additionally, 40,980
          people stopped exposing their children to second-hand smoke and 29,925 people tested their homes for lead.



                                                                                                                                            75
                                                    ANNUAL PERFORMANCE REPORT
              4-H Proven to have Positive Effects—The 4-H Study of Positive Youth Development showed that 4-H youth were more than
              one and a half times more likely to expect to go on to college than non-4-H youth. The former also had higher school grades and
              were more emotionally engaged in school. They also scored significantly higher on six of eight factors related to civic identity and
              civic engagement.
              Agritourism Opportunities for Farm Operators—While farm-based recreation provides an important niche market for farmers,
              limited empirical information is available on the topic. Two USDA databases provided researchers with a deeper understanding of
              who operates farm-based recreation enterprises. These activities include hunting and fishing operations, horseback riding
              businesses, on-farm rodeos, and petting zoos. Recent data showed that approximately 52,000 U.S. farms – 2.5 percent of all
              farms – received income from farm-based recreation totaling about $955 million.



Exhibit 27: Improving Rural Quality of Life Through Electric Opportunities

                                                                           2004             2005          2006          2007                 Fiscal Year 2008
 Annual Performance Goals, Indicators, and Trends                                                                                     Target       Actual        Result
 3.2.1   Number of borrowers/subscribers receiving new                     4,326            2,360         8,184         5,826          7,125         8,093      Exceeded
         and/or improved electric facilities (thousands)
 Rationale for Met Range: Annual targets for this measure are based on historical activity and adjusted according to program level received each fiscal year. Met range
 represents a 5-percent deviation from target.
 • Data assessment metrics to meet the target allow for an actual number in the range 6,768-7,481.
 Data Assessment of Performance Measure 3.2.1
 RD’s electric programs data are collected from various Rural Utilities Service (RUS) documents including RUS Forms 740c and 130, Borrower’s
 Statistical Profile, Information Publication 201-1 and the borrower’s loan application.
 • Completeness of Data—The data are complete and accurate, and collected at the time of loan approval and reported annually.
 • Reliability of Data—Applicants are required to report essential data to the RD electric programs. These data are used to administer USDA loan
    funds and ensure loan security. The electric program is developing a new loan tracking and data collection system as part of the Community
    Program Application Processing – Electric Programs.
 • Quality of Data—Applications are reviewed to ensure the borrower meets the eligibility requirements for the various loans, guarantees and grants
    offered by RD’s electric programs. All approved applications must show feasibility from a financial standpoint and ensure loan security. Loan funds
    may be used only for the approved purposes for which the loan was made.


Exhibit 28: Improving Rural Quality of Life Through Telecommunication Services

                                                                         2004            2005          2006         2007                   Fiscal Year 2008
      Annual Performance Goals, Indicators and
                      Trends                                                                                                    Target         Actual           Result
 3.2.2   Number of borrowers/subscribers receiving new or              373,813         232,2491      297,027      356,4402      394,931        755,342        Exceeded
         improved telecommunication services
         (Broadband) (thousands)
 1FY 2005 figure was incorrectly reported in the FY 2007 Par as 240,000. It should be 232,249.
 2The FY 2007 estimate of 1,205,000 reported in the FY 2007 PAR has been replaced with the actual figure of 356,440.
 Rationale for Met Range: Annual targets for this measure are based on historical activity and adjusted according to program level received each fiscal year. Met range
 represents a 7-percent deviation from target.
 •    Data assessment metrics to meet the target allow for an actual number in the range 367,286-422,575.
 Data Assessment of Performance Measure 3.2.2
 The county data are collected from each approved loan application. Applicants identify their proposed service territories, including the number of
 subscribers to be served in the location by county. Measuring the extent to which broadband service is deployed in rural America on a county-by-county
 basis will enable USDA to assess improved economic conditions. The data on the number of counties to be served for each loan are derived from
 applicants’ loan applications.
 • Completeness of Data—Data are based on third quarter data and fourth quarter projections.
 • Reliability of Data—Applicants are required to perform market surveys of their proposed service areas, but the actual counties served may vary if all
   funds are not used or the borrower later requests a change of purpose from the original loan application. Overall, the data are reliable.


 76
                                            FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
 • Quality of Data—All applications are reviewed to determine eligibility. These applications must show feasibility from financial and technical
   standpoints. Applicants must perform market surveys of their proposed service areas. The data depend on the borrower drawing down loan funds and
   constructing the system as portrayed in the applicant’s loan design. Variance may result if a borrower does not draw down all loan funds or request
   approval for a change of purpose from the original loan, resulting in differences in the number of counties served and the number specified in the plan.


Exhibit 29: Improving Rural Quality of Life Through Water and Waste Disposal Facilities

                                                                    2004          2005           2006             2007                    Fiscal Year 2008
      Annual Performance Goals, Indicators,
                   and Trends                                                                                                    Target          Actual         Result
 3.2.3   Number of borrowers/subscribers receiving                965,780      1,325,000       1,637,554      1,332,0631        1,380,000      4,361,872       Exceeded
         new or improved service from agency funded
         water facility
 1 The FY 2007 estimate of 1,457,000 reported in the FY 2007 PAR has been replaced with the actual figure of 1,332,063.

 Rationale for Met Range: Annual targets for this measure are based on historical activity and adjusted according to program level received each fiscal year. Met range
 represents a 5-percent deviation from target.
 •   Data assessment metrics to meet the target allow for an actual number in the range 1,311,000-1,449,000.
 Data Assessment of Performance Measure 3.2.3
 The Water and Environmental Programs (WEP) collects data through the Community Programs Application Processing (CPAP) system. CPAP is a non-
 financial system where agency field staff input data about applicants, borrowers, funding, and services provided. The data obligations flow through the
 Rural Utilities Loan Servicing System to the Program Loan Accounting System and through a data server to a data warehouse.
 • Completeness of Data—CF data are based on third quarter data and fourth quarter projections.
 • Reliability of Data—USDA’s data warehouse stores historical information on Department programs and such non-agency data as census
      information. Program data are downloaded to the warehouse every evening from several accounting databases. Data generally are current through
      the previous day. The warehouse provides obligations data, used to measure the number of loans, loan amounts, number of borrowers, and funds
      advanced.
 • Quality of Data—Based on CPAC information, the number of subscribers receiving new or improved water or wastewater service can be
      extrapolated from the data warehouse. The WEP National Office and USDA field offices use data from CPAP, the data warehouse and Department
      accounting systems to review or evaluate the financial, operational, and managerial programs of the utilities serving rural customers.



Exhibit 30: Homeownership Opportunities Provided

                                                                 2004           2005          2006           2007                       Fiscal Year 2008
  Annual Performance Goals, Indicators, and
                  Trends                                                                                                    Target            Actual            Result
 3.2.4 Homeownership opportunities provided
 Guaranteed Loans                                               31,751         34,251         31,131        32,481           36,363            54,660
 Direct Loans                                                   14,643         11,744         11,041        10,646           10,490            9,474           Exceeded
 Total                                                          46,394         45,995         42,172        43,127           46,853            64,134
 Numbers previously reported were adjusted for the new methodology. Newly revised numbers still meet original targets.
 Rationale for Met Range: The range of 10 percent is based on the historical variance from the target during the past several years in the number of houses sold in the
 Guaranteed and Direct Single Family Housing Loan Programs.
 • First figure in each column represents guaranteed loans, the second row is direct loans, and the total is listed in the third row.
 • Data assessment metrics to meet the target allow for an actual total number in the range 39,150-47,850 for direct and guaranteed loans combined.
 • Excludes an (estimated) 6,150 hurricane supplemental / natural disaster homeownership opportunities (5,780 guaranteed, 370 direct) and homeownership opportunities
      funded with natural disaster and hurricane supplemental appropriations: FY 2004–2; FY 2005–0; FY 2006–2,475; FY 2007–3,554; FY 2008–6,150.
 Data Assessment of Performance Measure 3.2.4
 Homeownership data is entered in the Web-based UniFi system. This centralized server application ensures viable data collection. It tracks performance
 and forecasts needs. Information entered into UniFi also uploads nightly into the MortageServ (a.k.a., Fasteller) system. This system obligates funds,
 establishes closed loans, administers escrow accounts, manages defaulted loans, and performs other administrative functions. Brio, a query and
 reporting tool, serves as the interface between the data warehouse and RD staff.
 • Completeness of Data—Homeownership data are actual, final, and complete.




                                                                                                                                                                          77
                                                              ANNUAL PERFORMANCE REPORT
 •  Reliability of Data—Homeownership data originate in systems used to obligate funding and are reliable. Data for initial placement of households
    into their own homes are reliable. They are linked directly to homeownership loans maintained in USDA’s financial accounting systems. No
    adjustments are made for later defaults and the resulting loss of homeownership.
 • Quality of Data—Homeownership data are based on loan obligations collected in the Dedicated Loan Origination and Servicing System, and stored
   in USDA’s Data Warehouse. Thus, the data on the number of households are auditable. Data represent the population served based on available U.S.
   census information.


Exhibit 31: Improving Rural Quality of Life Through Community Facilities

                                                         2004            2005         2006         2007                    Fiscal Year 2008
     Annual Performance Goals, Indicators,
                  and Trends                                                                                   Target         Actual            Result
 3.2.5   Percentage of customers who are
         provided access to new and/or improved
         essential community facilities
         • Health facilities                               n/a           3.5%         3.8%        7.2%1          5.7%           4.8%              Met
         • Safety facilities                               n/a           4.1%         3.8%        6.16%1         3.0%           5.7%
 1The FY 2007 PAR reported 4.25% and 2.87% as third quarter estimates for Health Facilities and Safety Facilities, respectively. They have been updated

 to reflect the actual percentages.
 Numbers previously reported were adjusted for new methodology. Newly revised numbers still meet original targets.
 Rationale for Met Range: It is a challenge to measure the range of residents served because each grant may vary widely. One grant for a fire engine could
 serve 22,000 people whereas the same grant amount for a hospital could serve 22,000. It is difficult, if not impossible, to estimate with any precision a
 range of residents served. One grant for a fire engine could serve 4,000 people whereas the same grant amount for a hospital could serve 22,000.
 Therefore, USDA would consider its 2008 goal unmet, if CF serves fewer than 5.0 percent of the rural population with new health care facilities and
 provides new fire, rescue, and public safety facilities for less that 2.5 percent of the rural population.
 • Data assessment metrics to meet the target allow for an actual number in the range 5-6 percent for health facilities and the range 2.5-3.5 percent for
      safety facilities. The health facilities component of the measure was 0.02 percent short of meeting met range. The health facilities component of the
      measure exceeded the met range by 2.2 percent. The combined value yields a “met” result.

 Data Assessment of Performance Measure 3.2.5
 CFprogram data are collected by means of two streams of input. The finance office records and reports total loan and grant obligations as of the date of
 obligations. These data are collected as part of the obligation process. Additionally, USDA collects information for management and evaluation purposes.
 Data on delinquency status are reported by the finance office for community facilities direct loans, and by lenders for CF guaranteed loans.
 • Completeness of Data—CF program data are complete and final.
 • Reliability of Data—CF data are entered into GLS by field staff as the program funds are obligated. They also represent the population served based
     on available U.S. census information. Population data served by community facilities are estimates. USDA screens data annually for irregularities.
     Population estimates served by community facilities are based on engineering studies used for the design of new or expanded public utilities systems.
     The Department is developing mapping technologies to improve the determination of service areas for community facilities.
 • Quality of Data—When new programs are authorized, CPAP is used to create data systems that field staff can use to work directly and interactively
     with applicants. Planned system requirements can be developed quickly. CPAP contains a number of edit checks to enhance reliability. The data are
     stored and archived nightly at the data warehouse. This manner of developing system plans greatly enhances data reliability since they are integral to
     program planning.


Challenges for the Future
Challenges related to USDA’s electric programs include control of greenhouse gas emissions, addressing State and
local support for power plant projects, and legal challenges. Escalating construction and fuel-costs continue to cause
economic uncertainty. The demand for increased energy efficiency and conservation will pose both opportunities
and challenges.
Modifications to the Rural Broadband Access Loan and Loan Guarantee Program in the 2008 Farm Bill create
short-term implementation challenges. Regulations must be revised and telecommunication program staff must
develop and conduct outreach on the changes.



 78
                                        FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
More than ever, rural communities must invest in water and wastewater facilities to upgrade aging facilities, meet
new environmental quality standards and enhance the security of their operations. As communities increase their
investments in water utilities, they must also manage costs better and set appropriate rates to ensure system
sustainability. A regional approach to water and waste water service delivery in some rural areas helps address rising
costs. Underwriting and meeting funding requirements for these larger regional systems will continue to challenge
utilities programs.
USDA is committed to assisting critical-access hospitals in planning, designing, and developing financial packages
for renovations or replacement facilities. These facilities are becoming more complex and expensive. The challenge
will be to develop a level of expertise that benefits communities the most.
With few other affordable lending products available for rural families, the demand for USDA’s direct and
guaranteed housing loans have grown and will continue to grow for the foreseeable future. The Department will be
challenged to meet the need for rural mortgage funds in times of budgetary constraints.
USDA will also be challenged by further expected increases in the use of guaranteed housing loans by lenders
serving rural areas. To meet the increased demand for guarantees without significant increases in overhead, it has
developed and introduced the GUS. This automated underwriting system reviews applications and provides
commitments electronically. GUS is designed to help mortgage lenders make informed credit decisions on
guaranteed rural housing loans. Similar improvements are being studied to streamline the delivery of direct loans.




                                                                                                                   79
                                           ANNUAL PERFORMANCE REPORT
Strategic Goal 4: Enhance Protection and Safety of the Nation’s Agriculture and Food Supply
OBJECTIVE 4.1: REDUCE THE INCIDENCE OF FOODBORNE ILLNESSES RELATED TO MEAT, POULTRY, AND EGG PRODUCTS IN THE U.S.

                                                            Measure
      4.1.1: Reduce overall public exposure to generic Salmonella from broiler carcasses using existing scientific standards
      4.1.2: Reduce the overall public exposure to Listeria monocytogenes in ready-to-eat products
      4.1.3: Reduce the overall public exposure to E. coli O157:H7 in ground beef


Overview
Ensuring the safety of the Nation’s food supply requires a strong and robust infrastructure coupled with sound
science. USDA uses a scientific approach to food safety, incorporating risk analysis critical to combating the ever-
changing threats to public health. The Department works to reduce foodborne illness through testing, risk
assessments, partnership with its stakeholders, and science-based policy decisions.
USDA monitors and enforces Federally regulated establishments’ compliance with its science-based food safety
system, the Hazard Analysis and Critical Control Point (HACCP) system. The establishments must also follow
other programs and Sanitation Standard Operating Procedures, procedures an establishment uses to prevent the
contamination or adulteration of food products. These programs represent USDA’s foundation of preventing and
controlling contamination of the food supply during slaughter and processing. By placing the responsibility on the
slaughter or processing facility to implement systems for monitoring and controlling contamination, the
Department can best use its inspection resources to ensure the safety of the Nation’s food supply. USDA audits on-
site systems and practices, and inspects carcasses and product.
Routine sampling of product for pathogens known to cause serious human illness is a critical element to monitoring
the effectiveness of the establishments’ HACCP and supporting programs. These pathogens include:
 Salmonella in broilers;
 Listeria monocytogenes (Lm) in ready-to-eat (RTE) products; and
 Escherichia coli (E. coli) O157:H7 in raw ground beef.

On-site inspectors collect samples and send them for testing to USDA’s field-service laboratories based on a pre-set
schedule. Sampling allows the Department to monitor how well establishments control food safety through
HACCP, sanitation and supporting programs. USDA focuses on the percentage of positive tests from all
establishments and measures the industry’s performance as a whole to form the basis of the Department’s food
safety performance measures.
If a positive is detected at a plant, USDA performs a series of follow-up activities. If the Department determines
that the pathogen’s presence threatens public health and product has not been held, it works with the establishment
in support of the product’s recall. Finally, the Department performs a food safety assessment to determine why
contamination occurred and requires the plant to develop an action plan to address any problems.
Analysis of Results
The following three measures provide indications that USDA is reducing exposure to pathogens. USDA met the
performance target of reducing overall public exposure to generic Salmonella from broiler carcasses. The target was
80 percent of broiler establishments in Category 1 based on data ending August 25, 2008 (USDA categorizes
slaughter processing plants as Category 1, Category 2, or Category 3 based on their consistency in process control



 80
                                  FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
for Salmonella reduction. Category 1 represents the most consistent). The Department also met its Healthy People
2010 goal for Salmonella. Healthy People 2010 is a national effort to promote health and disease prevention.
USDA also met the performance target of decreasing the percentage of RTE meat and poultry products testing
positive for Listeria monocytogenes. The FY 2008 target for Listeria monocytogenes was 0.27 percent of cases per
100,000 people and the actual performance in FY 2008 is 0.19 percent (as of August 31, 2008). The Department
also exceeded the Healthy People 2010 goal for human illnesses due to Listeria monocytogenes in RTE products of
0.24 percent of cases per 100,000.
USDA did not meet the performance measure of reducing the presence of E. Coli in ground beef. The FY 2008
target was 0.23 percent positive while the performance for E. coli in ground beef was 0.48 percent. Likewise, the
Department did not meet its Healthy People 2010 goal for illnesses for E. coli in ground beef of 0.32 cases per
100,000 people. USDA worked with the affected establishments on recalls of contaminated products. It also
conducted almost 300 Food Safety Assessments in ground beef establishments. The target for E.coli 0157:H7 was
not met in part due to a change in sampling methodology. In order to better represent the public-health risk
inherent in high-volume establishments, in January 2008 FSIS began taking into account establishment volume
when scheduling establishments for E. coli sampling. Higher volume establishments may pose a greater risk to the
public if a contamination event occurs., because of the potential for greater public exposure to a pathogen.


                                                 Selected Results in Research, Extension, and Statistics
             USDA Updates Foodborne Illness Costs—USDA researchers updated the cost of foodborne illness from E. coli using the
             Centers for Disease Control and Prevention estimate of annual cases and newly available data. Updating the costs to 2006
             dollars, the Department estimates that the annual cost of illness from E. coli was $445 million. This figure includes $405 million for
             premature deaths, $35 million for medical care and $5 million in lost productivity.
             Salmonella contamination of tomatoes—In the U.S., tomatoes have become the most implicated vehicle for fresh produce-
             associated salmonellosis. While contamination appears to originate from the fields where the tomatoes were grown or their
             packing sheds, the contamination route remains elusive. USDA scientists evaluated the role of contaminated soil. They found
             results suggesting that such events as flooding, contaminated compost or fecal contamination by animals could lead to
             subsequent crop contamination, even though time may pass between the contamination event and planting.



Exhibit 32: Pathogen Reduction (Food Inspection)

                                                                 2004         2005          2006             2007                       Fiscal Year 2008
  Annual Performance Goals, Indicators, and
                  Trends                                                                                                      Target            Actual          Result
 4.1.1   Reduce overall public exposure to generic                 n/a         n/a         45% of           71% of             80% of           80% of            Met
         Salmonella from broiler carcasses using                                         Category 1       Category 1         Category 1       Category 1
         existing scientific standards                                                    Industry         Industry           Industry         Industry
 4.1.2   Reduce the overall public exposure to Listeria            n/a       0.28%          0.24%            0.23%             0.27%             0.19%            Met
         monocytogenes in ready-to-eat products
 4.1.3   Reduce the overall public exposure to E. coli           0.04%       0.21%          0.40%            0.28%             0.23%             0.48%           Unmet
         O157:H7 in ground beef
 FY 2008 Data reflects the volume adjusted percent positive rate, better estimate population exposure to pathogens, which may differ from the non volume adjusted percent
 positive rates reported in prior years.
 Rationale for Met Range: This measure targets reducing human foodborne illness rates from E. coli O157:H7 in ground beef. USDA’s FY 2013 goal is 0.17 cases per
 100,000. USDA met its Healthy People 2010 goal for E. coli illnesses from ground beef as of FY 2007.The Department aggressively set its FY 2013 goal at 50% under the
 goal. To reach its FY 2013 goal, USDA has set its FY 2008 performance objective as 0.27 cases per 100,000 or a volume adjusted percent positive rate of 0.23. A lower
 number of cases indicates better performance.
 • 4.1.1: Data assessment metrics to meet the target range is 80% of industry in Category 1.
 • 4.1.2: Data assessment metrics to meet the target range is 0.27 cases per 100,000.
 • 4.1.3: Data assessment metrics to meet the target range is 0.23 cases per 100,000.




                                                                                                                                                                        81
                                                              ANNUAL PERFORMANCE REPORT
                                                            2004       2005         2006            2007                     Fiscal Year 2008
  Annual Performance Goals, Indicators, and
                  Trends                                                                                            Target          Actual         Result
 Data Assessment of Performance Measures 4.1.1, 4.1.2 and 4.1.3
 Through consultations with our stakeholders, USDA continuously examines the Nation’s changing food safety system and practices, and articulates a
 long-term view in regard to the Department’s performance and the benefits to public health. The Department also monitors its performance against the
 Healthy People 2010 goals for these three critical pathogens -- Salmonella, Lm and E. coli O157:H7. The Department developed an attribution model to
 determine what percentage of all Salmonella, Lm, and E. coli O157:H7 illnesses result from Department-regulated contaminated products.
 • Completeness of Data—Results are based upon USDA’s laboratory results analyzed as of August 31, 2008, for the selected ready-to-eat products
    at regulated establishments. The results provided as of August 31, 2008, are the best available indication of the FY 2008 fourth quarter results.
    Quarterly and annual data are based on sampling at a range of establishments from very small to large.
 • Reliability of Data—The data are reliable because it is based on testing and verification from the Department’s field service laboratories for regulated
    establishments. Each positive sample is subjected to highly specific verification testing. The primary goal of these sampling programs is to monitor
    how well each establishment is maintaining control of food safety through its HACCP, sanitation and supporting programs. The percent of these
    routine, scheduled tests that return a positive (the percent-positives) result across all of the establishments is an important measure of the
    performance of the industry as a whole to form the basis of the Department’s food safety performance measures. If the presence of the pathogen
    represents a threat to public health and product has not been held, we work intensely with the establishment in support of their recall of the affected
    product. Finally, the Department performs a Food Safety Assessment to identify the underlying causes of the breakdown in the plant’s food safety
    control programs, and requires an action plan from the plant to address these problems. Performance shortfalls may occur due the Department
    consistently setting aggressive goals to measure its performance in food safety and its focus on verifying each plant’s food safety system. In addition,
    it has redesigned its sampling and test program to target the establishments that represent the highest risk.
 • Quality of Data—The volume adjusted data show that these measures historically correlated with the Centers for Disease Control and Prevention
    foodborne illness outbreak data.



Challenges for the Future
The Department will continue to verify the adequacy of each establishment’s HACCP system and supporting
programs and their conformance with those programs, and to monitor the pathogen levels in product destined for
consumers. Particular emphasis will continue to be placed on E. coli O157:H7. This systemic approach involves all
parties in the production chain, through slaughterhouses, processors, retailers, and consumers. The Department will
continue to strive in the multitude of activities necessary to protect the Nation’s supply of meat, poultry, and
processed egg products.
OBJECTIVE 4.2: REDUCE THE NUMBER AND SEVERITY OF AGRICULTURAL PEST AND DISEASE OUTBREAKS

         Measure 4.2.1: Number of significant introductions of foreign animal diseases or pests that spread beyond the
         original area of introduction and cause severe economic or environmental damage, or damage to the health of
                                                       animals or humans

Overview
                                Key Outcome                      USDA provides a secure agricultural production
                                                                 system and healthy food supply for U.S. consumers.
 A Secure Agricultural Production System and Healthy Food Supply This is done by reducing the number and severity of
                                                                 pest and disease outbreaks by:
 Safeguarding animal and plant resources against the introduction of foreign pests and diseases;
 Detecting and quickly responding to new invasive species and emerging agricultural health situations;
 Eradicating or managing existing agricultural pests and diseases and wildlife damage; and
 Developing and applying more effective scientific methods.




 82
                                        FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
The Department has several programs that focus on this goal each with its own set of performance measures. As an
indicator of success in FY 2008, one performance measure has been selected to represent the range of activities
conducted by its programs–the Animal Health Monitoring and Surveillance (AHMS) Program. It evaluates and
enhances disease control and eradication programs. AHMS monitors surveillance activities to detect incursions of
foreign and emerging animal diseases. AHMS also monitors international disease trends and threats, and provides
timely and accurate animal health information. This work is designed to prevent the introduction of foreign animal
diseases. If such diseases enter the country, AHMS works to prevent their spread. The program seeks to minimize
economic and environmental damage, and threats to the health of animals or humans.

Analysis of Results
USDA met its target related to animal disease outbreaks in FY 2008. USDA developed animal-health monitoring
and surveillance systems to ensure success in future years. These two systems, the National Animal Identification
System (NAIS) and the Comprehensive Surveillance System (CSS), are discussed below.
NAIS is a voluntary, cooperative Federal, State, and industry program designed to enhance the response to highly
contagious diseases, especially those that can be transmitted to humans. A fully implemented system will include a
48-hour “trace back” and a “trace forward” capability. Trace back will allow agricultural and public health officials
to trace the origin of sick animals and determine if other animals have come into contact with the infected ones.
NAIS provides for the registration of animal premises, the identification of animals by standardized devices, and
the development of information systems for tracing animal movements.
By the end of June, NAIS had 471,299 premises under registration. USDA authorized 7 manufacturers of animal-
identification devices to produce 15 devices for use in the NAIS program. The Department has endorsed
technology standards published by the ISO. USDA has developed a single information portal, called the Animal
Trace Processing System (ATPS). This system will enable State and Federal animal health officials to obtain
information from Animal Tracing Databases (ATDs). Currently, State and private ATDs are coming online and
being integrated with the ATPS portal.
To uncover contaminations, USDA uses CSSs. The Department made progress on CSS components for classical
swine fever (CSF) and pseudorabies virus (PRV). (CSF is a highly contagious virus that affects swine. PRV is a
contagious herpes virus that causes reproductive and respiratory problems, and occasional deaths in swine.) USDA
approved a PRV surveillance plan that will be implemented in FY 2009. Leading up to this milestone, 14 slaughter
plants participated in the Department’s Market Swine Surveillance System. USDA sampled swine slaughtered at
these plants for Porcine Reproductive and Respiratory Syndrome (PRRS). PRRS causes reproductive failure in adult
female pigs, reduced-growth and pneumonia in nursing pigs, and premature death in swine herds. The disease is an
emerging threat to domestic swine populations. The Department also used the Market Swine Surveillance Stream
to develop data on other swine diseases.
Additionally, the Department has enhanced and maintained the capability of its personnel. These employees are
charged with responding to the threat of a catastrophic animal disease outbreak. USDA conducted a training-needs
analysis to assess their knowledge, skills, and abilities to respond to animal-health emergencies. This analysis will be
used to identify gaps to be closed.
Two of the most important potential emergencies looming are Highly Pathogenic avian influenza (HPAI), or “bird
flu,” and foot-and-mouth disease (FMD). HPAI is an extremely infectious and fatal form of the bird flu for
chickens. FMD is a severe, highly contagious viral disease of cattle and swine. Should an outbreak of either of these
two occur, USDA will need to collaborate with State and local organizations to respond appropriately. The
Department revised its national emergency response objectives and plans for these two diseases. The emergency
plans provide specific guidelines, actions, timelines, and checklists to help Federal, State and local responders in the
event of an outbreak. USDA conducted a successful National Veterinary Stockpile (NVS) deployment exercise with
the State of California. The NVS exists to augment State, and local resources. Under NVS, the Department will

                                                                                                                    83
                                           ANNUAL PERFORMANCE REPORT
deploy sufficient amounts of animal vaccine, antiviral, and therapeutic products within 24 hours of a serious
outbreak.
Determining the performance result involves: (1) routine monitoring and surveillance of world animal health
problems; (2) investigating reports identifying any new introduction of a significant foreign animal disease (FAD);
testing to determine the extent of spread; and (3) evaluating the severity of the damage.
(1) Notice of the need to investigate a FAD may come from a wide variety of sources. USDA veterinarians observe
thousands of animals daily for FADs while conducting surveillance and eradication activities for the agency’s
domestic animal disease programs. USDA also provides specialized FAD training to approximately 60,000
veterinarians working in private practice, State Governments and universities through its National Veterinary
Accreditation Program. These veterinarians notify the Department when they observe an animal(s) showing signs
of a FAD. All reported animals are quarantined and samples are submitted to the National Veterinary Services
Laboratories (NVSL). The National Animal Health Monitoring System (NAHMS) conducts planned surveys of
diseases likely to impact production and marketing. Specific causes of loss by age group within each commodity are
gathered. Besides conducting domestic surveys, USDA also deploys animal health professionals overseas to collect
surveillance information on FADs to prevent them from entering the United States.
(2) Foreign Animal Disease Investigations and Testing: USDA set a target of 700 FAD investigations for FY 2008.
When a disease is reported and confirmed, area-wide testing is conducted around the foci of infection. Investigators
use statistically significant diagnostic samples. The samples are tested in USDA or USDA-approved laboratories.
Testing data are recorded in the Emergency Management Response System (EMRS), NAHMS and the National
Animal Health Reporting System. All susceptible animals within an appropriate distance of the foci of infection are
tested. The appropriate area for testing is determined using data regarding disease agents and how those agents are
spread, either through the air or by biological or mechanical means. Investigators also consider the anticipated
expectations of trading partners regarding testing and surveillance. The anticipated spread rate is based on weather
conditions and movements or contacts on and off of the affected premises. Animals that test positive or have
known exposure are retested until the quarantine is removed or they are destroyed. If there are limited numbers of
animals around the foci of infection, the testing area may be expanded to ensure that no animals are infected. This
move will allow investigators to perform trace-out investigations and test all animals from the foci herd. Sampling
focuses on clinical suspects, fallen stock or casualty slaughter. Censuses are completed or requests made that the
public report any sick animals meeting a particular case description. Sampling data is entered into NVSL databases,
EMRS and National Animal Health Laboratory Network (NAHLN) databases. NVSL validates all samples found
positive by other network laboratories.
(3) Reporting and Summarizing Results: Veterinarians on USDA’s emergency management staff receive data and
analyze them. They apply criteria to determine if the introductions are significant and have spread. Introductions of
agents listed by the World Organization for Animal Health and considered to be foreign to the United States are
reported to that body.


                                           Selected Results in Research, Extension, and Statistics
          Leading the Way to Prevent Avian Influenza—The threat of a pandemic outbreak of the avian influenza H5N1 continues. The
          emergence of avian influenza costs the commercial poultry industry millions of dollars annually. These events consist of the low
          pathogenic strain of the virus which does not threaten humans, its continued presence in the poultry industry increases the
          likelihood of a shift to the high pathogenic strain. The National Research Initiative Avian influenza Coordinated Agricultural Project
          brought together 19 States and 23 institutions to tackle this problem. In only three years, the program has made considerable
          progress in preventing and controlling virus in the U.S. The program has made considerable progress in preventing and
          controlling virus in the United States. Two new internally available diagnostic tests are available. Two training programs share the
          latest information with poultry industry and game bird producers. The team developed equipment disinfection methods to
          inactivate the virus. The project has succeeded in determining interspecies viral transmission and pathogenesis involving wild



 84
                                      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
             aquatics to domestic poultry, swine, and turkeys. The team also identified four major wild bird migratory flyways over the United
             States. All of these steps will provide further protection to mitigate incidences before they become national problems.
             Information System Saves Crops and Money—USDA funds the Integrated Pest Management (IPM) Pest Information Platform
             for Extension and Education (PIPE). This monitoring and early-warning system advises farmers and others of the status of Asian
             Soybean Rust (SBR). SBR, a recently discovered and devastating soybean disease, entered the continental U.S. in 2004. Two
             years later, IPMPIPE focused on soybean rust and aphids. It was expanded in 2007 to include pests and diseases of all other
             legume and pulse crops. The information provided by this highly trusted and widely adopted system (more than a million hits in
             July 2005) reduced production costs for U.S. soybean farmers by as much as $299 million. It also minimized non-target exposure
             of pesticide applicators and the environment.
             Saving the Nation’s Pollinators—USDA learned that queen bees who mate with multiple males produce colonies with genetic
             diversity. This diversity improves resistance to microbial diseases in their colonies. It also allows these colonies to more effectively
             survive winter and produce swarms the following season because of improved fitness. This investigation shows the tremendous
             need to provide virgin queens with a large and genetically diverse population of drones for mating. Queens that cannot find
             numerous and diverse mates will produce colonies vulnerable to microbial diseases.
             USDA Area-wide biological control program to manage Melaleuca quinquenervia in Florida is successfully completed—
             The weedy tree Melaleuca is one of the Florida Everglades ecosystem’s worst enemies. The tree causes almost $168 million in
             environmental losses annually. USDA created the Area-wide Management and Evaluation of Melaleuca project. This project
             promotes Melaleuca management and integrates biocontrol into other current management strategies. The project deployed three
             highly effective biocontrol agents in the form of self-perpetuating and self-dispersing insects. Surveys have shown that 85 percent
             of program participants now use the biocontrol insects. Melaleuca has almost disappeared from public lands because of this
             effort.


Exhibit 33: Reduce the Number and Severity of Pest and Disease Outbreaks

                                                                     2004          2005          2006         2007                   Fiscal Year 2008
     Annual Performance Goals, Indicators and
                     Trends                                                                                                 Target         Actual         Result
 4.2.1   Number of significant introductions of foreign                0             0             0            0              0              0             Met
         animal diseases or pests that spread beyond the
         original area of introduction and cause severe
         economic or environmental damage, or damage to
         the health of animals or humans
 Rationale for Met Range: These foreign animal diseases could have significant economic impact and animal health consequences. USDA seeks to prevent the spread of
 every single one.
 • Data assessment metrics to meet the target is 0 introductions.
 Data Assessment of Performance Measure 4.2.1
 • Completeness of Data—The data are complete when the scheduled testing is finished ; the samples are analyzed and the quarantined animals are
   tested and released. The cutoff for the data is set at one month before the reporting date.
 • Reliability of Data—The data are considered reliable when USDA’s Deputy Administrator of Veterinary Services has reviewed and approved them.
 • Quality of Data—The issues related to collection and reporting of performance information are described above.


Challenges for the Future
USDA faces many challenges in its efforts to reduce the number and severity of pest and disease outbreaks. Every
year, the flow of animals, plants, and host material from abroad increases. This growth creates new pathways into
the country. The social and biological environment in which Federal efforts must be coordinated is becoming more
complex every year. Agencies must stay informed about new technologies. For each of these challenges, USDA has
developed strategies. One of them is to monitor and survey the land in cooperation with States and industry.
Another is to gather and update pest and disease information world wide. When learning of a possible threat, the
Department conducts science-based, early-detection, and rapid response efforts. It creates and enforces regulations
to prevent the entry and spread of invasive species. USDA also develops new networks and tools in collaboration
with States, universities, and the private sector.


                                                                                                                                                                  85
                                                           ANNUAL PERFORMANCE REPORT
                          Measure 4.2.2 Improve the capabilities of animal and plant diagnostic laboratories


Overview
                          Key Outcome                 The National Animal Diagnostic Network and Plant
                                                      Diagnostic Network Centers ensure timely disease detection.
     Improve Animal and Plant Diagnostic Laboratory   They also maintain a nationally accessible database of pests
                      Capabilities                    and diseases. This database allows USDA to identify new
                                                      pests and diseases, and take all necessary steps should an
outbreak occur. Measuring improvements in the capabilities of plant and diagnostic laboratories serves as a
representative measure for assessing performance in these fields of scientific research.

Analysis of Results
The performance target was met. Trend data show a steady increase in the number of plant and animal diseases the
networks can detect. Additionally, USDA continues to improve the capabilities of plant and diagnostic laboratories.
In FY 2008, USDA added Potato Cyst Nematode to its list of plant and insect diseases for which it has developed
detection criteria. potato cyst nematode, a major potato-crop pest, can cause up to 80 percent yield loss. It joins
soybean rust, sudden oak death, Ralstonia stem rot, plum pox virus, pink hibiscus mealybug, potato wart, and
huanglongbing (citrus greening) on the detection criteria list.
The Department also has animal disease-detection criteria for nine high-consequence diseases. Scientists have
added Rift Valley Fever to this list. This fever-causing disease affects livestock (including cattle, buffalo, sheep, and
goats) and humans. NAHLN personnel participated in training to develop the diagnostic capability for this disease.
NAHLN is part of a national strategy to coordinate the Nation’s Federal, State, and university laboratory resources.
USDA agencies partner with State agencies and universities to achieve a high level of agricultural biosecurity. This
process is completed through the early detection, response and containment of outbreaks of invasive pests and
diseases. The diagnostic laboratories, adequately staffed and stocked with cutting-edge technology, are essential to
accomplishing this mission.
Exhibit 34: Ensure the Capabilities of Plant and Diagnostic Laboratories are Improved

                                                          2004       2005        2006           2007                    Fiscal Year 2008
   Annual Performance Goals, Indicators and
                   Trends                                                                                      Target         Actual       Result
 4.2.2   Improve the capabilities of animal and plant       3          5           6              7               8              8           Met
         diagnostic laboratories:
         • Specific Plant diseases labs are prepared to
            detect
         • Specific Animal diseases labs are prepared       6          7           8              8               9              9           Met
           to detect
 Data Assessment of Performance Measure 4.2.1
 • The National Plant Diagnostic Network (NPDN) and the National Animal Health Laboratory Network (NAHLN) work to detect and diagnose disease
   outbreaks. They study a number of high-consequence pests, bacterial, parasitic and vital pathogens, and disease threats. Their subjects affect
   animal, plant and human health, and impact the national economy.
 • Completeness of Data—The data are based on actual information reported by NPDN and NAHLN.




 86
                                       FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
 •    Reliability of Data—The data are considered reliable.
 •    Quality of Data—Data are projected based on historical performance. The target information uses data dependent upon the baseline projections.
      Any inaccuracies in the projections would impact the accuracy of the value. The following five dimensions are assessed when a high consequence
      disease/pest qualifies as one that NPDN or NAHLN are prepared to detect and diagnose.
       −    Is the disease/pest a significant threat to animal, plant or human health and/or impact the national economy?
       −    Is there a valid diagnostic test or other means of reliable diagnosis for the disease/pest?
       −    Does the laboratory network have the capability/capacity to perform the valid diagnostic test or other means of reliable diagnosis?
       −    Does the network have the partnerships in place to generate the samples required to detect/diagnose the disease/pest?
       −    Does the network have the partnerships and/or autonomous capacity in place to provide necessary outreach regarding the disease/pest?
     USDA assesses the progress/qualification on these five dimensions based on feedback from its partners and stakeholders. This feedback is
     generated through formal progress reports, meeting minutes, and less formal one-on-one correspondence.


Challenges for the Future
Future challenges to improving laboratory capabilities include making non-Federal funding available. This funding
could be used to expand laboratories in each State, increase the number of screened diseases and their detection
criteria, and ensure that more strategically located laboratories are prepared to deal with geographically relevant
disease threats. Improving plant laboratory quality assurance and first-detector training also poses a challenge. Plans
are underway to build an advanced quality-assurance system. Improved first-detector training will improve
laboratory sample quality and speed initial detection of high-consequence pathogens.




                                                                                                                                                   87
                                                            ANNUAL PERFORMANCE REPORT
Strategic Goal 5: Improve the Nation’s Nutrition and Health
Nutrition is the link between agriculture and the Nation’s health. USDA’s leadership of the Federal nutrition
assistance programs made a healthier diet available for millions of children and low-income families. Additionally,
the Department’s cutting-edge nutrition promotion efforts harnessed interactive technologies to motivate all
Americans to make positive dietary behavioral changes, in line with the Dietary Guidelines for Americans and the
President’s HealthierUS initiative. The Guidelines provide authoritative advice about how good dietary habits can
promote health and reduce risk for chronic diseases. The HealthierUS initiative’s goal is to help Americans live
longer, better, and healthier lives.
Key FY 2008 accomplishments include:
 Promoting Access to the Food Stamp Program (FSP) —FSP–which was renamed the Supplemental Nutrition Assistance
  Program (SNAP) through the 2008 Farm bill–is the Nation’s largest nutrition assistance program, serving more
  than 28 million people monthly. The most current information on the participation rate showed that in 2006,
  67 percent of those eligible for FSP participated compared with 54 percent in 2001;
 Promoting the MyPyramid Food Guidance System—MyPyramid.gov’s Web-based educational tools help Americans
  assess and personalize their diet and physical activity plans. FY 2008 marked the debut of the MyPyramid Menu
  Planner. The planner is designed to help individuals and family nutrition “gatekeepers” plan more healthful
  menus and determine daily, weekly, and monthly consistency with the recommendations of the Dietary
  Guidelines for Americans and the MyPyramid Food Guidance System. Consumers continue to respond
  enthusiastically to this educational approach. They accessed MyPyramid.gov and used other nutrition–
  interactive, Web-based tools more than 5 billion times; and
 Continuing to Ensure That Food Stamp Benefits Are Issued Accurately—In the most current data available, the FSP
  payment accuracy rate for FY 2007 reached a record-high 94.4 percent. That number reflects effective
  partnerships with State administering agencies. It also shows the extensive use of policy options to streamline
  program administration while improving access for working families.
OBJECTIVE 5.1: ENSURE ACCESS TO NUTRITIOUS FOOD


                      Measure 5.1.1: Participation levels for the major Federal nutrition assistance programs

Overview
                        Key Outcome                      USDA’s commitment to the nutrition assistance programs
                                                         represents the core of the Nation’s effort to improve food
           Reduce hunger and improve nutrition           security and reduce and prevent hunger. The Department
                                                         looks to ensure that all eligible Americans who wish to
participate can receive program services easily and with dignity and respect. The programs’ solid performances in
FY 2008 reflect their fundamental strengths. They also demonstrate USDA’s efforts to promote access and improve
service to its clients in cooperation with State partners.

Analysis of Results
As program participation is voluntary, projections are based on economic and other factors that impact the likely
behavior of eligible populations. An analysis of the most recent information available follows.
Food Stamp Program—The program served approximately 28 million participants monthly, an increase of about 7.7
percent from FY 2007. USDA executed a range of efforts to support and encourage food stamp participation,
including:



 88
                                   FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
 Securing key improvements to food stamps in the 2008 Farm Bill. These improvements include Administration
  proposals to exclude the value of retirement and educational savings accounts, military combat pay, and all
  dependent care expenses from food stamp eligibility determination, which increased access for some low-income
  families;
 Efforts with States to develop outreach strategies. More than 60 percent of States have formal outreach plans or
  other documented outreach activities in place;
 Support for innovative State practices to promote access by simplifying the application process. The most
  current data show that 21 States have Internet-based application filing. 25 States allow recertification interviews
  to be done by telephone while another 18 states have call centers. Additionally, nine states have waivers to allow
  initial certification interviews to be done by telephone; and
 The debut of a new publication, Eat Right When Money’s Tight. The publication offers low-income families tips
  on thrifty shopping, meal preparation, and the availability of food stamps, and other nutrition-assistance
  programs. It serves as a critical tool for low-income families facing rising food costs.
USDA also measures the number of people eligible for the program to determine the rate at which eligible people
are participating. The most recent data show that in 2006, 67 percent of those eligible for FSP participated, a
substantial increase from the previous year. Additionally, participants received 83 percent of all food stamps
available if every eligible person participated. This number shows that FSP is effectively reaching those most in
need.
National School Lunch Program (NSLP)—Program participation levels reached 31.5 million in FY 2008, up slightly from
FY 2007. This number continues the trend of increases in recent years. More than 100,000 schools and residential
child-care institutions used NSLP in FY 2008.
School Breakfast Program (SBP)—Program participation levels reached 10.8 million in FY 2008, up more than 6
percent from FY 2007. This number continues a trend of increases over the last several years. More than 85,000
institutions used SBP in FY 2008. USDA continues to support and encourage program participation in FY 2008
by:
 Promoting SBP through outreach activities and materials;
 Working with organizations and partners to develop strategies for program expansion; and
 Developing school breakfast outreach materials for schools and parents.

Trend data also indicate that the proportion of all children enrolled in schools who participate in SBP has risen
slowly but steadily in recent years. This growth reflects USDA’s continuing efforts to encourage schools to operate
the program.
Special Supplemental Nutrition Program for Women, Infants, and Children (WIC) —Approximately 8.7 million participants
received WIC benefits. USDA continued to support and encourage WIC participation, and improve benefits and
services by:
 Maintaining the Administration’s commitment to ensure adequate funding to support participation by all
   eligible people who seek services; and
 Completing a historic update to the standards for WIC food benefits – the first major changes to the WIC food
   packages since 1980. These new packages will be aligned with the 2005 Dietary Guidelines for Americans and
   infant feeding practice guidelines of the American Academy of Pediatrics. These important steps will keep the
   program optimally aligned to meet today’s nutrition needs.




                                                                                                                        89
                                            ANNUAL PERFORMANCE REPORT
                                               Selected Results in Research, Extension, and Statistics
              Healthier Food Research—Researchers investigated the effects of post-harvest treatments and storage conditions on
              antioxidant availability in wheat-based food ingredients. They also studied the effects of food-processing conditions on the
              availability/bioavailability of wheat antioxidants in functional food, specifically whole-wheat pizza crusts. The research findings
              suggest the availability of health beneficial antioxidants in wheat-based functional foods may be enhanced by optimizing post-
              harvest treatments, storage conditions and food formulation, and processing techniques without significant extra effort or cost.
              These findings provide a scientific basis to promote the production and consumption of wheat-based functional foods in general.
              Household Food Security in the U.S.—Food security for a household means that its members have enough food for an active,
              healthy life. To inform policymakers and the public about the extent to which U.S. households consistently have economic access
              to food, USDA publishes an annual statistical report on household food security in the U.S. The report and its underlying data are
              widely used by Government agencies, the media and advocacy groups. The groups use the data to monitor the extent of food
              insecurity in this country, progress toward national objectives and performance of USDA’s food-assistance programs. Results
              showed that 89 percent of American households were food secure throughout 2006. The remaining 11 percent were food
              insecure at least some time during that year.
              Offset of obesity transmission from mother to infant—The incidence of obesity among children has tripled in the past few
              decades. Additionally, the role of genes has been hotly debated because not enough time has passed for the genes to have
              changed. USDA scientists showed in a mouse model that the genetic tendency for obesity increases through successive
              generations. They add that the rise can be prevented by increasing a combination of the dietary nutrients folic acid, vitamin B12,
              betaine, and chlorine. The fundamental change was established as epigenetic rather than genetic, meaning that instead of
              changes in the genetic make-up, other inherited mechanisms affected by diet silenced the gene causing obesity. These results
              offer an explanation of the inherited tendency to obesity and a way in which proper diet can offset that predisposition.



Exhibit 35: Improve Access to Nutritious Food

                                                              2004       2005       2006         2007                      Fiscal Year 2008
  Annual Performance Goals, Indicators, and
                  Trends                                                                                        Target            Actual            Result
 5.1.1     Participation levels for the major Federal
           nutrition assistance programs (millions per
           month):
          • Food Stamp Program Avg. (Monthly)                  23.9       25.7       26.7         26.5            27.8              28.1
                                                                                                                                                     Met
          • National School Lunch Program Avg.
            (Daily)                                            29.0       29.6       30.1         30.5            31.6              31.5
          • School Breakfast Program Avg. (Daily)              8.9         9.3        9.8         10.2            10.8              10.8
          • WIC Program (Monthly)                              7.9         8.0        8.1         8.3              8.5              8.7
 As of May 31, 2008.
 • Rationale for Met Range: Thresholds for 5.1 reflect the margin of error in forecasts of future participation. For food stamp participation, results from
      2 independent assessments suggest that predictions of the number of food stamp participants are accurate to within plus-or-minus 7.5 percent (on
      average). The threshold range for the school meals and WIC participation levels are 5 percent and 3 percent respectively. This reflects the pattern of
      variance between actual and target performance for both programs over the past five years.
 • Data assessment metrics to meet the target allow for an actual number in the range (in millions) 25.7-29.9, 70 for the Food Stamp Program, 30.0-
   33.2 for the National School Lunch Program, 10.3-11.3 for the School Breakfast Program and 8.2-8.8 million for the WIC program.
 Data Assessment of Performance Measures 5.1.1
 Participation data are drawn from USDA administrative records. State agency reports are certified accurate and submitted to regional offices. There,
 they are reviewed for completeness and consistency. If the data are acceptable, the regional analyst posts them to the National Data Bank (NDB)
 Preload System. NDB is a holding area for data review prior to release. Otherwise, regional-office personnel reject the report and the State agency is
 contacted. Data posted by regional personnel into NDB are reviewed at USDA. If data are reasonable and consistent with previous reports, they will be
 downloaded to NDB for public release. If not, USDA works with regional offices and States to resolve problems and inconsistencies. This process of
 review and revision ensures that the data are as accurate and reliable as possible.




 90
                                          FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                          2004        2005      2006        2007                     Fiscal Year 2008
  Annual Performance Goals, Indicators, and
                  Trends                                                                                   Target           Actual          Result
 • Completeness of Data—Figures for FSP and WIC participation represent 12-month fiscal year averages. Figures for NSLP and SBP are based on
   nine-month (school year) averages. Participation data are collected and validated monthly before being declared annual data. Reported estimates
   are based on data through April 2008, as available July 25, 2008.
 • Reliability of Data—The data are highly reliable. Participation-data reporting is used to support program financial operations. All of the data are
   used in published analyses, studies and reports. They also are used to support dialogue with and information requests from the Government
   Accountability Office (GAO), the Office of Inspector General (OIG) and the Office of Management and Budget.
 • Quality of Data—As described above, the data used to develop this measure are used widely for multiple purposes, both within and outside USDA.
   The measure itself is reported in stand-alone publications as an important, high-quality indicator of program performance.


Challenges for the Future
Studies and analyses show that there continue to be large numbers of eligible people who do not participate in
Federal nutrition assistance programs. Many may not be aware of their eligibility. Thus, efforts to improve access to
and promote awareness of these programs are an ongoing challenge. Additionally, USDA must seek improvements
in policy and operations to make these programs easier to apply.
The quality of program delivery by third parties—hundreds of thousands of State and local Government workers
and their cooperators—is critical to USDA efforts to reduce hunger and improve nutrition. USDA’s ongoing
efforts in partnership with these entities must always focus on customer service, ease of access to benefits, and
efficiency.
The Department and its delivery partners sustained effective program access in FY 2008. USDA saw greater-than-
targeted participation in FSP and the WIC. The latter program provides Federal grants to States for supplemental
foods, health care referrals, and nutrition education for low-income pregnant, breastfeeding and non-breastfeeding
postpartum women, and to infants and children up to age five found to be at nutritional risk. SBP posted expected
levels of average monthly participation in the States. SBP provides cash assistance for States to operate nonprofit
breakfast programs in schools and residential childcare institutions. The NSLP saw slightly lower-than-targeted
(but well within expected performance) average participation. NSLP provides nutritionally balanced, low-cost or
free lunches to children each school day.

OBJECTIVE 5.2: PROMOTE HEALTHIER EATING HABITS AND LIFESTYLES

                                  Measure 5.2.1: Application and usage level of nutrition guidance tools


Overview
                                                                      Good nutrition and physical activity are vital to reducing the
                          Key Outcome
                                                                      risk of death or disability from a wide range of chronic, diet-
    Promote More Healthful Eating and Physical Activity               related illnesses. USDA uses Federal nutrition policy and
                                                                      nutrition education to provide scientifically based information
                   across the Nation
                                                                      about healthful diets and lifestyles.
The Dietary Guidelines for Americans, developed jointly by USDA and the Department of Health and Human
Services, provide advice about food choices that promote health and prevent disease. The former’s MyPyramid food
guidance system (mypyramid.gov) provides educational tools to help Americans take the necessary “Steps to a
Healthier You.” These steps offer a wide range of cutting-edge information tools, including a personalized eating
plan.


                                                                                                                                                     91
                                                       ANNUAL PERFORMANCE REPORT
USDA uses partnerships and “information multipliers” to maximize the reach and impact of its interventions, both
within Federal nutrition-assistance programs and the general public. These information multipliers include
shopkeepers who post public-service messages in their shops and school teachers who teach their students about
nutrition.

Analysis of Results
To meet the needs of the general population, USDA continued its leadership role in the promotion of nutrition
guidance through educational tools designed to motivate people to live healthier:
 Distributing more than three billion pieces of nutrition guidance materials via the Web and print. Additionally,
   registrations continue to increase for the MyPyramid Tracker. MyPyramid has averaged more than two million
   active registrations since 2005;
 Launching a groundbreaking, collaborative effort to magnify the communication of dietary and physical activity
   guidance messages. The new Partnering with MyPyramid: Corporate Challenge showcases the role of various
   industries as partners with Government to encourage healthier eating habits and more physical activity among
   families. The challenge is designed to empower nutrition gatekeepers by providing easy-to-apply guidance for a
   healthy lifestyle. It also provides information to help them make healthy food choices for themselves and their
   families where they prepare foods, work, play and buy groceries; and
 Unveiling the MyPyramid Menu Planner. The online menu planner shows whether a given individual’s diet is
   balanced and consistent with the Dietary Guidelines for Americans. It also advises ways for individuals to learn
   and adjust their diets to meet the dietary recommendations. The planner tracks an individual’s diet and helps
   that individual plan meals.
Additionally, the Department advanced a number of important initiatives to promote healthy diets in nutrition
assistance programs. Key accomplishments include:
 Continued use of nutrition education in the Food Stamp Program to promote healthy food choices and
    physically active lifestyles. One educational tool includes the popular Loving Your Family, Feeding Their
    Future. This comprehensive nutrition education intervention, available in English and Spanish, is for low-
    income people of limited literacy. The tool is designed to motivate its users to improve their families’ eating and
    physical activity behaviors;
 Expanding and improving the HealthierUS Challenge. This program encourages schools to take a leadership role
    in helping students make healthy eating and lifestyle choices. The challenge establishes guidelines for schools
    that promote healthy nutrition. USDA recently announced new HealthierUS criteria that have been updated
    and revised to reflect the Dietary Guidelines for Americans. The Department also developed a new Gold Award of
    Distinction to recognize schools that exceed the regular requirements. USDA recognized more than 90 schools
    through the challenge this year;
 Engaging an expert panel to recommend updates to requirements for school meal programs. The updates were
    based on the Dietary Guidelines for Americans and related nutrition requirements; and
 Awarding a grant to the National Academies’ Institute of Medicine to support the review of the dietary
    reference intakes for vitamin D and calcium. The Dietary Guidelines Advisory Committee recognized these two
    nutrients, considered vital for a healthy diet, as a concern for the specific population groups.

                                         Selected Results in Research, Extension, and Statistics
          EFNEP Continues to Yield Valuable Results for Participants—The Expanded Food and Nutrition Education Program (EFNEP)
          is designed to assist limited resource audiences in acquiring the knowledge, skills, attitudes and behavioral changes necessary
          for nutritionally sound diets. EFNEP continues to be highly effective. Ninety-one percent of adult participants improved their
          dietary intake, 88 percent of these participants improved at least one nutritional practice and 83 percent reported that they
          improved at least one or more food resource management practice. Seventy-one percent of youth EFNEP participants now eat a
          variety of foods, 71 percent of the youth increased their knowledge of essentials of human nutrition and 64 percent of youth
          respondents improved practices in food preparation and safety.



 92
                                    FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
            Could Behavioral Economics Help Improve Diet Quality for Nutrition Assistance Program Participants?—This study uses
            behavioral economics, food marketing and psychology to identify possible options for improving the diets and health of
            participants in Federal food-assistance programs. Findings from behavioral and psychological studies indicate that people
            regularly and predictably behave in ways that contradict some standard assumptions of economic analysis. Recognizing that
            consumption choices are determined by factors other than prices, income and information, the study shows that different
            strategies influence consumers’ food choices. These strategies expand the list of possible ideas for improving the diet quality and
            health of participants in USDA’s food-assistance programs.


Exhibit 36: Promoting Healthier Eating Habits and Lifestyles

                                                             2004       2005       2006         2007                     Fiscal Year 2008
     Annual Performance Goals, Indicators,
                  and Trends                                                                                   Target           Actual            Result
 5.2.1   Application and usage level of nutrition
         guidance tools (pieces of nutrition guidance         n/a         n/a        1.5         2.6             2.7              3.2             Exceeded
         distributed, Billions)
 Rationale for Met Range: Thresholds reflect trends of MyPyramid.gov “hits” and print materials distributed (MyPyramid and the Dietary Guidelines for
 Americans).
 • Data assessment metrics to meet the target allow for an actual number in the range 2.3-2.7 Billion.
 Data Assessment of Performance Measures 5.2.1
 Data on the application and usage level of nutrition guidance tools are drawn from electronic records associated with
 http://www.mypyamid.gov/MyPyramid.gov, survey analysis and records at headquarters and inventory control at the distribution center used by USDA’s
 Center for Nutrition Policy and Promotion.
 • Completeness of Data—Data related to MyPyramid.gov are collected instantaneously, indicating the number of e-hits to the Web site and
     registrations to MyPyramid Tracker. For print materials, data from national headquarters and a distribution center are also complete. This information
     representing the difference between what was distributed versus what remains in the inventory.
 • Reliability of Data—The data are highly reliable. The number of hits is instantaneously recorded, the on-line survey is continual and well-tested, and
     the number of distributed print materials is tracked.
 • Quality of Data—The data are used to report on the success of the MyPyramid Food Guidance System, and our high quality indicators of the degree
     to which USDA promotes, and customers respond to, interactive tools and print materials designed to help Americans personalize their diets.


Challenges for the Future
While USDA’s goal to address and prevent obesity begins with understanding what constitutes a healthy diet and
the appropriate balance of exercise, success requires individuals to change their diets by modifying their eating
behavior. Crafting more effective messages and nutrition education programs to help people make better food
choices requires understanding their current choices and the relationships between these choices and their attitudes,
knowledge and awareness of diet/health links.
The ability of existing nutrition guidance and promotional materials to achieve behavior change may wane over
time. Further, the food marketplace has limited resources available for nutrition promotion relative to other
messages, products and practices. Additionally, physical activity and other lifestyle issues significantly impact body
weight and health.
USDA tracks its annual performance in promoting healthful eating and physical activity by monitoring distribution
of nutrition education materials. Over the longer term, the Department assesses the effect of these efforts with its
Healthy Eating Index (HEI). HEI measures diet quality to assess conformance to Federal dietary guidance. The
index is based on nutrition surveillance data.




                                                                                                                                                        93
                                                        ANNUAL PERFORMANCE REPORT
OBJECTIVE 5.3: IMPROVE NUTRITION ASSISTANCE PROGRAM MANAGEMENT AND CUSTOMER SERVICE


                                      Measure 5.3.1: Increase Food Stamp Payment Accuracy Rate

Overview
                        Key Outcome                 USDA is committed to ensuring that nutrition-assistance
                                                    programs serve those in need at the lowest possible costs. These
         Maintain a High Level of Integrity in the  programs must also offer a high level of customer service.
             Nutrition Assistance Programs          Effectively managing Federal funds for nutrition assistance,
                                                    including prevention of program error and fraud, is a key
component of the President’s Management Agenda. The Department focused on maintaining strong performance
in the food stamp payment accuracy rate as its key performance goal in this area.

Analysis of Results
While 2008 data will not be available until June 2009, the food stamp payment accuracy rate reached a record-high
94.4 percent in 2007. The number demonstrates the excellent performance by State agencies in administering the
program. This combined rate reflects 4.58 percent in overpayments and 1.06 percent in underpayments for a total
of 5.64 in erroneous payments.
Twenty-eight States had a payment-accuracy rate greater than 94 percent, including 12 States with rates topping
the 96–percent mark. Data on each State’s payment accuracy can be found at: www.fns.usda.gov/fsp/qc/pdfs/2007-
rates.pdf.
In June, USDA awarded $30 million in high performance bonuses to the 7 States with the best payment accuracy
rates and the 3 States with the most improved rates.
USDA’s close working relationship with its State partners, along with program changes to simplify rules and reduce
the potential for error, has resulted in consistent increases in food stamp payment accuracy. Such Department
efforts as an enhanced Partner Web and the National Payment Accuracy Work Group contributed significantly to
this success. They both offered timely and useful payment accuracy-related information, tools best practices
available across the country. Partner Web is an Intranet for State food stamp agencies. The National Payment
Accuracy Work Group consists of representatives from USDA headquarters and regional offices.
The Department will work with States to streamline the program by extending simplified reporting to elderly and
disabled households.
Additionally, USDA continued to use an early detection system to target States that may be experiencing a higher
incidence of errors based on preliminary quality control data. Regional offices then address these situations in the
individual States.
Exhibit 37: Increase Efficiency in Food Management

                                                         2004       2005      2006        2007                   Fiscal Year 2008
  Annual Performance Goals, Indicators, and
                  Trends                                                                                Target        Actual        Result
 5.3.1   Increase Food Stamp Payment Accuracy                                                                           Not
         Rate (Baseline: 2001 = 91.3%)                   94.1%     94.1%      94.0%       94.4%          94.3%                      Deferred
                                                                                                                      Available
 FY 2008 data will be available in 2009.
 Rationale for Met Range: The 95-percent confidence interval around the estimate of payment accuracy is ±.33.
 • Data assessment metrics to meet the target allow for an actual number in the range 94.0%-94.6%.



 94
                                      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
 Data Assessment of Performance Measures 5.3.1
 Food stamp payment accuracy data are used annually to support the food stamp Quality Control (QC) process, based upon a statistically valid
 methodology. The QC process uses a systematic random sampling of Food Stamp Program (FSP) participants. The results of these activities are used
 to determine individual States’ combined payment error rates. This rate is composed of over-issuances and under-issuances of FSP benefits. A
 regression formula is applied to review results to calculate official error rates. State agencies select cases monthly that are reviewed to determine the
 accuracy of the eligibility and benefit-level determination. They include a client interview and verification of all elements of eligibility, and the basis of
 issuance of food stamp benefits. Federal reviewers validate a sample of the State’s reviews by conducting a second one. State agencies can verify and
 validate data through an informal review process. This process and current protections designed to ensure the data’s accuracy are based on an
 agreement between the States and Federal reviewers. The process has proven to be a sound method of calculating reliable data.
 • Completeness of Data—The most current data available for this measure are for FY 2007. Analysis of FY 2008 performance will be deferred until
     next year’s report. Once available, the data are complete and reliable.
 • Reliability of Data—QC data are valid and accepted by State FSP agencies as a basis for performance-incentive payments and penalties. GAO
     and OIG also use it regularly.
 • Quality of Data—As described above, the data used to develop this measure are used widely for multiple purposes, both within and outside USDA.
     The measure itself is frequently cited as an important, high-quality indicator of program performance.



Challenges for the Future
Some improper payment risks are inherent to the legislatively mandated program structure. This structure is
intended and designed to be easily accessible to people in special circumstances and settings. USDA must make
services convenient and accessible to participants. State and local Governments bear direct responsibility for
delivering the programs. Thus, the Department must work with these groups through monitoring and technical
assistance. This approach requires trained staff supported by a modernized information technology infrastructure to
ensure full compliance with national program standards.
Two significant challenges will impact future success. Congressional action has changed the quality control process,
lowering the risk of penalties for poor State agency performance. However, State agencies have, for the most part,
risen to the challenge and continue to achieve a high level of payment accuracy. Additionally, State budgets have
been and will continue to be extremely tight. This factor could hurt State performance in payment accuracy. USDA
will continue to provide technical assistance and support to maintain payment accuracy in the context of this
changing environment.

Strategic Goal 6: Protect and Enhance the Nation’s Natural Resource Base and Environment
OBJECTIVE 6.1: PROTECT WATERSHED HEALTH TO ENSURE CLEAN AND ABUNDANT WATER

                                                               Measure
                           6.1.1: Comprehensive Nutrient Management Plans applied
                                  • Conservation Technical Assistance
                                  • Environmental Quality Incentives Program
                           6.1.2: Increase Conservation Reserve Program (CRP) acres of riparian and grass buffers

Overview
                           Key Outcome                                     Healthy, well-cared for watersheds are essential to ensuring
                                                                           clean and abundant water resources. USDA manages national
                   Clean and Abundant Water                                forests and grasslands to protect watersheds. The Department
                                                                           also offers services to help protect and enhance the Nation’s



                                                                                                                                                             95
                                                          ANNUAL PERFORMANCE REPORT
water resources on private lands. The Conservation Technical Assistance Program (CTA) provides technical
assistance supported by science-based technology and tools to help people conserve, maintain and improve their
natural resources. In 2008, USDA conservation experts assisted people in writing or updating conservation plans on
private land covering more than 13.8 million acres of working cropland and 26.8 million acres of grazing and forest
lands. Conservation plans provide producers with information on the capability of their soil, condition of their
grazing lands and woodlands, irrigation water management, wildlife habitat needs, and measures to improve or
protect soil, water and air quality. The Department also assisted agricultural producers with implementing water
quality improvement practices on more than 36 million acres. Much of USDA’s assistance for water quality is
directed towards livestock producers to reduce the risk of livestock waste and nutrients entering waterways.
A third of all ground and surface water is used for agricultural irrigation. USDA helped producers improve their
irrigation practices on 3.3 million acres in FY 2008.
USDA also provided producers with financial assistance to help offset the cost of installing riparian and grassland
buffers, and other conservation practices. Major programs providing financial assistance for water resources
included the Environmental Quality Incentives Program (EQIP) and the CRP. The former provided nearly $560
million in cost share and incentives for water conservation and water quality in FY 2008. EQIP financial assistance
is used for capital-intensive, structural practices and the adoption of practices to improve management of working
land.

Analysis of Results
USDA made significant progress in protecting watershed health and ensuring clean and abundant water. The
Department exceeded its target for CTA and met its target for EQIP by helping livestock producers apply
comprehensive nutrient management plans. These systems include conservation practices implemented for waste
collection and storage, nutrient management, land treatment practices for erosion control, and vegetated buffers to
protect bodies of water. As animal agriculture has become more concentrated, public concern about potential
environmental damage has increased. USDA focuses on helping producers comply with State and local regulations
to minimize the potential for damage to water or air resources from livestock operations.

                                          Selected Results in Research, Extension and Statistics
          A New Remote Sensing Technique To Estimate Nutrient Uptake By Cover Crops—While cover crops can reduce nitrogen
          losses from agricultural fields, they are difficult to monitor at the watershed/landscape scale. USDA researchers in Beltsville,
          Maryland, developed a remote sensing technique. The technique estimates the amount of nitrogen sequestered in cover crop
          biomass on farms enrolled in State cover crop cost share programs. The pilot study was conducted in the Choptank River
          watershed in Maryland, which is part of USDA’s watershed research network. The technique will allow managers to optimize and
          efficiently monitor this important best management practice at watershed and regional scales.
          Extension Program Reduces Contamination and Saves Money—Excess nitrogen runoff from agriculture pollutes in the
          Nation’s waterways. USDA funded North Dakota Extension programs to reduce nitrogen application rates with no crop yield or
          quality consequences. The programs are designed to increase grower profits and reduce water contamination. The work reduced
          nitrogen application by 20 pounds per acre on 500,000 acres of dry bean, canola and flax. At 40 cents per pound of nitrogen,
          growers saved $4 million in North Dakota.


Riparian and grass buffers intercept sediment and nutrients before they reach surface waters. To measure
performance in achieving its strategy, USDA monitors acreage of agricultural lands to be enrolled as buffer zones in
CRP. During the past five years, the number of acres set aside as buffer areas under the CRP program has increased
steadily. CRP exceeded its performance target of 1.92 million acres for the measure by more than 100,000 acres.
For FY 2008, producers have set aside approximately 2.02 million acres as CRP buffer areas.




 96
                                     FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Exhibit 38: Healthy Watersheds, High Quality Soils and Sustainable Ecosystems

                                                                2004         2005        2006         2007                        Fiscal Year 2008
     Annual Performance Goals, Indicators and
                     Trends                                                                                           Target             Actual            Result
 6.1.1     Comprehensive Nutrient Management Plans
           applied (number of plans)
 •       Conservation Technical Assistance                      2,372        2,421       2,269        1,911            1,550              1,745           Exceeded
 •       Environmental Quality Incentives Program               1,055        2,032       2,774        2,490            2,300              2,520              Met
 6.1.2     Increase Conservation Reserve Program                 1.65        1.75        1.86          1.95             1.92               2.02           Exceeded
           (CRP) acres of riparian and grass buffers
           (Million acres, cummulative)
 Actual performance as of September 30, 2008.
 Rationale for Met Range:
 • 6.1.1: 1) Conservation Technical Assistance. Data assessment metrics to meet the target allow for an actual number in the range 1,395 – 1,705. 2) Environmental
     Quality Incentives. Data assessment metrics to meet the target allow for an actual number in the range 2,070 – 2,530.
 • 6.1.2: Data assessment metrics to meet the target allow for an actual number in the range of 98%-102% of 1.92.
 Data Assessment of Performance Measures 6.1.1
 •     Please refer to goal 6, Objective 6.4.1
 Data Assessment of Performance Measures 6.1.2
 The data source for this measure is the FSA National CRP Contract and Offer Data Files.
 • Completeness of Data— CRP targets and actual data are cumulative. Data is based on estimated results through September 30, 2008. The
     measure reports national acres under contract with the following types of conservation buffers: filter strips, riparian buffers and wildlife habitat
     buffers on marginal pasture land. There are no known data limitations.
 • Reliability of Data— FSA considers the data to be reliable. CRP is authorized through FY 2012.
 • Quality of Data— While current information only provides the number of acres in these buffers, ongoing research will show models that estimate
     sediment and nutrients intercepted by these buffers. When available, these estimates may be used as performance measures.



Challenges for the Future
The demand for ethanol has lead to an increase in corn acreage. As a result, there may be increased demand for the
collection and removal of crop residues/biomass for annually planted crops, in addition to perennial crops such as
switchgrass. The changes in crop rotation, tillage, residue management, and nutrient and pesticide use on cropland
could threaten water quality if not managed carefully.
If markets support increased production, agricultural producers may continue to plant crops on environmentally
sensitive land rather than establishing long-term conservation covers or buffers. CRP enrollment continues to be
influenced by high commodity prices. These prices have reduced the attractiveness of retiring cropland from
production and enrolling it in CRP. Also, the 2008 Farm Bill reduced the maximum CRP enrollment to 32 million
acres beginning in FY 2010.
USDA uses the multi-agency Conservation Effects Assessment Project (CEAP) to quantify the environmental
benefits of conservation practices. Private landowners are cooperating with USDA in the CEAP effort. Watershed-
based assessments are directed at evaluating interactions among practices and hydrology in the landscape. There is
also a focus on the impacts of livestock, irrigation and drainage management, and conservation practices with
significant watershed level impacts.




                                                                                                                                                                     97
                                                             ANNUAL PERFORMANCE REPORT
OBJECTIVE 6.2: ENHANCE SOIL QUALITY TO MAINTAIN PRODUCTIVE CROPLAND BASE

                                                           Measure
                         6.2.1 Cropland with conservation applied to improve soil quality (millions of acres)
                               • Conservation Technical Assistance Program
                               • Environmental Quality Incentives Program


Overview
                        Key Outcome                      High-quality soils support the efficient production of crops
                                                         for food, fiber and energy. Proper soil management
                  Enhanced Soil Quality                  maximizes agricultural production and improves the
                                                         environment. USDA helps producers install conservation
practices and systems that meet established technical standards and specifications. In FY 2008, the Department
assisted in applying conservation practices on 16 million acres of cropland. USDA also provides financial assistance
to encourage producers to adopt land treatment practices proven to provide significant public benefits. In FY 2008,
financial assistance for practices applied primarily to address soil quality issues included $187 million in EQIP cost-
shares or incentives for adopting structural measures or management practices to reduce erosion and protect
cropland.
The voluntary Conservation Security Program (CSP) provides financial and technical assistance to promote
conservation on agricultural lands. CSP supports natural resource stewardship by identifying and rewarding those
farmers and ranchers meeting the highest standards of conservation and creating incentives for other producers to
meet those same standards.
USDA mapped or updated 35.2 million acres of soils, including Federal lands. Soil surveys provide information on
the capabilities and conservation-treatment needs of soils. The Department provides the scientific expertise to
enable a uniform system of mapping and assessing soil across the Nation. Historically, USDA has produced soil
surveys along geo-political boundaries. Future efforts will be directed toward developing seamless national soil
survey coverage. The soil survey program is initiating an effort to collect soil property data that vary with land use
and management. These data will better enable planners to assess soil quality for a given land use and management
level. This will allow conservation practices to be tailored to address the greatest soil quality concerns and more
accurately reflect the operator’s conditions.

Analysis of Results
USDA exceeded its target for helping producers apply conservation practices on cropland for CTA and met its
EQIP target. Farmers frequently change crops, equipment, and management practices; thus, they need help in
adjusting conservation systems, even on land well-protected under the previous system. USDA also met its CSP
targets for enhanced soil management.


                                           Selected Results in Research, Extension, and Statistics
           Preventing Soil Erosion—Supported by Small Business Innovation Research, researchers have investigated the use of
           WoodStrawTM for erosion control. WoodStrawTM is a wood-based erosion control material that is weed-free, long-lasting and
           superior to agricultural straw in watersheds, forestlands and road construction. Its production supports rural jobs and improves
           independent veneer mill sustainability through value-added outlets for low grade veneer.



 98
                                      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
             “Green Payments” in Agriculture—USDA’s Integrating Commodity and Conservation Programs: Design Options and Outcomes
             and a related Amber Waves article address the potential advantages and disadvantages of linking commodity and conservation
             programs into a single policy tool. The research examined the distribution of income support and environmental gains from
             various approaches to combining that objective of existing commodity programs and environmental objectives. Policy makers who
             attempt to join commodity and conservation policy may face a difficult trade-off between environmental gain and the existing
             distribution of farm income support. Program scenarios included existing commodity programs with enhanced conservation
             requirements (extensions of existing compliance requirements) and payments based on environmental performance
             (“performance-based” payments). This move would encourage “production” of environmental quality along side of traditional
             agricultural commodities.
             Effects of elevated carbon dioxide (CO2) on soil carbon in conventional and conservation cropping systems evaluated—
             USDA researchers in Auburn, Alabama, evaluated the contribution of agricultural management and rising atmospheric carbon
             dioxide to soil carbon sequestration. They also studied the ability of these systems to help ease gas’ higher atmospheric levels.
             Soil carbon was measured for 10 years in a cropping systems study. Researchers compared the effects of elevated atmospheric
             carbon dioxide CO2 in a conventional (standard tillage with no cover crops) management system with that of a conservation (no-
             till with three cover crops). The researchers found that conservation management can improve soil quality, and that the
             improvements are enhanced under elevated atmospheric carbon dioxide conditions.


Exhibit 39: Enhanced Soil Quality

                                                                 2004         2005        2006         2007                        Fiscal Year 2008
  Annual Performance Goals, Indicators and
                  Trends                                                                                               Target             Actual            Result
 6.2.1   Cropland with conservation applied to
         improve soil quality (millions of acres)
         • Conservation Technical Assistance                      NA           6.0         6.4          7.3               7.0                8.3           Exceeded
         • Environmental Quality Incentives                       NA           2.2         3.4          5.3               5.5                5.6               Met
         • Conservation Security                                  1.3          7.2         1.4          0.14              1.4                1.3               Met
 Actual performance as of September 30, 2008.
 Rationale for Met Range: This measure was new for the Department in FY 2007, but relates to the prior measure for Cropland Soils Protected from Excessive Erosion.
 This measure was designed to provide a better indicator of soil quality and includes all cropland and hay land on which USDA assisted producers to apply conservation
 measures to maintain or enhance soil quality and enable sustained production of a safe, healthy, and abundant food supply. Performance data for FY 2006 and FY 2005
 have been provided to indicate prior year performance had this measure been employed at that time.
 • Conservation Technical Assistance: Data assessment metrics to meet the target allow for an actual number in the range of 6.3–7.7.
 • Environmental Quality Incentives: Data assessment metrics to meet the target allow for an actual number in the range of 5.0–6.1.
 • Conservation Security: Data assessment metrics to meet the target allow for an actual number in the range of 1.3–1.5
 Data Assessment of Performance Measures 6.2.1
 Please refer to goal 6, Objective 6.4.1


Challenges for the Future
Economics and weather can impact producers’ willingness to adopt conservation measures. In addition to an
increase in demand for corn to make ethanol, demand is expected to increase for the collection and removal of crop
residues/biomass for annually planted crops and perennial crops such as switchgrass, for cellulosic ethanol. Natural
disasters and prolonged unfavorable weather conditions could also reduce the opportunities for producers to
implement conservation practices. USDA continues to evaluate the effects of short-term and long-term
conservation practices on soil quality, including impacts on organic matter and carbon sequestration.
The Department will face challenges associated with soil data collection and dissemination. Economic constraints
in partnering with other agencies and universities could reduce the number of acres mapped and the total number
of soil surveys updated. USDA will seek to strengthen partnerships and form new ones with entities having
common interests. It will also use technology to improve data-collection efficiency.



                                                                                                                                                                         99
                                                             ANNUAL PERFORMANCE REPORT
OBJECTIVE 6.3: PROTECT FORESTS AND GRAZING LANDS

                                                             Measure
      6.3.1   Number of acres of hazardous fuel treated that are in the wildland urban interface
      6.3.2   Number of acres of hazardous fuel treated that are in condition Classes 2 or 3 in Fire Regimes I, II or III
              outside the wildland-urban interface
      6.3.3   Number of acres in condition classes 2 or 3 in Fire Regimes I, II,or III treated by all land management
              activities that improve condition class
      6.3.4   Grazing and forest land with conservation applied to protect and improve the resource base:
              • Conservation Technical Assistance
              • Environmental Quality Incentives Program

Overview
                      Key Outcome                      Forests and grasslands comprise nearly 55 percent of the
                                                       Nation’s total land area of 2.3 billion acres. These lands
       Sustainable Forest and Grassland Ecosystems     provide timber and livestock forage. Additionally, healthy
                                                       forests and grazing lands contribute to the health and well-
being of the Nation’s soil, water, air and wildlife. USDA looks to reduce fire danger, minimize the threat of
invasive species, and help producers apply conservation practices that reduce erosion and improve water quality.
The Department manages more than 192 million acres of national forests and grasslands. It also acts as a technical-
assistance provider on non-Federal forests and grasslands. These areas comprise almost half the continental U.S.
On Federal lands, USDA protects and sustainably manages national forests and grasslands so they support multiple
uses. Using technical and financial assistance, the Department also helps landowners and operators address the risks
on privately owned land using conservation practices. These practices include prescribed grazing, integrated pest
management, brush management, forest stand improvement, and tree planting. USDA assisted producers in
applying conservation practices on 31.4 million acres of non-Federal grazing lands and forest.
Several serious threats pose risks to public and private forestland and grassland. They include wildland fire, invasive
species, loss of open space and unmanaged outdoor recreation. In many areas, especially in the West, most
watersheds and landscapes include public land managed by several Federal agencies and private, State and Tribal
lands. Protecting the natural resources in these areas requires cooperation among a large number of stakeholders,
with a focus on the whole landscape. USDA’s forest protection performance measure focuses on reducing the risks
of catastrophic wildland fire. Its performance measure for grazing land and non-Federal forestland focuses on
increasing the acreage managed under conservation systems that will sustain or improve long-term vegetative
condition.
Approximately a million acres of national forestlands burned during the 2008 fire season. Nationwide, wildfires
affected approximately 5 million acres of public and private land. USDA and the Department of the Interior (DOI)
are using tools and authority provided by the President’s Healthy Forests Initiative and the Healthy Forests
Restoration Act of 2003 to reduce fire hazards and restore forests and grasslands. The USDA-DOI projects consist
largely of removing excess vegetation and prescribed burning (collectively, “hazardous fuel reduction”) to reduce the
risk from wildfires.




100
                                  FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
The USDA-DOI projects improve firefighter and public safety. Since the inception of the National Fire Plan in
2001, USDA has treated more than 16 million acres to remove excess vegetation through a combination of
hazardous fuels reduction funds and other vegetation management program efforts. Unplanned ignitions, or those
that occur through such natural causes as lightning, are also used as an ad-hoc tool to manage hazardous fuels.
Natural fire reduces fuels, recycles nutrients and provides a host of other functions necessary to maintain healthy
ecosystems. In 2008, management objectives were achieved on approximately 170,000 acres using naturally ignited
fires.
USDA’s efforts to reduce the risks of wildfire are conducted in collaboration with its stakeholders to develop and
implement Community Wildfire Protection Plans (CWPPs). CWPPs identify wildland fire hazards in areas within
and surrounding communities. They also identify high-priority hazardous fuels for treatment. Additionally,
CWPPs help private citizens understand the role fire plays in ecosystem health, promote positive interactions with
Federal land managers, and create local business opportunities.
Hazardous fuel reduction accomplishments in 2008 include:
 Investing more than 60 percent of the dollars available for hazardous fuel treatments in the wildland urban
  interface near communities;
 Developing a scientific methodology to evaluate acres burned by unplanned ignition as acres approaching
  desired conditions, if the outcomes are consistent with management objectives;
 Creating and implementing a process to document and display fuel-treatment effectiveness where on-the-
  ground treatments have been tested by wildfire; and
 Deploying the Fire Program Analysis system to analyze initial response, fuels, and large fire-suppression
  activities relative to risks, impact, benefits, and cost. The system will provide managers decision-support and
  analysis tools to inform their allocation of fire preparedness resources and funding at both the local and national
  levels.
Several key USDA programs contribute to management efforts that protect communities and restore forests and
grasslands to sustainable conditions. The hazardous fuel reduction program is a crucial component of this effort.
Programs to improve timber and range productivity, wildlife and fish habitat, forest health, and watershed quality
also contribute to this effort.

Analysis of Results
USDA met or exceeded all of its performance goals for protecting the health of the Nation’s forests and grasslands
against the risk of fire. USDA exceeded its 2008 CTA and EQIP targets for conservation applied to protect and
enhance non-Federal grazing land and forest land. Nationwide drought conditions, expansion of the wildland
urban interface, and densely vegetated forests increase the chances of more severe and damaging wildfires.
Approximately 56 percent of all acres managed by USDA have missed 2 or more expected fire cycles. Many acres
are at elevated risk from wildland fire. The finer scale data available from LANDFIRE is expected to show an even
greater departure from expected conditions in the Nation’s forests and woodlands.


                                          Selected Results in Research, Extension, and Statistics
          Investing in the Future—A USDA program allowed 65 forestry schools and colleges to participate in environmental research.
          The study addressed the production, protection and utilization of forest resources and associated rangelands. Nearly 1,000
          scientists work on projects from the molecular to the landscape level. Knowledge and technologies developed are worth billions of
          dollars in direct and indirect benefits. Funding has supported 22,500 years of graduate student forestry studies, leading to 7,500
          masters and 2,200 doctoral degrees.
          Major economic and environmental disruptions by wildfires in Western States—The lack of information on the impacts of
          grazing on post-fire environments has limited the effectiveness of post-fire management strategies to simultaneously meet
          ecological and economic goals. USDA researchers in Burns, Oregon, evaluated plant community recovery after prescribed fire
          and the application of spring and summer grazing in a local rangeland ecosystem. They found that moderate grazing after fire did



                                                                                                                                               101
                                                     ANNUAL PERFORMANCE REPORT
             not limit the recovery of plant communities and productivity of herbaceous plants when compared with ungrazed treatments. This
             information enhances the ability of land managers to prescribe post-fire grazing practices that restore ecological health while
             reducing income loss for livestock producers.


Exhibit 40: Trends in Treatment of Hazardous Fuel, Private Forests and Grasslands

                                                                       2004        2005        2006         2007                     Fiscal Year 2008
      Annual Performance Goals, Indicators and
                      Trends                                                                                             Target          Actual             Result
 6.3.1   Number of acres of hazardous fuel treated that are            1,311       1,094       1,045        1,139         1,110           1,110               Met
         in the wildland urban interface (in thousands)
 6.3.2   Number of acres of hazardous fuel treated that are             492         470         409          528           515             515                Met
         in condition classes 2 or 3 in Fire Regimes I, II, or
         III outside the wildland-urban interface (in
         thousands)
 6.3.3   Number of acres in condition classes 2 or 3 in Fire            758        1,058       1,093        1,301         1,268           1,268               Met
         Regimes I, II, or III treated by all land management
         activities that improve condition class (in
         thousands)
 Rationale for Met Range:
 •    6.3.1: Data assessment metrics to meet the target allow for an actual number in the range of 1,055–1,166.
 •    6.3.2: Data assessment metrics to meet the target allow for an actual number in the range of 489–541.
 •    6.3.3: Data assessment metrics to meet the target allow for an actual number in the range of 1,205–1,331.
                                                                       2004        2005        2006         2007                     Fiscal Year 2008
         Annual Performance Goals, Indicators
                     and Trends                                                                                          Target          Actual            Result
 6.3.4   Grazing and forest land with conservation applied
         to protect and improve the resource base, millions
         of acres
          Conservation Technical Assistance                            n/a         7.5         11.8         14.2          12.0            16.0           Exceeded
          Environmental Quality Incentives Program                     n/a         8.0         12.2         16.5          12.3            16.9           Exceeded
 1 Actual performance as of September 30, 2008.
 The FY 2007 PAR included performance figures from the Conservation Stewardship Program. It was removed this year from the measure so the focus would be on soil
 and water quality.
 Rationale for Met Range: This measure was re-defined and expanded in FY 2007 to include all private grazing or forest land on which the Department assisted producers
 to apply conservation measures to maintain or improve long-term vegetative condition and protect the resource base. Lands on which conservation measures may be
 applied include grazed range, grazed forest, native and naturalized pasture, and forest. Performance data for FY 2005 and FY 2006 have been provided to indicate prior
 year performance had this measure been employed at that time.
 •    6.3.4: 1) Conservation Technical Assistance. Data assessment metrics to meet the target allow for an actual number in the range 10.8–13.2. 2)
      Environmental Quality Incentives. Data assessment metrics to meet the target allow for an actual number in the range 11.1–13.5.
 Data Assessment of Performance Measures 6.3.1, 6.3.2, 6.3.3, 6.3.4
 The following applies to measures 6.3.1, 6.3.2, and 6.3.3: The data for hazardous fuels treatments are reliable, of good quality, and certified by the
 respective line officer. USDA wildfire and other program managers collected, compiled, and analyzed the data.
 1 Please refer to Goal 6, Objective 6.4.1 for the data assessment of measure 6.3.4.
 • Completeness of Data—The data used in conjunction with performance information are based on those reported through the end of the third
    quarter. To provide the response to the initial data call, the Forest Service projects the results for the fourth quarter of the fiscal year based on year-
    to-date and prior year performance. That projection is replaced with end-of-year actual data after the end of the fiscal year.
 • Reliability of Data—All data for hazardous fuels were reported through the National Fire Plan Operations System. USDA and Department of Interior
   land-management agencies co-developed the system. Its data are collected, compiled, and analyzed by program managers, and certified by the
   respective line officer.
 • Quality of Data—Data quality has been assessed at about 90 percent for project data in all regions. The quality of these data is monitored
   continuously and being improved with focused training and policy direction on reporting requirements. Data are projected based on historical
   performance and year-to-date actual accomplishments. If information is not entered into the systems of record immediately upon completion of the
   project, the quality of the projection will be compromised.




102
                                           FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Challenges for the Future
The cost of managing wildfires is staggering. Where feasible, use of excess vegetation for biomass and biobased
products may lower costs. A barrier to expanding forest-biomass utilization is the limited market for this material
and the rising cost of transportation from the source to scarce processing facilities. Where processing capacity exists,
use is limited because much of the excess material is too small for its removal to be economically feasible. USDA
and DOI are developing a strategy to encourage greater biomass utilization.
With regard to private land, producers’ willingness and ability to implement conservation measures are affected by
economic conditions, climate variability, drought and invasive species. USDA, in cooperation with other Federal,
State, Tribal, and local agencies will work to provide producers information and other necessary resources to adopt
needed conservation measures.
OBJECTIVE 6.4: PROTECT AND ENHANCE WILDLIFE HABITAT TO BENEFIT DESIRED, AT-RISK AND DECLINING SPECIES

                                    Measure: 6.4.1 Wetlands created, restored or enhanced
                                        • Conservation Technical Assistance Program
                                        • Wetlands Reserve Program
                                        • Conservation Reserve Program


Overview
                      Key Outcome                       USDA addresses the needs of wildlife in managing national
                                                        forests and grasslands. USDA also provides technical and
    Improved Wildlife Habitat Quality While Supporting  financial assistance to landowners and managers to improve
         Desired Species and Species of Concern         habitat on private lands. On non-Federal land, USDA
             (At-Risk and Declining Species)            conservationists provide on-site assistance to assess the quality
                                                        of wildlife habitat. They also develop management plans that
consider wildlife needs for shelter, nesting areas, and access to water and food during critical periods. These plans
are designed to sustain and enhance wildlife habitat.
The Department helped individuals and groups apply conservation management to maintain or improve habitat on
13.5 million acres of non-Federal land. The land treated included 13.1 million acres of upland wildlife habitat and
nearly 400,000 acres of wetland wildlife habitat. Several USDA programs encourage participants to enter into
contracts to improve and restore grassland, rangeland, forest ecosystems, wetlands, and adjacent upland buffers.
Easement acquisitions and agreements help ensure the long term viability of these habitat areas. These actions are
designed to create productive, diverse, and resilient habitat.

Analysis of Results
USDA exceeded its targets for the creation, restoration or enhancement of wetlands. This performance measure set
targets for three USDA programs: the CTA, the Wetlands Reserve Program (WRP) and CRP. The performance
measure for wetlands includes land on which USDA provided technical and/or financial assistance in FY 2008.
CTA provides technical assistance supported by science-based technology and tools to help people conserve,
maintain and improve their natural resources. On wetlands where USDA provided technical assistance through
CTA, no financial assistance was provided by Department programs. In some cases, financial assistance may have
been provided through non-USDA sources.



                                                                                                                    103
                                             ANNUAL PERFORMANCE REPORT
WRP is a voluntary conservation program that offers landowners the means and opportunity to protect, restore and
enhance wetlands on their property. WRP participants sign an easement or agreement with USDA.
The CRP performance target of 50,000 acres was exceeded by 30,103 acres, a 60 percent increase over the projected
number of acres. This was due to the adoption of several initiatives, including the 100,000-acre Duck Nesting
Habitat Initiative, the 500,000-acre Bottomland Hardwood Timber Initiative and the 250,000-acre non-floodplain
Wetland Restoration Initiative. These restored wetlands and buffers have increased prime wildlife habitat and water
storage capacity. They have also led to a net increase in wetland acres on agriculture land.
The Duck Nesting Habitat Initiative was designed to increase duck populations by an estimated 60,000 birds
annually and to restore 100,000 wetland acres. The Bottomland Hardwood Timber Initiative was designed to
improve flood plains through the restoration of primarily bottomland hardwood trees. The Wetland Restoration
Initiative was designed to restore up to 250,000 acres of wetlands and playa lakes that are located outside of the
100-year floodplain.
In April, the Council on Environmental Quality (CEQ) announced that the goals established in the President’s
Wetland Initiative had been achieved a full year ahead of schedule. WRP, CRP and CTA served as the primary
USDA contributors to this effort. They have restored, created and enhanced more than 1.3 million acres of
wetlands, and protected more than 400,000 acres since Earth Day, 2004. CEQ coordinates Federal environmental
efforts and works closely with agencies and other White House offices in developing environmental policies and
initiatives.
USDA uses the acreage of wetlands created, restored or enhanced as an indicator of progress toward improved
habitat for many species. The Department is participating in cooperative efforts to quantify the results of its
conservation practices for wildlife habitat. The results will be used to manage agricultural landscapes for
environmental quality.
Numerous species have benefitted from USDA’s projects. A recent study by the Fish and Wildlife Service (FWS)
examined the effect of CRP in North Dakota, South Dakota and northeastern Montana. FWS estimated that the
duck population grew by an average of 2 million annually between 1994 and 2004, a 30-percent increase compared
to the same area without CRP. The program is also credited with enhancing the population of several bird species
considered endangered. The Washington Department of Natural Resources found that a severe decline in an
eastern Washington sage grouse population has been reversed in an area with substantial CRP enrollment. A
Journal of Wildlife Management study credits CRP with a sharp rebound in Henslow’s Sparrow populations.
In FY 2008, USDA and FWS evaluated the benefits of WRP to mid-continental migrating waterfowl. This
collaborative effort was part of a CEAP Wildlife Component assessment. This assessment quantifies the effects of
USDA conservation practices and programs on fish and wildlife in landscapes influenced by U.S. agriculture. The
project, which took place in the Rainwater Basin Region of south central Nebraska, evaluated the value of WRP
wetland projects. This region is important for waterfowl migration in the Central Flyway of North America. The
findings revealed that the 3,000 acres of WRP restored wetlands in the Rainwater Basin provided up to 12 percent
of the food energy needs of the estimated 12.4 million ducks and geese that traveled through this area during spring
and fall migration.

                                         Selected Results in Research, Extension, and Statistics
          Controlling Invasive Species Protects Wildlife—Rapid response resulting from rangeland monitoring has allowed for early
          control of invasive species on 8,156 acres and protecting an additional 10,000 adjacent acres. Thanks to USDA funding, this
          Washington State University program treated more than 16,000 acres of Spartina infested tidelands in Willapa Bay and Puget
          Sound with a new, safer, more cost effective and more successful herbicide. Spartina populations have dropped to less than
          1,000 acres (from 16,000). Shorebird populations utilizing these mudflats have increased from near zero to several thousand per
          hectare.



104
                                    FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Exhibit 41: Improved Wildlife Habitat

                                                             2004         2005         2006            2007                    Fiscal Year 2008
     Annual Performance Goals, Indicators
                 and Trends                                                                                           Target       Actual         Result
 6.4.1     Wetlands created, restored or enhanced
           (acres)
           • Conservation Technical Assistance               59,293      53,498        65,345          62,093         51,300        72,806       Exceeded
           • Wetlands Reserve Program                       123,363      180,358      181,979         149,326        100,000       128,860       Exceeded
           • Conservation Reserve Program                    57,036      50,934        61,279          68,834         50,000        80,103       Exceeded
 Actual performance as of September 30, 2008.
 •       Conservation Technical Assistance: Data assessment metrics to meet the target allow for an actual number in the range 46,170 – 56,430.
 •       Wetland Reserve Program: Data assessment metrics to meet the target allow for an actual number in the range 90,000 – 110,000.
 •       Conservation Reserve Program: Data assessment metrics to meet the target allow for an actual number in the range 45,000 – 55,000 acres.
 Data Assessment of Performance Measures 6.4.1
 The chief sources of data for this performance measure are the National Conservation Planning Database (NCP), the Program Contracts Database
 (ProTracts) and the Performance Results System (PRS). The CRP data source for this measure is the FSA National CRP Contract and Offer Data Files.
 This applies to the data for Measures 6.1.1, 6.2.1, 6.3.4.
 • Completeness of Data—The performance reported for these measures is based on actual data reported for FY 2008. Numerous data quality
      mechanisms within PRS ensure the completeness of each performance record entered in the system. There are no known data limitations.
 • Reliability of Data—For FY 2008, the data reported for these performance measures were calculated within PRS based on information validated
      and retrieved from the NCP and ProTracts. Conservation practices are developed in consultation with the customer and included in conservation
      plans stored in the NCP. Periodic reviews are conducted to assess the accuracy of reported data.
 • Quality of Data—Overall quality of the data is good. Field staffs, trained and skilled in conservation planning and application suited to the local
      resource conditions, report performance where the conservation is occurring. Error checking enhancements and reports within the PRS application
      maintain data quality by allowing users at local, State and national levels to monitor data inputs. Data on the linkage of programs and conservation
      practices applied are accurate because the conservation program responsible for applying each practice is documented in the conservation plan
      developed in Toolkit. The same land unit may benefit from the application of more than one conservation practice. Where more than one program is
      used to apply practices on the same land unit, each program is credited under the performance measure.


Challenges for the Future
Commodity prices, economic conditions, weather, and developmental pressures can impact the ability and
willingness of agricultural producers to restore, improve and protect habitat areas. Given the current high prices for
agricultural commodities, producers may be less willing to make long-term commitments regarding the use of their
land. This could impact wetland restoration of prior converted cropland. Due to expiring CRP contracts and
favorable commodity prices, USDA projects a slight decrease in the program’s cumulative enrolled acreage. Some of
that land could return to crop production, which would reduce habitat for grassland bird species. Grassland birds
are declining faster than any other type of North American birds.
USDA works with other agencies and private organizations to provide producers with information and other
resources to adopt conservation measures and management practices. Many wildlife projects are supported by a
combination of Federal, State, local, and private funds. State and local budget constraints could impact project
implementation.




                                                                                                                                                       105
                                                        ANNUAL PERFORMANCE REPORT
Program Assessment Rating Tool (PART) Evaluations
The Program Assessment Rating Tool (PART) assesses and improves program performance to allow the Federal
Government to achieve better results. The PART is designed to look at all factors that affect and reflect USDA
program performance. These factors include program purpose and design; performance measurement, evaluations,
and strategic planning; program management; and program results. Because the PART includes a consistent series
of analytical questions, it allows programs to show improvements over time. It also allows comparisons between
similar programs. The summaries below represent programs PART’ed in Fiscal Year 2008. The programs are
summarized by Strategic Objective. Further detail on USDA’s PART’ed programs can be found at:
http://www.whitehouse.gov/omb/expectmore/.

  Strategic Objective 1.1                              Expand and Maintain International Export Opportunities
      Program Name                                                     Cochran Fellowship Program
 Current Rating              • Adequate
 Lead Agency                 • Foreign Agricultural Service (FAS)
 Major Findings/             • The Cochran Fellowship Program has a role in the overall effort to enhance technical capacity throughout the
 Recommendations               international agricultural sector. The program is designed to facilitate international trade and reduce the limiting
                               factors in the economic development of middle-income countries and those in transition. Despite its work, it is
                               unclear to what extent the program's agricultural training can be linked to specific significant results. FAS should
                               continue to improve upon its efforts to address deficiencies in tracking the impact of training and the activities of
                               Cochran alumni.
 Actions Taken/Planned       • FAS is developing outreach to Cochran's alumni and improving information management tools to better monitor the
                               impact of alumni within their respective countries. In addition, FAS is improving Cochran's cost-efficiency
                               performance by reducing costs related to orientation, translation and staffing.


   Strategic Objective 2.3                    Provide Risk Management and Financial Tools to Farmers and Ranchers
       Program Name                                     Agricultural Credit Insurance Fund – Guaranteed Loans
 Current Rating              • Moderately Effective
 Lead Agency                 • Farm Service Agency (FSA)
 Major Findings/             • The Guaranteed Loan Program provides access to agricultural credit for farmers temporarily unable to obtain credit
 Recommendations               from private lenders at reasonable rates and terms. Historic economic uncertainties of production may have made
                               agricultural credit hard to achieve. Despite these uncertainties, low loss rates and low delinquency rates over the
                               last several years may make it feasible for private lenders to risk taking on more of these loans.
 Actions Taken/Planned       • FSA is developing an independent evaluation process for the program. It is also establishing a new, long-term
                               performance goal for loan losses that benchmarks against the performance of commercial agricultural lenders.


   Strategic Objective 2.3                    Provide Risk Management and Financial Tools to Farmers and Ranchers
       Program Name                                                         Direct Crop Payments
 Current Rating               • Adequate
 Lead Agency                  • Farm Service Agency (FSA)
 Major Findings/              • While program management has devised performance goals designed to improve the delivery of benefits to
 Recommendations                farmers, program design could be improved. Direct payments are provided to only 36 percent of U.S. farmers, 60
                                percent of whom have annual sales of at least $50,000.
 Actions Taken/Planned        • FSA is reviewing and implementing the new Farm Bill, including developing rules and regulations for direct crop
                                payments. The agency also continues to work to decrease the number of improper payments.




106
                                 FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
  Strategic Objective 3.1    Expand Economic Opportunities by Using USDA Financial Resources to Leverage Private Sector
                                                 Resources and Create Opportunities for Growth
      Program Name                                                           Rural Development
Current Rating              • Adequate
Lead Agency                 • Rural Business-Cooperative Service (RBS)
Major Findings/             • Due to a lack of demand, the program has not fully obligated funds for the last two years and has extensive levels
Recommendations               of carryover. RBS has agreed to extremely ambitious targets for their long-term measures. By 2013, they hope to
                              have 95 percent of their business/loan recipients existing five years after the loan closes. This program has had
                              problems in the past approving and executing loans. In 2006, it took an average of 59 days to process a loan –
                              much higher than the 30-day average in the private sector.
Actions Taken/Planned       • RBS is rewriting program regulations to address identified concerns and deficiencies. They include lender
                              performance and eligibility, borrower eligibility, priority goals and underwriting requirements. RBS is also rewriting
                              program regulations and any Notices of Funding Availability to target the program more effectively. Finally, RBS is
                              implementing internal efficiencies to decrease the amount of time it takes to approve and execute a loan.


  Strategic Objective 4.1               Reduce the Incidence of Foodborne Illnesses Related to Meat, Poultry, and Egg
                                                                    Products in the U.S.
      Program Name                                          Plant and Animal Health Monitoring Programs
Current Rating              • Adequate
Lead Agency                 • Food Safety and Inspection Service (FSIS)
Major Findings/             • FSIS has a clear program purpose and mission and works effectively with other Federal and State agencies to
Recommendations               protect the food supply. While the agency has developed new methodologies to better estimate the population's
                              exposure to the three pathogens–E.coli 0157:H7, Salmonella and Listeria monocytogenes–only two years of data
                              exist using the new volume-based methodology for those measures. In addition, while budget requests are aligned
                              with program goals and objectives in the strategic plan and corporate measures designed to protect public health,
                              it is unclear how changes in funding, legislation or policy will impact FSIS' ability to meet the targets.
Actions Taken/Planned       • FSIS is conducting independent assessments of its programs to evaluate their scientific basis and effectiveness.
                              They are developing a new information infrastructure to enable real-time data collection, data analysis, improve
                              program effectiveness and allow greater information sharing among external agencies. The agency is also
                              implementing effective, multi-year budget planning to establish closer links between budget and performance
                              goals.


  Strategic Objective 4.2                 Reduce the Number and Severity of Agricultural Pest and Disease Outbreaks
      Program Name                                          Plant and Animal Health Monitoring Programs
Current Rating              • Adequate
Lead Agency                 • Animal and Plant Health Inspection Service (APHIS)
Major Findings/             • While the programs do protect the agricultural sector from the impacts of pests and diseases, only one annual
Recommendations               performance measure had ambitious targets. In general, the programs were ineffective in meeting both long term
                              and annual targets.
Actions Taken/Planned       • APHIS is developing more ambitious performance targets. The agency also is enhancing infrastructure for surveys
                              to protect against pests, pathogens and noxious weeds and for biotech permit holders to manage the safe
                              movement and release of genetically engineered organisms. Finally, APHIS is reviewing and implementing
                              published documents -- including significant regulations and the National Animal Identification System Business
                              Plan -- to maximize benefits and minimize incremental costs.




                                                                                                                                                107
                                                ANNUAL PERFORMANCE REPORT
 Strategic Objective 6.1, 6.2                    Protect and Enhance the Nation’s Natural Resource Base and Environment
          Program Name                                                     Conservation Security Program
 Current Rating                     • Results Not Demonstrated
 Lead Agency                        • Natural Resources Conservation Service (NRCS)
 Major Findings/                    • It is difficult to estimate the environmental benefits from Conservation Security Program’s enhancement activities
 Recommendations                      that provide incentives for producers to achieve benefits greater than the minimum standards.
 Actions Taken/Planned              • NRCS is developing outcome measures to assess program effectiveness related to its goals.


Program Evaluations of Performance Information
 Perform.
 Measure                   Title                         Findings and Recommendations/Actions                                    Availability
 1.1.1         General Accountability Office    Findings: While this report contains no direct recommendations         Report is available at
               (GAO) Report, November 7,        for USDA, the Secretary is expected to work on recommendations         http://www.gao.gov/new.items/d0
               2007, GAO-08-59 –                made to the office of the U.S. Trade Representative (USTR).            859.pdf
               International Trade: An          Actions: Both USDA and USTR have indicated that they will
               Analysis of Free Trade           improve the trade advisory committees’ membership listings to
               Agreements and                   clearly state which interest group each member represents. USDA
               Congressional and Private        will acknowledge USTR’s lead in the advisory committee re-
               Sector Consultations under       chartering and member appointment processes. It will also work
               Trade Promotion Authority        closely with USTR in whatever action it proposes to ensure that
                                                committee charters are not allowed to lapse.
               Summit Consulting LLC in         Findings: Foreign Agricultural Service (FAS) contracted a detailed     Please contact the FAS Office of
               collaboration with Bearing       actuarial study of historical recovery rates under the export credit   Trade Programs
               Point and Nineteen, Inc.         guarantee program GSM-102.
                                                Actions: USDA adjusted the credit subsidy rate used in budget
                                                formulation and reduced subsidy needs by approximately 60
                                                percent.
 1.1.1,        USDA Foreign Agricultural        Findings: FAS tailored an American Customer Satisfaction Index         Please contact the FAS Office of
 1.2.1,        Service Customer                 survey to generate baseline data on customer satisfaction with the     Administrative Operations
 1.2.2,        Satisfaction Survey 2008,        agency’s abilities to achieve agency strategic goals and objectives.
 1.3.1         September 2008, CFI Group        The results show FAS above the Government-agency average in
                                                customer satisfaction. The study recommended that improvements
                                                in operational excellence would have the most impact in improving
                                                customer satisfaction.
                                                Actions: FAS will generate specific management initiatives to
                                                address survey results.
 1.2.1         Comparative Evaluation of        Findings: United States Agency for International Development           Please contact the FAS Office of
               the Rockefeller G&D Borlaug      (USAID) recommended that the Borlaug Women in Science                  Capacity Building and
               Women in Science Fellowship      Program establish measures for a monitoring and evaluation             Development
               Programs by Zenda Offir,         system to track progress and accountability and improve program
               Evalnet South Africa (USAID:     outreach.
               January 2008)                    Actions: FAS is establishing a monitoring and reporting system
                                                that facilitates the tracking of progress, accountability and
                                                information sharing amongst program stakeholders.
 1.2.1,        GAO Report, May 29, 2008,        Findings: GAO recommends that USAID collaborate with USDA,             Report is available at
 1.2.2         GAO-08-680 – International       State and Treasury to develop an integrated Government-wide            http://www.gao.gov/new.items/d0
               Food Security: Insufficient      U.S. strategy. That strategy would define actions and resources,       8680.pdf
               Efforts by Host Governments      enhance collaboration with host Governments and donors and
               and Donors Threaten              improve measures to monitor progress. It also recommended that
               Progress to Halve Hunger in      the Department report annually to Congress on the strategy’s
               Sub-Saharan Africa by 2015       implementation.
                                                Actions: Other than the above collaboration, this report contains
                                                no recommendations for the Secretary and it is likely that no
                                                further action is required.


108
                                       FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Perform.
Measure                Title                      Findings and Recommendations/Actions                                    Availability
           USDA/OIG Report, July 22,     Findings: The Office of the Inspector General (OIG) found that         Report is available at
           2008, 07601-2-Hy – Export     FAS needs to develop a new guarantee fee structure for the GSM-        http://www.usda.gov/oig/webdocs
           Credit Guarantee Program      102 program. That structure should include the financial risk of       /07601-2-HY.pdf
                                         both the country and bank itself. It adds that FAS also needs to
                                         develop and implement a records management system that
                                         complies with USDA DR-3080.
                                         Actions: FAS is currently conducting a review of the major factors
                                         to be considered when determining risk premiums and will
                                         implement a revised premium structure after the completion of this
                                         review. FAS already has brought the GSM-102 claim files into
                                         compliance with DR-3080.
1.4.1      OIG-50401-16-FM, Financial    Findings: Deloitte reports that the financial statements present       Report is available at
           Statements for Fiscal Years   fairly, in all material respect, USDA’s Risk Management Agency’s       http://www.usda.gov/oig/rptsaudit
           2007 and 2006                 (RMA) financial position as of September 20, 2007, and 2006, its       srma.htm
                                         net costs, changes in net position and budgetary resources for the
                                         years then ended, in conformity with generally accepted
                                         accounting principles. No weaknesses related to internal controls
                                         or noncompliance with laws and regulations are reported.
                                         Actions: No further action is required.
           OIG-05099-111-KC,             Findings: To further strengthen its procedures and policies, OIG       Report is available at
           Improved Financial            recommended RMA formalize written procedures for its                   http://www.usda.gov/oig/webdocs
           Management Controls over      operational analyses of reinsured companies. RMA also needs to         /05099-111-KC.pdf
           Reinsured Companies           continue coordination with NAIC and individual State insurance
                                         departments to identify what specific supplemental information still
                                         needs to be addressed among the agency and individual State
                                         insurance department regulators.
                                         Actions: RMA developed written procedures for the analysis
                                         process including scheduling, planning and follow up.
           OIG-05099-112-KC,             Findings: OIG did not find any improprieties during the audit. They    Report is available at
           Contracting for Services      did identify management controls that could be strengthened            http://www.usda.gov/oig/webdocs
           Under the ARPA of 2000        relative to RMA’s procedures for documenting, monitoring and           /05099-112-KC_2.pdf
                                         administering the Agricultural Risk Protection Act (ARPA) contracts
                                         and partnership agreements. Additionally, the training for RMA
                                         officials responsible for managing these ARPA research and
                                         development projects could also be strengthened.
                                         Actions: RMA developed two repository Web sites to manage
                                         contracts and partnerships. The sites will be linked to a tracking
                                         system to monitor their status. RMA will conduct contracting officer
                                         training.
3.2.1      EPA Clean Watersheds          Findings: The U.S. Environmental Protection Agency (EPA)               Available at:
           Needs Survey 2000 and the     Clean Watersheds Needs Survey 2000 showed that small                   http://www.whitehouse.gov/omb/e
           EPA 1999 Drinking Water       communities of 10,000 people or less have documented needs of          xpectmore/detail/10000458.2005.
           Infrastructure Needs Survey   $16 billion for wastewater systems. Needs for drinking water are       html
                                         significantly higher. The EPA 1999 drinking water survey showed
                                         $48.1 billion in needs for communities of 10,000 people or less
                                         and $31.2 billion in needs for communities of 3,300 people or less.
                                         Investments in new, high-quality, environmentally safe water and
                                         wastewater infrastructure or in replacing aging infrastructure
                                         reduce reductions and the migration of young people and attract
                                         new businesses.
                                         Actions: The Water Programs have developed a measure to track
                                         annually the number of borrowers, subscribers (customers)
                                         receiving new or improved services from water systems and
                                         facilities.




                                                                                                                                              109
                                                ANNUAL PERFORMANCE REPORT
Perform.
Measure                Title                        Findings and Recommendations/Actions                                      Availability
3.2.5      Distance Learning and           Findings: Grantee performance information is collected and made          The report is available at
           Telemedicine                    available to the public.                                                 http://www.usda.gov/rus/telecom/
                                           Actions: Grantee performance review was conducted in April-May           publications/pdf_files/dltperforma
                                           2007 and results published on the agency’s public Web site.              nce-reportstudy.pdf
                                           Annual reviews are planned.
4.1        Automated Targeting System      Findings: The USDA Food Safety Inspection Service (FSIS )                Information may be requested
           (ATS) Evaluation                Office of Program Evaluation, Enforcement and Review (OPEER),            from the USDA Food Safety
                                           Program Evaluation and Improvement Staff (PEIS) evaluated data           Inspection Service—Office of
                                           from the ATS pilot conducted at the ports of Philadelphia and            Program Evaluation,
                                           Houston to test the targeting and handling of FSIS-regulated             Enforcement and Review,
                                           shipments potentially at high risk from intentional contamination.       Program Evaluation and
                                           The final report, issued May 29, 2007, contains recommendations          Improvement Staff
                                           for improving the accuracy and efficiency of the ATS.                    USDA-FSIS (202) 720-6735
                                           Actions: FSIS has implemented the Import Alert Tracking System
                                           that enables better coordination in enforcement actions through
                                           quicker access to information collected on illegal entries. The
                                           agency has also initiated the electronic transfer of certificate data
                                           elements from the New Zealand Food Safety Authority into the
                                           FSIS Automated Import Information System (AIIS). The transfer
                                           will be expanded to Australia upon completion of the testing
                                           phase. Additionally, FSIS coordinated a public meeting with local,
                                           State and Federal health partners and consumer groups and
                                           industry to share best practices and challenges for effective
                                           coordination during multi-jurisdictional foodborne outbreaks.
4.1.3      FSIS Notice 65-07               Findings: The FSIS Program Evaluation and Improvement Staff              http://www.usda.gov/oig/webdocs
           Implementation Evaluation       (PEIS) evaluated the development and implementation of Notice            /24601-07-HY.pdf
                                           65-07, which directed establishments to reassess their Hazard
                                           Analysis and Critical Control Point (HACCP) plans regarding
                                           control of E. coli O157:H7. PEIS also evaluated the development
                                           and implementation of a checklist and worksheet circulated with
                                           the directive to collect data on establishments’ controls for E. coli
                                           O157:H7. PEIS found that the response rate to the checklist and
                                           worksheet was very high, yielding copious data. PEIS also made a
                                           number of recommendations for improving the collection of such
                                           data in the future. It will focus on data collection instrument design
                                           and associated training.
                                           Actions: FSIS expects to implement a mechanism for inspection-
                                           program personnel to identify specific production records upon
                                           which such information is based. The agency will also provide the
                                           establishment management an opportunity to review the collected
                                           information. Collection of such information in this manner provides
                                           FSIS a means to verify the source and accuracy of the information.
           OIG Report No. 24601-4-KC:      Findings: OIG concluded FSIS plans for improving the sampling            http://www.usda.gov/oig/webdocs
           Audit Memorandum - Food         and testing procedures for E. coli O157:H7, “if timely and               /24601-04-KC.pdf
           Safety and Inspection Service   effectively implemented, will strengthen FSIS’ verification activities
           Sampling and Testing for E.     and have a positive impact on identifying and mitigating food
           coli                            safety risks.” OIG made no recommendations.
                                           Actions: FSIS announced a number of actions to improve its E.
                                           coli sampling and testing program based on the significant
                                           increase in positive test results, related illnesses and recalls of
                                           potentially contaminated raw ground beef product. Microbial
                                           testing is one of several activities FSIS uses to verify that meat
                                           process establishments have designed their food safety systems
                                           to prevent hazards.




110
                                   FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Perform.
Measure                Title                        Findings and Recommendations/Actions                                    Availability
           OIG Report No. 24601-09-Hy:     Findings: OIG concluded that “FSIS has taken strides to
           Food Safety and Inspection      strengthen and improve its investigative and recall procedures and
           Service Recall Procedures for   took full advantage of its current authority to address recalls, such
           Adulterated or Contaminated     as the Topps Meat Company (Topps) recall.” OIG recommended
           Product                         that FSIS: 1) develop a science-based sampling protocol to collect
                                           and analyze a representative quantity of intact samples to submit
                                           for testing during an outbreak investigation; and 2) finalize and
                                           implement the new directive for investigating foodborne illnesses
                                           and the revised directive for handling recalls.
                                           Actions: FSIS will develop and implement a science-based
                                           sampling protocol to collect a more representative sample of a
                                           product at an establishment during epidemiological investigations.
                                           The protocol will take into consideration the amount of relevant
                                           product available for testing. FSIS will also finalize and implement
                                           new directives for investigating foodborne illnesses and handling
                                           recalls.
           GAO High Risk List Item         High Risk Issue: Almost 76 million people contract a foodborne          http://www.gao.gov/new.items/d0
                                           illness in the U.S. annually. Another 325,000 require                   7310.pdf
                                           hospitalization and almost 5,000 die. Fragmented systems among
                                           Federal agencies have caused inconsistent oversight, ineffective
                                           coordination, and inefficient use of resources.
           GAO High Risk List Item         Actions (Findings): Prevent or deter intentional and unintentional
           Goal 1: Reduce illness          contamination of food supply through risk-based, cost-effective
           caused by contamination of      allocation of resources.
           the food supply                 Milestone (Actions): Implement the Salmonella Initiative Program
                                           to provide incentives for meat and poultry plants whose processes
                                           control foodborne pathogens. Focus inspection activities in FSIS-
                                           regulated establishments to enhance its inspection personnel’s
                                           ability to comprehensively evaluate food-safety systems and take
                                           action to minimize consumer exposure to foodborne pathogens.
                                           Initiate internal review of CBP food agriculture inspection
                                           requirements for the next decade.
           GAO High Risk List Item         Actions (Findings): Early detection of contamination of the food
           Goal 2: Reduce illness          supply.
           caused by contamination of      Milestone (Actions): Build a quality public health infrastructure
           the food supply                 with readily accessible data for key decision-makers and front-line
                                           personnel. Improve FDA detection systems and improve risk
                                           based annual import activities. Conduct real time surveillance of
                                           high-risk shipments of meat, poultry and egg products coming into
                                           the U.S. and vulnerability assessments focused on imports with
                                           FDA, USDA and the Bureau of Customs and Border Patrol.
           GAO High Risk List Item         Actions (Findings): Protect human health and mitigate impact of
           Goal 3: Reduce illness          food supply contamination by responding rapidly in the even to
           caused by contamination of      food supply contamination through risk-based, cost-effective
           the food supply                 allocation of resources.
                                           Milestone (Actions): Enhance the Food Emergency Response
                                           Network to ensure better geographic coverage. Implement Supply
                                           Chain Source Verification Requirements to accelerate both the
                                           response and return to normalcy. Initiate development of new rapid
                                           response teams built on the California Food Emergency Response
                                           Team model.




                                                                                                                                               111
                                                  ANNUAL PERFORMANCE REPORT
Perform.
Measure                  Title                         Findings and Recommendations/Actions                                    Availability
4.2.1      GAO Report, July 2007,             Findings: GAO recommended that the Secretary of Agriculture            Report is available at
           GAO-07-592                         direct the Administrator of Animal and Plant Health Inspection         http://www.gao.gov/cgi-
            – National Animal                 Service (APHIS) to re-establish participation benchmarks to gauge      bin/getrpt?GAO-07-592
           Identification System:             progress in registering premises and identifying and tracking
           USDA Needs to Resolve              animals; monitor participation. If participation does not meet the
           Several Key Implementation         benchmarks, further action will be necessary. In addition, GAO
           Issues to Achieve Rapid and        recommended that the Administrator of APHIS take seven other
           Effective Disease Trace-back       specific actions, as listed in the report, to implement National
                                              Animal Identification System (NAIS) more effectively and efficiently
                                              and achieve the program's goal of rapid and effective trace-back.
                                              Actions: On September 23, 2008, USDA published an updated
                                              version of A Business Plan to Achieve Animal Disease Traceability
                                              (available at www.usda.gov/nais). APHIS collaborated with
                                              Species Working Groups, State animal health officials and the
                                              National Animal Identification System (NAIS) Subcommittee to
                                              establish species-specific participation objectives and benchmarks
                                              that emphasize options to expand and more fully utilize existing
                                              animal disease programs. This business plan outlines actions that
                                              address all but one of the GAO recommendations for NAIS. USDA
                                              will address the remaining recommendation–requiring that
                                              participants submit more information than what is currently
                                              required in NAIS animal identification and tracking databases–
                                              once more data are collected and USDA can analyze how well the
                                              current requirements meet animal health officials' need.
5.1        Pennsylvania SFSP Rural            Findings: Examines the impact of reducing the Summer Food              Available on the Food and
           Eligibility Pilot Evaluation       Service Program (SFSP) eligibility threshold for poor economic         Nutrition Service (FNS) Web site
                                              areas in rural Pennsylvania from 50 percent to 40 percent of the       at:
                                              children eligible for free and reduced-price school meals. The         http://www.fns.usda.gov/oane/ME
                                              study found a 15-percent growth in SFSP sites during the pilot.        NU/Published/CNP/FILES/PASF
                                              Actions: No recommendations for action.                                SPRuralPilot.pdf
           The Nebraska Rural Area            Findings: Examines the impact of reducing the Child and Adult          Available on the FNS Web site at:
           Eligibility Determin`ation Pilot   Care Food Program (CACFP) area eligibility threshold in rural          http://www.fns.usda.gov/oane/ME
           for the CACFP                      areas in Nebraska. Found that previously participating providers       NU/Published/CNP/FILES/neraed
                                              stayed in the program for longer periods under the pilot, resulting    .pdf
                                              in an increase in the number of rural family day care homes.
                                              Actions: No recommendations for action.
5.2        School Nutrition Dietary           Findings: Examines the nutrient content of school meals, other         Available on the FNS Web site at:
           Assessment III                     foods sold in school and children’s diets.                             http://www.fns.usda.gov/oane/ME
                                              Actions: No recommendations for action.                                NU/Published/CNP/FILES/SNDAI
                                                                                                                     II-SummaryofFindings.pdf
           Food Stamp Program:                Findings: Examined ways to encourage food stamp participants to
                                                                                                                     Available on the GAO Web site
           Options for Delivering             purchase healthy foods. It also described key factors to consider
                                                                                                                     at:
           Financial Incentives to            when designing such a program and possible options for
                                                                                                                     http://www.gao.gov/new.items/d0
           Participants for Purchasing        implementing incentives.
                                                                                                                     8415.pdf
           Targeted Foods, July 2008          Actions: No recommendations for action.
5.3        Access, Participation,             Findings: Estimates the level of program errors and related
           Eligibility and Certification      improper payments in the school meals programs. Roughly $1.8
                                                                                                                     Available on the FNS Web site at:
           Study, November 2007               billion in payment errors, including both overpayments and
                                                                                                                     http://www.fns.usda.gov/oane/ME
                                              underpayments, were made in the school meals programs during
                                                                                                                     NU/Published/CNP/FILES/apecv
                                              the 2005-2006 school year.
                                                                                                                     ol1.pdf
                                              Actions: While the report has no recommendations for action,
                                              USDA is addressing improper payments in these programs.




112
                                      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Perform.
Measure                Title                        Findings and Recommendations/Actions                                        Availability
           School Lunch and Breakfast      Findings: Estimates the level and types of costs to produce
           Meal Cost – II, April 2008      school meals and the level and sources of revenues used to cover           Available on the FNS Web site at:
                                           them in school year 2005-06. In general, the study found that little       http://www.fns.usda.gov/oane/ME
                                           had changed since meal costs were last examined (SY 1992-                  NU/Published/CNP/FILES/MealC
                                           1993).                                                                     ostStudy.pdf
                                           Actions: No recommendations for action.
           Electronic Payments: Many       Findings: Describes the extent to which Federal benefit programs
           Programs Electronically         are using electronic payments, factors agencies consider for their
                                                                                                                      Available on the GAO Web site
           Disburse Federal Benefits       use and options for increasing use of electronic payments. Food
                                                                                                                      at:
           and More Outreach Could         Stamp and Women Infant and Children Program (WIC)
                                                                                                                      http://www.gao.gov/new.items/d0
           Increase Use                    experiences with electronic benefit payments are discussed
                                                                                                                      8645.pdf
                                           throughout.
                                           Actions: No recommendations for action by USDA.
6.1        OIG Report No. 50601-12-KC      Findings: Initial Allocations of Emergency Watershed Protection            http://www.usda.gov/oig/webdocs
           issued October 2007.            (EWP) Funding Not Directed to the Highest Priority Projects across         /50601-12-KC.pdf
           Hurricane Relief Initiatives:   the Disaster Impacted Area.
           Emergency Watershed             Recommendations: For future major disasters, evaluate the use of
           Protection Program and          program funding across the multi-State disaster area to ensure
           Disposal of Dead Animals        that available funding can be put to the highest priority or best use.
                                           Actions: As of April 8, 2008, A National Bulletin 390-14, was sent
                                           to State Conservationists Stating that Damage Survey Report will
                                           be used to prioritize sites within a State and to prioritize sites for
                                           funding during multi-state disasters. The EWP Program Manual at
                                           502.14 B identifies the funding priorities for recovery measures.
                                           These priorities are established in regulation (7 CFR 624.8(c)(3))
                                           and, in order of importance, are:
                                           (i) Exigency situations;
                                           (ii) Sites where there is a serious, but not immediate threat to
                                           human life; and
                                           (iii) Sites where buildings, utilities or other important infrastructure
                                           components are threatened.
                                           Findings: In the aftermath of the hurricanes, Natural Resources
                                           Conservation Service (NRCS) also provided a process whereby
                                           producers with dead poultry could receive assistance to help with
                                           the costs of removal and disposal of dead birds. The assistance
                                           rate paid by NRCS, for producer costs associated with the removal
                                           and disposal of dead poultry, was
                                           established in relation to the number of poultry houses subject to
                                           clean out, rather than the number of dead birds subject to
                                           disposal/burial. Thus, the assistance rate was not commensurate
                                           with the activity for which assistance was being provided and
                                           payments to producers were not always reasonable, based on the
                                           amount of work to be performed. Additionally, the assistance rate
                                           was not limited to reimbursement of actual cost incurred by
                                           producers. While producers were certified to the completion of
                                           required work, they were not required to submit invoices
                                           supporting actual expenses incurred in the disposal of dead
                                           poultry.
                                           Evaluate whether producers who received assistance at the onset
                                           of the payment process for the removal and disposal of dead
                                           poultry received reasonable amounts of assistance based on the
                                           required work performed. Initiate appropriate corrective actions for
                                           all cases where the amount of assistance was not reasonable
                                           based on the number of poultry subject to disposal/burial.
                                           Actions: An analysis was conducted.



                                                                                                                                                    113
                                                  ANNUAL PERFORMANCE REPORT
Perform.
Measure                Title                      Findings and Recommendations/Actions                                     Availability
6.1, 6.2,   GAO-08-755T report issued    Findings: GAO findings were in regards to weaknesses described           http://www.gao.gov/new.items/d0
6.3, 6.4    May 2008.                    in resolving discrimination complaints and providing minorities          8755t.pdf
            Management of Civil Rights   access to programs. NRCS' Civil Rights Division (CRD) has not
            Efforts Continues to Be      completed nor been required to complete any evaluations that
            Deficient Despite Years of   would impact the Department’s Assistant Secretary for Civil Rights
            Attention                    (ASCR) planned actions to address the audit's findings. Thus, the
                                         response to the findings and recommendations/actions would be
                                         provided by the Department's ASCR.
                                         Actions: NRCS’ CRD continues to support the Department's
                                         ASCR wherein employment and program information is noted in
                                         the agency's strategic plan; all employees have a Civil Rights and
                                         Equal Employment Opportunity critical-performance element;
                                         timely submission of the Section 10708 (program outreach) report;
                                         and efficient processing of program and employment complaints
                                         party contractor, selected competitively to examine the
                                         effectiveness of its program-allocation formula, concluded that
                                         NRCS needs to (1) develop better outcome-based performance
                                         information and integrate the information into its allocation formula;
                                         (2) improve the analytical soundness of the allocation formulas,
                                         factors, weights and data particularity through the elimination of
                                         redundant factors; and (3) improve the transparency of the
                                         allocation formulas. Thus, recommendation 5 is closed.
                                         Recommendations 6 and 7 submitting for change of management
                                         decision.
6.1, 6.3,   OIG 50099-11-SF report       Findings: OIG recommended NRCS provide training for field                http://www.usda.gov/oig/webdocs
6.4         issued August 2007           office staff in California on their responsibilities for notifying the   /50099-11-SF.pdf
            Natural Resources            Farm Service Agency (FSA) of recorded easements.
            Conservation Service and     Actions: To ensure that this recommendation was completed,
            Farm Service Agency: Crop    NRCS placed it as an action item in the agency’s business plan
            Bases on Lands with          and individual performance plans. As of January, 31, 2008, the
            Conservation Easements in    Easement Programs Division conducted training with California
            California                   State and field office staff regarding their responsibilities of
                                         notifying FSA of recorded easements. A program review was also
                                         conducted in January 2008. NRCS continues to conduct monthly
                                         programmatic and administrative training via teleconference with
                                         its State and field office staff nationwide.
                                         Actions: Management decision reached on all NRCS
                                         recommendations. The Office of the Chief Financial Officer
                                         accepted final action and closed this audit for NRCS in April 2008.
6.2, 6.3    GAO-07-1054 report issued    Findings: GAO recommends that USDA (1) track the annual                  http://www.gao.gov/new.items/d0
            September 2007.              conversion of native grassland to cropland to provide policymakers       71054.pdf
            Agricultural Conservation:   with more comprehensive and current information on such
            Farm Program Payments Are    conversions; and (2) the Secretary of Agriculture direct the
            an Important Factor in       Economic research Service and FSA administrators and the NRCS
            Landowners’ Decisions to     chief to jointly study the extent to which farm program payments
            Convert Grassland to         and conservation programs may be working at cross purposes and
            Cropland                     report findings to the Secretary and Congress.
                                         Actions: FSA adjusted its reporting system to provide information
                                         from its crop acreage reports to produce an annual report. The
                                         report identified the acres of crops planted on non-cropland, the
                                         greater part of which consists of rangeland that has not previously
                                         been cropped. Additionally, to the extent possible, FSA will also
                                         identify in the annual report those newly reported acres that were
                                         converted from native grasslands.




114
                                  FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Perform.
Measure              Title                      Findings and Recommendations/Actions                                    Availability
                                       ERS, FSA and NRCS will convene a working group to explore data
                                       availability and approaches to producing a report covering farm
                                       program payments and conservation programs that may be
                                       working at cross purposes. The multi-agency group will present a
                                       report plan to the Secretary of Agriculture. ERS has drafted one
                                       and is circulating it at the agency level for comments with the
                                       expectation it can be presented for the Secretary's review.
6.2, 6.4   OIG Report No. 50601-13-    Findings: OIG evaluated changes to the status review process            http://www.usda.gov/oig/webdocs
           KC issued June 2008.        based on prior audit recommendations it made with GAO. The              /50601-13-KC.pdf
           Natural Resources           changes were related to tract selection for status reviews, steps for
           Conservation Service        performing the status review process and the reporting of status
           Status Review Process
                                       review results.
                                       Actions: The report contains no recommendations. NRCS
                                       satisfactorily implemented key improvements regarding the
                                       sampling methodology and the process by which status review
                                       results are summarized, analyzed and reported.
6.3.1      OIG Audit 08601-52-SF,      Findings: The OIG found that FS needs to establish national and         Report is available at:
6.3.2      August 2008, FS Renewable   regional renewable energy goals. IG added that, while Forest            http://www.usda.gov/oig/webdocs
6.3.3      Energy Program              Service (FS) does have a national strategy for woody biomass, the       /08601-52-SF.pdf.
                                       plan does not include annual performance measures for using
                                       woody biomass for renewable energy purposes, nor does it
                                       establish quantifiable performance measures for FS’ regions.
                                       Actions: When FS updates its national strategy plan, it will add
                                       objectives and strategies on renewable energy resources, as
                                       appropriate. Meantime, FS will use the climate change strategic
                                       framework and the woody biomass strategy for national renewable
                                       energy planning.
                                       Findings: OIG found that FS did not implement the woody
                                       biomass renewable energy program consistently. While FS made
                                       each of its regions responsible, it gave no direction about what
                                       staff resources to allocate and how to execute the program. Thus,
                                       some regions were noticeably less productive than others at
                                       fostering collaborative efforts to increase the supply of renewable
                                       energy.
                                       Actions: FS will continue to assess staffing needs to meet
                                       multiple goals, including renewable energy resources. The regions,
                                       stations and Northeast area will identify key individuals for other
                                       aspects of renewable energy resources. FS will also develop
                                       standardized position descriptions as much as possible. If regional
                                       woody biomass renewable energy coordinator positions are
                                       established, the position description will be standardized.
                                       Findings: OIG found that FS does not track information pertaining
                                       to its renewable energy program adequately. Specifically,
                                       hazardous fuels reduction work in FS’ forests produces green tons
                                       of biomass materials (e.g., underbrush) that are renewable energy
                                       resources. However, FACTS does not contain a field for these
                                       green tons. Instead, it has a checkbox that only allows the user to
                                       mark whether or not any biomass materials were produced during
                                       the fuels reduction, without a choice for the quantity produced.
                                       This practice denies FS the opportunity to: (1) track any green tons
                                       used for renewable energy purposes; and (2) ascertain the amount
                                       of potential renewable energy available nationwide from biomass
                                       materials harvested. even if they are not used. IG also found that
                                       policies and guidelines in the FS handbook/manual that establish
                                       tracking and reporting procedures for the improved automated
                                       database system(s) are needed.




                                                                                                                                           115
                                              ANNUAL PERFORMANCE REPORT
Perform.
Measure                Title                       Findings and Recommendations/Actions                                   Availability
                                          Actions: FS began collecting woody biomass data (green ton)
                                          during Fiscal Year 2007 from all vegetation management activities
                                          that utilize woody biomass removed from National Forest System
                                          (NFS) lands for energy purposes. All other wood products
                                          removed from NFS lands are accounted for and tracked though
                                          the same processes and databases. FS will continue to use and
                                          modify current data base systems. It has developed and issued
                                          policy and guidelines using a policy letter to field units for woody
                                          biomass tracking. The policy letter will be added to the
                                          manual/handbook.
6.4        GAO-08-130 report issued       Findings: While GAO’s review closed with no issuance of                http://www.gao.gov/new.items/d0
           December 2007.                 recommendations, it emphasized the need for agencies to                8130.pdf
           Coastal Wetlands: Lessons      carefully consider the lessons learned from the Coastal Wetlands
           Learned from Past Efforts in   Planning, Protection and Restoration Act program as they propose
           Louisiana Could Help Guide     significantly larger efforts to restore Louisiana’s coast. GAO
           Future Restoration and         received technical comments from the U.S. Department of
           Protection                     Commerce and the U.S. Environmental Protection Agency, which
                                          have been incorporated as appropriate.
                                          Actions: Audit closed October 14, 2007. Letter sent to GAO dated
                                          December 19, 2007, from Under Secretary of Natural Resources
                                          and Environmnet mission area addressing two incorrect items in
                                          the report.
           OIG Report No. OIG/10099-4-    Findings: Management decision reached on recommendations 1,            http://www.usda.gov/oig/webdocs
           SF issued August 2008.         2, 3, 4, 5, 6, and 8 in late August 2008. OIG Recommendation 7:        /10099-4-SF.pdf
           Wetlands Reserve Program –     Direct the NRCS Arkansas State Office to collect the $578 cost
           Wetlands restoration and       share or provide supporting documentation to substantiate in-kind
           Compliance                     contribution from the landowner.
                                          Actions: NRCS is working with the landowner to collect the $578
                                          of cost-share. This transaction is scheduled to be completed in
                                          2008.




116
                                   FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                    Financial Statements,
                                                    Notes, Supplemental and
                                                    Other Accompanying
                                                    Information

Message from the Chief Financial Officer
The Department of Agriculture (USDA) programs and activities affect
every American, every day, by providing a safe and stable food supply,
nutrition assistance, renewable energy, rural economic development,
care for forest and conservation lands, and global opportunities for
farm and forest products. To successfully accomplish its mission,
USDA operates more than 300 programs worldwide through an
extensive network of Federal, State, and local cooperators.
The employees of the USDA work hard. They understand the
importance of customer centric service, efficient processes, and fiscal
responsibility in executing the programs funded by Congress. Here is a
brief list of our results:
 As the nation’s eighth largest bank in terms of loan portfolios. USDA’s loan portfolio is
  valued at $107 billion. USDA makes loans for housing, power generation, water treatment
  facilities, and business and industry loans. The loan servicing center measures customer
  service, response times, and delinquent loans against national bank standards. These
  measurements show that USDA operations are in the top tier in all three measurements.
  The current delinquent amount for our loans is $3.3 billion or 3.1% of the portfolio. This
  is a vast reduction from the $6.6 billion or $6.6% recognized in fiscal year 2003. This year,
  with collections over $1.1 billion, USDA was recognized as one of the top collectors of
  delinquent debt in the government.
 USDA was recognized through the President’s Management Agenda Scorecard for the
  reduction in improper payments from $4.6 billion in FY 2007 to $ 4.1 billion in FY 2008.
  This recognition and reduction occurred while including in the measurement of two
  additional nutrition assistance programs.
 Over the past 2 fiscal years, USDA identified and tracked 218 control deficiencies and has
  corrected 172, or 72 percent, of the prior year’s deficiencies. Once again USDA reduced
  the number of open audit issues.
 Twelve months ago, USDA began implementation of a 36 month plan to correct the
   material weakness for IT Security. This year USDA OCIO reorganized its operations,
   held monthly security meetings with the agencies, procured Department-wide security
   tools, and implemented a new monitoring system. The audit report notes that
   improvement in Information Technology Security for multiple agencies and the progress
   of the Department.




                                                                                                  117
FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
While we continue to make progress in financial management, we cannot yet give unqualified assurance of
compliance with the Federal Managers’ Financial Integrity Act or the financial systems requirements of the Federal
Financial Management Improvement Act. We continue to focus on this issue by supporting the replacement of the
core general ledger system and the farm payment systems. Both these systems are out dated and no longer
supported by their vendors.
Our employees are dedicated to protecting and managing the substantial resources entrusted to them by Congress
and the American people to perform the important work of this Department. We are proud of our
accomplishments for FY 2008 and the hard working employees at USDA. USDA is committed to providing sound
management of the resources under our stewardship and to communicating the effectiveness of our efforts to all
Americans through this Performance and Accountability Report.




Charles R. Christopherson, Jr.
Chief Financial Officer
Chief Information Officer
November 17, 2008




118
                             FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                      Consolidated Balance Sheet
                                     As of September 30, 2008 and 2007
                                                (In Millions)
                                                                                    2008           2007
Assets (Note 2):
Intragovernmental:
    Fund Balance with Treasury (Note 3)                                         $    64,595    $    47,340
    Investments (Note 5)                                                                109             94
    Accounts Receivable, Net (Note 6)                                                   249            364
    Other (Note 11)                                                                       5              -
  Total Intragovernmental                                                            64,958         47,798

 Cash and Other Monetary Assets (Note 4)                                                348            218
 Investments (Note 5)                                                                     3              3
 Accounts Receivable, Net (Note 6)                                                   10,049          8,854
 Direct Loan and Loan Guarantees, Net (Note 7)                                       81,774         80,348
 Inventory and Related Property, Net (Note 8)                                            15            185
 General Property, Plant, and Equipment, Net (Note 9)                                 2,973          4,931
 Other (Note 11)                                                                        253            151

Total Assets                                                                        160,373        142,488

 Stewardship PP&E (Note 10)

Liabilities (Note 12):
  Intragovernmental:
    Accounts Payable                                                                      7             12
    Debt (Note 13)                                                                   77,577         75,101
    Other (Note 15)                                                                  13,678         13,753
  Total Intragovernmental                                                            91,262         88,866

 Accounts Payable                                                                       848            806
 Loan Guarantee Liability (Note 7)                                                    1,333          1,258
 Federal Employee and Veteran Benefits                                                  832            775
 Environmental and Disposal Liabilities (Note 14)                                        25            105
 Benefits Due and Payable                                                             2,764          2,854
 Other (Notes 15 & 16)                                                               23,908         20,117
 Total Liabilities                                                                  120,972        114,781

 Commitments and Contingencies (Note 17)

Net Position:
 Unexpended Appropriations - Earmarked Funds (Note 18)                                1,428          1,113
 Unexpended Appropriations - Other Funds                                             29,355         29,824
 Cumulative Results of Operations - Earmarked Funds (Note 18)                          (490)           803
 Cumulative Results of Operations - Other Funds                                       9,108         (4,033)
 Total Net Position                                                                  39,401         27,707

Total Liabilities and Net Position                                              $ 160,373      $ 142,488




                        The accompanying notes are an integral part of these statements.



                                                                                                              119
FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
                                      Consolidated Statement of Net Cost
                               For the Years Ended September 30, 2008 and 2007
                                                  (In Millions)


                                                                                       2008          2007

      Enhance International Competitiveness
      of American Agriculture:
        Gross Cost                                                                 $     2,484   $    2,099
        Less: Earned Revenue                                                               455          615
          Net Cost                                                                       2,029        1,484

      Enhance the Competitiveness and Sustainability
      of Rural and Farm Economies:
        Gross Cost                                                                      20,995       21,424
        Less: Earned Revenue                                                             3,836        6,325
          Net Cost                                                                      17,159       15,099

      Support Increased Economic Opportunities and
      Improved Quality of Life in Rural America:
        Gross Cost                                                                       8,426        6,952
        Less: Earned Revenue                                                             4,547        4,750
          Net Cost                                                                       3,879        2,202

      Enhance Protection and Safety of the Nation's
      Agriculture and Food Supply:
       Gross Cost                                                                        3,374        3,271
       Less: Earned Revenue                                                                935          762
          Net Cost                                                                       2,439        2,509

      Improve the Nation's Nutrition and Health:
        Gross Cost                                                                      60,181       53,991
        Less: Earned Revenue                                                                49           43
          Net Cost                                                                      60,132       53,948

      Protect and Enhance the Nation's
      Natural Resource Base and Environment:
        Gross Cost                                                                      12,105       11,824
        Less: Earned Revenue                                                             1,010          745
          Net Cost                                                                      11,095       11,079


      Total Gross Costs                                                                107,565       99,561
      Less: Total Earned Revenues                                                       10,832       13,240

      Net Cost of Operations (Note 19)                                             $    96,733   $   86,321




                             The accompanying notes are an integral part of these statements.



120
                         FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                    Consolidated Statement of Changes in Net Position
                                            For The Year Ended September 30, 2008
                                                          (In Millions)

                                                           Earmarked
                                                             Funds                  All Other                          Consolidated
                                                            (Note 18)                Funds             Eliminations       Total
Cumulative Results of Operations:
 Beginning Balances                                        $        803         $       (4,033)        $          -    $    (3,230)
    Changes in Accounting Principles (Note 30)                      (14)                11,550                    -         11,536
    Beginning Balance, as Adjusted                                  789                  7,517                    -          8,306

 Budgetary Financing Sources:
    Appropriations Used                                            3,517                86,379                    -         89,896
    Non-exchange Revenue                                               -                    19                    -             19
    Donations and Forfeitures of Cash and Equivalents                  1                    23                    -             24
    Transfers In (Out) without Reimbursement                       1,247                 5,291                    -          6,538
 Other Financing Sources (Non-Exchange):
    Transfers In (Out) without Reimbursement                         (32)                 (359)                   -           (391)
    Imputed Financing                                                 46                 3,429               (2,568)           907
    Other                                                             84                   (32)                   -             52
 Total Financing Sources                                           4,863                94,750               (2,568)        97,045

 Net Cost of Operations                                           (6,142)              (93,159)              2,568          (96,733)

 Net Change                                                       (1,279)                1,591                    -            312

    Cumulative Results of Operations                                (490)                9,108                    -          8,618

Unexpended Appropriations:
 Beginning Balances                                                1,113                29,824                    -         30,937
    Changes in Accounting Principles (Note 30)                         -                     -                    -              -
    Beginning Balance, as Adjusted                                 1,113                29,824                    -         30,937

 Budgetary Financing Sources:
   Appropriations Received                                         4,157                86,854                    -          91,011
   Appropriations Transferred In (Out)                                (3)                   10                    -               7
   Other Adjustments                                                (322)                 (954)                   -          (1,276)
   Appropriations Used                                            (3,517)              (86,379)                   -         (89,896)
 Total Budgetary Financing Sources                                   315                  (469)                   -            (154)

   Unexpended Appropriations                                       1,428                29,355                    -         30,783

 Net Position                                              $        938         $       38,463         $          -    $    39,401




                                    The accompanying notes are an integral part of these statements.



                                                                                                                                       121
         FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
                                         Consolidated Statement of Changes in Net Position
                                                 For The Year Ended September 30, 2007
                                                               (In Millions)

                                                              Earmarked
                                                                Funds                 All Other                        Consolidated
                                                               (Note 18)               Funds           Eliminations       Total
Cumulative Results of Operations:
 Beginning Balances                                          $         518        $      (16,627)      $          -    $    (16,109)
    Changes in Accounting Principles (Note 30)                         (59)                1,020                  -             961
    Beginning Balance, as Adjusted                                     459               (15,607)                 -         (15,148)

 Budgetary Financing Sources:
    Appropriations Used                                              4,116                89,175                  -         93,291
    Non-exchange Revenue                                                 -                    12                  -             12
    Donations and Forfeitures of Cash and Equivalents                    1                     -                  -              1
    Transfers In (Out) without Reimbursement                           882                 3,504                  -          4,386
 Other Financing Sources (Non-Exchange):
    Transfers In (Out) without Reimbursement                             -                  (460)                 -           (460)
    Imputed Financing                                                   52                 3,480             (2,527)         1,005
    Other                                                                4                     -                  -              4
 Total Financing Sources                                             5,055                95,711             (2,527)        98,239

 Net Cost of Operations                                             (4,711)              (84,137)            2,527          (86,321)

 Net Change                                                            344                11,574                  -         11,918

      Cumulative Results of Operations                                 803                (4,033)                 -          (3,230)

Unexpended Appropriations:
 Beginning Balances                                                    976                25,409                  -         26,385
    Changes in Accounting Principles (Note 30)                           -                  (209)                 -           (209)
    Beginning Balance, as Adjusted                                     976                25,200                  -         26,176

 Budgetary Financing Sources:
   Appropriations Received                                           4,392                94,999                  -          99,391
   Appropriations Transferred In (Out)                                  (5)                   15                  -              10
   Other Adjustments                                                  (134)               (1,215)                 -          (1,349)
   Appropriations Used                                              (4,116)              (89,175)                 -         (93,291)
 Total Budgetary Financing Sources                                     137                 4,624                  -           4,761

   Unexpended Appropriations                                         1,113                29,824                  -         30,937

 Net Position                                                $       1,916        $       25,791       $          -    $    27,707




                                         The accompanying notes are an integral part of these statements.



122
                                   FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                            Combined Statement of Budgetary Resources
                                          For The Years Ended September 30, 2008 And 2007
                                                             (In Millions)

                                                                                   2008                                       2007
                                                                                       Non-Budgetary                              Non-Budgetary
                                                                                        Credit Reform                              Credit Reform
                                                                     Budgetary       Financing Accounts         Budgetary       Financing Accounts
Budgetary Resources:
Unobligated balance, brought forward, October 1                  $       27,756           $    5,208        $       21,282           $    3,715
Recoveries of prior year unpaid obligations                               4,103                1,226                 3,175                1,445
Budget Authority -
 Appropriation                                                          102,655                    -               108,428                    -
 Borrowing Authority                                                     30,267               14,911                41,185               12,478
 Earned -
   Collected                                                             23,370                8,855                26,158                8,513
   Change in receivables from Federal Sources                               (45)                (177)               (1,069)                   4
 Change in unfilled customer orders -
   Advances received                                                         (6)                   -                  (170)                   -
   Without advance from Federal Sources                                      12                  241                    96                    8
 Expenditure transfers from trust funds                                     963                    -                   934                    -
Nonexpenditure transfers, net, anticipated and actual                      (743)                   -                  (336)                   -
Temporarily not available pursuant to Public Law                            (11)                   -                   (36)                   -
Permanently not available                                               (38,925)              (6,911)              (57,635)              (6,257)
Total Budgetary Resources                                               149,396               23,353               142,012               19,906

Status of Budgetary Resources:
Obligations Incurred -
  Direct                                                                 95,085               18,039                83,743               14,698
  Reimbursable                                                           26,233                    -                30,513                    -
Unobligated Balance -
  Apportioned                                                             7,925                2,784                 8,794                1,917
  Exempt from Apportionment                                               1,100                    5                 1,351                    5
Unobligated balance not available                                        19,053                2,525                17,611                3,286
Total Status of Budgetary Resources                                     149,396               23,353               142,012               19,906

Change in Obligated Balances:
Obligated balance, net, brought forward October 1                        25,472                18,107               26,537                18,900
Obligations incurred                                                    121,318                18,039              114,256                14,698
Gross outlays                                                          (117,444)              (14,162)            (113,118)              (14,034)
Recoveries of prior year unpaid                                          (4,103)               (1,226)              (3,175)               (1,445)
Change in uncollected payments from Federal Sources                          33                   (64)                 973                   (12)
Obligated balance, net, end of period -
 Unpaid obligations                                                      26,616               21,590                26,844               18,940
 Uncollected customer payments from Federal Sources                      (1,339)                (896)               (1,372)                (833)
Obligated Balance, net, end of period                                    25,277               20,694                25,472               18,107

Net Outlays:
Gross outlays                                                           117,444               14,162               113,118               14,034
Offsetting collections                                                  (24,327)              (8,855)              (26,921)              (8,514)
Distributed offsetting receipts                                          (1,889)                (353)               (1,303)                (464)
Net Outlays                                                      $       91,228           $    4,954        $       84,894           $    5,056




                                         The accompanying notes are an integral part of these statements.



                                                                                                                                           123
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
                                    Notes to the Consolidated Financial Statements
                                           As of September 30, 2008 and 2007
                                                       (In Millions)


NOTE 1. SIGNIFICANT ACCOUNTING POLICIES
Organization
The Department of Agriculture (USDA) provides a wide variety of services in the United States and around the
world. USDA is organized into seven distinct mission areas and their agencies that execute these missions.
Listed below are the missions and the agencies within each mission including four Government corporations:
Farm and Foreign Agricultural Services (FFAS)
   Farm Service Agency (FSA)
      Commodity Credit Corporation (CCC)
   Foreign Agricultural Service (FAS)
   Risk Management Agency (RMA)
      Federal Crop Insurance Corporation (FCIC)
Food, Nutrition, and Consumer Services (FNCS)
   Food and Nutrition Service (FNS)
Food Safety
   Food Safety and Inspection Service (FSIS)
Marketing and Regulatory Programs (MRP)
   Agricultural Marketing Service (AMS)
   Animal and Plant Health Inspection Service (APHIS)
   Grain Inspection, Packers and Stockyards Administration (GIPSA)
Natural Resources and Environment (NRE)
   Forest Service (FS)
   Natural Resources Conservation Service (NRCS)
Research, Education, and Economics (REE)
   Agricultural Research Service (ARS)
   Cooperative State Research, Education, and Extension Service (CSREES)
   Economic Research Service (ERS)
   National Agricultural Statistics Service (NASS)
Rural Development
   Rural Development (RD)
     Rural Telephone Bank (RTB) – a corporation
     Alternative Agricultural Research and Commercialization Corporation (AARC)
With the passage of the 2006 Agriculture, Rural Development, Food and Drug Administration, and Related
Agencies Appropriation Act, Public Law No. 109-97, the legal restriction on redeeming Government-owned Class
A stock was removed for RTB. As a result of this change, the process of liquidation and dissolution of the RTB
began. During FY 2008, RTB was dissolved in its entirety and will no longer be a reportable entity.


124
                               FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Consolidation
The financial statements consolidate all the agencies’ results. The effects of intradepartmental activity and balances
are eliminated, except for the Statement of Budgetary Resources that is presented on a combined basis. The
financial statements are prepared in accordance with generally accepted accounting principles for the Federal
Government.
Effective for FY 2007, the Statement of Financing will be presented as a note per Office of Management and
Budget’s (OMB) authority under Statement of Federal Financial Accounting Standards (SFFAS) 7 and will no
longer be considered a Basic Statement. The Statement of Financing will now be a display in the notes and
referred to as “Reconciliation of Budgetary Resources Obligated to Net Cost of Operations.”
Reclassifications
Certain reclassifications have been made to prior year amounts to conform to the current year presentation. In FY
2008, liabilities for entitlements and grants were reclassified from Accounts Payable to Benefits Due and Payable
and Other Liabilities, respectively to conform to OMB and Treasury guidance.
Use of Estimates
The preparation of financial statements requires management to make estimates and assumptions that affect the
amounts reported in the financial statements and accompanying notes. Actual results could differ from those
estimates.
Revenue and Other Financing Sources
Revenue from exchange transactions is recognized when persuasive evidence of an arrangement exists, delivery has
occurred or services have been rendered, sales price is fixed or determinable, and collection is reasonably assured. In
certain cases, the prices charged by the Department are set by law or regulation, which for program and other
reasons may not represent full cost. Prices set for products and services offered through the Department’s working
capital funds are intended to recover the full costs incurred by these activities. Revenue from non-exchange
transactions is recognized when a specifically identifiable, legally enforceable claim to resources arises, to the extent
that collection is probable and the amount is reasonably estimable. Appropriations are recognized as a financing
source when used. An imputed financing source is recognized for costs subsidized by other Government entities.
Investments
The Department is authorized to invest certain funds in excess of its immediate needs in Treasury securities.
Investments in non-marketable par value Treasury securities are classified as held to maturity and are carried at cost.
Investments in market-based Treasury securities are classified as held to maturity and are carried at amortized cost.
The amortized cost of securities is based on the purchase price adjusted for amortization of premiums and accretion
of discounts using the straight-line method over the term of the securities.
Accounts Receivable
Accounts receivable are reduced to net realizable value by an allowance for uncollectible accounts. The adequacy of
the allowance is determined based on past experience and age of outstanding balances.
Direct Loans and Loan Guarantees
Direct loans obligated and loan guarantees committed after fiscal 1991 are reported based on the present value of
the net cash-flows estimated over the life of the loan or guarantee. The difference between the outstanding
principal of the loans and the present value of their net cash inflows is recognized as a subsidy cost allowance; the
present value of estimated net cash outflows of the loan guarantees is recognized as a liability for loan guarantees.
The subsidy expense for direct or guaranteed loans disbursed during the year is the present value of estimated net
cash outflows for those loans or guarantees. A subsidy expense also is recognized for modifications made during the



                                                                                                                     125
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
year to loans and guarantees outstanding and for reestimates made as of the end of the year to the subsidy
allowances or loan guarantee liability for loans and guarantees outstanding.
Direct loans obligated and loan guarantees committed before fiscal 1992 are valued using the present-value method.
Under the present-value method, the outstanding principal of direct loans is reduced by an allowance equal to the
difference between the outstanding principal and the present value of the expected net cash flows. The liability for
loan guarantees is the present value of expected net cash outflows due to the loan guarantees.
Inventories and Related Property
Inventories to be consumed in the production of goods for sale or in the provision of services for a fee are valued on
the basis of historical cost using a first-in, first-out method. Commodities are valued at the lower of cost or net
realizable value using a weighted average method.
Property, Plant and Equipment
Property, plant and equipment (PP&E) are stated at cost less accumulated depreciation. Depreciation is determined
using the straight-line method over the estimated useful lives of the assets. Useful lives for PP&E are disclosed in
Note 9. Capitalization thresholds for personal property and real property are $25,000 and $100,000 for internal use
software. There are no restrictions on the use or convertibility of PP&E.
Pension and Other Retirement Benefits
Pension and other retirement benefits (primarily retirement health care benefits) expense is recognized at the time
the employees’ services are rendered. The expense is equal to the actuarial present value of benefits attributed by the
pension plan’s benefit formula, less the amount contributed by the employees. An imputed cost is recognized for
the difference between the expense and contributions made by and for employees.
Other Post-employment Benefits
Other post-employment benefits expense for former or inactive (but not retired) employees is recognized when a
future outflow or other sacrifice of resources is probable and measurable on the basis of events occurring on or
before the reporting date. The liability for long-term other post-employment benefits is the present value of future
payments.
Earmarked Funds
In accordance with SFFAS 27, Identifying and Reporting Earmarked Funds, which became effective in FY 2006,
the Department has reported the earmarked funds for which it has program management responsibility when the
following three criteria are met: (1) a statute committing the Federal Government to use specifically identified
revenues and other financing sources only for designated activities, benefits or purposes; (2) explicit authority for
the earmarked fund to retain revenues and other financing sources not used in the current period for future use to
finance the designated activities, benefits or purposes; and (3) a requirement to account for and report on the
receipt, use, and retention of the revenues and other financing sources that distinguishes the earmarked fund from
the Government’s general revenues.
Stewardship PP&E
SFFAS 29, Heritage Assets and Stewardship Land, was issued in July 2005. SFFAS 29 reclassified all heritage
assets and stewardship land information as basic except for condition information, which is classified as RSI. The
reclassification as basic is being phased in per SFFAS 29. Heritage assets and stewardship land information that
was previously reported in RSSI will temporarily shift to RSI until it moves to a note on the balance sheet as basic
information. The phase-in of disclosure requirements being reported as basic information provides that SFFAS 29
will be fully implemented for reporting periods beginning after September 30, 2008.




126
                                 FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Contingencies
Contingent liabilities are recognized when a past event or exchange transaction has occurred, a future outflow or
other sacrifice of resources is probable, and the future outflow or sacrifice of resources is measurable.
Allocation Transfers
The Department is a party to allocation transfers with other federal agencies as both a transferring (parent) entity
and/or a receiving (child) entity. Allocation transfers are legal delegations by one department of its authority to
obligate budget authority and outlay funds to another department. A separate fund account (allocation account) is
created in the U.S. Treasury as a subset of the parent fund account for tracking and reporting purposes. All
allocation transfers of balances are credited to this account, and subsequent obligations and outlays incurred by the
child entity are charged to this allocation account as they execute the delegated activity on behalf of the parent
entity.
The Department allocates funds, as the parent, to the Department of Transportation, Department of the Interior,
Department of Defense, Department of Housing and Urban Development, U.S. Agency for International
Development and the Small Business Administration. The Department receives allocation transfers, as the child,
from the Department of Labor, Department of Transportation, Department of the Interior, Economic
Development Administration, Appalachian Regional Commission and the Delta Regional Authority.
Limitations of the Financial Statements
The financial statements report the financial position and results of operations of the entity, pursuant to the
requirements of 31 U.S.C. 3515(b).
While the statements have been prepared from the books and records of the entity in accordance with the formats
prescribed by the OMB, they also are used to monitor and control budgetary resources, which are prepared from
the same books and records.
The statements should be read with the realization that they are for a component of the U.S. Government, a
sovereign entity. Thus, liabilities cannot be liquidated without enabling legislation that provides resources to do so.




                                                                                                                    127
            FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
NOTE 2. NON-ENTITY ASSETS
Non-entity assets include proceeds from the sale of timber payable to Treasury, timber contract performance bonds,
employer contributions and payroll taxes withheld for agencies serviced by the National Finance Center, property
taxes and insurance for single family housing, interest, fines and penalties.
                                                                             FY 2008                   FY 2007
            Intragovernmental:
              Fund balance with Treasury                                 $             62          $                 106
              Accounts Receivable                                                      23                               -
            Subtotal Intragovernmental                                                 85                            106

            With the Public:
              Cash and other monetary assets                                        125                              109
              Accounts receivable                                                   127                               47
            Subtotal With the Public                                                252                              156

            Total non-entity assets                                                 337                              262

            Total entity assets                                                160,036                       142,226

            Total Assets                                                 $     160,373             $         142,488


NOTE 3. FUND BALANCE WITH TREASURY
Other Fund Types include deposit and clearing accounts. Borrowing Authority not yet Converted to Fund Balance
represents un-obligated and obligated amounts recorded at year-end that will be funded by future borrowings.
Non-Budgetary Fund Balance with Treasury includes special fund receipt accounts; and clearing and suspense
account balances awaiting disposition or reclassification.

                                                                                    FY 2008                FY 2007
                 Fund Balances:
                    Trust Funds                                                 $          633         $         449
                    Special Funds                                                       17,239                 1,498
                    Revolving Funds                                                      8,338                 6,395
                    General Funds                                                       38,326                38,977
                    Other Fund Types                                                        59                    21
                 Total                                                                  64,595                47,340


                 Status of Fund Balance with Treasury:
                 Unobligated Balance:
                    Available                                                            11,814               12,067
                    Unavailable                                                          21,577               20,897
                 Obligated Balance not yet Disbursed                                     45,841               43,471
                 Borrowing Authority not yet Converted to Fund Balance                  (29,681)             (29,162)
                 Non-Budgetary Fund Balance with Treasury                                15,044                   67
                 Total                                                          $        64,595        $      47,340




128
                                    FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
NOTE 4. CASH AND OTHER MONETARY ASSETS
In fiscal 2008 and 2007, cash includes Federal crop insurance escrow amounts of $130 million and $79 million,
funds held in escrow for single family housing borrowers of $ 125 million and $109 million and certificates of
deposit of $1 million and $29 million, respectively. In fiscal 2008, $92 million of price support transfers were in
transit.
                                                                                          FY 2008                       FY 2007


                     Cash                                                             $             348         $               218




NOTE 5. INVESTMENTS
  FY 2008                                                        Unamortized                                                               Market
                               Amortization                          Premium/                   Interest            Investments,            Value
                                 Method             Cost             (Discount)                Receivable                Net              Disclosure
  Intragovernmental:
    Non-marketable
       Par value                                $            -   $                -        $                -       $             -   $                -
      Market-based              Straight Line              107                    1                         1                  109                  109
  Total                                         $          107   $                1        $                1   $              109    $             109


  With the Public:
    AARC                                        $           3    $                -        $                -   $                 3   $                3
  Total                                         $           3    $                -        $                -   $                 3   $                3




  FY 2007                                                        Unamortized                                                               Market
                               Amortization                          Premium/                   Interest            Investments,            Value
                                 Method             Cost             (Discount)                Receivable                Net              Disclosure
  Intragovernmental:
    Non-marketable
      Par value                                 $          88    $                -        $                -   $              88     $                -
      Market-based              Straight Line               6                     -                         -                     6                    6
  Total                                         $          94    $                -        $                -   $              94     $                6


  With the Public:
    AARC                                        $           3    $                -        $                -   $                 3   $                3
  Total                                         $           3    $                -        $                -   $                 3   $                3




                                                                                                                                                       129
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
NOTE 6. ACCOUNTS RECEIVABLE, NET
                       FY 2008
                                                    Accounts         Allowance for         Accounts
                                                  Receivable,         Uncollectible      Receivable,
                                                     Gross             Accounts              Net
                      Intragovernmental           $       249        $              -    $       249
                      With the Public                  10,079                   (30)          10,049
                      Total                       $    10,328        $          (30)     $    10,298

                       FY 2007
                                                    Accounts         Allowance for         Accounts
                                                  Receivable,         Uncollectible      Receivable,
                                                     Gross             Accounts              Net
                      Intragovernmental           $       364        $              -    $       364
                      With the Public                   8,899                   (45)           8,854
                      Total                       $     9,263        $          (45)     $     9,218


NOTE 7. DIRECT LOANS AND GUARANTEES, NON-FEDERAL BORROWERS
Direct Loans
Direct loan obligations or loan guarantee commitments made pre-1992 and the resulting direct loans or loan
guarantees are reported at net present value.
Direct loan obligations or loan guarantee commitments made post-1991, and the Federal Credit Reform Act of
1990 as amended governs the resulting direct loan or loan guarantees. The Act requires agencies to estimate the
cost of direct loans and loan guarantees at present value for the budget. Additionally, the present value of the
subsidy costs (i.e. interest rate differentials, interest subsidies, delinquencies and defaults, fee offsets and other cash
flows) associated with direct loans and loan guarantees are recognized as a cost in the year the loan or loan
guarantee is disbursed. The net present value of loans or defaulted guaranteed loans receivable at any point in time
is the amount of the gross loan or defaulted guaranteed loans receivable less the present value of the subsidy at that
time.
The net present value of Direct Loan and Loan Guarantees, Net is not necessarily representative of the proceeds
that might be expected if these loans were sold on the open market.
Direct Loan and Loan Guarantees, Net at the end of FY 2008 was $81,774 million compared to $80,348 million at
the end of FY 2007. Loans exempt from the Federal Credit Reform Act of 1990 represent $643 million of the total
compared to $779 million in FY 2007. Table 1 illustrates the overall composition of the Department’s credit
program balance sheet portfolio by mission area and credit program for FY 2008 and 2007.
During the fiscal year, the gross outstanding balance of the direct loans obligated post-1991 is adjusted by the value
of the subsidy cost allowance held against those loans. Current year subsidy expense, modifications and reestimates
all contribute to the change of the subsidy cost allowance throughout the year. The subsidy cost allowance moved
from $4,334 million to $4,475 million during FY 2008, an increase of $141 million. Table 2 shows the
reconciliation of subsidy cost allowance balances from FY 2007 to FY 2008.
Total direct loan subsidy expense is a combination of subsidy expense for new direct loans disbursed in the current
year, modifications to existing loans, and interest rate and technical reestimates to existing loans. Total direct loan
subsidy expense in FY 2008 was $461 million compared to negative $32 million in FY 2007. Table 3 illustrates the
breakdown of total subsidy expense for FY 2008 and 2007 by program.




130
                                 FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Direct loan volume increased from $8,274 million in FY 2007 to $8,758 million in FY 2008. Volume distribution
between mission area and program is shown in Table 4.
Guaranteed Loans
Guaranteed loans are administered in coordination with conventional agricultural lenders for up to 95 percent of
the principal loan amount. Under the guaranteed loan programs, the lender is responsible for servicing the
borrower's account for the life of the loan. The Department, however, is responsible for ensuring borrowers meet
certain qualifying criteria to be eligible and monitoring the lender's servicing activities. Borrowers interested in
guaranteed loans must apply to a conventional lender, which then arranges for the guarantee with a Department
agency. Estimated losses on loan and foreign credit guarantees are reported at net present value as Loan Guarantee
Liability. Defaulted guaranteed loans are reported at net present value as Loans Receivable and Related Foreclosed
Property, Net.
Guaranteed loans outstanding at the end of FY 2008 were $40,787 million in outstanding principal and $36,492
million in outstanding principal guaranteed, compared to $34,482 and $30,648 million, respectively at the end of
FY 2007. Table 5 shows the outstanding balances by credit program.
During the fiscal year, the value of the guaranteed loans is adjusted by the value of the loan guarantee liability held
against those loans. Current year subsidy expense, modification and reestimates all contribute to the change of the
loan guarantee liability through the year. The loan guarantee liability is a combination of the liability for losses on
pre-1992 guarantees and post-1991 guarantees. Table 6 shows that total liability moved from $1,258 million to
$1,333 million during FY 2008, an increase of $75 million. The post-1991 liability moved from $1,256 million to
$1,332 million, an increase of $76 million. Table 7 shows the reconciliation of total loan guarantee liability.
Total guaranteed loan subsidy expense is a combination of subsidy expense for new guaranteed loans disbursed in
the current year, modifications to existing loans, and interest rate and technical reestimates to existing loans. Total
guaranteed loan subsidy expense in FY 2008 was $82 million compared to negative $192 million in FY 2007. Table
8 illustrates the breakdown of total subsidy expense for FY 2008 and 2007 by program.
Guaranteed loan volume increased from $7,434 million in FY 2007 to $11,374 million in FY 2008. Volume
distribution between mission area and program is shown in Table 9.
Credit Program Discussion and Descriptions
The Department offers direct and guaranteed loans through credit programs in the FFAS mission area through the
FSA and the CCC, and in the RD mission area.
The Farm and Foreign Agricultural Services Mission Area
The FFAS mission area helps keep America's farmers and ranchers in business as they face the uncertainties of
weather and markets. FFAS delivers commodity, credit, conservation, disaster and emergency assistance programs
that help strengthen and stabilize the agricultural economy. FFAS contributes to the vitality of the farm sector with
programs that encourage the expansion of export markets for U.S. agriculture.
FSA offers direct and guaranteed loans to farmers who are temporarily unable to obtain private, commercial credit
and nonprofit entities that are engaged in the improvement of the nation's agricultural community. Often, FSA
borrowers are beginning farmers who cannot qualify for conventional loans due to insufficient financial resources.
Additionally, the agency helps established farmers who have suffered financial setbacks from natural disasters, or
have limited resources to maintain profitable farming operations. FSA officials also provide borrowers with
supervision and credit counseling.
FSA's mission is to provide supervised credit. FSA works with each borrower to identify specific strengths and
weaknesses in farm production and management, and provides alternatives to address weaknesses. FSA is able to
provide certain loan servicing options to assist borrowers whose accounts are distressed or delinquent. These


                                                                                                                    131
           FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
options include reamortization, restructuring, loan deferral, lowering interest rate, acceptance of easements, and
debt write-downs. The eventual goal of FSA's farm credit programs is to graduate its borrowers to commercial
credit.
CCC's foreign programs provide economic stimulus to both the U.S. and foreign markets, while also giving
humanitarian assistance to the most-needy people throughout the world. CCC offers both credit guarantee and
direct credit programs for buyers of U.S. exports, suppliers, and sovereign countries in need of food assistance.
CCC permits debtor nations to reschedule debt under the aegis of the Paris Club (The Club). The Club is an
internationally recognized organization under the leadership of the French Ministry of Economics and Finance. Its
sole purpose is to assess, on a case-by-case basis, liquidity problems faced by economically disadvantaged countries.
The general premise of the Club's activities is to provide disadvantaged nations short-term liquidity relief to enable
them to re-establish their credit worthiness. The Departments of State and Treasury lead the U.S. Delegation and
negotiations for all U.S. Agencies.
Farm and Foreign Agricultural Service List of Programs
                                   Farm Service Agency             Commodity Credit Corporation
                           Direct Farm Ownership                 General Sales Manager Guarantee Credit
                           Direct Farm Operating                 Program
                           Direct Emergency Loans                Facility Program Guarantee
                           Direct Indian Land Acquisition        P.L. 480 Title 1 Program
                           Direct Boll Weevil Eradication        Direct Farm Storage Facility
                           Direct Seed Loans to Producers        Direct Sugar Storage Facilities
                           Guaranteed Farm Operating
                           Subsidized/Unsubsidized
                           Agricultural Resource Demonstration
                           Fund
                           Bureau of Reclamation Loan Fund
                           Guaranteed Farm Ownership
                           Unsubsidized


The Rural Development Mission Area
Each year, RD programs create or preserve tens of thousands of rural jobs and provide or improve the quality of
rural housing. To leverage the impact of its programs, RD is working with State, local and Indian tribal
Governments, as well as private and not-for-profit organizations and user-owned cooperatives.
Through its rural housing loan and grant programs, RD provides affordable housing and essential community
facilities to rural communities. Rural housing programs help finance new or improved housing for moderate, low,
and very low-income families each year. The programs also help rural communities finance, construct, enlarge or
improve fire stations, libraries, hospitals and medical clinics, industrial parks, and other community facilities.
The Rural Business Program goal is to promote a dynamic business environment in rural America. RD partners
with the private sector and community-based organizations to provide financial assistance and business planning. It
also provides technical assistance to rural businesses and cooperatives, conducts research into rural economic issues,
and provides cooperative educational materials to the public.
The Rural Utilities Program helps to improve the quality of life in rural America through a variety of loan programs
for electric energy, telecommunications, and water and environmental projects. This program leverages scarce
Federal funds with private capital for investing in rural infrastructure, technology and development of human
resources.



132
                                 FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
RD programs provide certain loan servicing options to borrowers whose accounts are distressed or delinquent.
These options include reamortization, restructuring, loan deferral, lowering interest rate, acceptance of easements
and debt write-downs. The choice of servicing options depends on the loan program and the individual borrower.
Rural Development List of Programs
             Rural Housing Program                      Rural Business Program                      Rural Utilities Program
Home Ownership Direct Loans                        Business and Industry Direct Loans      Water and Environmental Direct Loans
Home Ownership Guaranteed Loans                    Business and Industry Guaranteed        Water and Environmental Guaranteed Loans
Home Improvement and Repair Direct Loans           Loans                                   Electric Direct Loans
Home Ownership and Home Improvement and Repair     Intermediary Relending Program Direct   Electric Guaranteed Loans
Nonprogram Loans                                   Loans                                   Telecommunications Direct Loans
Rural Housing Site Direct Loans                    Rural Economic Development Direct       Federal Financing Bank-Telecommunications
Farm Labor Housing Direct Loans                    Loans                                   Guaranteed
Rural Rental and Rural Cooperative Housing Loans                                           Distance Learning and Telemedicine Direct
Rental Housing Guaranteed Loans                                                            Broadband Telecommunications Services
Multi-family Housing–Nonprogram–Credit Sales
Community Facilities Direct Loans
Community Facilities Guaranteed Loans


Discussion of Administrative Expenses, Subsidy Costs and Subsidy Rates
Administrative Expenses
Consistent with the Federal Credit Reform Act of 1990 as amended, subsidy cash flows exclude direct Federal
administrative expenses. Administrative expenses for FY 2008 and 2007 are shown in Table 10.
Reestimates, Default Analysis, and Subsidy Rates
The Federal Credit Reform Act of 1990 as amended governs the proprietary and budgetary accounting treatment
of direct and guaranteed loans. The long-term cost to the Government for direct loans or loan guarantees is
referred to as "subsidy cost." Under the act, subsidy costs for loans obligated beginning in FY 1992 are recognized
at the net present value of projected lifetime costs in the year the loan is disbursed. Subsidy costs are revalued
annually. Components of subsidy include interest subsidies, defaults, fee offsets, and other cash flows.
RD’s cash flow models are tailored for specific programs based on unique program characteristics. The models
utilized are housing, guaranteed, electric underwriters, FFB modifications and a direct model that covers the
remaining portfolio with similar characteristics.
The annual reestimate process updates the budget assumptions with actual portfolio performance, interest rates and
updated estimates for future loan performance. The FY 2008 reestimate process resulted in an $82 million increase
in the post 1991 estimated cost of the direct loan portfolio and a $156 million reduction in the post 1991 estimated
cost of the guaranteed loan portfolio.
Table 3 discloses the direct loan subsidy expense including the $82 million increase due to reestimates. The increase
was a result of a $975 million increase in RD’s programs less an $893 million decrease in the FFAS programs.
Table 8 discloses the loan guarantee subsidy expenses including the $156 million reduction due to reestimate. The
reduction was most affected by a $53 million reduction in the business and industry program, a $49 million
reduction in the farm program and a $43 million reduction in the export program.
Based on sensitivity analysis conducted for each cohort or segment of a loan portfolio, the difference between the
budgeted and actual interest for both borrower and Treasury remain the key components for the subsidy
formulation and reestimate rates of many USDA direct programs. USDA uses the Governmentwide interest rate
projections provided by the OMB in order to do its calculations and analysis.


                                                                                                                                  133
            FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
The Inter-agency Country Risk Assessment System is a Federal interagency effort chaired by OMB under the
authority of the Federal Credit Reform Act of 1990 as amended. The system provides standardized risk assessment
and budget assumptions for all direct credits and credit guarantees provided by the Government, to foreign
borrowers. Sovereign and non-sovereign lending risks are sorted into risk categories, each associated with a default
estimate.
The CCC delinquent debt is estimated at a 100-percent allowance for losses. When the foreign borrower
reschedules their debt and renews their commitment to repay CCC, the allowance is estimated at less than 100
percent.
Subsidy rates are used to compute each year's subsidy expenses as disclosed above. The subsidy rates disclosed in
Tables 11 and 12 pertain only to the FY 2008 and 2007 cohorts. These rates cannot be applied to the direct and
guaranteed loans disbursed during the current reporting year to yield the subsidy expense. The subsidy expense for
new loans reported in the current year could result from disbursements of loans from both current year cohorts and
prior-year cohorts. The subsidy expense reported in the current year also includes reestimates.
As a result of new guidance, CCC chose to reflect interest on downward reestimates in the Statement of Changes
in Net Position as other financing sources for FY 2008 and 2007, respectively. The remainder of USDA credit
programs chose to reflect downward reestimates in earned revenue on the Statement of Net Cost. Both
methodologies are accepted alternatives that have been promulgated by Treasury.
Foreclosed Property
Property is acquired largely through foreclosure and voluntary conveyance. Acquired properties associated with
loans are reported at their market value at the time of acquisition. The projected future cash flows associated with
acquired properties are used in determining the related allowance (at present value).
As of September 30, 2008 and 2007, foreclosed property consisted of 800 and 591 rural single-family housing
dwellings, with an average holding period of 17 and 23 months, respectively. As of September 30, 2008 and 2007,
FSA-Farm Loan Program properties consist primarily of 58 and 61 farms, respectively. The average holding period
for these properties in inventory for FY 2008 and 2007 was 64 and 68 months, respectively. Certain properties can
be leased to eligible individuals.
Non-performing Loans
Non-performing loans are defined as receivables that are in arrears by 90 or more days, or are on rescheduling
agreements until such time two consecutive payments have been made following the rescheduling.
When RD, FSA and CCC calculate loan interest income, however, the recognition of revenue is deferred. Late
interest is accrued on arrears.
Loan Modifications
A modification is any Government action different from the baseline assumptions that affects the subsidy cost, such
as a change in the terms of the loan contract. The cost of a modification is the difference between the present value
of the cash flows before and after the modification.
Multiple-family housing direct loan program modifications related to the revitalization project, which began in FY
2006, continued throughout FY 2008. The revitalization project is used to rehabilitate ailing housing
developments. In this program, RD determines whether the development owner should be offered a financial
restructuring plan and what type of incentives, if any, should be offered to the owner to rehabilitate an ailing
housing development and to provide affordable rents for tenants.
In FY 2007, loan extension modifications were granted for two borrowers in the FFB electric program. The
maturity dates were extended up to 20 years on selected advances. Interest rates on the advances did not change.

134
                              FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
At the time of the modification, the liquidating fund was paid off and the advances were moved to the financing
fund. The post-modification cash flows were discounted at the third quarter net present value discount factor from
the FY 2007 President’s Budget relative to the effective date of the loan extension modifications.
The Debt Reduction Fund is used to account for CCC's "modified debt." Debt is considered to be modified if the
original debt has been reduced or the interest rate of the agreement changed. In contrast, when debt is
"rescheduled," only the date of payment is changed. Rescheduled debt is carried in the original fund until paid. All
outstanding CCC modified debt is carried in the Debt Reduction Fund and is governed by the Federal Credit
Reform Act of 1990 as amended.
Interest Credit
Approximately $17,700 million and $17,800 million of Rural Housing Service (RHS) unpaid loan principal as of
September 30, 2008, and 2007 were receiving interest credit, respectively. If those loans receiving interest credit had
accrued interest at the full-unreduced rate, interest income would have been approximately $947 million and $1,000
million higher for FY 2008 and 2007, respectively.
Restructured Loans
At the end of FY 2008 and 2007, the RD portfolio contained approximately 73,300 and 76,500 restructured loans
with an outstanding unpaid principal balance of $2,400 million and $2,500 million, respectively. At the end of FY
2008 and 2007, the farm loan portfolio contained approximately 20,000 and 22,000 restructured loans with an
outstanding unpaid principal balance of $1,100 million and $1,200 million, respectively. Direct credit and credit
guarantee principal receivables in the food aid and export programs under rescheduling agreements as of September
30, 2008 and 2007, were $3,100 million and $3,400 million, respectively.




                                                                                                                  135
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
Table 1. Direct Loan and Loan Guarantees, Net
 FY 2008                                          Loans                                  Present       Value of Assets
 Direct Loans                                   Receivable,    Interest    Foreclosed     Value          Related to
                                                  Gross       Receivable    Property    Allowance          Loans
 Obligated Pre-1992
   Farm                                         $    1,406    $     96     $      12    $       (59)   $        1,455
   Export                                                -           -             -              -                 -
   Food Aid                                          4,813         121             -         (1,949)            2,985
   Housing                                          10,462         111            33         (4,880)            5,726
   Electric                                          8,273           5             -         (1,689)            6,589
   Telecommunications                                  896           2             -            (54)              844
   Water and Environmental                           1,328          14             -           (159)            1,183
   Business and Industry                                 -           -             -              -                 -
   Economic Development                                 38           -             -            (17)               21
 Pre-1992 Total                                     27,216         349            45         (8,807)           18,803
 Obligated Post-1991
   Farm                                              5,203         159             3            224             5,589
   Export                                                -           -             -              -                 -
   Food Aid                                          1,837          79             -         (1,035)              881
   Housing                                          17,044          98            34         (2,387)           14,789
   Electric                                         29,216          28             -           (336)           28,908
   Telecommunications                                3,151           2             -            187             3,340
   Water and Environmental                           8,583          87             -           (829)            7,841
   Business and Industry                                35           -             -            (25)               10
   Economic Development                                530           2             -           (175)              357
 Post-1991 Total                                    65,599         455            37         (4,376)           61,715
 Total Direct Loan Program Receivables              92,815         804            82        (13,183)           80,518
 Defaulted Guarantee Loans
  Pre-1992
     Farm                                               1             -            -             (1)                -
     Export                                           136             1            -            (90)               47
     Food Aid                                           -             -            -              -                 -
     Housing                                            -             -            -              -                 -
     Electric                                           -             -            -              -                 -
     Telecommunications                                 -             -            -              -                 -
     Water and Environmental                            -             -            -              -                 -
     Business and Industry                              3             -            -              -                 3
     Economic Development                               -             -            -              -                 -
  Pre-1992 Total                                      140             1            -            (91)               50
   Post-1991
     Farm                                              58             -            -           (56)                 2
     Export                                           615             7            -          (185)               437
     Food Aid                                           -             -            -             -                  -
     Housing                                           61             -            -           (33)                28
     Electric                                           -             -            -             -                  -
     Telecommunications                                 -             -            -             -                  -
     Water and Environmental                            -             -            -             -                  -
     Business and Industry                            103             3            -           (10)                96
     Economic Development                               -             -            -             -                  -
   Post-1991 Total                                    837            10            -          (284)               563
 Total Defaulted Guarantee Loans                      977            11            -          (375)               613
 Loans Exempt from Credit Reform Act:
   Commodity Loans                                    630            13            -              -               643
   Other Foreign Receivables                            -             -            -              -                 -
 Total Loans Exempt                                   630            13            -              -               643
 Total Direct Loan and Loan Guarantees, Net                                                            $       81,774




136
                               FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Table 1. Direct Loan and Loan Guarantees, Net (cont’d)
FY 2007                                          Loans                                    Present       Value of Assets
Direct Loans                                   Receivable,      Interest    Foreclosed      Value         Related to
                                                 Gross         Receivable    Property    Allowance          Loans
Obligated Pre-1992
  Farm                                         $    1,679      $    115     $      10    $      (129)   $        1,675
  Export                                                -             -             -              -                 -
  Food Aid                                          5,204            31             -         (2,365)            2,870
  Housing                                          11,014           118            21         (5,040)            6,113
  Electric                                         10,045            88             -         (1,373)            8,760
  Telecommunications                                1,047             2             -            (24)            1,025
  Water and Environmental                           1,438            12             -           (182)            1,268
  Business and Industry                                 -             -             -              -                 -
  Economic Development                                 44             -             -            (20)               24
Pre-1992 Total                                     30,471           366            31         (9,133)           21,735
Obligated Post-1991
  Farm                                              4,877           161             4           (440)            4,602
  Export                                                -             -             -              -                 -
  Food Aid                                          2,414            33             -         (1,192)            1,255
  Housing                                          16,023            81            24         (2,090)           14,038
  Electric                                         26,006           170             -            (42)           26,134
  Telecommunications                                2,936             6             -            328             3,270
  Water and Environmental                           7,839            70             -           (638)            7,271
  Business and Industry                                51             -             -            (38)               13
  Economic Development                                509             2             -           (168)              343
Post-1991 Total                                    60,655           523            28         (4,280)           56,926
Total Direct Loan Program Receivables              91,126           889            59        (13,413)           78,661
Defaulted Guarantee Loans
 Pre-1992
    Farm                                                   8           -            -            (5)                 3
    Export                                               349           5            -          (114)               240
    Food Aid                                               -           -            -             -                  -
    Housing                                                -           -            -             -                  -
    Electric                                               -           -            -             -                  -
    Telecommunications                                     -           -            -             -                  -
    Water and Environmental                                -           -            -             -                  -
    Business and Industry                                  3           1            -             -                  4
    Economic Development                                   -           -            -             -                  -
 Pre-1992 Total                                          360           6            -          (119)               247
  Post-1991
    Farm                                               49              2            -           (32)                19
    Export                                            630             16            -          (114)               532
    Food Aid                                            -              -            -             -                  -
    Housing                                            23              -            -           (22)                 1
    Electric                                            -              -            -             -                  -
    Telecommunications                                  -              -            -             -                  -
    Water and Environmental                             -              -            -             -                  -
    Business and Industry                             118              3            -           (12)               109
    Economic Development                                -              -            -             -                  -
  Post-1991 Total                                     820             21            -          (180)               661
Total Defaulted Guarantee Loans                     1,180             27            -          (299)               908
Loans Exempt from Credit Reform Act:
  Commodity Loans                                        744          15            -              -               759
  Other Foreign Receivables                               21           -            -             (1)               20
Total Loans Exempt                                       765          15            -             (1)              779
Total Direct Loan and Loan Guarantees, Net                                                              $       80,348




                                                                                                                      137
           FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
Table 2. Schedule for Reconciling Subsidy Cost Allowance Balances (Post-1991) Direct Loans
                                                                                             FY 2008       FY 2007

       Beginning balance of the subsidy cost allowance                                $       4,334    $    5,080
       Add: Subsidy expense for direct loans disbursed during the year by component
         Interest rate differential costs                                                       (60)          (56)
         Default costs (net of recoveries)                                                      211           142
         Fees and other collections                                                              (2)           (3)
         Other subsidy costs                                                                    226           286
       Total subsidy expense prior to adjustments and reestimates                               375           369

       Adjustments
         Loan modifications                                                                       4            (3)
         Fees received                                                                           36            29
         Loans written off                                                                     (196)         (274)
         Subsidy allowance amortization                                                        (414)         (467)
         Other                                                                                  254            (2)
       Total subsidy cost allowance before reestimates                                        4,393         4,732

       Add or subtract subsidy reestimates by component
         Interest rate reestimate                                                               636            12
         Technical/default reestimate                                                          (554)         (410)
       Total reestimates                                                                         82          (398)
       Ending balance of the subsidy cost allowance                                   $       4,475    $    4,334




138
                                 FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Table 3. Subsidy Expense for Direct Loans by Program and Component

     FY 2008
                                              Interest                 Fees and Other           Subtotal      Total        Interest Rate    Technical       Total      Total Subsidy
                                             Differential   Defaults     Collections    Other   Subsidy    Modifications   Reestimates     Reestimates   Reestimates     Expense
     Direct Loan Programs
      Farm                                    $     (18)    $ 130      $           -    $ (9)   $ 103      $          -    $         -     $     (549)   $     (549)   $       (446)
      Export                                          -         -                  -       -        -                 -              -              -             -               -
      Food Aid                                        9         2                  -       -       11                 -           (181)          (163)         (344)           (333)
      Housing                                      (123)       66                 (1)    245      187                 4            184            (52)          132             323
      Electric                                      (32)       11                  -      (6)     (27)                -            334            155           489             462
      Telecommunications                             (1)        1                  -       -        -                 -            211            (19)          192             192
      Water and Environmental                        86         1                  -      (4)      83                 -             94             63           157             240
      Business and Industry                           -         -                  -       -        -                 -              -              -             -               -
      Economic Development                           19         -                  -      (1)      18                 -             (6)            11             5              23
     Total Direct Loan Subsidy Expense        $     (60)    $ 211      $          (1)   $225    $ 375      $          4    $       636     $     (554)   $       82    $        461
                                                                                          .

     FY 2007
                                              Interest                 Fees and Other           Subtotal      Total        Interest Rate    Technical       Total      Total Subsidy
                                             Differential   Defaults     Collections    Other   Subsidy    Modifications   Reestimates     Reestimates   Reestimates     Expense
     Direct Loan Programs
      Farm                                    $      23     $  73      $           -    $ (6)   $  90      $          -    $       (64)    $      (76)   $     (140)   $        (50)
      Export                                          -         -                  -       -        -                 -              -              -             -               -
      Food Aid                                        4         1                  -       -        5                 -            (29)           (12)          (41)            (36)
      Housing                                      (154)       61                 (3)    306      210                 1            (76)             1           (75)            136
      Electric                                      (26)        5                  -     (10)     (31)               (4)           122           (108)           14             (21)
      Telecommunications                              1         2                  -      (1)       2                 -             16           (124)         (108)           (106)
      Water and Environmental                        75         1                  -      (4)      72                 -             31            (66)          (35)             37
      Business and Industry                           -         -                  -       -        -                 -              -            (13)          (13)            (13)
      Economic Development                           20         -                  -       -       20                 -             12            (11)            1              21
     Total Direct Loan Subsidy Expense        $     (57)    $ 143      $          (3)   $285    $ 368      $         (3)   $        12     $     (409)   $     (397)   $        (32)
                                                                                          .




                                                                                                                                                                                       139
                                         FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
Table 4. Total Amount of Direct Loans Disbursed (Post-1991)

                                                                      FY 2008   FY 2007
              Direct Loan Programs
                Farm                                                 $ 1,317    $ 1,069
                Export                                                     -          -
                Food Aid                                                  20          9
                Housing                                                1,750      1,856
                Electric                                               4,047      3,814
                Telecommunications                                       551        503
                Water and Environmental                                1,017        969
                Business and Industry                                      -          -
                Economic Development                                      56         54
              Total Direct Loans Disbursed                           $ 8,758    $ 8,274




140
                               FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Table 5. Guaranteed Loans Outstanding
                                                      Pre - 1992    Post - 1991      Total       Pre - 1992    Post - 1991      Total
                                                      Outstanding   Outstanding   Outstanding    Outstanding   Outstanding   Outstanding
                       FY 2008
                                                       Principal,    Principal,    Principal,     Principal,    Principal,    Principal,
                                                      Face Value    Face Value    Face Value     Guaranteed    Guaranteed    Guaranteed
                   Loan Guarantee Programs
                     Farm                             $       43    $    10,081   $    10,124    $       38    $    9,061    $    9,099
                     Export                                    -          3,918         3,918              -        3,829         3,829
                     Food Aid                                  -              -              -             -             -             -
                     Housing                                   5         22,514        22,519             4        20,270        20,274
                     Electric                                174            214           388           174           214           388
                     Telecommunications                        -              -              -             -             -             -
                     Water and Environmental                   -             68            68              -           59            59
                     Business and Industry                    14          3,756         3,770            10         2,833         2,843
                     Economic Development                      -              -              -             -             -             -
                   Total Guarantees Disbursed         $      236    $    40,551   $    40,787    $      226    $   36,266    $   36,492


                                                       Pre - 1992   Post - 1991      Total        Pre - 1992   Post - 1991      Total
                                                      Outstanding   Outstanding   Outstanding    Outstanding   Outstanding   Outstanding
                       FY 2007
                                                       Principal,    Principal,    Principal,     Principal,    Principal,    Principal,
                                                      Face Value    Face Value    Face Value     Guaranteed    Guaranteed    Guaranteed
                   Loan Guarantee Programs
                     Farm                             $       66    $   10,045    $   10,111     $       58    $    9,027    $    9,085
                     Export                                     -        2,371         2,371               -        2,312         2,312
                     Food Aid                                   -             -             -              -             -             -
                     Housing                                   8        17,872        17,880              7        16,075        16,082
                     Electric                                184           218           402            184           218           402
                     Telecommunications                         -             -             -              -             -             -
                     Water and Environmental                    -           37            37               -           30            30
                     Business and Industry                    14         3,667         3,681             10         2,727         2,737
                     Economic Development                       -             -             -              -             -             -
                   Total Guarantees Disbursed         $      272    $   34,210    $   34,482     $      259    $   30,389    $   30,648




                                                                                                                                           141
                                   FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
Table 6. Liability for Loan Guarantees (Present Value Method for Pre-1992 Guarantees)
                                                  Liabilities for   Liabilities for Loan
                                                 Losses on Pre-       Guarantees on
               FY 2008
                                                      1992              Post-1991
                                                  Guarantees           Guarantees          Total Liabilities for
                                                 Present Value        Present Value        Loan Guarantees
           Loan Guarantee Programs
             Farm                                $            -     $              114     $              114
             Export                                           -                    162                    162
             Food Aid                                         -                      -                      -
             Housing                                          -                    766                    766
             Electric                                         -                      -                      -
             Telecommunications                               -                      -                      -
             Water and Environmental                          -                      -                      -
             Business and Industry                            1                    290                    291
             Economic Development                             -                      -                      -
           Total Liability for Loan Guarantees   $            1     $            1,332     $            1,333



                                                  Liabilities for   Liabilities for Loan
                                                 Losses on Pre-       Guarantees on
               FY 2007
                                                      1992              Post-1991
                                                  Guarantees           Guarantees          Total Liabilities for
                                                 Present Value        Present Value        Loan Guarantees
           Loan Guarantee Programs
             Farm                                $            1     $              126     $              127
             Export                                           -                    184                    184
             Food Aid                                         -                      -                      -
             Housing                                          -                    655                    655
             Electric                                         -                      -                      -
             Telecommunications                               -                      -                      -
             Water and Environmental                          -                      -                      -
             Business and Industry                            1                    291                    292
             Economic Development                             -                      -                      -
           Total Liability for Loan Guarantees   $            2     $            1,256     $            1,258




142
                                 FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Table 7. Schedule for Reconciling Loan Guarantee Liability

                                                                                    FY 2008      FY 2007
 Beginning balance of the loan guarantee liability                                 $   1,255    $   1,293
 Add:Subsidy expense for guaranteed loans disbursed during the year by component
   Interest supplement costs                                                              29           33
   Default costs (net of recoveries)                                                     418          280
   Fees and other collections                                                           (209)        (126)
   Other subsidy costs                                                                     -            -
 Total of the above subsidy expense components                                           238          187

 Adjustments
   Loan guarantee modifications                                                          (90)           -
   Fees received                                                                         169          105
   Interest supplements paid                                                              15          (10)
   Claim payments to lenders                                                             (90)        (107)
   Interest accumulation on the liability balance                                         99          (29)
   Other                                                                                (109)         195
 Ending balance of the subsidy cost allowance before reestimates                       1,487        1,634

 Add or subtract subsidy reestimates by component:
   Interest rate reestimate                                                               34          (64)
   Technical/default reestimate                                                         (189)        (315)
 Total of the above reestimate components                                               (155)        (379)
 Ending balance of the loan guarantee liability                                    $   1,332    $   1,255




                                                                                                            143
            FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
Table 8. Subsidy Expense for Loan Guarantees by Program and Component
        FY 2008
                                                                                                                                                          Total
                                                 Interest          Fees and Other                      Total      Interest Rate Technical    Total      Subsidy
        Loan Guarantee Programs                Supplement Defaults   Collections   Other   Subtotal Modifications Reestimates Reestimates Reestimates   Expense
          Farm                                  $      15  $ 49     $         (18)  $ -     $ 46     $         -    $        3  $    (52)  $     (49)   $     (3)
          Export                                         -    58              (10)    -        48              -            (5)      (38)        (43)           5
          Food Aid                                       -      -               -     -         -              -             -          -          -            -
          Housing                                      14    228            (146)     -        96              -            (1)      (10)        (11)         85
          Electric                                       -      -               -     -         -              -             -          -          -            -
          Telecommunications                             -      -               -     -         -              -             -          -          -            -
          Water and Environmental                        -      -               -     -         -              -             -          -          -            -
          Business and Industry                          -    83              (35)    -        48              -           37        (90)        (53)         (5)
          Economic Development                           -      -               -     -         -              -             -          -          -            -
        Total Loan Guarantee Subsidy Expense    $      29  $ 418    $       (209)  $ -      $ 238    $         -    $      34   $   (190)  $    (156)   $     82


        FY 2007
                                                                                                                                                          Total
                                                 Interest          Fees and Other                      Total      Interest Rate Technical    Total      Subsidy
        Loan Guarantee Programs                Supplement Defaults   Collections   Other   Subtotal Modifications Reestimates Reestimates Reestimates   Expense
          Farm                                  $      21  $ 51     $         (17)  $ -     $ 55     $         -    $        -  $    (37)  $     (37)   $     18
          Export                                         -    48               (7)    -        41              -          (95)      (294)       (389)      (348)
          Food Aid                                       -      -               -     -         -              -             -          -          -            -
          Housing                                      12    126              (80)    -        58              -           12        (25)        (13)         45
          Electric                                       -      -               -     -         -              -             -          -          -            -
          Telecommunications                             -      -               -     -         -              -             -          -          -            -
          Water and Environmental                        -      -               -     -         -              -            (1)        1           -            -
          Business and Industry                          -    55              (22)    -        33              -           21         39          60          93
          Economic Development                           -      -               -     -         -              -             -          -          -            -
        Total Loan Guarantee Subsidy Expense    $      33  $ 280    $       (126)  $ -      $ 187    $         -    $     (63)  $   (316)  $    (379)   $ (192)




144
                                                      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Table 9. Guaranteed Loans Disbursed
                                                         FY 2008                          FY 2007
                                                 Principal,    Principal,    Principal, Face      Principal,
                                                Face Value    Guaranteed          Value         Guaranteed
                                                Disbursed      Disbursed       Disbursed         Disbursed
 Loan Guarantee Programs
     Farm                                       $    2,163    $     1,944    $       2,110     $       1,896
     Export                                          1,907          1,909            1,086             1,037
     Food Aid                                            -              -                -                 -
     Housing                                         6,484          5,832            3,643             3,275
     Electric                                            -              -                -                 -
     Telecommunications                                  -              -                -                 -
     Water and Environmental                            40             33                7                 6
     Business and Industry                             780            609              588               459
     Economic Development                                -              -                -                 -
 Total Guaranteed Loans Disbursed               $   11,374    $    10,327    $       7,434     $       6,673




Table 10. Administrative Expenses
                                                                 FY 2008           FY 2007
                  Direct Loan Programs                         $       537       $       527
                  Guaranteed Loan Programs                             293               230
                Total Administrative Expenses                  $       830       $       757




                                                                                                               145
           FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
Table 11. Subsidy Rates for Direct Loans (percentage)
                                                                                     Fees and
               FY 2008                                     Interest                   Other
                                                          Differential   Defaults   Collections    Other     Total
             Direct Loan Programs
               Farm Operating                                  (1.11)      13.94            -       (0.14)   12.69
               Indian Land Acquisition                          2.83        0.31            -         -       3.14
               Emergency Disaster                               6.72        5.24            -       (0.82)   11.14
               Boll Weevil Eradication                         (2.00)       1.45            -        0.28    (0.27)
               Farm Ownership                                  (6.72)      11.00            -        0.17     4.45
               Farm Storage Facility Loan Program               0.02        1.10          (0.11)      -       1.01
               Sugar Storage Facility Loan Program              0.36        0.62            -         -       0.98
               Community Facility Loans                         5.40        0.73            -       (0.58)    5.55
               Water and Waste Disposal Loans                   7.03        0.09            -       (0.31)    6.81
               Distance Learning and Telemedicine Loans          -          2.15            -       (0.01)    2.14
               Broadband Treasury Loans                          -          2.17            -       (0.02)    2.15
               Electric Hardship Loans                         (0.03)       0.96            -       (0.81)    0.12
               FFB Electric Loans                              (1.37)       0.67            -         -      (0.70)
               Telecommunication Hardship Loans                (0.96)       1.00            -        0.04     0.08
               FFB Telecommunications Loans                    (0.01)       0.85            -       (0.22)    0.62
               Treasury Telecommunication Loans                  -          0.64            -        0.03     0.67
               Single-Family Housing Credit Sales             (15.38)       7.85            -        6.38    (1.15)
               Multi-Family Housing Credit Sales              (17.41)       5.41            -       49.15    37.15
               Section 502 Single-Family Housing              (13.44)       5.73            -       17.09     9.38
               Section 504 Housing Repair                      29.14        0.94            -       (1.81)   28.27
               Section 515 Multi-Family Housing               (17.92)       1.13            -       59.39    42.60
               Section 523 Self-Help Site Development           2.84         -              -         -       2.84
               Section 524 Site Development                    (1.71)       0.92            -         -      (0.79)
               Section 514 Farm Labor Housing                  44.45        8.93            -      (10.11)   43.27
               Multi-Family Housing Relending Program          46.39         -              -         -      46.39
               Intermediary Relending Program                  43.53         -              -       (0.64)   42.89
               Rural Economic Development Loans                23.15        0.21            -       (0.77)   22.59




146
                                 FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                                            Fees and
              FY 2007                                         Interest                       Other
                                                             Differential      Defaults    Collections    Other       Total
            Direct Loan Programs
              Farm Operating                                       1.02          10.49             -        0.18      11.69
              Indian Land Acquisition                              5.49          15.66             -         -        21.15
              Emergency Disaster                                  12.38           0.08             -       (0.69)     11.77
              Boll Weevil Eradication                              2.85          (0.95)            -         -         1.90
              Farm Ownership                                       3.88           0.43             -       (0.12)      4.19
              Farm Storage Facility Loan Program                   0.03           7.27           (0.11)    (6.81)      0.38
              Sugar Storage Facility Loan Program                  0.63           7.40             -      (10.74)     (2.71)
              Community Facility Loans                             7.04           0.18             -       (0.81)      6.41
              Water and Waste Disposal Loans                      10.31           0.09             -       (0.44)      9.96
              Distance Learning and Telemedicine Loans            (0.72)          1.35             -         -         0.63
              Broadband Treasury Loans                              -             2.19             -       (0.04)      2.15
              Electric Hardship Loans                              2.25            -               -       (0.11)      2.14
              Municipal Electric Loans                             1.26            -               -        0.25       1.51
              FFB Electric Loans                                  (1.21)          0.02             -         -        (1.19)
              Telecommunication Hardship Loans                     0.36           0.01             -         -         0.37
              FFB Telecommunications Loans                        (1.21)          0.02             -       (0.30)     (1.49)
              Treasury Telecommunication Loans                      -             0.03             -         -         0.03
              FFB Guaranteed Underwriting                         (1.24)          0.80             -         -        (0.44)
              Single-Family Housing Credit Sales                 (16.88)          9.56             -        7.80       0.48
              Multi-Family Housing Credit Sales                  (19.19)          0.11             -       64.41      45.33
              Section 502 Single-Family Housing                  (14.99)          5.37             -       19.65      10.03
              Section 504 Housing Repair                          30.08           1.47             -       (2.00)     29.55
              Section 515 Multi-Family Housing                   (18.32)          0.07             -       63.92      45.67
              Section 523 Self-Help Site Development               2.47            -               -         -         2.47
              Section 524 Site Development                        (2.59)          0.93             -         -        (1.66)
              Section 514 Farm Labor Housing                      45.52           0.21             -        2.22      47.95
              Multi-Family Housing Relending Program              47.81            -               -        0.01      47.82
              Intermediary Relending Program                      44.93            -               -       (0.86)     44.07
              Rural Economic Development Loans                    23.45           0.18             -       (1.79)     21.84


Table 12. Subsidy Rates for Loan Guarantees (percentage)
                                                                                          Fees and
          FY 2008                                      Interest                             Other
                                                      Differential          Defaults      Collections      Other              Total
     Guaranteed Loan Programs
       CCC Export Loan Guarantee Program                      -                  7.08           (4.74)            -              2.34
       Farm Operating—Unsubsidized                            -                  3.32           (0.90)            -              2.42
       Farm Operating—Subsidized                            11.05                2.29             -               -             13.34
       Farm Ownership—Unsubsidized                            -                  1.28           (0.88)            -              0.40
       Business and Industry Loans                            -                  7.33           (3.01)            -              4.32
       Guaranteed Business & Industry NadBank Loans           -                 10.84           (3.14)            -              7.70
       Community Facility Loans                               -                  4.54           (0.86)            -              3.68
       Water and Waste Disposal Loans                         -                   -             (0.82)            -             (0.82)
       Section 502 Single-Family Housing Purchase             -                  3.20           (2.00)            -              1.20
       Section 502 Single-Family Housing Refinance            -                  1.31           (0.50)            -              0.81
       538 Multi-Family Housing-Subsidized                  16.91                0.42           (7.94)            -              9.39
       Renewable Energy                                       -                 11.97           (2.28)            -              9.69




                                                                                                                                         147
           FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
                                                                                 Fees and
           FY 2007                                     Interest                    Other
                                                      Differential   Defaults    Collections    Other   Total
      Guaranteed Loan Programs
        CCC Export Loan Guarantee Program                     -           9.28         (1.35)       -      7.93
        Farm Operating—Unsubsidized                           -           3.37         (0.90)       -      2.47
        Farm Operating—Subsidized                            7.59         2.48           -          -     10.07
        Farm Ownership—Unsubsidized                           -           1.48         (0.90)       -      0.58
        Community Facility Loans                              -           4.52         (0.86)       -      3.66
        Water and Waste Disposal Loans                        -            -           (0.90)       -     (0.90)
        Section 502 Single-Family Housing Purchase            -           3.21         (2.00)       -      1.21
        Section 502 Single-Family Housing Refinance           -           1.00         (0.50)       -      0.50
        538 Multi-Family Housing-Subsidized                 14.59         0.50         (7.35)       -      7.74
        Renewable Energy                                      -           8.03         (1.54)       -      6.49




NOTE 8. INVENTORY AND RELATED PROPERTY, NET
Commodity inventory is restricted for the purpose of alleviating distress caused by natural disasters, providing
emergency food assistance in developing countries and providing price support and stabilization. Commodity loan
forfeitures during the fiscal years ended September 30, 2008 and 2007 were $8 million and $77 million,
respectively.




148
                                   FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                      FY 2008                         FY 2007
Inventories                                                     $      -                        $       1

                                               Volume                          Volume
Commodities:
                                            (in millions)       Amount      (in millions)       Amount
  Corn (In Bushels):
   On hand at the beginning of the year                1              2                1               2
   Acquired during the year                            3             25                4              12
   Disposed of during the year
      Sales                                             -              -               (4)            (12)
      Donations                                        (3)           (25)               -               -
      Other                                            (1)            (2)               -               -
   On hand at the end of the year                       -              -                1               2

  Wheat (In Bushels):
   On hand at the beginning of the year               39            144               43             159
   Acquired during the year                           29            295               35             182
   Disposed of during the year
      Sales                                          (56)           (124)            (30)           (179)
      Donations                                       (6)           (295)             (7)            (12)
      Other                                           (6)            (20)             (2)             (6)
   On hand at the end of the year                      -               -              39             144

  Nonfat Dry Milk (In Pounds):
   On hand at the beginning of the year               14             13               49              40
   Acquired during the year                            -              -                -               -
   Disposed of during the year
      Sales                                           (1)             (1)             (1)              (1)
      Donations                                      (11)            (11)            (34)             (36)
      Other                                           (2)             (1)              -               10
   On hand at the end of the year                      -               -              14               13

  Other:
    On hand at the beginning of the year                             25                                24
    Acquired during the year                                        879                             5,274
    Disposed of during the year
        Sales                                                         (1)                         (5,223)
        Donations                                                   (888)                            (46)
        Other                                                          -                              (4)
    On hand at the end of the year                                    15                              25
Allowance for losses                                                   -                               -
Total Commodities                                                     15                             184
Total Inventory and Related Property, Net                       $     15                        $    185




                                                                                                             149
FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
NOTE 9. GENERAL PROPERTY, PLANT, AND EQUIPMENT, NET
           FY 2008                                        Useful                                          Net
                                                           Life                      Accumulated         Book
              Category                                   (Years)          Cost       Depreciation        Value

           Land and Land Rights                                       $         76   $          -    $         76
           Improvements to Land                          10 - 50               697           (588)            109
           Construction-in-Progress                                            982              -             982
           Buildings, Improvements and Renovations       15 - 30             1,936         (1,214)            722
           Other Structures and Facilities               15 - 50             1,728         (1,296)            432
           Equipment                                      5 - 20             1,650         (1,325)            325
           Assets Under Capital Lease                     3 - 20               143            (78)             65
           Leasehold Improvements                           10                  66            (42)             24
           Internal-Use Software                          5-8                  560           (376)            184
           Internal-Use Software in Development                                 51             (1)             50
           Other General Property, Plant and Equipment   5 - 15                  4              -               4
               Total                                                  $      7,893   $     (4,920)   $      2,973


           FY 2007                                        Useful                                          Net
                                                           Life                      Accumulated         Book
              Category                                   (Years)          Cost       Depreciation        Value

           Land and Land Rights                                       $        77    $          -    $         77
           Improvements to Land                          10 - 50            5,028          (2,823)          2,205
           Construction-in-Progress                                           884               -             884
           Buildings, Improvements and Renovations       15 - 30            1,903          (1,161)            742
           Other Structures and Facilities               15 - 50            1,685          (1,248)            437
           Equipment                                      5 - 20            1,687          (1,359)            328
           Assets Under Capital Lease                     3 - 20               70             (34)             36
           Leasehold Improvements                           10                 63             (38)             25
           Internal-Use Software                          5-8                 482            (311)            171
           Internal-Use Software in Development                                23              (1)             22
           Other General Property, Plant and Equipment   5 - 15                 4               -               4
               Total                                                  $    11,906    $     (6,975)   $      4,931




NOTE 10. STEWARDSHIP PP&E
Stewardship PP&E consist of assets whose physical properties resemble those of General PP&E that are
traditionally capitalized in the financial statements. Due to the nature of these assets however, valuation would be
difficult and matching costs with specific periods would not be meaningful. Stewardship PP&E include heritage
assets and stewardship land.
Heritage Assets
Heritage assets are unique and are generally expected to be preserved indefinitely. Heritage assets may be unique
because they have historical or natural significance, are of cultural, educational or artistic importance, or have
significant architectural characteristics. The assets are reported in terms of physical units rather than cost, fair
value, or other monetary values. No amounts are shown on the balance sheet for heritage assets, except for multi-
use heritage assets in which the predominant use of the asset is in general government operations. The costs of
acquisition, betterment, or reconstruction of multi-use heritage assets is capitalized as general PP&E and
depreciated. The costs of acquiring, constructing, improving, reconstructing, or renovating heritage assets, other
than multi-use is considered an expense in the period incurred when determining the net cost of operations.
Heritage assets consist of collection type, such as objects gathered and maintained for exhibition, for example
library collections; and non-collection-type, such as memorials, monuments and buildings.
National Forests, National Grasslands and Other Sites—FS manages its heritage assets by site. Some of these assets are
listed on the National Register of Historic Places, and some are designated as National Historic Landmarks.
Collection type assets held at museums and universities are managed by those entities. Heritage assets include


150
                                      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
historic structures consciously created to serve some human purpose, such as buildings, monuments, logging and
mining camps and ruins. Heritage assets designated as National Historic Landmarks include buildings or
structures that possess exceptional value in commemorating or illustrating the history of the U.S., and exceptional
value or quality in illustrating and interpreting the heritage of the U.S. Heritage assets listed on the National
Register of Historic Places include properties, buildings and structures that are significant in U.S. history,
architecture and archaeology and in the cultural foundation of the Nation.
Research Centers—ARS conducts research at 36 research centers nationwide to develop and transfer solutions to
agricultural problems of high national priority and provides information access and dissemination to ensure high-
quality, safe food and other agricultural products; assess the nutritional needs of Americans; sustain a competitive
agricultural economy; enhance the natural resource base and the environment; and provide economic opportunities
for rural citizens, communities, and society as a whole. NRCS owns one research center, the Tucson Plant
Material Center (TPMC). The TPMC develops and evaluates native plants and addresses an array of resource
issues in the areas of rangeland, mined land, urban lands, cropland riparian areas and desert lands. Research centers
are considered heritage assets because one or more buildings or structures at these centers is on the National
Register of Historic Places or have been identified as eligible for inclusion on the National Register.
Library Collections—The National Agricultural Library (NAL) as a whole is the largest collection of materials devoted
to agriculture in the world. The collections are in constant use to support the research activities of USDA,
departmental operations and to answer citizen inquiries. NAL houses and provides access to millions of books and
periodicals. The overwhelming number of these items were published more than 25 years ago and almost all of
them are out-of-print and unavailable for purchase. By statute, NAL is the primary depository of publications and
information concerning the research and other activities of USDA. Included in the collection are government
documents and many items that are unique and irreplaceable. NAL collects, preserves and provides access to
manuscripts, rare books, photographs, posters, oral histories and other unique materials. Collection concentrations
include the fields of agriculture, horticulture, entomology, poultry sciences, botany, natural history and agricultural
history. Although focused primarily on American agriculture and related sciences, NAL holds numerous items of
international origin.
Stewardship Land
Stewardship land is land and land rights not acquired for or in connection with items of general PP&E. Land is
defined as the solid surface of the earth, excluding natural resources. Stewardship land is valued for its
environmental resources, recreational and scenic value, cultural and paleontological resources, vast open spaces, and
resource commodities and revenue provided to the Federal government, states, and counties. These assets are
reported in terms of physical units rather than cost, fair value, or other monetary values. No asset amount is shown
on the balance sheet for stewardship land. The acquisition cost of stewardship land is considered an expense in the
period acquired when determining the net cost of operations. Stewardship land consists primarily of the national
forests and grasslands owned by the FS and conservation easements purchased by NRCS.
National Forests—National forests are formally established and permanently set aside and reserved for national forest
purposes, including National Wilderness, National Primitive, National Wild and Scenic River, National
Recreation, National Scenic Research, National Game Refuges and Wildlife Preserve, and National Monument
areas.
National Grasslands—National grasslands are designated by the Secretary of Agriculture and permanently held by the
USDA under Title III of the Bankhead-Jones Farm Tenant Act.
Research and Experimental Areas—Research and experimental areas are reserved and dedicated by the Secretary of
Agriculture for forest and range research experimentation. Areas reported are located outside the exterior
boundaries of a national forest or national grassland.



                                                                                                                   151
           FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
National Preserves and Other Areas—National preserves are units established to protect and preserve scientific, scenic,
geologic, watershed, fish, wildlife, historic, cultural and recreational values; and provide for multiple use and
sustained yield of its renewable resources. Other areas include areas administered by the FS that are not included in
one of the above groups.
Conservation Easements—NRCS provides landowners financial and technical assistance in return for maintaining and
improving high quality productive soils, clean and abundant water, healthy plant and animal communities, clean air,
an adequate energy supply, and working farm and ranch land. NRCS acquires conservation easements on private
lands through the Wetlands Reserve, Grassland Reserve, Emergency Wetlands Reserve and Watershed Protection,
Farm and Ranch Land Protection, and Healthy Forest Reserve programs. For the purpose of stewardship asset
reporting in the financial statements, all easements where NRCS is named as grantee on the easement deed are
included as a stewardship asset when the easement deed is signed by the grantor. Also included are easements
where NRCS is not specifically named as grantee but has contributed to the purchase of a conservation easement
under cooperative agreement and the agency has assumed the management responsibility of the easement due to
non-compliance by the cooperator under the terms of the agreement.

                                                      FY 2008
  Heritage Assets
    National Forests                                            155
    National Grasslands                                          20
    Other Sites                                                  22
    Research Centers                                             37
    Library Collections                                           1
  Total                                                         235

  Stewardship Land
    National Forests                                             155
    National Grasslands                                           20
    Research and Experimental Areas                                3
    National Preserves and Other Areas                             3
    Conservation Easements                                    10,431
  Total                                                       10,612



NOTE 11. OTHER ASSETS
In fiscal 2008 and 2007, other assets include investments in trust for loan asset sales of $35 million and $34 million,
respectively.
                                                               FY 2008            FY 2007
                        Intragovernmental:
                          Advances to Others              $              5    $             -

                        With the Public:
                          Advances to Others                           216              114
                          Prepayments                                    -                -
                          Other Assets                                  37               37
                        Total Other Assets                $            258    $         151




152
                              FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
NOTE 12. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES
In fiscal 2008 and 2007, other intragovernmental liabilities not covered by budgetary resources include accruals for
Federal Employee Compensation Act (FECA) of $164 million and $162 million, respectively, and contract
disputes claims payable to Treasury’s Judgment Fund of $17 million and $15 million, respectively.
In fiscal 2008 and 2007, other liabilities with the public not covered by budgetary resources include, Tobacco
Transition Payment Program of $5,302 million and $5,380 million, accruals for rental payments under the
Conservation Reserve Program (CRP) of $1,776 million and $1,810 million, unfunded leave of $616 million and
$592 million, Payments to States $531 million and $394 million, and contingent liabilities of $29 million and $48
million, respectively. In fiscal 2008, RMA reported a liability in the amount of $2,145 million for future funded
indemnity costs.
                                                                            FY 2008              FY 2007
       Intragovernmental:
          Other                                                         $         190        $         178
       Subtotal Intragovernmental                                                 190                  178
       With the Public:
        Federal employee and veterans' benefits                                   832                  775
          Environmental and disposal liabilities                                      18               105
         Other                                                                 10,410                8,222
       Subtotal With the Public                                                11,260                9,102

       Total liabilities not covered by budgetary resources                    11,450                9,280

       Total liabilities covered by budgetary resources                       109,522              105,501

       Total Liabilities                                                $     120,972        $     114,781




                                                                                                                 153
           FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
NOTE 13. DEBT
                                                            Beginning                             Ending
          FY 2008
                                                             Balance        Net Borrowing         Balance
          Intragovernmental
            Debt to the Treasury                        $       49,197      $      2,004      $      51,201
            Debt to the Federal Financing Bank                  25,904               472             26,376
          Total Intragovernmental                               75,101             2,476             77,577

          Agency Debt:
            Held by the Public                                          -               -                   -

          Total Debt                                    $       75,101      $      2,476      $      77,577


                                                            Beginning                             Ending
          FY 2007
                                                             Balance        Net Borrowing         Balance
          Intragovernmental
            Debt to the Treasury                        $       58,187      $     (8,990)     $      49,197
            Debt to the Federal Financing Bank                  25,260               644             25,904
          Total Intragovernmental                               83,447            (8,346)            75,101

          Agency Debt:
            Held by the Public                                          -               -                   -

          Total Debt                                    $       83,447      $     (8,346)     $      75,101




NOTE 14. ENVIRONMENTAL AND DISPOSAL LIABILITIES
The Department is subject to the Comprehensive Environmental Response, Compensation, and Liability Act, the
Clean Water Act, and the Resource Conservation and Recovery Act for cleanup of hazardous waste. In FY 2008,
the FS and CCC estimate the liability for total cleanup costs for sites known to contain hazardous waste to be $18
million and $7 million respectively, $97 million for FS and $8 million for CCC in FY 2007, based on actual
cleanup costs at similar sites. These estimates will change as new sites are discovered, remedy standards change and
new technology is introduced.
NOTE 15. OTHER LIABILITIES
In fiscal 2008, other liabilities with the public include estimated losses on crop insurance claims of $3,881 million,
estimated underwriting gains on crop insurance of $2,491 million, crop insurance premium subsidy deficiency
reserve of $887 million, Payments to States of $531 million, estimated program delivery cost to reinsurer of $31
million, loans paid in advance for multi-family housing of $20 million, and credit reform programs of $10 million.
In fiscal 2007, other liabilities with the public include estimated losses on crop insurance claims of $2,579 million,
estimated underwriting gains on crop insurance of $1,509 million, crop insurance premium subsidy deficiency
reserve of $565 million, Payments to States of $394 million, credit reform programs of $12 million, undistributed
credits for insured loans of $11 million and estimated program delivery cost to reinsurer of $9 million.




154
                                 FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
  FY 2008                                                    Non-Current       Current         Total
  Intragovernmental:
    Other Accrued Liabilities                            $           17    $      126    $      143
    Employer Contributions and Payroll Taxes                          -            75            75
    Unfunded FECA Liability                                           -           164           164
    Advances from Others                                              -            12            12
    Liability for Deposit Funds, Clearing Accounts                    -           (15)          (15)
    Liability for Subsidy Related to Undisbursed Loans                -           525           525
    Resources Payable to Treasury                                     -        12,702        12,702
    Custodial Liability                                               -            72            72
    Other Liabilities                                                 -             -             -
  Subtotal Intragovernmental                                         17        13,661        13,678

  With the Public:
    Other Accrued Liabilities                                         -        14,070        14,070
    Accrued Funded Payroll and Leave                                  -           201           201
    Unfunded Leave                                                    -           616           616
    Advances from Others                                              -            52            52
    Deferred Credits                                                  -           645           645
    Liability for Deposit Funds, Clearing Accounts                    -           285           285
    Contingent Liabilities                                           14           115           129
    Capital Lease Liability                                          28            37            65
    Custodial Liability                                               -             2             2
    Other Liabilities                                                20         7,823         7,843
  Subtotal With the Public                                           62        23,846        23,908

  Total Other Liabilities                                $           79    $   37,507    $   37,586


  FY 2007                                                    Non-Current       Current         Total
  Intragovernmental:
    Other Accrued Liabilities                            $           15    $      550    $      565
    Employer Contributions and Payroll Taxes                          -            45            45
    Unfunded FECA Liability                                           -           162           162
    Advances from Others                                              -            35            35
    Liability for Deposit Funds, Clearing Accounts                    -           (29)          (29)
    Liability for Subsidy Related to Undisbursed Loans                -             -             -
    Resources Payable to Treasury                                     -        12,921        12,921
    Custodial Liability                                               -            54            54
  Subtotal Intragovernmental                                         15        13,738        13,753

  With the Public:
    Other Accrued Liabilities                                         -        13,644        13,644
    Accrued Funded Payroll and Leave                                  -            44            44
    Unfunded Leave                                                    -           550           550
    Other Unfunded Employment Related Liability                       -            41            41
    Advances from Others                                              -            63            63
    Deferred Credits                                                  -           406           406
    Liability for Deposit Funds, Clearing Accounts                    -           205           205
    Contingent Liabilities                                           11            37            48
    Capital Lease Liability                                          32             4            36
    Custodial Liability                                               -             2             2
    Other Liabilities                                                20         5,058         5,078
  Subtotal With the Public                                           63        20,054        20,117

  Total Other Liabilities                                $           78    $   33,792    $   33,870




                                                                                                       155
FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
NOTE 16. LEASES
USDA activities based in the Washington D.C. area are located in General Services Administration (GSA) leased
facilities, and USDA owned buildings. The USDA Headquarter complex (Whitten Building, South Building and
Cotton Annex) is a government owned facility, which is part of the GSA Federal Buildings Inventory. As the result
of a 1998 Agreement between GSA and USDA, a moratorium was placed on the rental billings for the
Headquarters complex beginning in FY 1999.
At current market rate, the estimated yearly rental payment for the above mentioned space would be $51 million.
This agreement is still in effect and as a result, USDA activities located in the Headquarter complex are not billed
for rental costs.
Effective September 30, 2007, the Department released the Cotton Annex to GSA and no longer occupies the
building.

      FY 2008
      Capital Leases:
        Summary of Assets Under Capital Leases
          Land and Building                                $          142
          Machinery and Equipment                                       1
          Accumulated Amortization                                    (78)

        Future Payments Due:
                                                                                  Machinery &
                                                           Land & Buildings                             Other       Totals
                                                                                  Equipment
          Fiscal Year
          2009                                                         22                       -               -             22
          2010                                                         20                       -               -             20
          2011                                                         19                       -               -             19
          2012                                                         16                       -               -             16
          2013                                                         13                       -               -             13
          After 5 Years                                                57                       -               -             57
      Total Future Lease Payments                                     147                       -               -            147
      Less: Imputed Interest                                           48                       -               -             48
      Less: Executory Costs                                            19                       -               -             19
      Less: Lease Renewal Options                                      15                       -               -             15
      Net Capital Lease Liability                                      65                       -   $           -             65

      Lease liabilities covered by budgetary resources                 65

      Operating Leases:
       Future Payments Due:
                                                                                  Machinery &
                                                           Land & Buildings                             Other       Totals
          Fiscal Year                                                             Equipment
          2009                                                        106                       1               -            107
          2010                                                         94                       1               -             95
          2011                                                         84                       -               -             84
          2012                                                         73                       -               -             73
          2013                                                         63                       -               -             63
          After 5 Years                                               426                       -               -            426
        Total Future Lease Payments                        $          846     $                 2   $           -   $        848




156
                                          FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
 FY 2007
 Capital Leases:
   Summary of Assets Under Capital Leases
     Land and Building                              $            68
     Machinery and Equipment                                      2
     Accumulated Amortization                                   (34)

   Future Payments Due:
                                                                           Machinery &
                                                    Land & Buildings                             Other       Totals
                                                                           Equipment
     Fiscal Year
     2008                                                       11                       -               -             11
     2009                                                       10                       -               -             10
     2010                                                       10                       -               -             10
     2011                                                       10                       -               -             10
     2012                                                       10                       -               -             10
     After 5 Years                                              65                       -               -             65
 Total Future Lease Payments                                   116                       -               -            116
 Less: Imputed Interest                                         55                       -               -             55
 Less: Executory Costs                                          25                       -               -             25
 Less: Lease Renewal Options                                     -                       -               -              -
 Net Capital Lease Liability                                    36                       -   $           -             36

 Lease liabilities covered by budgetary resources               36

 Operating Leases:
  Future Payments Due:
                                                                           Machinery &
                                                    Land & Buildings                             Other       Totals
     Fiscal Year                                                           Equipment
     2008                                                       82                       1               -             83
     2009                                                       73                       -               -             73
     2010                                                       68                       -               -             68
     2011                                                       62                       -               -             62
     2012                                                       56                       -               -             56
     After 5 Years                                             441                       1               -            442
   Total Future Lease Payments                      $          782     $                 2   $           -   $        784



NOTE 17. COMMITMENTS AND CONTINGENCIES
The Department is subject to various claims and contingencies related to lawsuits as well as commitments under
contractual and other commercial obligations.
For cases in which payment has been deemed probable and for which the amount of potential liability has been
estimated, $129 million and $48 million has been accrued in the financial statements as of September 30, 2008 and
2007, respectively.
No amounts have been accrued in the financial statements for claims where the amount is uncertain or where the
probability of judgment against USDA is remote. The Department’s potential liability for claims where a judgment
against the Department is reasonably possible ranges from $50 million to $260 million as of September 30, 2008,
compared to $2,867 million to $2,969 million as of September 30, 2007.
CRP rental payments are estimated to be $1,900 million annually through FY 2016. Commitments to extend loan
guarantees are estimated to be $3,846 million and $2,719 million in fiscal 2008 and 2007, respectively.
NOTE 18. EARMARKED FUNDS
Earmarked funds are financed by specifically identified revenues, often supplemented by other financing sources,
which remain available over time. These specifically identified revenues and other financing sources are required by
statute to be used for designated activities, benefits or purposes and must be accounted for separately from the
Government’s general revenues.


                                                                                                                        157
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
Financial information for all significant earmarked funds follows the descriptions of each fund’s purpose shown
below.
Risk Management Agency
Federal Crop Insurance Corporation Fund (FCIC)
Resources for the FCIC Fund includes funds collected from the public for insurance premiums and other insurance
related fees that are used with appropriations from Congress and unobligated balances from previous years to fund
the Federal Crop Insurance Program. Funds are available under 7 U.S.C. 1501-1519.
Agricultural Marketing Service
Funds for Strengthening Markets, Income, and Supply
This fund is used to purchase commodities for schools and elderly feeding programs, to provide goods and other
necessities in emergencies and disasters, and to purchase agricultural commodities to stabilize markets. The fund is
permanently financed by statutory transfer of an amount equal to 30 percent of customs receipts collected during
each calendar year and is automatically appropriated for expanding outlets for perishable, non-price supported
commodities. An amount equal to 30 percent of receipts collected on fishery products is transferred to the Food
and Nutrition Service and is used to purchase commodities under section 6 of the National School Lunch Act and
other authorities specified in the child nutrition appropriation. Funds are available under section 32 of the Act of
August 24, 1935, as amended (7 U.S.C. 612c).
Expenses and Refunds, Inspection and Grading of Farm Products
The commodity grading programs provide grading, examination, and certification services for a wide variety of
fresh and processed food commodities using federally approved grade standards and purchase specifications. This
fund is financed by the collection of fees charged to producers of various food commodities who request, on a
voluntary basis, inspection and grading of agricultural food commodities. This program is authorized by the
Agricultural Marketing Act of 1946 (7 U.S.C. 1621-1627).
Animal Plant Health Inspection Service
Agricultural Quarantine Inspection User Fee Account
This fund is used to record and report expenditures and revenue associated with operating Agricultural Quarantine
Inspection (AQI) activities at ports of entry. The Farm Bill of 1990, as amended by the Federal Agriculture
Improvement and Reform Act of 1996, gave the Animal and Plant Health Inspection Service (APHIS) the
authority to charge user fees for AQI services, and to use the revenue to fund AQI activities. In March of 2003, a
portion of the AQI program was transferred to the Department of Homeland Security (DHS); however, APHIS
retained the authority to collect AQI revenue. APHIS transfers a portion of the revenue to DHS periodically
throughout the year to fund their expenditures. The revenue in the fund is collected from airlines, air passengers,
vessels, trucks, and railroad cars that are subject to AQI inspection at ports of entry. These user fees are an inflow
of revenue from the public that is used to fund AQI inspections that are required by APHIS and DHS. The
authority is codified in 21 U.S.C. 136(a).
Forest Service
Cooperative Work
Cooperative contributions are deposited for disbursement in compliance with the terms and provisions of the
agreement between the cooperator and the Forest Service. Cooperators include timber purchasers, not-for-profit
organizations, and local hunting and fishing clubs. The governing authorities are the Act of June 30, 1914 (16
U.S.C. 498), and the Knutson-Vandenberg Act.




158
                                  FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Land Acquisition
Each fiscal year this fund receives a transfer of recreation user fees from the Department of the Interior’s Land and
Water Conservation Fund, to be used for the acquisition of land or waters, or interest therein, including
administrative expenses, to carry out the provisions of the Land and Water Conservation Fund Act of 1965, as
amended (16 U.S.C. 460l-4-11), pertaining to the preservation of watersheds. The Land Acquisition program is
authorized by the Interior and Related Agencies Appropriations Act of December 30, 1982 (96 Stat. 1983, Public
Law 97-394).
Payments to States, National Forest Fund
The Payments to States, National Forest Fund receives receipts from the National Forest Fund. These monies are
generated from the sale of goods and services at the national forests. Annually, revenue-sharing payments are made
to the States in which the national forests are located, for public schools and public roads in the county or counties
in which the national forests are situated. The Act of May 23, 1908, as amended (16 U.S.C. 500), authorized the
Payments to States, National Forest Fund program.
Timber Salvage Sales
The Timber Salvage Sale Fund was established to facilitate the timely removal of timber damaged by fire, wind,
insects, disease, or other events. Amounts collected from the sale of salvaged timber are used on other qualifying
salvage sales to cover the cost of preparing and administering the sales. The Timber Salvage Sales program is
authorized by 16 USC 472(a).
State, Private, and International Forestry Land and Water Conservation Fund
The Fiscal Year 2004 Department of the Interior and Related Agencies Appropriation Act (Public Law 108-108)
authorizes the Forest Service to receive a transfer of receipts from the Department of the Interior’s Land and Water
Conservation Fund to finance the existing Forest Legacy Program, funded previously by State and Private Forestry
general appropriation. To accommodate the new financing arrangement and at OMB’s request, the U.S.
Department of Treasury established a new special fund, “State, Private and International Forestry Land and Water
Conservation Fund”. The program expenditures include grants and an occasional land purchase, but no real
property will be procured or constructed.
Recreation Fee Demonstration Program
The Recreation Fee Demonstration Program fund receives deposits of recreation fees collected from projects that
are part of the Recreation Fee Demonstration Program. These monies are retained and used for backlog repair and
maintenance of recreation areas, sites or projects. These funds are also used for interpretation, signage, habitat or
facility enhancement, resource preservation, annual operation, maintenance, and law enforcement related to public
use of recreation areas and sites. The Recreation Fee Demonstration Program is authorized by 16 U.S.C. 4601-
6(a).
National Forest Fund Receipts
The Federal Lands Recreation Enhancement Act (FLREA) (Public Law 108-447) sets forth provisions for
collection of recreation fees and retention of special recreation permit fees by the FS. The FS deposits 85 percent
of special use permit revenues from these authorizations into the National Forest Fund.
Restoration of Forest Lands and Improvements
The Restoration of Forest Lands and Improvements Acts (16 U.S.C. 579(c)) provides that any moneys received by
the United States with respect to lands under the administration of the Forest Service (a) as a result of the forfeiture
of a bond or deposit by a permittee or timber purchaser for failure to complete performance of improvement,
protection, or rehabilitation work required under the permit or timber sale contract or (b) as a result of a judgment,
compromise, or settlement of any claim, involving present or potential damage to lands or improvements, shall be


                                                                                                                   159
            FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
deposited into the United States Treasury and are appropriated and made available until expended to cover the cost
to the United States of any improvement, protection, or rehabilitation work on lands under the administration of
the Forest Service rendered necessary by the action which led to the forfeiture, judgment, compromise, or
settlement: Provided, that any portion of the moneys received in excess of the amount expended in performing the
work necessitated by the action which led to their receipt shall be transferred to miscellaneous receipts.
Acquisition of Lands to Complete Land Exchanges
As authorized by 7 statutes, this program is funded annually by congressional appropriation action, with forest
revenues generated by the occupancy of public land or from the sale of natural resources other than minerals. All
funds appropriated that remain unobligated at the end of the fiscal year are returned to the receipts of the affected
national forests. These funds are used to purchase land and for related expenditures such as title search, escrow,
recording, and personnel costs when the purchase is considered necessary to minimize soil erosion and flood
damage. This appropriation is available for land acquisition within the exterior boundaries of the national forests.
Cooperative State Research Education and Extension Service
Native American Institutions Endowment Fund
The Native American Institutions Endowment Fund is authorized by Public Law 103-382 (7 U.S.C. 301 note).
This program provides for an endowment for the 1994 land-grant institutions (31 Tribally controlled colleges) to
strengthen the infrastructure of these institutions and develop Indian expertise for the food and agricultural sciences
and businesses and their own communities. At the termination of each fiscal year, the Secretary shall withdraw the
income from the endowment fund for the fiscal year, and after making adjustments for the cost of administering
the fund, distribute the adjusted income on a formula basis to the 1994 land-grant institutions.
Farm Service Agency
Agricultural Disaster Relief Trust Fund
The Agricultural Disaster Relief Trust Fund shall make amounts available for the purpose of expenditures to meet
the obligations of the United States incurred under section 901 or section 531 of the Federal Crop Insurance Act.
The trust fund will be used to make payments to farmers and ranchers under five disaster assistance programs: (1)
Supplemental Revenue Assistance Payments (SURE) Program, (2) Livestock Feed Program (LFP), (3) Livestock
Indemnity Program (LIP), (4) Tree Assistance Program (TAP), and (5) Emergency Assistance for Livestock,
Honey Bees, and Farm-Raised Fish Program (ELAP). The fund has appropriated an amount equivalent to 3.08
percent of the amounts received in the general fund of the Treasury of the United States during fiscal years 2008
through 20011 attributable to the duties collected on articles entered, or withdrawn from warehouse, for
consumption under the Harmonized Tariff Schedule of the United States.
Other
Financial information is summarized for all other earmarked funds with total assets less than $50 million listed
below.
Agricultural Marketing Service
Perishable Agricultural Commodities Act
Animal Plant Health Inspection Service
Miscellaneous Contributed Funds
Forest Service
Roads and Trails for States, National Forest Fund
Reforestation Trust Fund


 160
                                    FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Payments to Counties, National Grasslands
Timber Sales Pipeline Restoration Fund
Operation and Maintenance of Forest Service Quarters
Timber Roads, Purchaser Elections
Expenses, Brush Disposal
Range Betterment Fund
Acquisition of Lands for National Forests, Special Acts
Construction of Facilities or Land Acquisition
Recreation Fees for Collection Costs
Payment to Minnesota (Cook, Lake and Saint Louis Counties)
Licensee Program
Tongass Timber Supply Fund
Resource Management Timber Receipts
Quinault Special Management Area
MNP Rental Fee Account
Midewin National Tallgrass Prairie Restoration Fund
Land Between the Lakes Management Fund
Administration of Rights-of-Way and Other Land Uses Fund
Valles Caldera Fund
Hardwood Technology Transfer and Applied Research Fund
Stewardship Contracting Product Sales
Mount Saint Helens Highway
Gifts, Donations and Bequests for Forest and Rangeland Research
Land Between the Lakes Trust Fund
Gifts and Bequests
Natural Resources Conservation Service
Miscellaneous Contributed Funds
Agricultural Research Service
Concessions Fees and Volunteer Services
Gifts and Bequests
Miscellaneous Contributed Funds
Rural Development
Alternative Agricultural Research and Commercialization Revolving Fund
Foreign Agricultural Service
Miscellaneous Contributed Funds
Grain Inspection, Packers and Stockyards Administration
Inspection and Weighing Services



                                                                                            161
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
Office of the Inspector General
Inspector General Assets Forfeiture, Department of Justice
Inspector General Assets Forfeiture, Department of Treasury




 162
                                  FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Earmarked Funds


                                                RMA                    AMS                  AMS                APHIS                 FS                  FS                   FS                  FS                  FS
                                                                                                                                                                                                                State, Private,
                                                                                       Expenses and                                                                                                            and International
                                                                    Funds for             Refunds,           Agricultural                                                                                       Forestry, Land
                                            Federal Crop          Strengthening        Inspection and         Quarantine                                                Payments to                               and Water
                                              Insurance          Markets, Income,     Grading of Farm      Inspection User                                             States, National     Timber Salvage       Conservation
Balance Sheet As of September 30, 2008     Corporation Fund        and Supply             Products           Fee Account       Cooperative Work   Land Acquisition      Forests Fund            Sales                Fund
                                               12X4085              12X5209               12X8015              12X5161            12X8028            12X5004              12X5201              12X5204             12X5367
Fund Balance with Treasury                $            2,364    $             362     $             95    $             153    $           296    $             32    $              96     $           66     $            107
Investments                                                -                      -                   -                   -                   -                   -                     -                 -                     -
Other Assets                                           3,744                  329                   18                  148                 21                  49                    3                  4                    4
Total Assets                                           6,108                  691                  113                  301                317                  81                   99                 70                  111

Other Liabilities                                     8,318                     11                  60                  81                  54                   1                  134                  4                     4
Total Liabilities                                     8,318                     11                  60                  81                  54                   1                  134                  4                     4

Unexpended Appropriations                                944                   302                   -                 130                   -                   -                     -                 -                    1
Cumulative Results of Operations                      (3,154)                  378                  53                  90                 263                  80                   (35)               66                  106

Total Liabilities and Net Position                    6,108                    691                 113                 301                 317                  81                    99                70                  111




Statement of Net Cost For the Period
Ended September 30, 2008
Gross program costs                                   7,081                    717                 185                  199                139                  40                  169                 43                   47
Less Earned Revenues                                  1,440                      1                 155                  607                105                   -                   59                 36                    -
Net Cost of Operations                                5,641                    716                  30                 (408)                34                  40                  110                  7                   47




Statement of Changes in Net Position
For the period Ended September 30, 2008
Net Position Beginning of Period                       (393)                   854                  25                 132                 304                  66                    76                73                  100
Changes in Accounting Principles                          -                      -                   -                   -                  (3)                  -                    (1)                -                    -
Beginning Balance, as Adjusted                         (393)                   854                  25                 132                 301                  66                    75                73                  100

Non-Exchange Revenue                                   3,824                   542                  25                 (320)                (4)                 54                     -                  -                  54
Other Financing Sources                                    -                     -                  33                    -                  -                   -                     -                  -                   -
Net Cost of Operations                                (5,641)                 (716)                (30)                 408                (34)                (40)                 (110)                (7)                (47)

Change in net Position                                (1,817)                 (174)                 28                  88                 (38)                 14                  (110)                (7)                   7

Net Position End of Period                $           (2,210)   $              680    $             53    $            220     $           263    $             80    $              (35)   $           66     $            107




                                                                                                                                                                                                                                    163
                                              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
 Earmarked Funds


                                                  FS                  FS                 FS                  FS                CSREES                  FSA


                                                                                                        Acquisition of
                                            Recreation Fee                         Restoration of         Lands to         Native American         Agricultural
                                             Demonstration      National Forest   Forest Lands and    Complete Land           Institutions        Disaster Relief
 Balance Sheet As of September 30, 2008        Program          Fund Receipts      Improvements          Exchanges         Endowment Fund           Trust Fund            Other            Total
                                               12X5268              125008            12X5215             12X5216              12X5205               12X5531
 Fund Balance with Treasury                $            147     $           74    $           113     $             51     $               11   $             833     $       315      $       5,115
 Investments                                               -                  -                   -                    -                 101                      -            10                111
 Other Assets                                              4                 6                 41                   23                      -                     -            33              4,427
 Total Assets                                           151                 80                154                   74                   112                  833             358              9,653

 Other Liabilities                                        4                  -                   -                     -                   -                      -               44           8,715
 Total Liabilities                                        4                  -                   -                     -                   -                      -               44           8,715

 Unexpended Appropriations                                -                  -                  -                     -                  48                     -               3              1,428
 Cumulative Results of Operations                       147                 80                154                    74                  64                   833             311               (490)

 Total Liabilities and Net Position                     151                 80                154                    74                 112                   833             358              9,653




 Statement of Net Cost For the Period
 Ended September 30, 2008
 Gross program costs                                     65                  -                   5                   10                    2                      -           237              8,939
 Less Earned Revenues                                    61                 34                 108                   20                    4                      -           167              2,797
 Net Cost of Operations                                   4                (34)               (103)                 (10)                  (2)                     -            70              6,142




 Statement of Changes in Net Position
 For the period Ended September 30, 2008
 Net Position Beginning of Period                       151                 48                 51                    64                  98                       -           267              1,916
 Changes in Accounting Principles                         -                  -                  -                     -                   -                       -           (10)               (14)
 Beginning Balance, as Adjusted                         151                 48                 51                    64                  98                       -           257              1,902

 Non-Exchange Revenue                                      -                 -                  -                     -                  12                   833              60              5,080
 Other Financing Sources                                   -                (2)                 -                     -                   -                     -              67                 98
 Net Cost of Operations                                   (4)               34                103                    10                   2                     -             (70)            (6,142)

 Change in net Position                                   (4)               32                103                    10                  14                   833                 57               (964)

 Net Position End of Period                $            147     $           80    $           154     $              74    $            112     $             833     $       314      $           938




164
                                                                    FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Earmarked Funds


                                                 RMA                    AMS                  AMS                APHIS                 FS                  FS                   FS                  FS

                                                                                        Expenses and
                                                                     Funds for             Refunds,            Agricultural
                                             Federal Crop          Strengthening        Inspection and         Quarantine                                                Payments to
                                               Insurance          Markets, Income,     Grading of Farm      Inspection User                                             States, National     Timber Salvage
Balance Sheet As of September 30, 2007      Corporation Fund        and Supply             Products           Fee Account       Cooperative Work   Land Acquisition      Forests Fund            Sales
                                                12X4085              12X5209               12X8015              12X5161            12X8028            12X5004              12X5201              12X5204
Fund Balance with Treasury                 $            2,344    $             560     $             48    $              135   $           338    $             17    $             146     $           77
Investments                                                 -                      -                   -                    -                  -                   -                     -                 -
Other Assets                                            2,459                  296                   35                     5                24                  50                    4                  4
Total Assets                                            4,803                  856                   83                   140               362                  67                  150                 81

Other Liabilities                                      5,196                      2                  58                    8                 58                   1                    74                 8
Total Liabilities                                      5,196                      2                  58                    8                 58                   1                    74                 8

Unexpended Appropriations                                 642                   302                   -                  129                  -                   -                     -                 -
Cumulative Results of Operations                       (1,035)                  552                  25                    3                304                  66                    76                73

Total Liabilities and Net Position                     4,803                    856                  83                  140                362                  67                  150                 81




Statement of Net Cost For the Period
Ended September 30, 2007
Gross program costs                                    4,869                    926                 163                  176                171                  55                    31                62
Less Earned Revenues                                   1,018                      1                 141                  472                 97                   -                   (21)               43
Net Cost of Operations                                 3,851                    925                  22                 (296)                74                  55                    52                19




Statement of Changes in Net Position
For the period Ended September 30, 2007
Net Position Beginning of Period                        (782)                   682                  15                  123                378                  89                  128                 92
Changes in Accounting Principles                           -                      -                   -                    -                  -                   -                    -                  -
Beginning Balance, as Adjusted                          (782)                   682                  15                  123                378                  89                  128                 92

Non-Exchange Revenue                                    4,240                 1,097                   2                 (287)                 -                  32                     -                 -
Other Financing Sources                                     -                     -                  30                    -                  -                   -                     -                 -
Net Cost of Operations                                 (3,851)                 (925)                (22)                 296                (74)                (55)                  (52)              (19)

Change in net Position                                   389                    172                  10                    9                (74)                (23)                  (52)              (19)

Net Position End of Period                 $            (393)    $              854    $             25    $             132    $           304    $             66    $               76    $           73




                                                                                                                                                                                                               165
                                       FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
      Earmarked Funds


                                                      FS                 FS                 FS                   FS                  FS                  FS                CSREES
                                                                                      State, Private,
                                                                                     and International
                                                                                      Forestry, Land                                                Acquisition of
                                                Timber Roads,                           and Water          Recreation Fee      Restoration of         Lands to         Native American
                                                  Purchaser        Expenses, Brush     Conservation         Demonstration     Forest Lands and    Complete Land           Institutions
      Balance Sheet As of September 30, 2007       Elections          Disposal             Fund               Program          Improvements          Exchanges         Endowment Fund           Other            Total
                                                   12X5202            12X5206            12X5367              12X5268             12X5215             12X5216              12X5205
      Fund Balance with Treasury                $            29    $            40   $            101     $            149    $            41     $             48     $                9   $       209      $       4,291
      Investments                                             -                  -                    -                   -                   -                    -                   88             9                 97
      Other Assets                                            2                  1                  2                     5                10                   17                      1            58              2,973
      Total Assets                                           31                 41                103                  154                 51                   65                     98           276              7,361

      Other Liabilities                                       -                 1                    3                   3                   -                    1                    -                32           5,445
      Total Liabilities                                       -                 1                    3                   3                   -                    1                    -                32           5,445

      Unexpended Appropriations                              -                  -                   -                    -                  -                     -                  37               3              1,113
      Cumulative Results of Operations                      31                 40                 100                  151                 51                    64                  61             241                803

      Total Liabilities and Net Position                    31                 41                 103                  154                 51                    65                  98             276              7,361




      Statement of Net Cost For the Period
      Ended September 30, 2007
      Gross program costs                                     2                13                  41                   57                  (9)                   5                    3            205              6,770
      Less Earned Revenues                                    7                10                   -                   60                  16                   20                    5            190              2,059
      Net Cost of Operations                                 (5)                3                  41                   (3)                (25)                 (15)                  (2)            15              4,711




      Statement of Changes in Net Position
      For the period Ended September 30, 2007
      Net Position Beginning of Period                      66                 56                  84                  135                 25                    45                  84             274              1,494
      Changes in Accounting Principles                       -                  -                   -                    -                  -                     -                   -             (59)               (59)
      Beginning Balance, as Adjusted                        66                 56                  84                  135                 25                    45                  84             215              1,435

      Non-Exchange Revenue                                 (40)               (13)                 57                   13                  1                     4                  12              18              5,136
      Other Financing Sources                                -                  -                   -                    -                  -                     -                   -              26                 56
      Net Cost of Operations                                 5                 (3)                (41)                   3                 25                    15                   2             (15)            (4,711)

      Change in net Position                               (35)               (16)                 16                   16                 26                    19                  14                 29               481

      Net Position End of Period                $           31     $           40    $            100     $            151    $            51     $              64    $             98     $       244      $       1,916




166
                                                                       FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
NOTE 19. SUBORGANIZATION PROGRAM COSTS/PROGRAM COSTS BY SEGMENT
        FY 2008                                                             FSA                                       CCC                                       FAS
                                                            Intragovernmental   With the Public       Intragovernmental   With the Public       Intragovernmental   With the Public



        Enhance International Competitiveness and
        the Sustainability of Rural and Farm Economies:
        Gross Cost                                          $                -   $                -   $             176    $        1,892       $              95    $          328
        Less: Earned Revenue                                                 -                    -                  71               347                      99                 -
        Net Cost                                                             -                    -                 105             1,545                      (4)              328

        Enhance the Competitiveness and Sustainability
        of Rural and Farm Economies:
        Gross Cost                                                        953             3,434                    1,339            7,254                        -                    -
        Less: Earned Revenue                                              213               578                       16            1,394                        -                    -
        Net Cost                                                          740             2,856                    1,323            5,860                        -                    -

        Support Increased Economic Opportunities and
        Improved Quality of Life in Rural America:
        Gross Cost                                                           -                    -                    -                    -                    -                    -
        Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
        Net Cost                                                             -                    -                    -                    -                    -                    -

        Enhance Protection and Safety of the Nation's
        Agriculture and Food Supply:                                         -                    -                    -                    -                    -                    -
        Gross Cost                                                           -                    -                    -                    -                    -                    -
        Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
        Net Cost

        Improve the Nation's Nutrition and Health:
        Gross Cost                                                           -                    -                    -                    -                    -                    -
        Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
        Net Cost                                                             -                    -                    -                    -                    -                    -

        Protect and Enhance the Nation's Natural Resource
        Base and Environment:
        Gross Cost                                                           -                    -                 236             1,889                        -                    -
        Less: Earned Revenue                                                 -                    -                   -                 2                        -                    -
        Net Cost                                                             -                    -                 236             1,887                        -                    -

        Total Gross Costs                                                 953             3,434                    1,751           11,035                      95               328
        Less: Total Earned Revenues                                       213               578                       87            1,743                      99                 -
        Net Cost of Operations                              $             740    $        2,856       $            1,664   $        9,292       $              (4)   $          328




                                                                                                                                                                                          167
                                             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
      FY 2008                                                             RMA                                       FNS                                       FSIS
                                                          Intragovernmental   With the Public       Intragovernmental   With the Public       Intragovernmental    With the Public



      Enhance International Competitiveness and
      the Sustainability of Rural and Farm Economies:
      Gross Cost                                          $                -   $                -   $                -   $                -   $                -    $                -
      Less: Earned Revenue                                                 -                    -                    -                    -                    -                     -
      Net Cost                                                             -                    -                    -                    -                    -                     -

      Enhance the Competitiveness and Sustainability
      of Rural and Farm Economies:
      Gross Cost                                                         53             7,124                        -                    -                    -                     -
      Less: Earned Revenue                                                -             1,440                        -                    -                    -                     -
      Net Cost                                                           53             5,684                        -                    -                    -                     -

      Support Increased Economic Opportunities and
      Improved Quality of Life in Rural America:
      Gross Cost                                                           -                    -                    -                    -                    -                     -
      Less: Earned Revenue                                                 -                    -                    -                    -                    -                     -
      Net Cost                                                             -                    -                    -                    -                    -                     -

      Enhance Protection and Safety of the Nation's
      Agriculture and Food Supply:                                         -                    -                    -                    -                  340               864
      Gross Cost                                                           -                    -                    -                    -                    4               162
      Less: Earned Revenue                                                 -                    -                    -                    -                  336               702
      Net Cost

      Improve the Nation's Nutrition and Health:
      Gross Cost                                                           -                    -                 815            59,735                        -                     -
      Less: Earned Revenue                                                 -                    -                   1                27                        -                     -
      Net Cost                                                             -                    -                 814            59,708                        -                     -

      Protect and Enhance the Nation's Natural Resource
      Base and Environment:
      Gross Cost                                                           -                    -                    -                    -                    -                     -
      Less: Earned Revenue                                                 -                    -                    -                    -                    -                     -
      Net Cost                                                             -                    -                    -                    -                    -                     -

      Total Gross Costs                                                  53             7,124                     815            59,735                      340               864
      Less: Total Earned Revenues                                         -             1,440                       1                27                        4               162
      Net Cost of Operations                              $              53    $        5,684       $             814    $       59,708       $              336    $          702




168
                                                              FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
FY 2008                                                             AMS                                      APHIS                                     GIPSA
                                                    Intragovernmental   With the Public       Intragovernmental   With the Public       Intragovernmental   With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Cost                                          $                -   $                -   $                -   $                -   $              13    $           19
Less: Earned Revenue                                                 -                    -                    -                    -                   -                20
Net Cost                                                             -                    -                    -                    -                  13                (1)

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Cost                                                        122               934                        -                    -                  18                43
Less: Earned Revenue                                                7               212                        -                    -                   -                26
Net Cost                                                          115               722                        -                    -                  18                17

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Cost                                                           -                    -                    -                    -                    -                    -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
Net Cost                                                             -                    -                    -                    -                    -                    -

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:                                         -                    -                 361             1,094                        -                    -
Gross Cost                                                           -                    -                  28               703                        -                    -
Less: Earned Revenue                                                 -                    -                 333               391                        -                    -
Net Cost

Improve the Nation's Nutrition and Health:
Gross Cost                                                           -                    -                    -                    -                    -                    -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
Net Cost                                                             -                    -                    -                    -                    -                    -

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Cost                                                           -                    -                    -                    -                    -                    -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
Net Cost                                                             -                    -                    -                    -                    -                    -

Total Gross Costs                                                 122               934                     361             1,094                      31                62
Less: Total Earned Revenues                                         7               212                      28               703                       -                46
Net Cost of Operations                              $             115    $          722       $             333    $          391       $              31    $           16




                                                                                                                                                                                  169
                                    FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
      FY 2008                                                                 FS                                        NRCS                                       ARS
                                                          Intragovernmental        With the Public       Intragovernmental   With the Public       Intragovernmental   With the Public



      Enhance International Competitiveness and
      the Sustainability of Rural and Farm Economies:
      Gross Cost                                          $                   -    $                 -   $                -   $                -   $                -   $                -
      Less: Earned Revenue                                                    -                      -                    -                    -                    -                    -
      Net Cost                                                                -                      -                    -                    -                    -                    -

      Enhance the Competitiveness and Sustainability
      of Rural and Farm Economies:
      Gross Cost                                                              -                      -                    -                    -                 102               398
      Less: Earned Revenue                                                    -                      -                    -                    -                  27                13
      Net Cost                                                                -                      -                    -                    -                  75               385

      Support Increased Economic Opportunities and
      Improved Quality of Life in Rural America:
      Gross Cost                                                              -                      -                    -                    -                    -                    -
      Less: Earned Revenue                                                    -                      -                    -                    -                    -                    -
      Net Cost                                                                -                      -                    -                    -                    -                    -

      Enhance Protection and Safety of the Nation's
      Agriculture and Food Supply:                                            -                      -                    -                    -                 100               390
      Gross Cost                                                              -                      -                    -                    -                  26                11
      Less: Earned Revenue                                                    -                      -                    -                    -                  74               379
      Net Cost

      Improve the Nation's Nutrition and Health:
      Gross Cost                                                              -                      -                    -                    -                  22                84
      Less: Earned Revenue                                                    -                      -                    -                    -                   6                 2
      Net Cost                                                                -                      -                    -                    -                  16                82

      Protect and Enhance the Nation's Natural Resource
      Base and Environment:
      Gross Cost                                                       1,223                 5,487                     562             2,615                      58               227
      Less: Earned Revenue                                               250                   616                      74                73                      15                 7
      Net Cost                                                           973                 4,871                     488             2,542                      43               220

      Total Gross Costs                                                1,223                 5,487                     562             2,615                     282             1,099
      Less: Total Earned Revenues                                        250                   616                      74                73                      74                33
      Net Cost of Operations                              $              973       $         4,871       $             488    $        2,542       $             208    $        1,066




170
                                                              FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
FY 2008                                                           CSREES                                 ERS                                  NASS
                                                    Intragovernmental  With the Public   Intragovernmental   With the Public   Intragovernmental   With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Cost                                          $               -    $           5   $               8    $           10   $                -   $                -
Less: Earned Revenue                                                -                -                   -                 -                    -                    -
Net Cost                                                            -                5                   8                10                    -                    -

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Cost                                                         13              306                  16                20                  46                91
Less: Earned Revenue                                               16                -                   1                 -                   9                 2
Net Cost                                                           (3)             306                  15                20                  37                89

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Cost                                                          6              142                   3                 4                  22                44
Less: Earned Revenue                                                7                -                   -                 -                   5                 1
Net Cost                                                           (1)             142                   3                 4                  17                43

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:                                        7              163                   2                 2                    -                    -
Gross Cost                                                          9                -                   -                 -                    -                    -
Less: Earned Revenue                                               (2)             163                   2                 2                    -                    -
Net Cost

Improve the Nation's Nutrition and Health:
Gross Cost                                                          5              108                   9                12                    -                    -
Less: Earned Revenue                                                6                -                   -                 -                    -                    -
Net Cost                                                           (1)             108                   9                12                    -                    -

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Cost                                                          6              140                   4                 6                    -                1
Less: Earned Revenue                                                7                -                   -                 -                    -                -
Net Cost                                                           (1)             140                   4                 6                    -                1

Total Gross Costs                                                  37              864                  42                54                  68               136
Less: Total Earned Revenues                                        45                -                   1                 -                  14                 3
Net Cost of Operations                              $              (8)   $         864   $              41    $           54   $              54    $          133




                                                                                                                                                                         171
                                    FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
      FY 2008                                                                 RD                                          DO                                  TOTAL
                                                          Intragovernmental        With the Public       Intragovernmental   With the Public   Intragovernmental   With the Public



      Enhance International Competitiveness and
      the Sustainability of Rural and Farm Economies:
      Gross Cost                                          $                   -    $                 -   $              12     $          20   $             304    $        2,274
      Less: Earned Revenue                                                    -                      -                  18                 -                 188               367
      Net Cost                                                                -                      -                  (6)               20                 116             1,907

      Enhance the Competitiveness and Sustainability
      of Rural and Farm Economies:
      Gross Cost                                                              -                      -                 125               210                2,787           19,814
      Less: Earned Revenue                                                    -                      -                 187                 2                  476            3,667
      Net Cost                                                                -                      -                 (62)              208                2,311           16,147

      Support Increased Economic Opportunities and
      Improved Quality of Life in Rural America:
      Gross Cost                                                       3,858                 4,358                       67              111                3,956            4,659
      Less: Earned Revenue                                               360                 4,183                       99                1                  471            4,185
      Net Cost                                                         3,498                   175                      (32)             110                3,485              474

      Enhance Protection and Safety of the Nation's
      Agriculture and Food Supply:                                            -                      -                 107               179                 917             2,692
      Gross Cost                                                              -                      -                 160                 2                 227               878
      Less: Earned Revenue                                                    -                      -                 (53)              177                 690             1,814
      Net Cost

      Improve the Nation's Nutrition and Health:
      Gross Cost                                                              -                      -                   61              103                 912            60,042
      Less: Earned Revenue                                                    -                      -                   92                1                 105                30
      Net Cost                                                                -                      -                  (31)             102                 807            60,012

      Protect and Enhance the Nation's Natural Resource
      Base and Environment:
      Gross Cost                                                              -                      -                 111               184                2,200           10,549
      Less: Earned Revenue                                                    -                      -                 165                 2                  511              700
      Net Cost                                                                -                      -                 (54)              182                1,689            9,849

      Total Gross Costs                                                3,858                 4,358                     483               807              11,076           100,030
      Less: Total Earned Revenues                                        360                 4,183                     721                 8               1,978             9,827
      Net Cost of Operations                              $            3,498       $           175       $            (238)    $         799   $           9,098    $       90,203




172
                                                              FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
FY 2008                                             Intradepartmental
                                                       Eliminations      GRAND TOTAL



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Cost                                          $             (94)   $      2,484
Less: Earned Revenue                                             (100)            455
Net Cost                                                            6           2,029

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Cost                                                     (1,606)         20,995
Less: Earned Revenue                                             (307)          3,836
Net Cost                                                       (1,299)         17,159

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Cost                                                       (189)          8,426
Less: Earned Revenue                                             (109)          4,547
Net Cost                                                          (80)          3,879

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:                                     (235)          3,374
Gross Cost                                                       (170)            935
Less: Earned Revenue                                              (65)          2,439
Net Cost

Improve the Nation's Nutrition and Health:
Gross Cost                                                       (773)         60,181
Less: Earned Revenue                                              (86)             49
Net Cost                                                         (687)         60,132

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Cost                                                       (644)         12,105
Less: Earned Revenue                                             (201)          1,010
Net Cost                                                         (443)         11,095

Total Gross Costs                                              (3,541)        107,565
Less: Total Earned Revenues                                      (973)         10,832
Net Cost of Operations                              $          (2,568)   $     96,733




                                                                                                                    173
                                     FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
      FY 2007                                                             FSA                                       CCC                                       FAS
                                                          Intragovernmental   With the Public       Intragovernmental   With the Public       Intragovernmental   With the Public



      Enhance International Competitiveness and
      the Sustainability of Rural and Farm Economies:
      Gross Cost                                          $                -   $                -   $             176    $        1,537       $              67    $          290
      Less: Earned Revenue                                                 -                    -                 320               232                     106               (44)
      Net Cost                                                             -                    -                (144)            1,305                     (39)              334

      Enhance the Competitiveness and Sustainability
      of Rural and Farm Economies:
      Gross Cost                                                        918             1,423                    1,482           11,313                        -                    -
      Less: Earned Revenue                                              220               485                       13            4,402                        -                    -
      Net Cost                                                          698               938                    1,469            6,911                        -                    -

      Support Increased Economic Opportunities and
      Improved Quality of Life in Rural America:
      Gross Cost                                                           -                    -                    -                    -                    -                    -
      Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
      Net Cost                                                             -                    -                    -                    -                    -                    -

      Enhance Protection and Safety of the Nation's
      Agriculture and Food Supply:                                         -                    -                    -                    -                    -                    -
      Gross Cost                                                           -                    -                    -                    -                    -                    -
      Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
      Net Cost

      Improve the Nation's Nutrition and Health:
      Gross Cost                                                           -                    -                    -                    -                    -                    -
      Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
      Net Cost                                                             -                    -                    -                    -                    -                    -

      Protect and Enhance the Nation's Natural Resource
      Base and Environment:
      Gross Cost                                                           -                    -                 245             1,913                        -                    -
      Less: Earned Revenue                                                 -                    -                   -                 1                        -                    -
      Net Cost                                                             -                    -                 245             1,912                        -                    -

      Total Gross Costs                                                 918             1,423                    1,903           14,763                      67               290
      Less: Total Earned Revenues                                       220               485                      333            4,635                     106               (44)
      Net Cost of Operations                              $             698    $          938       $            1,570   $       10,128       $             (39)   $          334




174
                                                              FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
FY 2007                                                             RMA                                       FNS                                       FSIS
                                                    Intragovernmental   With the Public       Intragovernmental   With the Public       Intragovernmental    With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Cost                                          $                -   $                -   $                -   $                -   $                -    $                -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                     -
Net Cost                                                             -                    -                    -                    -                    -                     -

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Cost                                                         54             4,904                        -                    -                    -                     -
Less: Earned Revenue                                                1             1,017                        -                    -                    -                     -
Net Cost                                                           53             3,887                        -                    -                    -                     -

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Cost                                                           -                    -                    -                    -                    -                     -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                     -
Net Cost                                                             -                    -                    -                    -                    -                     -

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:                                         -                    -                    -                    -                  275               790
Gross Cost                                                           -                    -                    -                    -                    2               148
Less: Earned Revenue                                                 -                    -                    -                    -                  273               642
Net Cost

Improve the Nation's Nutrition and Health:
Gross Cost                                                           -                    -                 838            53,509                        -                     -
Less: Earned Revenue                                                 -                    -                   2                22                        -                     -
Net Cost                                                             -                    -                 836            53,487                        -                     -

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Cost                                                           -                    -                    -                    -                    -                     -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                     -
Net Cost                                                             -                    -                    -                    -                    -                     -

Total Gross Costs                                                  54             4,904                     838            53,509                      275               790
Less: Total Earned Revenues                                         1             1,017                       2                22                        2               148
Net Cost of Operations                              $              53    $        3,887       $             836    $       53,487       $              273    $          642




                                                                                                                                                                                   175
                                    FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
      FY 2007                                                             AMS                                      APHIS                                     GIPSA
                                                          Intragovernmental   With the Public       Intragovernmental   With the Public       Intragovernmental   With the Public



      Enhance International Competitiveness and
      the Sustainability of Rural and Farm Economies:
      Gross Cost                                          $                -   $                -   $                -   $                -   $              18    $           32
      Less: Earned Revenue                                                 -                    -                    -                    -                   -                20
      Net Cost                                                             -                    -                    -                    -                  18                12

      Enhance the Competitiveness and Sustainability
      of Rural and Farm Economies:
      Gross Cost                                                        195             1,046                        -                    -                  17                30
      Less: Earned Revenue                                                9               194                        -                    -                   -                19
      Net Cost                                                          186               852                        -                    -                  17                11

      Support Increased Economic Opportunities and
      Improved Quality of Life in Rural America:
      Gross Cost                                                           -                    -                    -                    -                    -                    -
      Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
      Net Cost                                                             -                    -                    -                    -                    -                    -

      Enhance Protection and Safety of the Nation's
      Agriculture and Food Supply:                                         -                    -                 309             1,132                        -                    -
      Gross Cost                                                           -                    -                 131               555                        -                    -
      Less: Earned Revenue                                                 -                    -                 178               577                        -                    -
      Net Cost

      Improve the Nation's Nutrition and Health:
      Gross Cost                                                           -                    -                    -                    -                    -                    -
      Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
      Net Cost                                                             -                    -                    -                    -                    -                    -

      Protect and Enhance the Nation's Natural Resource
      Base and Environment:
      Gross Cost                                                           -                    -                    -                    -                    -                    -
      Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
      Net Cost                                                             -                    -                    -                    -                    -                    -

      Total Gross Costs                                                 195             1,046                     309             1,132                      35                62
      Less: Total Earned Revenues                                         9               194                     131               555                       -                39
      Net Cost of Operations                              $             186    $          852       $             178    $          577       $              35    $           23




176
                                                              FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
FY 2007                                                                 FS                                        NRCS                                       ARS
                                                    Intragovernmental        With the Public       Intragovernmental   With the Public       Intragovernmental   With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Cost                                          $                   -    $                 -   $                -   $                -   $                -   $                -
Less: Earned Revenue                                                    -                      -                    -                    -                    -                    -
Net Cost                                                                -                      -                    -                    -                    -                    -

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Cost                                                              -                      -                    -                    -                  85               397
Less: Earned Revenue                                                    -                      -                    -                    -                  29                12
Net Cost                                                                -                      -                    -                    -                  56               385

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Cost                                                              -                      -                    -                    -                    -                    -
Less: Earned Revenue                                                    -                      -                    -                    -                    -                    -
Net Cost                                                                -                      -                    -                    -                    -                    -

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:                                            -                      -                    -                    -                  82               386
Gross Cost                                                              -                      -                    -                    -                  28                11
Less: Earned Revenue                                                    -                      -                    -                    -                  54               375
Net Cost

Improve the Nation's Nutrition and Health:
Gross Cost                                                              -                      -                    -                    -                  18                88
Less: Earned Revenue                                                    -                      -                    -                    -                   6                 3
Net Cost                                                                -                      -                    -                    -                  12                85

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Cost                                                       1,203                 5,112                     515             2,636                      49               232
Less: Earned Revenue                                               143                   455                      60                93                      17                 7
Net Cost                                                         1,060                 4,657                     455             2,543                      32               225

Total Gross Costs                                                1,203                 5,112                     515             2,636                     234             1,103
Less: Total Earned Revenues                                        143                   455                      60                93                      80                33
Net Cost of Operations                              $            1,060       $         4,657       $             455    $        2,543       $             154    $        1,070




                                                                                                                                                                                       177
                                    FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
      FY 2007                                                           CSREES                                 ERS                                  NASS
                                                          Intragovernmental  With the Public   Intragovernmental   With the Public   Intragovernmental   With the Public



      Enhance International Competitiveness and
      the Sustainability of Rural and Farm Economies:
      Gross Cost                                          $               -    $           5   $               6    $           10   $                -   $                -
      Less: Earned Revenue                                                -                -                   -                 -                    -                    -
      Net Cost                                                            -                5                   6                10                    -                    -

      Enhance the Competitiveness and Sustainability
      of Rural and Farm Economies:
      Gross Cost                                                         12              541                  11                18                  37                93
      Less: Earned Revenue                                               12                -                   -                 -                  15                 3
      Net Cost                                                            -              541                  11                18                  22                90

      Support Increased Economic Opportunities and
      Improved Quality of Life in Rural America:
      Gross Cost                                                          5              231                   2                 4                  13                33
      Less: Earned Revenue                                                6                -                   -                 -                   5                 1
      Net Cost                                                           (1)             231                   2                 4                   8                32

      Enhance Protection and Safety of the Nation's
      Agriculture and Food Supply:                                        6              276                   2                 3                   1                 2
      Gross Cost                                                          7                -                   -                 -                   -                 -
      Less: Earned Revenue                                               (1)             276                   2                 3                   1                 2
      Net Cost

      Improve the Nation's Nutrition and Health:
      Gross Cost                                                          4              182                   7                12                    -                    -
      Less: Earned Revenue                                                5                -                   -                 -                    -                    -
      Net Cost                                                           (1)             182                   7                12                    -                    -

      Protect and Enhance the Nation's Natural Resource
      Base and Environment:
      Gross Cost                                                          5              248                   3                 5                   1                 4
      Less: Earned Revenue                                                6                -                   -                 -                   1                 -
      Net Cost                                                           (1)             248                   3                 5                   -                 4

      Total Gross Costs                                                  32            1,483                  31                52                  52               132
      Less: Total Earned Revenues                                        36                -                   -                 -                  21                 4
      Net Cost of Operations                              $              (4)   $       1,483   $              31    $           52   $              31    $          128




178
                                                              FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
FY 2007                                                                 RD                                          DO                                  TOTAL
                                                    Intragovernmental        With the Public       Intragovernmental   With the Public   Intragovernmental   With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Cost                                          $                   -    $                 -   $              14     $          24   $              281    $       1,898
Less: Earned Revenue                                                    -                      -                  20                 -                  446              208
Net Cost                                                                -                      -                  (6)               24                 (165)           1,690

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Cost                                                              -                      -                 152               278                2,963           20,043
Less: Earned Revenue                                                    -                      -                 213                 3                  512            6,135
Net Cost                                                                -                      -                 (61)              275                2,451           13,908

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Cost                                                       4,120                 2,561                       50               93                4,190             2,922
Less: Earned Revenue                                               314                 4,431                       71                1                  396             4,433
Net Cost                                                         3,806                (1,870)                     (21)              92                3,794            (1,511)

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:                                            -                      -                   70              128                 745             2,717
Gross Cost                                                              -                      -                   98                1                 266               715
Less: Earned Revenue                                                    -                      -                  (28)             127                 479             2,002
Net Cost

Improve the Nation's Nutrition and Health:
Gross Cost                                                              -                      -                   48               88                 915            53,879
Less: Earned Revenue                                                    -                      -                   69                -                  82                25
Net Cost                                                                -                      -                  (21)              88                 833            53,854

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Cost                                                              -                      -                  88               162                2,109           10,312
Less: Earned Revenue                                                    -                      -                 123                 2                  350              558
Net Cost                                                                -                      -                 (35)              160                1,759            9,754

Total Gross Costs                                                4,120                 2,561                     422               773              11,203            91,771
Less: Total Earned Revenues                                        314                 4,431                     594                 7               2,052            12,074
Net Cost of Operations                              $            3,806       $        (1,870)      $            (172)    $         766   $           9,151     $      79,697




                                                                                                                                                                                 179
                                    FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
      FY 2007                                             Intradepartmental
                                                             Eliminations      GRAND TOTAL



      Enhance International Competitiveness and
      the Sustainability of Rural and Farm Economies:
      Gross Cost                                          $             (80)   $      2,099
      Less: Earned Revenue                                              (39)            615
      Net Cost                                                          (41)          1,484

      Enhance the Competitiveness and Sustainability
      of Rural and Farm Economies:
      Gross Cost                                                     (1,582)         21,424
      Less: Earned Revenue                                             (322)          6,325
      Net Cost                                                       (1,260)         15,099

      Support Increased Economic Opportunities and
      Improved Quality of Life in Rural America:
      Gross Cost                                                       (160)          6,952
      Less: Earned Revenue                                              (79)          4,750
      Net Cost                                                          (81)          2,202

      Enhance Protection and Safety of the Nation's
      Agriculture and Food Supply:                                     (191)          3,271
      Gross Cost                                                       (219)            762
      Less: Earned Revenue                                               28           2,509
      Net Cost

      Improve the Nation's Nutrition and Health:
      Gross Cost                                                       (803)         53,991
      Less: Earned Revenue                                              (64)             43
      Net Cost                                                         (739)         53,948

      Protect and Enhance the Nation's Natural Resource
      Base and Environment:
      Gross Cost                                                       (597)         11,824
      Less: Earned Revenue                                             (163)            745
      Net Cost                                                         (434)         11,079

      Total Gross Costs                                              (3,413)         99,561
      Less: Total Earned Revenues                                      (886)         13,240
      Net Cost of Operations                              $          (2,527)   $     86,321




180
                                                              FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
NOTE 20. COST OF STEWARDSHIP PP&E
The acquisition cost of stewardship land in FY 2008 and FY 2007 was $228 million and $236 million, respectively.


NOTE 21. APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED

           FY 2008
                                                                Direct         Reimbursable           Total
           Apportionment by Fiscal Quarter                  $     66,732   $            639       $     67,371
           Apportionment for Special Activities                   45,431              25,593            71,024
           Exempt from Apportionment                                 961                      1               962
           Total Obligations Incurred                       $    113,124   $          26,233      $   139,357



           FY 2007
                                                                Direct         Reimbursable           Total
           Apportionment by Fiscal Quarter                  $     69,018   $            932       $     69,950
           Apportionment for Special Activities                   28,400              29,573            57,973
           Exempt from Apportionment                               1,023                      8          1,031
           Total Obligations Incurred                       $     98,441   $          30,513      $   128,954




NOTE 22. AVAILABLE BORROWING AUTHORITY, END OF PERIOD
Available borrowing authority at September 30, 2008 and 2007 was $29,369 million and $28,899 million,
respectively.


NOTE 23. TERMS OF BORROWING AUTHORITY USED
The Secretary of Agriculture has the authority to make and issue notes to the Secretary of Treasury for the purpose
of discharging obligations for RD’s insurance funds and CCC’s nonreimbursed realized losses and debt related to
foreign assistance programs. The permanent indefinite borrowing authority includes both interest bearing and
non–interest bearing notes. These notes are drawn upon daily when disbursements exceed deposits. Notes payable
under the permanent indefinite borrowing authority have a term of one year. On January 1 of each year, USDA
refinances its outstanding borrowings, including accrued interest, at the January borrowing rate.
In addition, USDA has permanent indefinite borrowing authority for the foreign assistance and export credit
programs to finance disbursements on post-credit reform, direct credit obligations, and credit guarantees. In
accordance with the Federal Credit Reform Act of 1990 as amended, USDA borrows from Treasury on October 1,
for the entire fiscal year, based on annual estimates of the difference between the amount appropriated (subsidy) and
the amount to be disbursed to the borrower. Repayment under this agreement may be, in whole or in part, prior to
maturity by paying the principal amount of the borrowings plus accrued interest to the date of repayment. Interest is
paid on these borrowings based on weighted average interest rates for the cohort, to which the borrowings are
associated. Interest is earned on the daily balance of uninvested funds in the credit reform financing funds
maintained at Treasury. The interest income is used to reduce interest expense on the underlying borrowings.
USDA has authority to borrow from the Federal Financing Bank (FFB) in the form of Certificates of Beneficial
Ownership (CBO) or loans executed directly between the borrower and FFB with an unconditional USDA



                                                                                                                    181
           FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
repayment guarantee. CBO’s outstanding with the FFB are generally secured by unpaid loan principal balances.
CBO’s outstanding are related to pre-credit reform loans and no longer are used for program financing.
FFB’s CBO’s are repaid as they mature and are not related to any particular group of loans. Borrowings made to
finance loans directly between the borrower and FFB mature and are repaid as the related group of loans become
due. Interest rates on the related group of loans are equal to interest rates on FFB borrowings, except in those
situations where an FFB funded loan is restructured and the terms of the loan are modified.
Prepayments can be made on Treasury borrowings without a penalty; however, they cannot be made on FFB
CBO’s, without a penalty.
Funds may also be borrowed from private lending agencies and others. USDA reserves a sufficient amount of its
borrowing authority to purchase, at any time, all notes and other obligations evidencing loans made by agencies and
others. All bonds, notes, debentures, and similar obligations issued by the Department are subject to approval by the
Secretary of the Treasury. Reservation of borrowing authority for these purposes has not been required for many
years.
NOTE 24. PERMANENT INDEFINITE APPROPRIATIONS
USDA has permanent indefinite appropriations available to fund 1) subsidy costs incurred under credit reform
programs, 2) certain costs of the crop insurance program, (3) certain commodity program costs and 4) certain costs
associated with FS programs.
The permanent indefinite appropriations for credit reform are mainly available to finance any disbursements
incurred under the liquidating accounts. These appropriations become available pursuant to standing provisions of
law without further action by Congress after transmittal of the Budget for the year involved. They are treated as
permanent the first year they become available, as well as in succeeding years. However, they are not stated as
specific amounts but are determined by specified variable factors, such as cash needs for liquidating accounts, and
information about the actual performance of a cohort or estimated changes in future cash flows of the cohort in the
program accounts.
The permanent indefinite appropriation for the crop insurance program is used to cover premium subsidy, delivery
expenses, losses in excess of premiums and research and delivery costs.
The permanent indefinite appropriation for commodity program costs is used to encourage the exportation of
agricultural commodities and products, to encourage domestic consumption of agricultural products by diverting
them, and to reestablish farmers’ purchasing power by making payments in connection with the normal production
of any agricultural commodity for domestic consumption.
The permanent indefinite appropriation for FS programs is used to fund Recreation Fee Collection Costs, Brush
Disposal, License programs, Smokey Bear and Woodsy Owl, Restoration of Forest Lands and Improvements,
Roads and Trails for States, National Forest Fund, Timber Roads, Purchaser Elections, Timber Salvage Sales and
Operations, and Maintenance of Quarters. Each of these permanent indefinite appropriations is funded by receipts
made available by law, and is available until expended.
NOTE 25. LEGAL ARRANGEMENTS AFFECTING USE OF UNOBLIGATED BALANCES
Unobligated budget authority is the difference between the obligated balance and the total unexpended balance. It
represents that portion of the unexpended balance unencumbered by recorded obligations. Appropriations are
provided on an annual, multi-year, and no-year basis. An appropriation expires on the last day of its period of
availability and is no longer available for new obligations. Unobligated balances retain their fiscal-year identity in an
expired account for an additional five fiscal years. The unobligated balance remains available to make legitimate
obligation adjustments, i.e., to record previously unrecorded obligations and to make upward adjustments in


182
                               FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
previously underestimated obligations for five years. At the end of the fifth year, the authority is canceled.
Thereafter, the authority is not available for any purpose.
Any information about legal arrangements affecting the use of the unobligated balance of budget authority is
specifically stated by program and fiscal year in the appropriation language or in the alternative provisions section at
the end of the appropriations act.
NOTE 26. DIFFERENCES BETWEEN THE STATEMENT OF BUDGETARY RESOURCES AND THE BUDGET OF THE UNITED STATES GOVERNMENT
The differences between the fiscal 2007 Statement of Budgetary Resources and the fiscal 2007 actual numbers
presented in the fiscal 2009 Budget of the United States Government (Budget) are summarized below.
The Budget excludes expired accounts that are no longer available for new obligations. Adjustments were made
subsequent to the Budget submission as follows:
AMS returned to Treasury Section 32 funds in excess of its authorized funding level and reduced obligations for
disaster relief.
Unavailable collections for the Native American Institution Endowment Fund were included as budgetary resources
in the Statement of Budgetary Resources.
The Budget includes the Milk Market Orders Assessment Fund since employees of the Milk Market
Administrators participate in the Federal retirement system, though these funds are not available for use by the
Department.
Other items mainly consist of balances in suspense accounts and differences due to rounding that are excluded from
the Budget.
A comparison between the fiscal 2008 Statement of Budgetary Resources and the fiscal 2008 actual numbers
presented in the fiscal 2010 Budget cannot be performed as the fiscal 2010 Budget is not yet available. The fiscal
2010 Budget is expected to be published in February 2009 and will be available from the Government Printing
Office.

          FY 2007
                                                                                                 Distributed
                                                           Budgetary         Obligations         offsetting
                                                           Resources          incurred            receipts         Net Outlays


          Combined Statement of Budgetary Resources     $     161,918    $       128,954     $          1,767      $    89,950
          Reconciling items:
           Expired accounts                                   (10,657)            (1,008)                      -             -
           Adjustment - AMS                                        89                  9                       -             -
           Native American Institutions                            (5)                 (3)                     -             -
           Milk Market Orders Fund                                 49                 49                       -             -
           Other                                                   (2)                 (6)                     6            (7)
          Budget of the United States Government       $      151,392    $       127,995     $         1,773       $    89,943




NOTE 27. UNDELIVERED ORDERS AT THE END OF THE PERIOD
Budgetary resources obligated for undelivered orders as of September 30, 2008 and 2007 was $37,794 million and
$35,851 million, respectively.



                                                                                                                                  183
           FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
NOTE 28. INCIDENTAL CUSTODIAL COLLECTIONS
Custodial collections represent National Forest Fund receipts from the sale of timber and other forest products,
miscellaneous general fund receipts such as collections on accounts receivable related to canceled year
appropriations, civil monetary penalties and interest, and commercial fines and penalties. Custodial collection
activities are considered immaterial and incidental to the mission of the Department.



            Revenue Activity:                                                  FY 2008            FY 2007
                Sources of Collections:
                Miscellaneous                                              $             83   $             75
            Total Cash Collections                                                       83                 75
            Accrual Adjustments                                                           -                 (4)
            Total Custodial Revenue                                                      83                 71
            Disposition of Collections:
            Transferred to Others:
                 Treasury                                                            (15)               (63)
            ( Increase )/Decrease in Amounts Yet to be Transferred                   (68)                (8)
            Net Custodial Activity                                         $           -      $           -




184
                                     FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
NOTE 29. RECONCILIATION OF BUDGETARY RESOURCES OBLIGATED TO NET COST OF OPERATIONS
Budgetary and proprietary accounting information are inherently different because of the types of information and
the timing of their recognition. The reconciliation of budgetary resources obligated and the net cost of operations
provides a link between budgetary and proprietary accounting information. It serves not only to explain how
information on net obligations relates to the net cost of operations but also to assure integrity between budgetary
and proprietary accounting.
Net obligations and the net cost of operations are different because (1) the net cost of operations may be financed by
non-budgetary resources (e.g. imputed financing); (2) the budgetary and non-budgetary resources used may finance
activities which are not components of the net cost of operations; and (3) the net cost of operations may contain
components which do not use or generate resources in the current period.




                                                                                                                 185
           FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
                                                                                                                    2008           2007
      Resources Used to Finance Activities:
      Budgetary Resources Obligated -
         Obligations Incurred                                                                                   $ 139,357      $ 128,954
         Less: Spending authority from offsetting collections and recoveries                                       38,542         39,094
         Obligations net of offsetting collections and recoveries                                                 100,815         89,860
         Less: Distributed Offsetting receipts                                                                      2,242          1,767
         Net Obligations                                                                                           98,573         88,093

      Other Resources -
         Transfers in(out) without reimbursement                                                                      (391)          (460)
         Imputed financing from costs absorbed by others                                                               907          1,005
         Other                                                                                                          52              4
         Net other resources used to finance activities                                                                568            549

         Total resources used to finance activities                                                                 99,141         88,642

      Resources Used to Finance Items not Part of the Net Cost of Operations:
         Change in undelivered orders                                                                                (1,926)          501
         Resources that fund expenses recognized in prior periods                                                      (144)         (649)
         Budgetary offsetting collections and receipts that do not affect net cost of operations -
          Credit program collections which increase liabilities for loan guarantees or allowances for subsidy        13,357         13,534
          Change in Unfilled Customer Orders                                                                             77            967
          Decrease in exchange revenue receivable from public                                                         7,625          6,810
          Other                                                                                                       1,024           (287)
         Resources that finance the acquisition of assets                                                           (24,997)       (27,000)
         Other resources or adjustments to net obligated resources that do not affect net cost of operations           (194)        (1,412)

         Total resources used to finance items not part of the net cost of operations                                (5,178)        (7,536)

         Total resources used to finance the net cost of operations                                                 93,963         81,106

      Components of the Net Cost of Operations that will not Require or Generate
      Resources in the Current Period:
      Components Requiring or Generating Resources in Future Periods -
         Increase in annual leave liability                                                                             25              3
         Increase in environmental and disposal liability                                                                -             44
         Upward/Downward reestimates of credit subsidy expense                                                         608           (293)
         Increase in exchange revenue receivable from the public                                                         -              -
         Other                                                                                                       1,633            926
         Total components of Net Cost of Operations that will require or generate
           resources in future periods                                                                               2,266            680

      Components not Requiring or Generating Resources -
        Depreciation and amortization                                                                                  408            433
        Revaluation of assets or liabilities                                                                          (134)          (176)
        Other Components not Requiring or Generating Resources:
          Bad Debt Expense                                                                                            (753)         (1,256)
          Cost of Goods Sold                                                                                         1,047           5,413
        Other                                                                                                          (64)            121
        Total components of Net Cost of Operations that will not require or generate resources                         504           4,535

         Total components of Net Cost of Operations that will not require or generate
          resources in the current period                                                                            2,770          5,215

         Net Cost of Operations                                                                                 $   96,733     $   86,321




NOTE 30. CHANGES IN ACCOUNTING PRINCIPLES

The Department of Homeland Security (DHS) deposits 30% of customs duties collected into an unavailable receipt
account. AMS receives an amount annually from this account in accordance with 7 USC 612c to encourage
exportation and domestic consumption of agricultural products. Responsibility for the unavailable receipt account
had been assigned to DHS in the Governmentwide Accounting (GWA) system. Treasury and OMB decided that


186
                                      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
AMS should be assigned responsibility for the unavailable receipt account to improve governmentwide reporting.
Accordingly, the GWA was changed effective October 1, 2007. Consequently, the cumulative effect of this change
on prior periods increased the beginning balance of Cumulative Results of Operations by $13,621 million.
Effective October 1, 2007, the FS implemented a voluntary change in accounting principle to reclassify its road
prism assets from General PP&E to Stewardship PP&E. This change removes the capitalized road prism assets,
with a net book value of $2,085 million as of September 30, 2007, from the Balance Sheet as reflected in the
adjustment to the FY 2008 beginning balance of Cumulative Results of Operations in the Statement of Changes in
Net Position. This change was adopted to more accurately reflect the stewardship nature of these assets, consistent
with other federal land management agencies.
Effective for FY 2007, OMB Circular A-136, requires the parent to report all budgetary and proprietary allocation
transfer activity in its financial statements, whether material to the child, or not. Adjustments of $961 million to
the beginning balance of Cumulative Results of Operations and negative $209 million to the beginning balance of
Unexpended Appropriations reflected in the Statement of Changes in Net Position were made to comply with
reporting requirements for allocation transfers.




                                                                                                                 187
           FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
Required Supplementary Stewardship Information
STEWARDSHIP INVESTMENTS (UNAUDITED)
Stewardship investments are substantial investments made by the Federal Government for the benefit of the nation
but are not physical assets owned by the Federal Government. When incurred, they are treated as expenses in
determining the net cost of operations. However, these items merit special treatment so that users of Federal
financial reports know the extent of investments that are made for long-term benefit. Such investments are
measured in terms of expenses incurred for non-federal physical property, human capital, and research and
development.
Stewardship Investments (in millions)
                                                                           FY 2008   FY 2007   FY 2006   FY 2005   FY 2004
                                                                           Expense   Expense   Expense   Expense   Expense
            Non-Federal Physical Property:
            Food and Nutrition Service
                Food Stamp Program                                         $    32   $   20    $    21   $   22    $   36
                Special Supplemental Nutrition Program                          10       15         12       17         8
            Cooperative State Research, Education, and Extension Service
                Extension 1890 Facilities Program                               17       17         17       17        15
            Total Non-Federal Property                                     $    59   $   52    $    50   $   56    $   59

            Human Capital:
            Cooperative State Research, Education, and Extension Service
                 Higher Education and Extension Programs                   $   521   $   524   $   525   $   507   $   502
            Food and Nutrition Service
                 Food Stamp Program                                             36       51         66       49        75
            Agricultural Research Service
                 National Agricultural Library                                  22       22         22       21        21
            Risk Management Agency
                 Risk Management Education                                      10        11        10        10         7
            Total Human Capital                                            $   589   $   608   $   623   $   587   $   605

            Research and Development:
            Agricultural Research Service
                 Human Nutrition                                                85        86        85        84        83
                 Collaborative Research Program                                  4         3         7         6         5
                 Product Quality/Value Added                                   105       106       107       105       104
                 Livestock Production                                           85        85        85        84        82
                 Crop Production                                               201       202       201       197       194
                 Food Safety                                                   104       105       105       103        96
                 Livestock Protection                                           82        83        90        78        64
                 Crop Protection                                               196       198       199       193       183
                 Environmental Stewardship                                     223       224       223       219       216
                 Homeland Security                                               -         -         -         -        21
            Cooperative State Research, Education, and Extension Service
                 Land-grant University System                                  663       661       661       645       610
            Forest Service                                                     304       261       318       295       312
            Economic Research Service
                 Economic and Social Science                                    77       75         75       74        71
            National Agricultural Statistics Service
                 Statistical                                                     8         6         5         5         5
            Total Research and Development                                 $ 2,137   $ 2,095   $ 2,161   $ 2,088   $ 2,046




Non-Federal Physical Property
Food and Nutrition Service
FNS’ non-Federal physical property consists of computer systems and other equipment obtained by State and local
governments for the purpose of administering the Food Stamp Program. The total Food Stamp Program Expense
for ADP Equipment & Systems has been reported as of the date of FNS’ financial statements. FNS’ non-Federal
physical property also consists of computer systems and other equipment obtained by the State and local



188
                                       FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
governments for the purpose of administering the Special Supplemental Nutrition Program for Women, Infants
and Children.
Cooperative State Research, Education and Extension Service
The Extension 1890 facilities program supports the renovation of existing buildings and the construction of new
facilities that permit faculty, students, and communities to benefit fully from the partnership between USDA and
the historically African-American land-grant universities.
Human Capital
Cooperative State Research, Education and Extension Service
The Higher Education programs include graduate fellowship grants, competitive challenge grants, Secondary/2-
year Post Secondary grants, Hispanic serving institutions education grants, a multicultural scholars program, a
Native American institutions program, a Native American institutions endowment fund, an Alaska Native Serving
and Native Hawaiian Serving institutions program, a resident instruction grant program for insular areas, and a
capacity building program at the 1890 institutions. These programs enable universities to broaden their curricula,
increase faculty development and student research projects, and increase the number of new scholars recruited in
the food and agriculture sciences. CSREES also supports extension-related work at 1862 and 1890 land-grant
institutions throughout the country through formula and competitive programs. CSREES supported the Outreach
and Assistance for Disadvantaged Farmers Program for the first time in fiscal 2003. The purpose is to enhance the
ability of minority and small farmers and ranchers to operate farming or ranching enterprises independently to
assure adequate income and maintain reasonable lifestyles.
Food and Nutrition Service
FNS’ human capital consists of employment and training (E&T) for the Food Stamp Program. The E&T program
requires recipients of food stamp benefits to participate in an employment and training program as a condition to
food stamp eligibility.
Outcome data for the E&T program is only available through the third quarter. As of this period, FNS’ E&T
program has placed 779,173 work registrants subject to the 3 - month Food Stamp Program participant limit and
1,318,019 work registrants not subject to the limit in either job-search, job-training, job-workfare, education, or
work experience.
Agricultural Research Service
As the Nation's primary source for agricultural information, the National Agricultural Library (NAL) has a mission
to increase the availability and utilization of agricultural information for researchers, educators, policymakers,
consumers of agricultural products, and the public. The NAL is one of the world's largest and most accessible
agricultural research libraries and plays a vital role in supporting research, education, and applied agriculture.
The NAL was created as the departmental library for USDA in 1862 and became a national library in 1962. One of
four national libraries of the U.S. (with the Library of Congress, the National Library of Medicine, and the
National Library of Education), it is also the coordinator for a national network of State land-grant and USDA
field libraries. In its international role, the NAL serves as the U.S. center for the international agricultural
information system, coordinating and sharing resources and enhancing global access to agricultural data. The NAL
collection of over 3.5 million items and its leadership role in information services and technology applications
combine to make it the foremost agricultural library in the world.
Risk Management Agency
In response to the Secretary’s 1996 Risk Management Education (RME) initiative, and as mandated by the Federal
Agricultural Improvement and Reform Act of 1996, the FCIC has formed new partnerships with the CSREES,
the Commodity Futures Trading Commission, the USDA National Office of Outreach, Economic Research


                                                                                                                 189
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
Service, and private industry to leverage the federal government’s funding of its RME program by using both public
and private organizations to help educate their members in agricultural risk management. The RME effort was
launched in 1997 with a Risk Management Education Summit that raised awareness of the tools and resources
needed by farmers and ranchers to manage their risks. RMA has built on this foundation since 2003 by expanding
State and Regional education partnerships; encouraging the development of information and technology decision
aids; supporting the National Future Farmers of America (FFA) foundation with an annual essay contest;
facilitating local training workshops; and supporting Cooperative Agreements with Educational and outreach
organizations.
During fiscal years 2008 and 2007, the RME worked toward the goals by funding risk management sessions, most
of which targeted producers directly. The number of producers reached through these sessions is approximately
49,000 in fiscal years 2008 and 2007. Additionally, some training sessions helped those who work with producers,
such as lenders, agricultural educators, and crop insurance agents, better understand those areas of risk management
with which they may be unfamiliar. Total RME obligations incurred by the FCIC were approximately $10 million
for fiscal year 2008 and $11 million for fiscal year 2007. The following table summarizes the RME initiatives since
fiscal year 2004:
                          (dollars in millions)                  2008     2007     2006     2005     2004
                RME Obligations                              $    10       11       10       9.4      10
                Number of producers attending RME sessions       49,000   49,000   48,000   47,000   46,000


One of the directives of the Agricultural Risk Protection Act (ARPA) is to step up the FCIC’s educational and
outreach efforts in certain areas of the country that have been historically underserved by the Federal crop insurance
program. The Secretary determined that fifteen states met the underserved criteria. These states are Maine,
Massachusetts, Connecticut, Wyoming, New Jersey, New York, Delaware, Nevada, Pennsylvania, Vermont,
Maryland, Utah, Rhode Island, New Hampshire, and West Virginia.
Natural Resources Conservation Service
The Agency’s investment in human capital is expensed each year and is primarily for education and training
programs intended to (1) increase or maintain national economic productive capacity and (2) produce outputs and
outcomes that provide evidence of maintaining or increasing national productive capacity.
As the Nation’s conservation agenda continues to become more complex, the need for technical information and
advice will increasingly exceed the capacity of the Federal workforce to respond timely. NRCS is expanding the
capacity of its workforce through three strategies:
      1. Relying on the non-Federal entities to provide technical assistance to participants in NRCS conservation
         programs. Under authority of the 2002 Farm Bill, NRCS established processes to certify individual
         Technical Service Providers (TSP’s) and to enter into agreements with governmental and non-
         governmental entities to provide services. In FY 2008 NRCS signed agreements or renewed the
         certification of 375 individual TSP’s and 35 Business TSP’s. There are now more that 1100 individual
         TSP’s and 102 businesses certified and available to help program participants apply conservation. Since
         passage of the 2002 Farm Bill, NRCS has obligated over $248 million to acquire technical service. Web-
         based orientations and proficiency statements have been developed to help ensure that TSP’s have the
         necessary technical competencies to carry out the Agency’s programs.

      2. Acquiring the services of experienced workers on a temporary basis. NRCS is acquiring the expertise of
         older workers through the Agricultural Conservation Enrollees/Seniors (ACES) project conducted in



190
                                  FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
         partnership with the National Older Worker Career Center. This project evolved from and complements
         the TSP initiative to leverage conservation technical assistance capacity and help landowners meet
         conservation goals. NRCS has filled 300 ACES positions across the country including 260 at the field
         level.

    3. Using the time, talent, and energy of volunteers. Since the organization of local conservation districts in
       the 1930’s people have volunteered their time and talent to help get conservation on the land. In 1981,
       using new authority enacted by Congress, NRCS established the National Volunteer Program. In 1985
       that program became the Earth Team. During 2008, over 70,000 Earth Team Volunteers donated over 1
       million hours. Their time was valued at $19 million.
Research and Development
Agricultural Research Service
The ARS mission is to conduct research to develop and transfer solutions to agricultural problems of high national
priority and provide information access and dissemination to: ensure high quality, safe food, and other agricultural
products; assess the nutritional needs of Americans; sustain a competitive agricultural economy; enhance the natural
resource base and the environment; and provide economic opportunities for rural citizens, communities, and society
as a whole.
ARS has revised its Strategic Plan to align it with the Department’s new Strategic Plan. ARS’ major program areas
are being aligned as follows:
GOAL: Enhance the Competitiveness and Sustainability of Rural and Farm Economies.
Product Quality/Value Added—Many agricultural products are marketed as low value commodities and harvested
commodities often suffer losses due to spoilage or damage during shipping, storage, and handling. Healthy foods
are often not convenient and/or are not widely accepted by many consumers. Biobased products represent a small
fraction of the market for industrial products and their performance is often uncertain. Biofuels and some biobased
products are not yet economically competitive with petroleum-based products.
ARS has active research programs directed toward: 1) improving the efficiency and reducing the cost for the
conversion of agricultural products into biobased products and biofuels; 2) developing new and improved products
to help establish them in domestic and foreign markets; and 3) providing higher quality, healthy foods that satisfy
consumer needs in the United States and abroad.
Livestock Production—ARS’ livestock production program is directed toward: 1) safeguarding and utilizing animal
genetic resources, associated genetic and genomic databases, and bioinformatic tools; 2) developing a basic
understanding of the physiology of livestock and poultry; and 3) developing information, tools, and technologies
that can be used to improve animal production systems. The research is heavily focused on the development and
application of genomics technologies to increase the efficiency and product quality of beef, dairy, swine, poultry,
aquaculture, and sheep systems.
Current areas of emphasis include increasing efficiency of nutrient utilization; increasing animal well-being and
reducing stress in production systems; increasing reproductive rates and breeding animal longevity; developing and
evaluating non-traditional production systems (e.g., organic, natural); and evaluating and conserving animal genetic
resources.
Crop Production—ARS’ crop production program focuses on developing and improving ways to reduce crop losses
while protecting and ensuring a safe and affordable food supply. The research program concentrates on effective
production strategies that are environmentally friendly, safe to consumers, and compatible with sustainable and
profitable crop production systems. Research activities are directed at safeguarding and utilizing plant genetic


                                                                                                                  191
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
resources and its associated genetic, genomic, and bioinformatic databases that facilitate selection of varieties and/or
germplasm with significantly improved traits.
Current research activities attempt to minimize the impacts of crop pests while maintaining healthy crops and safe
commodities that can be sold in markets throughout the world. ARS is conducting research to: discover and
exploit naturally occurring and engineered genetic mechanisms for plant pest control; develop agronomic
germplasm with durable defensive traits; and transfer genetic resources for commercial use. ARS is also providing
taxonomic information on invasive species that strengthen prevention techniques, aid in detection/identification of
invasives, and increase control through management tactics which restore habitats and biological diversity.
GOAL: Enhance Protection and Safety of the Nation’s Agriculture and Food Supply.
Food Safety—Assuring that the United States has the highest levels of affordable, safe food requires that the food
system be protected at each stage from production through processing and consumption from pathogens, toxins,
and chemical contaminants that cause diseases in humans. The U.S. food supply is very diverse, extensive, easily
accessible, and thus vulnerable to the introduction of biological and chemical contaminants through natural
processes, intentional means, or by global commerce.
ARS’ current food safety research is designed to yield science-based knowledge on the safe production, storage,
processing, and handling of plant and animal products, and on the detection and control of toxin producing and/or
pathogenic bacteria and fungi, parasites, chemical contaminants, and plant toxins. ARS’ research activities involve
a high degree of cooperation and collaboration both within the USDA-REE agencies as well as with USDA's Food
Safety and Inspection Service and the Animal and Plant Health Inspection Service, and with other entities,
including the Food and Drug Administration, the Centers for Disease Control, the Department of Homeland
Security, and the Environmental Protection Agency. ARS also collaborates in international research programs to
address and resolve global food safety issues.
Specific research efforts are directed toward developing new technologies that assist ARS stakeholders and
customers, that is, regulatory agencies, industry, and commodity and consumer organizations in detecting,
identifying, and controlling foodborne diseases that affect human health.
Livestock Protection—ARS’ animal health program is directed at protecting and ensuring the safety of the Nation’s
agriculture and food supply through improved disease detection, prevention, control, and treatment. Basic and
applied research approaches are used to solve animal health problems of high national priority. Emphasis is given
to methods and procedures to control animal diseases.
The research program has ten strategic objectives: 1) establish ARS’ laboratories into a fluid, highly effective
research network to maximize use of core competencies and resources; 2) access specialized high containment
facilities to study zoonotic and emerging diseases; 3) develop an integrated animal and microbial genomics research
program; 4) establish centers of excellence in animal immunology; 5) launch a biotherapeutic discovery program
providing alternatives to animal drugs; 6) build a technology driven vaccine and diagnostic discovery research
program; 7) develop core competencies in field epidemiology and predictive biology; 8) develop internationally
recognized expert collaborative research laboratories; 9) establish a best in class training center for our Nation’s
veterinarians and scientists; and 10) develop a model technology transfer program to achieve the full impact of
ARS’ research discoveries.
ARS’ current animal research program includes eight core components: 1) biodefense research, 2) animal genomics
and immunology, 3) zoonotic diseases, 4) respiratory diseases, 5) reproductive and neonatal diseases, 6) enteric
diseases, 7) parasitic diseases, and 8) transmissible spongiform encephalopathies.




192
                               FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Crop Production—ARS research on crop protection is directed toward epidemiological investigations to understand
pest and disease transmission mechanisms, and to identify and apply new technologies that increase our
understanding of virulence factors and host defense mechanisms.
Currently, ARS’ research priorities include: 1) identification of genes that convey virulence traits in pathogens and
pests; 2) factors that modulate infectivity, gene functions, and mechanisms; 3) genetic profiles that provide specified
levels of disease and insect resistance under field conditions; and 4) mechanisms that facilitate the spread of pests
and infectious diseases.
ARS is developing new knowledge and integrated pest management approaches to control pest and disease
outbreaks as they occur. Its research will improve the knowledge and understanding of the ecology, physiology,
epidemiology, and molecular biology of emerging diseases and pests. This knowledge will be incorporated into pest
risk assessments and management strategies to minimize chemical inputs and increase production. Strategies and
approaches will be available to producers to control emerging crop diseases and pest outbreaks
GOAL: Improve the Nation’s Nutrition and Health.
Human Nutrition—Maintenance of health throughout the lifespan along with prevention of obesity and chronic
diseases via food-based recommendations are the major emphases of ARS’ human nutrition research program.
These health related goals are based on the knowledge that deficiency diseases are no longer the most important
public health concerns. Excessive consumption has become the primary nutrition problem in the American
population. This is reflected by increased emphasis on prevention of obesity from basic science through intervention
studies to assessments of large populations. ARS’ research programs also actively study bioactive components of
foods that have no known requirement but have health promoting activities.
Four specific areas of research are currently emphasized: 1) nutrition monitoring and the food supply, e.g., a
national diet survey and the food composition databank; 2) dietary guidance for health promotion and disease
prevention, i.e., specific foods, nutrients, and dietary patterns that maintain health and prevent disease; 3) prevention
of obesity and related diseases, including research as to why so few of the population do not follow the Dietary Guidelines for
Americans; and 4) life stage nutrition and metabolism, in order to better define the role of nutrition in pregnancy, growth of
children, and for healthier aging.
GOAL: Protect and Enhance the Nation’s Natural Resource Base and Environment.
Environmental Stewardship—ARS’ research programs in environmental stewardship support scientists at seventy
locations. Emphasis is given to developing technologies and systems that support profitable production and
enhance the Nation’s vast renewable natural resource base.
ARS is currently developing the scientific knowledge and technologies needed to meet the challenges and
opportunities facing U.S. agriculture in managing water resource quality and quantity under different climatic
regimes, production systems, and environmental conditions. ARS’ air resources research is developing
measurement, prediction, and control technologies for emissions of greenhouse gases, particulate matter, ammonia,
hydrogen sulfide, and volatile organic compounds affecting air quality and land-surface climate interactions. The
agency is a leader in developing measurement and modeling techniques for characterizing gaseous and particulate
matter emissions from agriculture. In addition, ARS is evaluating strategies for enhancing the health and
productivity of soils, including developing predictive tools to assess the sustainability of alternative land
management practices. Finding mechanisms to aid agriculture in adapting to changes in atmospheric composition
and climatic variations are also important components of ARS’ research program.
ARS’ grazing and range land research includes the conservation and restoration of the Nation’s range land and
pasture ecosystems and agroecosystems through improved management of fire, invasive weeds, grazing, global
change, and other agents of ecological change. ARS is currently developing improved grass and forage legume
germplasm for livestock, conservation, bioenergy, and bioproduct systems as well as grazing-based livestock systems


                                                                                                                              193
            FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
that reduce risk and increase profitability. In addition, the agency is developing whole system management
strategies to reduce production costs and risks.
Management Initiative—Provide Agricultural Library and Information Services to USDA and the Nation via the
National Agricultural Library.
As the Nation's primary source for agricultural information, the National Agricultural Library (NAL) has a mission
to increase the availability and utilization of agricultural information for researchers, educators, policymakers,
consumers of agricultural products, and the public. The NAL is one of the world's largest and most accessible
agricultural research libraries and plays a vital role in supporting research, education, and applied agriculture.
The NAL was created as the departmental library for USDA in 1862 and became a national library in 1962. One of
four national libraries of the U.S. (with the Library of Congress, the National Library of Medicine, and the
National Library of Education), it is also the coordinator for a national network of State land-grant and USDA
field libraries. In its international role, the NAL serves as the U.S. center for the international agricultural
information system, coordinating and sharing resources and enhancing global access to agricultural data.
The Library delivered 90 million direct customer service transactions in FY 2008. Recently, NAL, with partners in
the land-grant university and agricultural information service communities, has initiated development of the
National Digital Library for Agriculture (NDLA). Specific efforts are directed toward achieving two goals: 1)
continuing to meet the needs of its customers, and 2) implementing the NDLA.
Management Initiative—Provide Adequate Federal Facilities Required to Support the Research Mission of ARS.
ARS has over 100 laboratories, primarily located throughout the United States. ARS' facilities program is designed
to meet the needs of its scientists and support personnel to accomplish the agency's mission.
Cooperative State Research, Education, and Extension Service Program
CSREES participates in a nationwide land-grant university system of agriculture related research and program
planning and coordination between State institutions and USDA. It assists in maintaining cooperation among the
State institutions, and between the State institutions and their Federal research partners. CSREES administers
grants and formula payments to State institutions to supplement State and local funding for agriculture research.
Forest Service
FS Research and Development (R&D) provides reliable, science-based information that is incorporated into
natural resource decision making. Efforts consist of developing new technology and then adapting and transferring
this technology to facilitate more effective resource management. Some major research areas include the following:
 Fire
 Invasives
 Recreation
 Research Management and Use
 Water and Air
 Fish and Wildlife
 Research Data and Analysis

Research staff is involved in all areas of the FS, supporting agency goals by providing more efficient and effective
methods where applicable.
A representative summary of FY 2008 accomplishments include the following:
 40 new interagency agreements and contracts
 12 interagency agreements and contracts continued
 1,903 articles published in journals



 194
                                  FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
   1,487 articles published in all other publications
   6 patents granted
   1 patent licenses executed
Economic Research Service
ERS provides economic and other social science research and analysis for public and private decisions on
agriculture, food, natural resources, and rural America. Research results and economic indicators on these
important issues are fully disseminated through published and electronic reports and articles; special staff analyses,
briefings, presentations, and papers; databases; and individual contacts. ERS’ objective information and analysis
helps public and private decision makers attain the goals that promote agricultural competitiveness, food safety and
security, a well-nourished population, environmental quality, and a sustainable rural economy.
National Agricultural Statistics Service
Statistical research and service is conducted to improve the statistical methods and related technologies used in
developing U.S. agricultural statistics. The highest priority of the research agenda is to aid the NASS estimation
program through development of better estimators at lower cost and with less respondent burden. This means
greater efficiency in sampling and data collection coupled with higher quality data upon which to base the official
estimates. In addition, new products for data users are being developed with the use of technologies such as remote
sensing and geographic information systems. Continued service to users will be increasingly dependent upon
methodological and technological efficiencies.




                                                                                                                  195
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
Required Supplementary Information
STEWARDSHIP PROPERTY, PLANT AND EQUIPMENT (UNAUDITED)
In accordance with SFFAS 29, physical units added and withdrawn during the year, and a description of the
methods of acquisition and withdrawal are classified as RSI for FY 2008. For reporting periods beginning after
September 30, 2008, all information on heritage assets and stewardship land will be reported as basic information,
except for condition information which is classified as RSI.
Heritage Assets
Acquisition and Withdrawal of Heritage Assets
The FS generally does not construct heritage assets, although in some circumstances important site-structural
components may be rehabilitated or reconstructed into viable historic properties to provide forest visitors with use
and interpretation. Heritage assets may be acquired through the procurement process, but this rarely occurs.
Normally, heritage assets are part of the land acquisition and inventory process. Withdrawal occurs through land
exchange or natural disasters. Most additions occur through inventory activities where previously undocumented
sites are discovered and added to the total. Although not technically additions—they already existed on NFS
lands—they do represent an increased management responsibility commensurate with the spirit of “additions.” For
FY 2008 there were no additions or withdrawals of heritage asset sites.
Condition
The condition of FS heritage assets depends on the type of asset and varies from poor to fair.
Stewardship Land
Acquisition and Withdrawal of Stewardship Lands
The Land and Water Conservation Fund (L&WCF) Land Acquisition Program acquires land for the National
Forest System (NFS) of the FS. The program coordinates with a variety of partners, including State, local, and
Tribal governments, and private landowners through statewide planning for development of a land-adjustment
strategy.
The Land Acquisition Program preserves, develops, and maintains access to NFS lands and waters for the public
and provides permanent access to public lands for recreation, commodity production, resource management, public
safety, and community economic viability.
The L&WCF statutory authority specifically defines the purpose to also include protecting the quality of scientific,
scenic, historical, ecological, environmental, air and atmospheric, water resource, archeological values as well as
food and habitat for fish and wildlife, and managing the public lands for minerals, food, timber and fiber.
From these several allowable uses of program funding, the program concentrates on protecting habitat for priority
species identified in the national forest and grassland’s Land Management Plans (LMPs) and enhancing
recreational opportunities for areas with high demand for recreation. The program focuses acquisitions on
inholdings and areas adjacent to existing NFS lands. For FY 2008 there were no additions or withdrawals of
stewardship land sites.
Condition
The condition of NFS lands varies by purpose and location. The FS monitors the condition of NFS lands based on
information compiled by two national inventory and monitoring programs—Forest Inventory and Analysis (FIA)
and Forest Health Monitoring (FHM).




196
                                  FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
The FIA program conducts annual inventories of forest status and trends. FIA has historic inventory data in all 50
States and is currently collecting annual inventory data in 47 States, including 39 of the 41 States containing NFS
land. Active throughout all 50 States, FHM provides surveys and evaluations of forest health conditions and trends.
Although most of the estimated 193 million acres of NFS lands continue to produce valuable benefits (i.e., clean
air, clean water, habitat for wildlife, and products for human use), significant portions are at risk to pest outbreaks
or catastrophic fires. There are 25 million acres of NFS forestlands at risk to future mortality from insects and
diseases, based on the 2007 Insect and Disease Risk Map. Invasive species of insects, diseases, and plants continue
to affect our native ecosystems by causing mortality to, or displacement of, native vegetation. The FS completed
insect and disease prevention and suppression treatments on over 53,000 acres of NFS lands in FY 2008.



                                                   FY 2008           Additions         Withdrawals          FY 2007
  Heritage Assets
    National Forests                                      155                    -                -                155
    National Grasslands                                    20                    -                -                 20
    Other Sites                                            22                    -                -                 22
    Research Centers                                       37                    -                -                 37
    Library Collections                                     1                    -                -                  1
  Total                                                   235                    -                -                235

  Stewardship Land
    National Forests                                      155                 -                   -                 155
    National Grasslands                                    20                 -                   -                  20
    Research and Experimental Areas                         3                 -                   -                   3
    National Preserves and Other Areas                      3                 -                   -                   3
    Conservation Easements                             10,431               712                   -               9,719
  Total                                                10,612               712                   -               9,900




DEFERRED MAINTENANCE (UNAUDITED)
Deferred maintenance is maintenance that was scheduled to be performed but was delayed until a future period.
Deferred maintenance represents a cost that the Federal Government has elected not to fund and, therefore, the
costs are not reflected in the financial statements.
Maintenance is defined to include preventive maintenance, normal repairs, replacement of parts and structural
components, and other activities needed to preserve the asset so that it continues to provide acceptable service and
achieve its expected life. Maintenance excludes activities aimed at expanding the capacity of an asset or otherwise
upgrading it to service needs different from, or significantly greater than, those originally intended.




                                                                                                                    197
           FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
Forest Service
                                                       Cost to Return to       Cost of Critical   Cost of Non-critical
        FY 2008
                                                     Acceptable Condition       Maintenance         Maintenance
Asset Class
    Bridges                                         $                  133     $           28      $              105
    Buildings                                                          712                117                     595
    Dam                                                                 24                  9                      15
    Minor Constructed Features                                         102                  -                     102
    Fence                                                              301                301                       -
    Handling Facility                                                   23                 23                       -
    Heritage                                                            16                  5                      11
    Road                                                             3,400                782                   2,618
    Trail Bridge                                                        10                  3                       7
    Wastewater                                                          35                 20                      15
    Water                                                              103                 60                      43
    Wildlife, Fish, TES                                                  7                  5                       2
    Trails                                                             279                  7                     272
    General Forest Area                                                  -                  -                       -
Total Forest Service                                $                5,145     $        1,360      $            3,785


                                                       Cost to Return to       Cost of Critical   Cost of Non-critical
        FY 2007
                                                     Acceptable Condition       Maintenance         Maintenance
Asset Class
    Bridges                                         $                  123     $           29      $               94
    Buildings                                                          543                114                     429
    Dam                                                                 21                  7                      14
    Minor Constructed Features                                          90                  -                      90
    Fence                                                              324                324                       -
    Handling Facility                                                   23                 23                       -
    Heritage                                                            17                  5                      12
    Road                                                             8,134              3,675                   4,459
    Trail Bridge                                                         9                  3                       6
    Wastewater                                                          32                 17                      15
    Water                                                               89                 54                      35
    Wildlife, Fish, TES                                                  6                  4                       2
    Trails                                                             224                  2                     222
    General Forest Area                                                  -                  -                       -
Total Forest Service                                $                9,635     $        4,257      $            5,378



Deferred maintenance is reported for general Property, Plant, and Equipment (PP&E), heritage assets, and
stewardship assets. It is also reported separately for critical and noncritical amounts of maintenance needed to
return each class of asset to its acceptable operating condition. Critical maintenance is defined as a serious threat to
public health or safety, a natural resource, or the ability to carry out the mission of the organization. Noncritical
maintenance is defined as a potential risk to the public or employee safety or health (e.g., compliance with codes,
standards, or regulations) and potential adverse consequences to natural resources or mission accomplishment.



 198
                               FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
The FS uses condition surveys to estimate deferred maintenance on all major classes of PP&E. No deferred
maintenance exists for fleet vehicles and computers that are managed through the agency’s working capital fund
(WCF). Each fleet vehicle is maintained according to schedule. The cost of maintaining the remaining classes of
equipment is expensed.
The agency’s deferred maintenance for roads is determined from surveys of an annual random sample of a sufficient
number of roads to achieve estimates of 95 percent accuracy and 95 percent confidence. Five hundred roads were
included in the FY 2008 sample.
Deferred maintenance needs for all other asset groups are determined from surveys of all individual assets on a
revolving schedule where the interval between visits does not exceed 5 years.
The overall condition of major asset classes range from poor to good depending on the location, age, and type of
property. The standards for acceptable operating condition for various classes of general PP&E, stewardship, and
heritage assets are as follows.
Conditions of roads and bridges within the National Forest System (NFS) road system are measured by various
standards:
 Federal Highway Administration regulations for the Federal Highway Safety Act;
 Best management practices (BMP) for the nonpoint source provisions of the Clean Water Act from
   Environmental Protection Agency and States;
 Road management objectives developed through the National Forest Management Act (NFMA) forest
   planning process;
 Forest Service Directives—Forest Service Manual (FSM) 7730, Operation and Maintenance (January 2003
    amendment was superseded with August 25, 2005, revision); Forest Service Handbook (FSH) 7709.56a, Road
    Preconstruction, and FSH 7709.56b, Transportation Structures Handbook.
Dams shall be managed according to FSM 7500, Water Storage and Transmission, and FSH 7509.11, Dams
Management Handbook, as determined by condition surveys. The overall condition of dams is below acceptable.
The condition of a dam is acceptable when the dam meets current design standards and does not have any
deficiencies that threaten the safety of the structure or public. For dams to be rated as in acceptable condition, the
agency needs to restore the dams to the original functional purpose, correct unsightly conditions, or prevent more
costly repairs.
Buildings shall comply with the National Life Safety Code, the Forest Service Health and Safety Handbook, and
the Occupational Safety Health Administration as determined by condition surveys. These requirements are found
in FSM 7310, Buildings and Related Facilities, revised November 19, 2004. The condition of administrative
facilities ranges from poor to good, with approximately 36 percent needing major repairs or renovations;
approximately 11 percent of in fair condition; and 53 percent of the facilities in good condition.
Recreation facilities include developed recreation sites, general forest areas, campgrounds, trailheads, trails, water
and wastewater systems, interpretive facilities, and visitor centers. These components are included in several asset
classes of the deferred maintenance exhibit. All developed sites are managed in accordance with Federal laws and
regulations (CFR 36).
Detailed management guidelines are contained in FSM 2330, Publicly Managed Recreation Opportunities, and
forest-level and regional-level user guides. Quality standards for developed recreation sites were established as
Meaningful Measures for health and cleanliness, settings, safety and security, responsiveness, and the condition of
the facility.
The condition assessment for range structures (fences and stock handling facilities) is based on (1) a determination
by knowledgeable range specialists or other district personnel of whether the structure would perform the originally


                                                                                                                    199
           FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
intended function, and (2) a determination through the use of a protocol system to assess conditions based on age.
A long-standing range methodology is used to gather this data.
Heritage assets include archaeological sites that require determinations of National Register of Historic Places
status, National Historic Landmarks, and significant historic properties. Some heritage assets may have historical
significance, but their primary function in the agency is as visitation or recreation sites and, therefore, may not fall
under the management responsibility of the heritage program.
Trails and trail bridges are managed according to Federal law and regulations (CFR 36). More specific direction is
contained in FSM 2350, Trail, River, and Similar Recreation Opportunities, and the FSH 2309.18, Trails
Management Handbook.
Deferred maintenance of structures for wildlife, fish, and threatened and endangered species (TES) is determined
by field biologists using their professional judgment. The deferred maintenance is considered critical if resource
damage or species endangerment would likely occur if maintenance were deferred much longer.
Agricultural Research Service

                                              FY 2008        FY 2007
   Asset Class
      Buildings                               $    241       $    314
      Structures                                    36             44
      Heritage                                      80              4
   Total Agricultural Research Service        $    357       $    362

Deferred Maintenance (DM) includes work needed to meet laws, regulations, codes and other legal direction as
long as the original intent or purpose of the fixed asset is not changed. Also includes work performed to bring an
asset up to present environmental standards or correction of safety problems. Critical DM is DM that is identified
for critical systems including HVAC, electrical, roofing, and plumbing tasks. Non-critical DM is all other systems.
DM is reported for buildings, structures and heritage assets.
Executive Order (EO) 13327 requires all Federal agencies to assess the condition of their facilities and plan for
their full life cycle management. The Condition Index (CI) is a general measure of the constructed asset’s
condition at a specific point in time. It is calculated as the ration of repair needs, or DM, to plant replacement
value (PRV). PRV can be calculated systematically and without much effort. The condition of the constructed
asset is a more difficult figure to determine. A repair need is the amount necessary to ensure a constructed asset is
restored to a condition substantially equivalent to the originally intended and designed capacity, efficiency or
capability. Ideally, with enough money and time, repair needs would be determined for each asset by inspection,
evaluation of the repairs required, and consistent estimating of the repairs throughout ARS. ARS does not have
available manpower in-house to complete this type of inspection and estimating, nor the funding to contract. ARS
looked at approaches to model ARS assets and evaluate the results for management purposes.
Whitestone Research is a company that estimates DM based on the age of the facility, geographic location, typical
major components and size of the structure. Whitestone first inspected a sample of representative buildings from
eleven ARS sights (roughly 40 percent of the total inventory) and used parametric models to estimate DM and
PRV. These results were generalized to the entire population of ARS facilities. Assuming a PRV of $3.5 billion,
the CI ratio (1 - $DM/PRV) is 91%, an outcome commonly classified as “adequate.”




200
                                FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
STATEMENT OF BUDGETARY RESOURCES (UNAUDITED)

FY 2008                                                               FSA                         CCC                   FAS          RMA           FNS            FSIS           AMS           APHIS
                                                                     Non-Budgetary               Non-Budgetary
                                                                       Financing                   Financing
                                                           Budgetary   Accounts        Budgetary   Accounts         Budgetary    Budgetary     Budgetary      Budgetary      Budgetary     Budgetary
Budgetary Resources:
Unobligated balance, brought forward, October 1:           $   3,165     $   1,820     $    1,604     $   2,139     $     387    $    2,262    $   14,891     $       57     $     603     $      362
Recoveries of prior year unpaid obligations                       40            81          1,246            27            96             2           637          1,074            14            129
Budget Authority:
  Appropriation                                                3,410             -         16,154             -           261         4,222        53,836            940          7,844          1,437
  Borrowing Authority                                              -         1,897         30,267           302             -             -             -              -              -              -
  Earned -
    Collected                                                    791         1,499         13,812         1,250           141         2,068              85          150           110            111
    Change in receivables from Federal Sources                    (3)            -             10          (177)          (42)            -               -            5             -             (9)
  Change in unfilled customer orders -
    Advances received                                              -              -              3            -             -             -             -              -              -            (19)
    Without advance from Federal Sources                          (1)            (1)             -          194            22             -             -              -              -              -
  Expenditure transfers from trust funds                           -              -            959            -             -             -             -              -              -              -
Nonexpenditure transfers, net, anticipated and actual              -              -         (2,620)           -             2             1         6,277             (2)        (6,296)          (225)
Temporarily not available pursuant to Public Law                   -              -              -            -             -             -             -              -              -              -
Permanently not available                                       (365)        (2,323)       (33,375)        (350)          (35)           (1)         (838)           (19)          (687)           (24)
 Total Budgetary Resources                                     7,037          2,973         28,060        3,385           832         8,554        74,888          2,205          1,588          1,762

Status of Budgetary Resources:
Obligations Incurred:
  Direct                                                       4,413         2,104          2,868           869           325         6,497        60,602          2,008          1,096          1,068
 Reimbursable                                                    409             -         23,094             -           125             -            28            168             59            326
Unobligated Balance:
 Apportioned                                                   1,092            65            276         1,662            12         2,053           974              8             92            335
 Exempt from Apportionment                                         -             -            811             5             -             -             -              -            289              -
Unobligated balance not available                              1,123           804          1,011           849           370             4        13,284             21             52             33
Total Status of Budgetary Resources                            7,037         2,973         28,060         3,385           832         8,554        74,888          2,205          1,588          1,762

Change in Obligated Balances:
Obligated balance, net, brought forward October 1                 215           432          7,734          (53)           11           180          4,154            137           112            407
Obligations incurred                                            4,822         2,104         25,962          869           450         6,497         60,630          2,176         1,155          1,394
Gross outlays                                                  (4,504)       (2,127)       (24,797)        (766)         (365)       (6,219)       (59,859)        (1,072)       (1,132)        (1,291)
Recoveries of prior year unpaid                                   (40)          (81)        (1,246)         (27)          (96)           (2)          (637)        (1,074)          (14)          (129)
Change in uncollected payments from Federal Sources                 5             1            (10)         (17)           20             -              -             (5)            -              9
Obligated balance, net, end of period -
 Unpaid obligations                                              512           343          7,968           200           106          456          4,288            190           124            410
 Uncollected customer payments from Federal Sources              (15)          (13)          (322)         (194)          (86)           -              -            (28)           (2)           (19)
 Obligated balance, net, end of period                           497           330          7,646             6            20          456          4,288            162           122            391

Net Outlays:
 Gross outlays                                                 4,504          2,127       24,797             766          365         6,219        59,859          1,072          1,132          1,291
 Offsetting collections                                         (791)        (1,499)     (14,773)         (1,249)        (141)       (2,068)          (85)          (150)          (111)           (93)
 Distributed offsetting receipts                                (581)             -            -            (353)          (1)            -            (1)           (13)          (185)           (20)
 Net Outlays                                               $   3,132 $          628    $ 10,024 $           (836)   $     223    $    4,151    $   59,773     $      909     $      836    $     1,178




                                                                                                                                                                                                          201
                                                        FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
FY 2008                                                     GIPSA         FS             NRCS           ARS        CSREES            ERS             NASS                 RD                     DO                 TOTAL
                                                                                                                                                                          Non-Budgetary                              Non-Budgetary
                                                                                                                                                                            Financing                                  Financing
                                                        Budgetary     Budgetary      Budgetary      Budgetary      Budgetary     Budgetary       Budgetary      Budgetary   Accounts         Budgetary     Budgetary   Accounts
Budgetary Resources:
Unobligated balance, brought forward, October 1:        $       13    $   1,672      $    1,047     $     210      $     126     $          3    $          5   $   1,182     $    1,249     $     167     $    27,756     $    5,208
Recoveries of prior year unpaid obligations                      4           78             491            56             33                2               1         171          1,118            29           4,103          1,226
Budget Authority:
  Appropriation                                                 39        6,309           1,434          1,202         1,211               78          165          3,669              -           444         102,655              -
  Borrowing Authority                                            -            -               -              -             -                -            -              -         12,712             -          30,267         14,911
  Earned -
    Collected                                                   46          561             148               81          38                1           19          4,374          6,106           834          23,370          8,855
    Change in receivables from Federal Sources                  (1)          38              (9)               3           3                -           (3)           (21)             -           (16)            (45)          (177)
  Change in unfilled customer orders -
    Advances received                                            -           (7)             (3)            (1)           17                -            -               -             -             4              (6)             -
    Without advance from Federal Sources                         -            3              27             16            (3)               -            -               -            48           (52)             12            241
  Expenditure transfers from trust funds                         -            4               -              -             -                -            -               -             -             -             963              -
Nonexpenditure transfers, net, anticipated and actual            -           (2)          1,956              4            35                1            1             120             -             5            (743)             -
Temporarily not available pursuant to Public Law                 -            -               -              -           (11)               -            -               -             -             -             (11)             -
Permanently not available                                       (3)         (71)             (7)           (17)          (17)              (2)          (2)         (3,455)       (4,238)           (7)        (38,925)        (6,911)
 Total Budgetary Resources                                      98        8,585           5,084          1,554         1,432               83          186           6,040        16,995         1,408         149,396         23,353

Status of Budgetary Resources:
Obligations Incurred:
  Direct                                                        42        6,055           3,174          1,212         1,245               78          166          3,701         15,066           535          95,085         18,039
 Reimbursable                                                   42          360             117            101            60                1           16            512              -           815          26,233              -
Unobligated Balance:
 Apportioned                                                     7          982             517            216           123                1            2          1,234          1,057             1           7,925          2,784
 Exempt from Apportionment                                       -            -               -              -             -                -            -              -              -             -           1,100              5
Unobligated balance not available                                7        1,188           1,276             25             4                3            2            593            872            57          19,053          2,525
Total Status of Budgetary Resources                             98        8,585           5,084          1,554         1,432               83          186          6,040         16,995         1,408         149,396         23,353

Change in Obligated Balances:
Obligated balance, net, brought forward October 1                4         1,859           3,176           478          1,411           31               14          5,381         17,728           168          25,472         18,107
Obligations incurred                                            84         6,415           3,291         1,313          1,305           79              182          4,213         15,066         1,350         121,318         18,039
Gross outlays                                                  (78)       (6,448)         (2,951)       (1,376)        (1,193)         (79)            (179)        (4,528)       (11,269)       (1,373)       (117,444)       (14,162)
Recoveries of prior year unpaid                                 (4)          (78)           (491)          (56)           (33)          (2)              (1)          (171)        (1,118)          (29)         (4,103)        (1,226)
Change in uncollected payments from Federal Sources              -           (41)            (18)          (19)             -            -                3             21            (48)           68              33            (64)
Obligated balance, net, end of period -
 Unpaid obligations                                             11        2,132           3,092           436          1,566               29           23          4,924         21,047           349          26,616         21,590
 Uncollected customer payments from Federal Sources             (5)        (425)            (86)          (96)           (77)               -           (3)            (8)          (689)         (167)         (1,339)          (896)
 Obligated balance, net, end of period                           6        1,707           3,006           340          1,489               29           20          4,916         20,358           182          25,277         20,694

Net Outlays:
 Gross outlays                                                  78        6,448           2,951          1,376         1,193               79          179           4,528        11,269         1,373      117,444            14,162
 Offsetting collections                                        (47)        (558)           (145)           (81)          (55)              (1)         (19)         (4,374)       (6,107)         (835)      (24,327)          (8,855)
 Distributed offsetting receipts                                 -         (514)              3            (23)           (4)               -           (1)           (494)            -           (55)       (1,889)            (353)
 Net Outlays                                            $       31    $   5,376      $    2,809     $    1,272     $   1,134     $         78    $     159      $     (340) $      5,162     $     483     $ 91,228 $           4,954




202
                                                                                    FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
FY 2007                                                                 FSA                         CCC                   FAS            RMA           FNS            FSIS          AMS           APHIS
                                                                       Non-Budgetary               Non-Budgetary
                                                                         Financing                   Financing
                                                             Budgetary   Accounts        Budgetary   Accounts         Budgetary      Budgetary     Budgetary      Budgetary     Budgetary     Budgetary
Budgetary Resources:
Unobligated balance, brought forward, October 1:             $     370     $     781     $    1,165     $   1,627     $     296      $    1,269    $   12,418     $       41    $     248     $      358
Recoveries of prior year unpaid obligations                         40            84            717            15           132               3           761            104           15            156
Budget Authority:
  Appropriation                                                  4,480             -         25,873             -           346           4,456        51,313            901         7,262          1,341
  Borrowing Authority                                                -         1,351         41,185           281             -               -             -              -             -              -
  Earned -
    Collected                                                      808         1,342         16,885         1,188               58        1,364              86          135          187            189
    Change in receivables from Federal Sources                       6             -           (963)            4                6            -               -            6           (3)             9
  Change in unfilled customer orders -
    Advances received                                                -             -            (181)           -             -               -            (2)             -             -             (5)
    Without advance from Federal Sources                             -             -               -            -            62               -            (1)             -             -              -
  Expenditure transfers from trust funds                             -             -             934            -             -               -             -              -             -              -
Nonexpenditure transfers, net, anticipated and actual                -             -          (1,831)           -             8              (6)        5,746             (1)       (5,812)          (235)
Temporarily not available pursuant to Public Law                     -             -               -            -             -               -             -              -             -              -
Permanently not available                                         (419)         (286)        (51,934)         (69)           (3)             (3)       (1,034)           (17)         (120)            (4)
 Total Budgetary Resources                                       5,285         3,272          31,850        3,046           905           7,083        69,287          1,169         1,777          1,809

Status of Budgetary Resources:
Obligations Incurred:
  Direct                                                         1,707         1,452          2,894           907           357           4,820        54,372            976         1,111          1,054
 Reimbursable                                                      413             -         27,352             -           161               1            24            136            63            393
Unobligated Balance:
 Apportioned                                                     3,045           396            401         1,083           107           2,260           639             22            37            330
 Exempt from Apportionment                                           -             -            808             5             -               -             -              -           539              -
Unobligated balance not available                                  120         1,424            395         1,051           280               2        14,252             35            27             32
Total Status of Budgetary Resources                              5,285         3,272         31,850         3,046           905           7,083        69,287          1,169         1,777          1,809

Change in Obligated Balances:
Obligated balance, net, brought forward October 1                   245           462          8,006          (99)           38             276          4,165            96           107            449
Obligations incurred                                              2,120         1,452         30,246          907           518           4,821         54,396         1,112         1,174          1,447
Gross outlays                                                    (2,104)       (1,398)       (30,764)        (843)         (346)         (4,914)       (53,648)         (961)       (1,155)        (1,324)
Recoveries of prior year unpaid                                     (40)          (84)          (717)         (15)         (132)             (3)          (761)         (104)          (15)          (156)
Change in uncollected payments from Federal Sources                  (6)            -            963           (4)          (68)              -              1            (6)            3             (9)
Obligated balance, net, end of period -
 Unpaid obligations                                                235           446          8,046           125           117            180          4,154            160          115            436
 Uncollected customer payments from Federal Sources                (20)          (14)          (312)         (178)         (106)             -              -            (23)          (3)           (29)
 Obligated balance, net, end of period                             215           432          7,734           (53)           11            180          4,154            137          112            407

Net Outlays:
 Gross outlays                                                   2,104          1,398       30,764             843          346           4,914        53,648            961         1,155          1,324
 Offsetting collections                                           (808)        (1,343)     (17,637)         (1,189)         (58)         (1,364)          (84)          (135)         (187)          (184)
 Distributed offsetting receipts                                   (89)             -            -            (464)           -               -             3             (7)         (140)           (25)
 Net Outlays                                                 $   1,207 $           55    $ 13,127 $           (810)   $     288      $    3,550    $   53,567     $      819    $      828    $     1,115




                                                                                                                                                                                                             203
                                                        FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
      FY 2007                                                     GIPSA         FS            NRCS           ARS         CSREES            ERS             NASS                 RD                     DO                 TOTAL
                                                                                                                                                                                Non-Budgetary                              Non-Budgetary
                                                                                                                                                                                  Financing                                  Financing
                                                              Budgetary     Budgetary     Budgetary      Budgetary       Budgetary     Budgetary       Budgetary      Budgetary   Accounts         Budgetary     Budgetary   Accounts
      Budgetary Resources:
      Unobligated balance, brought forward, October 1:        $        9    $    1,809    $      864     $     308       $     133     $          1    $          3   $   1,818     $    1,307     $     172     $    21,282       3,715
      Recoveries of prior year unpaid obligations                     10           112           564            98             213                5               6         169          1,346            70           3,175       1,445
      Budget Authority:
        Appropriation                                                 38         5,586           874          1,148          1,208               75          148          2,821              -           558         108,428           -
        Borrowing Authority                                            -             -             -              -              -                -            -              -         10,846             -          41,185      12,478
        Earned -
          Collected                                                   39          525            173               83           31                1           23          4,797          5,983           774          26,158       8,513
          Change in receivables from Federal Sources                   1          (44)           (21)              (3)           -                -            1            (44)             -           (20)         (1,069)          4
        Change in unfilled customer orders -
          Advance received                                             -             5             -              -             13                -            -               -             -             -            (170)          -
          Without advance from Federal Sources                         -            (5)            6             (1)            13                -           (6)              -             8            28              96           8
         Expenditure transfers from trust funds                        -             -             -              -              -                -            -               -             -             -             934           -
      Nonexpenditure transfers, net, anticipated and actual            -            21         1,747              3              5                -            -              14             -             5            (336)          -
      Temporarily not available pursuant to Public Law                 -             -             -              -            (36)               -            -               -             -             -             (36)          -
      Permanently not available                                        -             -            (1)            (6)            (2)               -            -          (4,086)       (5,902)           (6)        (57,635)     (6,257)
       Total Budgetary Resources                                      97         8,009         4,206          1,630          1,578               82          175           5,489        13,588         1,581         142,012      19,906

      Status of Budgetary Resources:
      Obligations Incurred:
        Direct                                                        45         6,048         3,000          1,336          1,388               78          151          3,790         12,339           616          83,743      14,698
       Reimbursable                                                   39           289           159             84             64                1           19            517              -           798          30,513           -
      Unobligated Balance:
       Apportioned                                                     7           840           234            189            117                1            4            427            438           134           8,794       1,917
       Exempt from Apportionment                                       -             -             4              -              -                -            -              -              -             -           1,351           5
      Unobligated balance not available                                6           832           809             21              9                2            1            755            811            33          17,611       3,286
      Total Status of Budgetary Resources                             97         8,009         4,206          1,630          1,578               82          175          5,489         13,588         1,581         142,012      19,906

      Change in Obligated Balances:
      Obligated balance, net, brought forward October 1                9         1,950          3,484           538           1,365           30               13          5,652         18,537           114          26,537     18,900
      Obligations incurred net                                        84         6,337          3,159         1,420           1,452           79              170          4,307         12,339         1,414         114,256     14,698
      Gross outlays                                                  (78)       (6,366)        (2,918)       (1,387)         (1,181)         (74)            (166)        (4,452)       (11,793)       (1,280)       (113,118)   (14,034)
      Recoveries of prior year unpaid                                (10)         (112)          (564)          (98)           (213)          (5)              (6)          (169)        (1,346)          (70)         (3,175)    (1,445)
      Change in uncollected payments from Federal Sources             (1)           49             15             4             (12)           -                4             44             (7)           (8)            973        (11)
      Obligated balance, net, end of period
       Unpaid obligations                                             10         2,243         3,244           555           1,488               31           20          5,410         18,369           400          26,844      18,940
       Uncollected customer payments from Federal Sources             (6)         (384)          (68)          (77)            (77)               -           (6)           (29)          (641)         (232)         (1,372)       (833)
       Obligated Balance, net, end of period                           4         1,859         3,176           478           1,411               31           14          5,381         17,728           168          25,472      18,107

      Net Outlays:
       Gross outlays                                                  78         6,366         2,918          1,387          1,181               74          166           4,452        11,793         1,280      113,118         14,034
       Offsetting collections                                        (39)         (530)         (173)           (83)           (44)              (1)         (23)         (4,798)       (5,982)         (773)      (26,921)       (8,514)
       Distributed offsetting receipts                                 -          (500)            6            (19)            (3)               -            -            (488)            -           (41)       (1,303)         (464)
       Net Outlays                                            $       39    $    5,336    $    2,751     $    1,285      $   1,134     $         73    $     143      $     (834) $      5,811     $     466     $ 84,894 $        5,056




204
                                                                                FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
RISK ASSUMED INFORMATION (UNAUDITED)
Risk assumed is generally measured by the present value of unpaid expected losses net of associated premiums based
on the risk inherent in the insurance or guarantee coverage in force. Risk assumed information is in addition to the
liability for unpaid claims from insured events that have already occurred. The assessment of losses expected based
on the risk assumed are based on actuarial or financial methods applicable to the economic, legal and policy
environment in force at the time the assessments are made. The FCIC has estimated the loss amounts based on
the risk assumed for its programs to be $9,859 million and $6,579 million as of September 30, 2008 and 2007,
respectively.




                                                                                                                205
           FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION
206
      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                          Other
                                          Accompanying
                                          Information
Appendix A—Management Challenges




                                                         207
                       OTHER ACCOMPANYING INFORMATION
208
      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 209
OTHER ACCOMPANYING INFORMATION
210
      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 211
OTHER ACCOMPANYING INFORMATION
212
      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 213
OTHER ACCOMPANYING INFORMATION
214
      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 215
OTHER ACCOMPANYING INFORMATION
216
      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 217
OTHER ACCOMPANYING INFORMATION
218
      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 219
OTHER ACCOMPANYING INFORMATION
220
      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 221
OTHER ACCOMPANYING INFORMATION
222
      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 223
OTHER ACCOMPANYING INFORMATION
224
      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 225
OTHER ACCOMPANYING INFORMATION
226
      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 227
OTHER ACCOMPANYING INFORMATION
228
      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 229
OTHER ACCOMPANYING INFORMATION
230
      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 231
OTHER ACCOMPANYING INFORMATION
232
      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 233
OTHER ACCOMPANYING INFORMATION
234
      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 235
OTHER ACCOMPANYING INFORMATION
236
      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 237
OTHER ACCOMPANYING INFORMATION
238
      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 239
OTHER ACCOMPANYING INFORMATION
240
      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 241
OTHER ACCOMPANYING INFORMATION
242
      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 243
OTHER ACCOMPANYING INFORMATION
244
      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 245
OTHER ACCOMPANYING INFORMATION
246
      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 247
OTHER ACCOMPANYING INFORMATION
248
      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 249
OTHER ACCOMPANYING INFORMATION
250
      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 251
OTHER ACCOMPANYING INFORMATION
252
      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 253
OTHER ACCOMPANYING INFORMATION
Appendix B—Improper Payment and Recovery Auditing Details
Since 2000, agencies have reported efforts to reduce erroneous payments through the Office of Management and
Budget’s (OMB) Circular A-11. Under the Improper Payments Information Act (IPIA), executive agencies must
identify any of its programs that may be susceptible to significant improper payments, estimate the annual amount
of improper payments and submit those estimates to Congress. Section 831 of the Defense Authorization Act
requires recovery auditing. In this process, agencies entering into contracts worth more than $500 million in a fiscal
year must execute a cost effective program for identifying errors made in paying contractors and for recovering
amounts erroneously paid to the contractors. In FY 2005, Eliminating Improper Payments became a President’s
Management Agenda (PMA) initiative. On August 10, 2006, Government-wide guidance was consolidated into
OMB Circular A-123, Management's Responsibility for Internal Control, Appendix C. Under this guidance,
USDA has 5 programs required to report under Section 57 of A-11 and has identified an additional 11 at risk of
significant improper payments through the risk assessment process.
For the fourth quarter of FY 2008, USDA achieved “green” for both progress and status on the Eliminating
Improper Payments PMA initiative. Accomplishments this year include:
 Completed risk assessments for all programs;
 Developed plans to measure improper payments for all high risk programs, and received OMB approval;
 Developed corrective action plans to reduce improper payments and established both reduction and recovery
   targets (where appropriate) for the high risk programs; and
 Fully complied with reporting standards.

USDA’s improper payment rate of 6.13 percent for FY 2008, was similar to the 6.11 percent rate reported for FY
2007. The estimated improper payments amount of $4.1 billion for FY 2008 is a reduction from the $4.4 billion
estimated for FY 2007. The 2008 results demonstrate that improper payments are being reduced and consistent
progress is being made:
 Seven USDA high risk programs, accounting for 58 percent of USDA’s total reportable outlays, reported error
    rates below their reduction targets in FY 2008. This meets the new Green score criteria of achieving reduction
    targets for 50 percent or more of the agency’s total reportable outlays.;
 NRCS’ Farm Security and Rural Investment Program error rate of 0.00 percent was below its reduction target
    of 0.40 percent;
 FS’ Wildland Fire Suppression Management Program error rate of 0.02 percent was below its reduction target
    of 0.90 percent;
 FNS’ Food Stamp Program (FSP) error rate of 5.64 percent was below its reduction target of 5.80 percent. The
    FSP error rate is a historic low for the program and is the 4th year in a row that the FSP error rate has been
    below 6 percent, long considered the standard for recognition in the program;
 FNS’ Child and Adult Care Food Program error rate of 1.56 percent was below its reduction target of 1.64
    percent;
 FSA’s Marketing Assistance Loan Program error rate of 1.76 percent was below its reduction target of 7.00
    percent;
 FSA’s Milk Income Loss Contract Program error rate of 0.21 percent was below its reduction target of 2.00
    percent; and
 FSA’s Miscellaneous Disaster Programs error rate of 3.13 percent was below its reduction target of 5.00%.

In 2008, OIG removed improper payments from the list of Departmental management challenges based on the
strategies implemented and progress made by the Department and the agencies with high risk programs. OIG
noted that agencies have taken steps to accurately estimate the rate of improper payments and made significant
improvements in internal controls and payment processes. Also noted was FSA’s decrease in improper payments
from $2.9 billion in FY 2006 to $563 million in FY 2007 (a decline from 11.2 percent to 2.5 percent).


254
                              FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
USDA has established improper payment recovery targets, where appropriate, and actively collects recoveries.
USDA’s total improper payment recoveries of $138.3 million reported for FY 2008 exceeded the Departmental
recovery target of $68.3 million. USDA continues the contract payments recovery auditing program covering eight
agencies. Since 2005, USDA agencies have recovered $1.1 million in contact payments identified for recovery.
USDA’s goal is to continue to achieve Green for both status and progress in FY 2009. An additional goal for 2009
is to achieve results which will allow 1 or more of USDA’s 16 programs to be removed from the high risk list.
These goals are based USDA’s previous accomplishments, planned corrective actions in progress, and established
improper payment reduction and recovery targets.
OMB provided a reporting template for IPIA in OMB Circular A-136. The template requires responses to specific
issues. USDA’s response to these issues follows.


            I. Describe your agency’s risk assessments, performed subsequent to compiling your full program
               inventory.
               List the risk-susceptible programs identified through your risk assessments.


OCFO issued detailed guidance for the risk assessment process including templates and extensive reviews of drafts.
Programs with larger outlays were required to perform more detailed assessments than smaller programs. For
USDA’s largest programs, the risk assessment process required the following:
 The amount of improper payments needed to meet the reporting standards;
 A description of the program including purpose and basic eligibility requirements;
 Definition of improper payments specific to the program;
 Program vulnerabilities linked to improper payments;
 Internal controls designed to offset the program vulnerabilities;
 Internal controls testing for selected programs;
 Listing of significant reviews and audits;
 Final determination of risk level;
 Planned future enhancements (optional); and
 Description of how improper payments are recovered (optional).

USDA has identified the following 16 programs as susceptible to improper payments.
    Selection Methodology                         Agency                                              Program
Section 57 of OMB Circular A-11     Farm Service Agency (FSA), Commodity   Marketing Assistance Loan Program (MAL)
                                    Credit Corporation (CCC)
                                    Food Nutrition Service (FNS)           Food Stamp Program
                                                                           National School Lunch Program (NSLP)
                                                                           School Breakfast Programs (SBP)
                                                                           Special Supplemental Nutrition Program for Woman, Infants and
                                                                           Children (WIC)
USDA Identified as Susceptible to   Farm Service Agency (FSA), Commodity   Milk Income Loss Contract (MILC) Program
Significant Improper Payments       Credit Corporation (CCC)               Loan Deficiency Payments (LDP)
                                                                           Direct and Counter-Cyclical Payments (LCP)
                                                                           Conservation Reserve Program (CRP)
                                                                           Miscellaneous Disaster Programs (MDP)
                                                                           Noninsured Assistance Program (NAP)



                                                                                                                                           255
                                              OTHER ACCOMPANYING INFORMATION
      Selection Methodology                         Agency                                                      Program
                                    Food Nutrition Service (FNS)                 Child and Adult Care Food Program (CACFP)
                                    Forest Service (FS)                          Wildland Fire Suppression Management (WFSM)
                                    Rural Development (RD)                       Rental Assistance Program (RAP)
                                    Risk Management Agency (RMA)                 Federal Crop Insurance Corporation (FCIC) Program Fund
                                    Natural Resources Conservation Service       Farm Security and Rural Investment Program (FSRIP)
                                    (NRCS)




               II. Describe the statistical sampling process conducted to estimate the improper payment rate for each
                   program identified.


Agency              Program                                                         Sampling Process
FSA/CCC      Marketing Assistance      A statistical sample of high risk programs is conducted by the Farm Service Agency’s (FSA) County Office
             Loan Program (MAL)        Review Program (CORP) under the direction of the Operations Review and Analysis Staff (ORAS).
                                       Testing is conducted using statistically sound samples drawn from the total population of program payments
                                       being tested. A professional statistician, under contract to FSA, is used to design the sampling approach,
                                       define the sample size and identify the sample items. Sample size is chosen to achieve a 95 percent
                                       confidence level.
                                       Once the universe of the program is determined for the target fiscal year, a stratified two-stage sampling
                                       approach is used. County offices (COFs) making payments for the target program are selected in the first
                                       stage and individual payments made or contracts reviewed by COFs are selected in the second stage.
                                       That sample list of individual contracts or payments is provided to the members of the CORP staff covering
                                       the respective States. The CORP staff visits each of the COFs shown on the list and reviews the individual
                                       contracts or payments identified in the statistically sound sample. The CORP reviewers use a list of program
                                       division provided criteria that is drawn from legal and program administrative guidance. Findings of non-
                                       adherence to the criteria related to the individual contracts or payments in the sample will identify potential
                                       improper payments made. The results of that review are summarized and submitted to the CORP national
                                       office staff to be analyzed by the contractor statistician. That contractor determines the rate of improper
                                       payments based on the data provided by the CORP staff that visited the COFs and completed the actual
                                       review of documents
FNS          Food Stamp Program        Statistical sampling
             (FSP)                     Each month, States select a statistically random sample of cases from a universe of all households receiving
                                       FSP benefits for that given month. Most States draw the samples using a constant sampling interval. There
                                       are some which employ simple random and/or stratified sampling techniques. Required annual sample sizes
                                       range from 300 for State agencies with small FSP populations to more than 1,000 for larger States. The
                                       average is approximately 950 per State. States are required to complete at least 98 percent of selected cases
                                       deemed to be part of the desired FSP universe. Federal sub-samples are selected systematically by FNS
                                       from each State’s completed reviews. These sample sizes range from 150 to 400 per State.
                                       Error Rate Calculation
                                       The National payment error rate is calculated using a multi-step process:
                                       • Each State agency conducts quality control (QC) reviews of the monthly sample of cases. The QC review
                                           measures the accuracy of eligibility and benefit determinations for each sampled case against FSP
                                           standards. State agencies are required to report to FNS the findings for each case selected for review.
                                       • FNS then sub-samples completed State QC reviews and re-reviews selected individual case findings for
                                           accuracy. Based on this sub-sample, FNS determines each State agency’s official error rate using a
                                           regression formula.
                                       • The national payment error rate then is computed by averaging the error rate of the active cases for each
                                           State weighted by the amount of issuance in the State.




256
                                    FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Agency          Program                                                       Sampling Process
FNS      National School Lunch   USDA makes use of periodic studies to assess the level of error in program payments because detailed
         Program (NSLP)          information on the circumstances of the National School Lunch Program (NSLP) and School Breakfast
                                 Program (SBP) participating households are not collected administratively. The current study – NSLP/SBP
                                 Access, Participation, Eligibility and Certification (APEC) Study – makes use of a national probability sample
                                 of school food authorities (SFAs), schools, certified students and their households, and households that
                                 applied and were denied for program benefits in School Year 2005-06.
                                 A stratified random sample of 78 unique public SFAs was selected in the first stage of sampling. Stratification
                                 variables included geographic region, prevalence of schools having a School Breakfast Program and those
                                 using Provision 2/3, and a poverty indicator. For SFAs that do not have Provision 2/3 schools, three schools,
                                 on average, were selected for inclusion in the studying the second stage of sampling. Schools were stratified
                                 into two groups: (1) elementary schools and (2) middle and high chools. The school sample included both
                                 public and private schools. A total of 264 schools participated in the study (216 non-Provision 2/3 schools, 24
                                 Provision 2/3 schools in their base year, and 24 Provision 2/3 schools not in their base year). For the third
                                 stage of sampling, samples of households were selected in 240 of these schools to yield completed
                                 interviews for about 3,000 students certified for free and reduced-price meals and 400 denied applicant
                                 households.
                                 The sample of approved and denied applicant households was augmented by sampling of applications from
                                 Provision 2/3 schools in which household surveys were not conducted. Application reviews of about 6,800
                                 students approved for free and reduced-price meals and over 1,000 denied applicants were conducted to
                                 estimate the case error rate due to administrative error.
                                 Data on counting and claiming errors were collected in all schools selected for application reviews. On
                                 randomly selected school days, field staff observed approximately 100 lunch transactions at each of the 245
                                 schools participating in the NSLP as well as 50 breakfast transactions at each of the 218 schools participating
                                 in the School Breakfast Program. Cashier error was estimated using information from these meal
                                 transactions. Data on school-recorded daily meal totals across all points of sale, aggregated meal counts
                                 reported to the district, and total meals submitted to the State Agency for reimbursement were examined to
                                 determine claiming errors.
                                 To update the erroneous payment rate estimates in NSLP without having to conduct another full round of
                                 primary data collection, a series of econometric models were developed that captured the relationship
                                 between characteristics of the districts that participated in the APEC study and their estimated rates of
                                 certification error. Estimated coefficients from these models were used in conjunction with updated values of
                                 district characteristics obtained from the School Food Authorities Verification Summary Reports (Form FNS-
                                 742) to predict certification error. Certification error rates were then translated into amounts and rates of
                                 erroneous payments in each district. Aggregating the district level estimates produced a national measure of
                                 predicted erroneous payments.
FNS      School Breakfast        The statistical sampling process for this program is similar to the FNS National School Lunch Program
         Program (SBP)           (NSLP). See the NSLP description.
FNS      Special Supplemental    FNS plans to continue periodic examinations of WIC certification and vendor error.
         Nutrition Program for   Certification Error—The 1998 WIC Income Verification Study was designed to provide information on the
         Women, Infants and      characteristics of a nationally representative sample of WIC participants in the contiguous United States,
         Children (WIC)          certified for WIC during spring 1998. The sample was based on a multi-stage sample design, with 50
                                 geographic primary sampling units (PSUs) selected at the first stage, 79 local WIC agencies selected at the
                                 second stage, and 178 WIC service sites selected at the third stage. WIC participants were randomly
                                 sampled for the study at the 178 WIC service sites as they appeared for WIC certification. In-person
                                 interviews were completed with 3,114 WIC participants at the 178 WIC service sites. The estimate of
                                 improper payments comes from a follow-up in-home survey that was conducted with approximately one out of
                                 every three persons selected for the in-person interviews. The in-home survey was designed to verify income
                                 information through review of household income documents. In-home interviews were completed with 931
                                 respondents.
                                 FNS’ intent is that the 2008 decennial income verification study will use a similar sampling strategy that
                                 provides a nationally representative estimate of erroneous payments within the IPIA-specified precision
                                 parameters. The certification error rate will be reported in FY 2009.
                                 Vendor Error—The 2005 vendor error study employed a nationally representative probability sample of WIC
                                 vendors. A two-stage clustered design was developed to facilitate over-sampling of WIC-only stores. Current
                                 lists of authorized WIC vendors were collected from the 45 States plus the District of Columbia that use retail
                                 vendors from delivery of benefits. These lists were used to establish the retail vendors for delivery of benefits.



                                                                                                                                               257
                                         OTHER ACCOMPANYING INFORMATION
Agency          Program                                                           Sampling Process
                                     These lists were sued to establish the national sample frame of vendors active during the study period.
                                     Geographic Information System software was used to form 365 PSUs in contiguous counties. Most PSUs had
                                     at least 80 vendors. The study selected 100 PSUs using probability non-replacement sampling with
                                     probabilities proportional to the size of the PSU. About 16 vendors and 4 reserve vendors were selected from
                                     each of the 100 PSUs. The final sample size (unweighted) was 1,768 vendors. The study compared the
                                     purchase price paid by the compliance buyer with (i) observed shelf prices and (ii) the purchase amount the
                                     vendor reported to the State in order to yield estimates of overcharge and undercharge.
FNS      Child and Adult Care        The national estimate of erroneous payments for the sponsor error component is based on a nationally
         Food Program (CACFP)        representative sample of sponsor files for 3,284 Family Day Care Homes (FDCHs) in 91 distinct sponsors in
                                     14 States. Data collectors went to each sampled sponsor with randomly drawn lists of 30 to 90 FDCHs and
                                     extracted documents necessary to establish eligibility for reimbursements from the sponsors’ files.
FSA      Milk Income Loss            See the process described in the Marketing Assistance Loan Program (MAL) discussion shown above. The
         Contract Program (MILC)     same process was used for this program.
FSA      Loan Deficiency             See the process described in the Marketing Assistance Loan Program (MAL) discussion shown above. The
         Payments (LDP)              same process was used for this program.
FSA      Direct and Counter-         See the process described in the Marketing Assistance Loan Program (MAL) discussion shown above. The
         Cyclical Payments (DCP)     same process was used for this program.
FSA      Conservation Reserve        See the process described in the Marketing Assistance Loan Program (MAL) discussion shown above. The
         Program (CRP)               same process was used for this program.
FSA      Miscellaneous Disaster      See the process described in the Marketing Assistance Loan Program (MAL) discussion shown above. The
         Programs (CDP)              same process was used for this program.
FSA      Noninsured Assistance       See the process described in the Marketing Assistance Loan Program (MAL) discussion shown above. The
         Program (NAP)               same process was used for this program.
FS       Wildland Fire               WFSM employees Monetary Unit Sampling.Transactions coded to the Wildland Fire Suppression Fund
         Suppression                 (WFSU) are systematically analyzed and reviewed. The population was broken down into three sample
         Management (WFSM)           groups:
                                     • Contracts;
                                     • PCMS;
                                     • Travel; and
                                     • Employee Payroll and Casual Pay
                                     Separate statistical samples were selected for each category, using the criteria required by OMB Circular A-
                                     123, Appendix C. The samples were selected by systematic random sampling with probability proportional to
                                     size (dollar amount).
                                     To ensure the validity of the sample design, sample sizes, and measurement methodology, a PhD statistician
                                     from the University of New Mexico was consulted. The sample was selected using a 90 percent confidence
                                     level, with a precision range of 2.5 percent. Software used for sample selection was SAS 9.1 for Windows.
                                     The population was broken down into four categories: Travel, Payroll, Purchase Card Management System
                                     (PCMS), and Contracts. Separate statistical samples were selected using the criteria required by OMB. An
                                     exception occurred when a transaction met the criteria for an improper payment as defined by the Improper
                                     Payment Improvement Act (IPIA). We categorized errors that were improper as errors that were either
                                     insufficiently documented or were improperly paid.
RD       Rental Assistance           The agency reviewed the sampling plan developed by the U.S. Department of Housing and Urban
         Program                     Development for its studies. It engaged Rural Development (RD) statisticians to prepare a similar plan for this
                                     report. This report is based on a review of tenants receiving rental assistance (RA) during FY 2007. The
                                     sampling plan consisted of 667 RA payments from a universe of 3,326,352 or .020 percent. The methodology
                                     produced a sample with a 99-percent confidence level. This year, the audit unit from the Centralized Servicing
                                     Center (CSC) conducted the study rather than the RD field staff that were used in previous years. The study
                                     required CSC to evaluate tenant files and income calculations.
                                     The universe of rental assistance payments FY 2007 was 3,326,352. The only parameter used to determine
                                     the eligible universe was the RA payment. No other data element, such as location, size of property, number
                                     of units and availability of other rental assistance (such as Section 8) was a consideration. The statisticians
                                     were provided a data extract from the Multi-Family Housing Information System (MFIS). The extract



258
                                   FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Agency          Program                                                         Sampling Process
                                   contained a list of all tenants receiving RA during FY 2007. The data included month of payment, project
                                   name, project identifier (case number/project number) and tenant name and unit number. From the data
                                   extract, the statisticians selected the sample by a systematic sample technique.
                                   Once the sample was identified, a letter was sent to the borrower/management agents that explained the
                                   process, provided the list of tenant payments to be reviewed and provided a list of documents that needed to
                                   be provided to the Centralized Servicing Center (CSC) for review.
                                   The data received from the borrower/management agent was used to compare agency records. The study
                                   required CSC to complete the survey for the selected tenant payments. There was to be no substitution of the
                                   selected payment and, if the management agent was unable to submit the file, the payment would be
                                   considered improper. The survey results for this year are higher than prior years. This is attributable to a more
                                   controlled, consistent, and accurate review. Future year surveys will be performed by CSC, which will provide
                                   more comparable data on which to measure improvements.
RMA      Federal Crop Insurance    RMA drew 900 random 2004, 2005 and 2006 crop year indemnities to review during 2005, 2006 and 2007.
         Corporation Program       For FY 2008 reporting, RMA sampled and reviewed the 2007 crop year, using those results to replace the
         Fund                      2004 crop year results. This allowed RMA to maintain a running average error rate for the three most recent
                                   crop years. RMA will repeat this process for three years to compile 900 random indemnity reviews and build a
                                   database that will be used to identify the RMA program-error rate and identify any discernable trends.
                                   Samples are drawn by the compliance staff which oversees the compliance review data base and is
                                   responsible for data quality control. Limited resources make it impractical to conduct a statistically valid
                                   program review each year. Despite these limits, in combination with the National Operations Reviews
                                   conducted by RMA compliance personnel, these random reviews of paid indemnities should provide the
                                   program with sufficient data to establish an acceptable error rate for the purposes of the IPIA.
NRCS     Farm Security and Rural   NRCS determined the universe size of payments for all the programs by using all transactions for FY 2007
         Investment Program        entered into the accounting system against general ledger account 4902 and Treasury Symbols 12_1004.
                                   Transaction codes (PG, PV, etc) were identified and extracted which represented payments against the
                                   individual program Fund codes to create a universe of payments for each individual program.
                                   Based upon last year’s results and conversations with the individual Program Managers, NRCS projected the
                                   anticipated rate of occurrence. This would be the error rate from the previous years sampling factoring in any
                                   substantial changes made which mitigates improper payment risk found in prior IPIA efforts, external and
                                   internal audits or reviews.
                                   NRCS estimated the precision range, i.e. the upper and lower bounds around the estimated rate of
                                   occurrence as 5.00% (+/- 2.50%) based upon conversations with the Program Managers. OMB guidance
                                   recommended a 90 percent confidence level. However, NRCS used a more rigorous confidence level of 95%
                                   for the sample since accounting and financial applications typically use that confidence level. Based upon the
                                   four variables above (universe size, anticipated occurrence rate, precision range, and confidence level), we
                                   calculated the necessary sample size.
                                   Using a random number generator, NRCS selected payments for the sample. For program payments made
                                   through ProTracts system, payment amounts were aggregated by payment document number. ProTracts
                                   produced a payment transaction for each component of a payment request (NRCS-1245). This resulted in
                                   testing of the entire payment instead of a portion and simplifies the research required.
                                   A complete copy of the contract file was requested from the field office. The field office was required to verify
                                   HEL/WC compliance and obtain AGI compliance documentation from the participant. Headquarters financial
                                   management (FMD) personnel audited the contract information against the program’s business process using
                                   a standard template developed by FMD for each individual program. The template ensured consistency in the
                                   reviews and incorporated tests for known causes of improper payments, issues identified by the Program
                                   Managers and internal controls implemented as a result of prior internal and external audits and reviews.




                                                                                                                                                259
                                           OTHER ACCOMPANYING INFORMATION
          III. Describe the Corrective Action Plans for reducing the estimated rate of improper payments. Include in
               this discussion what is seen as the cause of errors and the corresponding steps necessary to prevent
               future occurrences.
               If efforts are already underway, and/or have been ongoing for some length of time, it is appropriate to
               include that information in this section.


Agency        Program                                                    Corrective Actions Planned
FSA/CCC   Marketing          The most significant causes for payments being identified as improper were as follows:
          Assistance Loan    •   A lien search was not conducted before loan disbursement.
          program (MAL)      •   An acceptable acreage report is not on file at time of review.
                             •   Lien waiver was not obtained before loan disbursement.
                             •   Uniform Commercial Code (UCC-1) was not filed.
                             •   The loan quantity is not supported by acceptable documentation.
                             Actions taken or that will be taken to reduce the weaknesses identified are as follows:
                             a. Broad Scope Actions Taken:
                             • FSA has committed to reducing improper payments and program weaknesses that contribute to improper
                               payments.
                             • The Agency has taken actions to correct its deficiencies in many areas and has incorporated the priority of
                               reducing improper payments into its strategic planning documents.
                             b. Actions Already Taken that Impact All Causes of Improper Payments Identified:
                             The actions taken were completed late in FY 2007 or early FY 2008 so the impact would not be realized until review
                             of the FY 2008 payment activity. The FY 2008 payment activity will be sampled as part of the FY 2009 review cycle.
                             • Issued various National Notices to State and COFs providing them with instructions related to training, proper
                                 processing of payments, and the new checklist for processing loans.
                             • Provided training on improper payments to field personnel and educate them on the importance of control
                                 procedures as well as the potential risks of noncompliance. Training was delivered through various means
                                 including in person and via Ag Learn, a Department of Agriculture enterprise-wide learning management system.
                             • Integrated the employee’s individual performance results related to reducing improper payments into his/her
                                 annual performance rating.
                             • Completed the CCC-770 MAL, the COF employee certifies that the applicable program provisions have, or have
                                 not been met. Handbook 8-LP was amended on December 13, 2006, to include policy that a CCC-770 MAL or
                                 CCC-770 eLDP/LDP must be completed for the first five applications processed by each employee before loans or
                                 LDPs are disbursed.
                             • Developed a new checklist, the CCC-770 MAL, MAL Checklist, for COF employees to use. FSA implemented a
                                 new compliance review process for the 2007 crop year. The new compliance spot check review process allows
                                 FSA to (1) conduct a more meaningful and comprehensive spot check/compliance review and; (2) utilize a better
                                 mechanism for reporting spot check results. The reporting mechanism will allow the National Office to monitor
                                 improper payments discovered as result of a spot check. No deficiencies have been discovered as the result of
                                 this improved reporting system.
                             • Training addressing the errors that resulted in improper payments was held along with training for the
                                 implementation of the provisions of the Food, Conservation, and Energy Act of 2008. The national training was
                                 held in October 2008.
                             c. Actions That Will be Taken that Impact All Causes of Improper Payments Identified:
                             • Provide a Notice to State and COFs providing the detail findings discovered during the FY 2008 MAL Statistical
                               Sample including established policy and procedure references for each finding.
                             • In conjunction with the enactment of the Food, Conservation, and Energy Act of 2008, a review of applicable
                               policy and provisions will be conducted. This review will include input from a task force made up of State Program
                               Specialists who will work with National Office staff on the drafting of applicable regulations. In addition, a review of
                               existing policy and procedures to determine program inefficiencies and inadequate program compliance controls
                               will be conducted.



260
                                 FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Agency       Program                                                   Corrective Actions Planned
                           • Based on sample results, amend the CCC-770 MAL checklist, as appropriate, to ensure that COFs are reminded
                              of the necessary policies and procedures for program compliance.
                           • Contact State Office managers where the majority of improper payments were identified, according to the
                              statistical sample, to determine possible training and/or job aids the State and county staff may need to assist in
                              facilitating compliance to controls.
                           • Re-enforce current program policies regarding program compliance through the issuance of National notices to
                              State and COF personnel.
FNS      Food Stamp        Causes of improper payments
         Program           An improper payment occurs when a participating household is certified for too many or too few benefits compared to
                           the level for which they are eligible. This can result from incomplete or inaccurate reporting of income and/or assets
                           by participants at the time of certification. It also can occur from changes subsequent to certification or errors in
                           determining eligibility or benefits by caseworkers. Eligibility worker delays in action or inaction taken on client reported
                           changes also can cause of improper payments.
                           An analysis of the FY 2006 completed statistical sample revealed that approximately 67.75 percent of all variances
                           occurred before or at the most recent certification/recertification. Additionally, 56.70 percent of the errors were State
                           agency caused. About half of the errors (53.65 percent) were income related and caused by client misreporting or the
                           agency misapplying the reported income. Misreporting or misapplying deductions was the second largest source of
                           errors at 29.22 percent.
                           The analysis of the FY 2007 data is scheduled for release in early 2009.
                           Steps that are (or will be) taken to address specific findings in the last statistical sample
                           Program regulations require State agencies to analyze data to develop corrective action plans to reduce or eliminate
                           program deficiencies. A State with a high error rate must develop a QC corrective action plan to address deficiencies
                           revealed through an analysis of its own QC data. A State with an excessive error rate will be required to invest a
                           specified amount (depending on its error rate and size) designated specifically to correct and lower its error rate. The
                           State also will face further fiscal penalties if it fails to lower its error rate in a future fiscal year.
                           Steps that are (or will be) taken to improve the overall control environment and improper payments
                           FNS, through its regional offices, works directly with States to impart the importance of payment accuracy and correct
                           payments to State leadership. The agency also helps those leaders develop effective corrective action strategies to
                           reduce payment errors. Regional offices provide many forms of technical assistance to States, such as:
                           • Analyzing data;
                           • Reviewing and monitoring corrective action plans;
                           • Developing strategies for error reduction and corrective action;
                           • Participating on boards and in work groups; and
                           • Hosting, attending and supporting payment accuracy conferences.
                           FNS administers a State Exchange Program that provides funds to States to facilitate travel for obtaining, observing
                           and sharing information on best practices and effective techniques for error reduction. Coalitions have been formed
                           among States to promote partnerships, information exchange and collaborative efforts. These efforts address mutual
                           concerns and support development of effective corrective action.
FNS      National School   FNS has worked closely with OMB, Congress, the States, schools, and advocacy partners for two decades to gain a
         Lunch Program     better understanding of erroneous payments, and to develop and implement initiatives to address them:
         (NSLP)            Strengthened the Certification Process through Legislative Program Reauthorization
                           FNS worked with Congress to develop the Child Nutrition and WIC Reauthorization Act of 2004 (CNR) to enact
                           program changes that address school meals certification problems. The act strengthened the certification process by:
                           • Requiring food stamp direct certification for free meals in all school districts, and continuing authority for optional
                              direct certification using data from the Temporary Assistance for Needy Families (TANF) and the Food Distribution
                              Program on Indian Reservations (FDPIR);
                           • Simplifying the certification process by requiring a single application for all eligible children in a household;
                           • Requiring eligibility determinations to be in effect for the entire school year;
                           • Modifying verification requirements, and adding authority for optional direct verification of children’s eligibility;
                           • Requiring State agencies to conduct additional administrative reviews of school districts with higher rates of error;
                           • Expanding authority for the use of public records for verification of applications; and
                           • Requiring increased efforts to obtain household response to application verification requests; requiring districts
                              with high rates of non-response to verification to target subsequent year verification activity toward error-prone
                              applications.




                                                                                                                                                 261
                                         OTHER ACCOMPANYING INFORMATION
Agency   Program                                              Corrective Actions Planned
                   FNS is engaged in continuing efforts to fully implement all the provisions of the CNR designed to improve program
                   accountability.
                   Improved State and Federal Oversight and Technical Assistance
                   FNS conducted the following to improve oversight and technical assistance:
                   • Since 2004, required annual training for schools on certification and accountability issues;
                   • Secured funding from Congress in 2004 for FNS technical assistance to help State and local partners reduce
                      administrative errors and improve program integrity;
                   • Provided ongoing guidance and training materials to State agencies to improve monitoring of schools;
                   • Since 1995, provided ongoing guidance and training materials to States on the School Meals Initiative (SMI), to
                      help schools improve compliance with program nutrition and menu planning standards in order to increase the
                      accuracy of meal-counting;
                   • Issued a revised Eligibility Manual which contains information on determining students’ eligibility for free and
                      reduced price meals under 7 CFR Parts 210 and 220, the National School Lunch Program (NSLP) (including after
                      school snacks and commodity schools) and the School Breakfast Program (SBP);
                   • Revised the Coordinated Review Effort forms and training effort to ensure that performance standards related to
                      meal counting and claiming and serving reimbursable meals are met; and
                   • Issued Pursuant to the Child Nutrition and WIC Reauthorization Act of 2004 (P.L. 108-265), FNS released
                      applications for the third round of Direct Certification/Verification grant funding in FY 2008. These grants are
                      available to State agencies to assist in the implementation of mandatory direct certification, direct verification and
                      other provisions of P.L. 108-265 related to determining eligibility to receive benefits in the National School Lunch
                      and Breakfast Programs. Child Nutrition and Food Stamp State agencies are eligible to apply for funds. P.L. 108-
                      265 provided $9 million for this purpose. Approximately $3.7 million was awarded in Fiscal Year 2006 and $1.7
                      million in FY 2007; the remaining funds are available to States in FY 2008.
                   Expanded National Data Collection and Analysis to Inform Policy
                   FNS conducted the following to collect and disseminate program data:
                   • Initiated an annual measure of administrative errors in the certification process in school year 2004-2005;
                   • As early as the 1990s, tested alternative approaches to the existing school meals certification and verification
                      processes to assess their impact on accuracy and program access;
                   • Highlighted the results of the data collections at numerous briefings with State and Federal partners and
                      Congressional staff;
                   • Published the APEC study, which provides the first comprehensive national estimate of erroneous school meal
                      payments for the PAR, as required by the IPIA. Additionally we are working on developing an appropriate
                      approach to improving the deficiencies noted in the APEC study; and
                   • Published the second annual report, Accuracy of School Food Authorities’ (SFAs) Processing of School Lunch
                      Applications – Regional Office Review of Applications (RORA) in May 2007. Covering the year 2006, the
                      publication is part of a series of annual reports assessing administrative errors associated with SFAs approval of
                      applications for free and reduced-price school meals.
                   Additional Action Planned
                   FNS proposes to expand training, technical assistance, and other efforts to reduce payment errors that result from
                   operational problems. Planned efforts include:
                   • Working with the National Food Service Management Institute to provide web-based training to States and
                      schools on certification and other accountability issues;
                   • Conducting an additional make-up session of the Coordinated Review Effort (CRE) training that was provided to
                      State reviewers during the third quarter of FY 2008 as a continuation of FNS efforts to improve State agency
                      oversight of local school food authorities that participate in the National School Lunch Program. We anticipate that
                      this training session, which will be held in Alexandria, Virginia, October 27 - 31, 2008, will provide updated
                      information to approximately 80 State agency and Federal reviewers. In addition, later this fall the new CRE Forms
                      and Instructions that were developed by a task group made up of Federal and State staff will be posted to the FNS
                      Web site along with the training materials that were used in the CRE training sessions. Also, the CRE Guidance,
                      which was developed in the early 1990s, will be updated to include current procedures to be utilized during CRE
                      Reviews. State agencies are implementing the CRE procedures that were identified during the training sessions
                      for the 2008-2009 school year;
                   • Emphasizing to State agencies that annual verification data must be used to ensure that corrective action is taken
                      by school districts to address error rates;
                   • Partnering with the School Nutrition Association to coordinate efforts on training and technical assistance to its
                      membership on accountability issues; and




262
                    FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Agency        Program                                                       Corrective Actions Planned
                                 Pending the availability of funds, FNS will continue the APEC study, which would enable FNS to estimate and
                                 measure changes in erroneous payments over time, and would help inform FNS, Congress, the States, and
                                 advocacy partners on the development of additional guidance, training, and policy options.
                                 For the past two decades, research and evaluation conducted by FNS has suggested that there are potentially
                                 significant risks for payment errors in the School Meal Programs. During that time, FNS worked closely with
                                 Congress, State agencies, school food authorities, advocacy partners and others to assess and find ways to reduce
                                 erroneous payments in the programs. Now that we have a nationally-representative estimate, we are redoubling our
                                 efforts and focus on reducing erroneous payments in the programs.
FNS      School Breakfast        The corrective actions planned for this program are similar to the FNS National School Lunch Program (NSLP). See
         Program (SBP)           the NSLP description.
FNS      Special Supplemental    Certification Error:
         Nutrition Program for   FNS plans to continue periodic examinations of certification error in the WIC Program. The Child Nutrition Act was
         Women, Infants and      amended in 1998 to require income documentation for WIC Program applicants in all States. The Final WIC Policy
         Children (WIC)          Memorandum #99-4, Strengthening Integrity in the WIC Certification Process, February 24, 1999, the WIC
                                 Certification Integrity Interim Rule (65 FR 3375, January 21, 2000) and the WIC Certification Integrity Final Rule (65
                                 FR 77245, December 11, 2000) implemented this requirement. The WIC Food Delivery Final Rule (65 FR 83248,
                                 December 29, 2000) mandated one-year disqualifications for the most serious participant violations, including dual
                                 participation and misrepresentation of income. The WIC Miscellaneous Final Rule (71 FR 56708, September 27,
                                 2006) required State agencies to prevent conflicts of interest such as clinic staff certifying themselves, close friends,
                                 or relatives, and also required State agencies to maintain information on participant and employee fraud and abuse.
                                 FNS will measure the level of improper payments due to certification error in Fiscal Years 2008-09.
                                 Vendor Error:
                                 The Child Nutrition Act was amended in 1996 to require the disqualification of WIC vendors who had been
                                 disqualified by the Food Stamp Program (FSP), and was amended in 1998 to require permanent disqualification of
                                 vendors who had been convicted of trafficking and illegal sales. The WIC/FSP Vendor Disqualification Final Rule (64
                                 FR 13311, March 18, 1999) implemented these requirements and also mandated three-year disqualifications for
                                 overcharging and charging for food not received. The WIC Food Delivery final Rule (65 FR 83248, December 29,
                                 2000) mandated nationwide standards for vendor authorization, training, and monitoring. FNS will annually estimate
                                 and report improper payments to vendors based on information on vendor investigations routinely conducted by the
                                 State WIC Agencies and reported to FNS.
FNS      Child and Adult Care    CACFP has three distinct parts: Child Care Centers, Adult Day Care facilities and Family Day Care Homes
         Food Program            (FDCHs). Overall program funding is provided to state agencies which provide funds to sponsoring organizations to
         (CACFP)                 pay for claims for reimbursable meals served at provider sites. Sites can be as large as an institution or as small as
                                 a household. Each part of CACFP has its own reimbursement structure.
                                 Payments and claim information are transferred among FNS, State agencies, program sponsors and program sites;
                                 each such transaction represents a risk for improper payment. Because requirements vary significantly for each
                                 different type of program sponsor and site, a full and rigorous assessment of the rate of improper payments is
                                 extremely complex.
                                 The original plan was to develop a program-wide study which would examine reimbursements for meals served and
                                 develop program error measurements that complied with the requirements of the IPIA. Because of the complexities
                                 of the program, FNS estimated that it would cost $20 million to measure improper payments at the precision
                                 required by IPIA. This amount has not been provided.
                                 In lieu of funding for a program-wide measurement, FNS has identified the FDCH component of this program as
                                 potentially high risk. FDCHs participate in CACFP through public or private nonprofit sponsoring organizations.
                                 FDCH improper payments are most likely caused by sponsor error in determining a participating home’s
                                 reimbursement tier (tiering error) or by FDCH error in reporting the number of meals which are eligible for
                                 reimbursement (claiming error).
                                 Two activities are underway which provide information on improper payments in the FDCH component of CACFP. A
                                 third activity was pilot tested during FY 2007.
                                 • CCAP—In the spring of 2004, FNS began the Child Care Assessment Project (CCAP). This project was
                                      designed to measure the effectiveness of efforts to improve the integrity of CACFP family day care homes and
                                      provide information from a broadly representative national sample of sponsors and providers. Over a four-year
                                      period, FNS is conducting comprehensive on-site assessments of a sample of participating family day care home
                                      sponsors. These assessments are designed to analyze the effectiveness of FNS regulatory and policy initiatives
                                      on program performance. They will also offer insights on the control points in the claiming and reimbursement
                                      process that most frequently cause or contribute to improper payments. This information will also help to support



                                                                                                                                                     263
                                              OTHER ACCOMPANYING INFORMATION
Agency        Program                                                 Corrective Actions Planned
                               the effort to develop measurement strategies to estimate CACFP erroneous payments pursuant to IPIA. Data
                               collection for this activity has been completed and the final results will be presented in the USDA PAR for FY
                               2009.
                            • Sponsor error—FNS has developed an annual sponsor tiering error measure and tested it. CACFP sponsors
                               are responsible for determining whether family day care homes receive meal reimbursement at the higher rate
                               (Tier 1) or lower rate (Tier 2). In FY 2007, the second annual data collection was conducted to determine a
                               nationally representative sponsor tiering determination error rate. The findings are reported above.
                            • Claiming error—FNS has identified two potential methods of estimating the risk of claiming error:
                               1. State data approach: Use data from State monitoring visits of FDCHs.
                               2. Sponsor data approach: Federal staff select a random sample of sponsoring organizations and from each
                                    use a random selection of the sponsor’s monitoring visits of FDCHs.
                            Both approaches compare the number of participants observed during a monitoring visit to the average number of
                            meals claimed for reimbursement for the meal or snack closest to the time of the visit. FNS pilot tested both
                            approaches in conjunction with the CCAP reviews in FY 2007. The pilot sample size included approximately 220
                            FDCHs. Results will be available in FY 2008 and will be reported in the following year PAR.
                            FNS has contracted with Mathematica Policy Research, Inc. (MPR) to evaluate the feasibility of four different data
                            collection methods for validating family day care homes (FDCHs) meal reimbursement claims. FNS is currently
                            reviewing the results of MPR's pretest of the four possible data collection methods. The next step is for MPR to
                            conduct a pilot test of the data collection method(s) which are perceived to have the greatest likelihood of producing
                            valid comparison between the true number of reimbursable meals and the number claimed by FDCHs for
                            reimbursement. Results of MPR's evaluation will be available in FY 2009.

FSA      Milk Income Loss   The four most significant causes for payments being identified as improper were as follows:
         Contract Program   • Two instances where the contract was not on file;
         (MILC)             • Six instances where the payment is based on ineligible production;
                            • One case where the changes made to contract were not allowed; and
                            • Two instances where the payee’s share is incorrect.
                            Actions taken or that will be taken to reduce the weaknesses identified are as follows:
                            a. Broad Scope Actions Taken:
                            • See the actions described in the Marketing Assistance Loan Program (MAL) shown above. The same actions
                               apply to this program.
                            b. Actions Already Taken that Impact All Causes of Improper Payments Identified:
                            • Integrated the employee’s individual performance results related to reducing improper payments into his/her
                               annual performance rating;
                            • FSA implemented a new compliance review process for Fiscal Year 2007. The new compliance review spot
                               check process allows FSA to conduct a more meaningful and comprehensive spot check/compliance review and
                               utilize a better mechanism for reporting spot check results. The new reporting mechanism allows the National
                               Office to monitor improper payments discovered as a result of a spot check. No deficiencies have been
                               discovered as the result of this improved reporting system; and
                            • In conjunction with training relating to the Food, Conservation, and Energy Act of 2008, training was provided
                               during October 2008, addressing the issues resulting in improper payments. This training was provided to field
                               staff of each state who will in turn train their field personnel on the importance of control procedures as well as
                               the potential risks of noncompliance.
                            c. Actions that Will be Taken that Impact All Causes of Improper Payments Identified:
                            • Provide Notices to State and COFs with the detail findings discovered during the FY 2007 MILC Review
                               including established policy and procedure references for each finding. Remind field offices of the proper filing
                               requirements for contracts and the supporting production evidence required in accordance with program
                               provisions; and
                            • Amend the CCC-770 MILCX checklist, as appropriate, to ensure that COFs are reminded of the necessary
                               policies and steps for program compliance.
FSA      Loan Deficiency    The four most significant causes for payments being identified as improper were as follows:
         Payments (LDP)     1. Acceptable acreage report is not on file at time of review;
                            2. The LDP quantity is not supported by acceptable documentation;
                            3. The Incorrect LDP rate was used; and
                            4. The LDP application was not on file.



264
                             FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Agency        Program                                                     Corrective Actions Planned
                               Actions taken or that will be taken to reduce the weaknesses identified are as follows:
                               a. Broad Scope Actions Taken:
                               See the actions described in the Marketing Assistance Loan Program (MAL) shown above. The same actions apply
                               to this program.
                               b. Actions Already Taken that Impact All Causes of Improper Payments Identified:
                               The actions taken were completed late in FY 2007 or early FY 2008 so would have their impact on the FY 2008
                               payment activity. The FY 2008 payment activity will be sampled as part of the FY 2009 review cycle.
                               • Issued various National Notices to State and COFs providing them with instructions related to training, proper
                                   processing of payments, and the new checklist for processing loans;
                               • Provided training on improper payments to field personnel and educate them on the importance of control
                                   procedures as well as the potential risks of noncompliance. Training was delivered through various means
                                   including in person and via Ag Learn;
                               • Integrated the employee’s individual performance results related to reducing improper payments into his/her
                                   annual performance rating;
                               • Developed a new checklist, the CCC-770 LDP/eLDP, LDP/eLDP Checklist, for COF employees to use. By
                                   completing the CCC-770 LDP/eLDP, the COF employee is certifying that the applicable program provisions
                                   have, or have not been met. Handbook 8-LP was amended to include policy that a CCC-770 LDP/eLDP must be
                                   completed before a loan or LDP is issued. Each employee must complete a CCC-770 eLPD/LDP for the first five
                                   applications they process each crop year;
                               • FSA implemented a new compliance review process for the 2007 crop year. The new compliance spot check
                                   review process will allow FSA to (1) conduct a more meaningful and comprehensive spot check/compliance
                                   review and; (2) utilize a better mechanism for reporting spot check results. The new reporting mechanism will
                                   allow the National Office to monitor improper payments discovered as result of a spot check. No deficiencies
                                   have been discovered as the result of this improved reporting system; and
                               • National Training addressing the errors that resulted in improper payments was held during October 2008, along
                                   with training for the implementation of the provisions of the Food, Conservation and Energy Act of 2008.
                               c. Actions That Will be Taken that Impact All Causes of Improper Payments Identified:
                               • Provide a Notice to State and COFs providing the detail findings discovered during the FY 2008 LDP Statistical
                                   Sample including established policy and procedure references for each finding;
                               • In conjunction with the enactment of the Food, Conservation, and Energy Act of 2008, a review of applicable
                                   policy and provisions will be conducted. This review will include input from a task force made up of State
                                   Program Specialists who will work with National Office staff on the drafting of applicable regulations. In addition,
                                   a review of existing policy and procedures to determine program inefficiencies and inadequate program
                                   compliance controls will be conducted;
                               • Based on sample results, amend the CCC-770 eLDP/LDP checklist, as appropriate, to ensure that COFs are
                                   reminded of the necessary policies and procedures for program compliance prior to issuing payments;
                               • Contact State Office managers where the majority of improper payments were identified, according to the
                                   statistical sample, to determine possible training and/or job aids the State and county staff may need to assist in
                                   facilitating compliance to controls; and
                               • Re-enforce current program policies regarding program compliance through the issuance of National notices to
                                   State and COF personnel.
FSA      Direct and Counter-   The results of DCP’s FY 2008 statistical sample of improper payments were based on FY 2007 DCP payment data.
         Cyclical Payments     DCP’s FY 2008 sample results indicate that the most significant error for FY 2007 DCP payments was that acreage
         (DCP)                 report for all cropland on the farm was not filed before review began.
                               Actions taken or that will be taken to reduce the weakness identified are as follows:
                               a. Broad Scope Actions Taken:
                               See the actions described in the Marketing Assistance Loan Program (MAL) shown above. The same actions apply
                               to this program.
                               • FSA implemented a new compliance review process for the 2007 and subsequent crop years. The new
                                   compliance spot check review process allows FSA to (1) conduct a more meaningful and comprehensive spot
                                   check/compliance review and; (2) utilize a better mechanism for reporting spot check results. The new reporting
                                   mechanism allows the National Office to monitor improper payments discovered as result of a spot check.
                               b. Actions Already Taken that Impact Situations where the Payee’s Interest in Base Acres on the Farm Did
                                   Not Support the Claimed Payment Share:
                               The actions taken were completed late in FY 2007 or early FY 2008 so the impact would not be realized until review
                               of the FY 2008 payment activity. The FY 2008 payment activity will be sampled as part of the FY 2009 review cycle.



                                                                                                                                                  265
                                            OTHER ACCOMPANYING INFORMATION
Agency       Program                                                 Corrective Actions Planned
                           • Provided training on improper payments to field personnel and educate them on the importance of control
                               procedures as well as the potential risks of noncompliance. Training was delivered through various means
                               including in person and via Ag Learn, and is being followed up with communications and job aid to help facilitate
                               compliance controls;
                           • Integrated the employee’s individual performance results related to reducing improper payments into his/her
                               annual performance rating; and
                           • Developed a new checklist, the CCC-770 DCP, DCP Contract Checklist, for COF employees to use. By
                               completing the CCC-770 DCP, the COF employee is certifying that the applicable program provisions have, or
                               have not, been met. Handbook 1-DCP was amended on December 11, 2006, to include policy that a CCC-770
                               DCP must be completed before DCP payment is issued.
                           In addition to the above actions, the following actions were completed in FY 2007 or early FY 2008; therefore the
                           impact will not be realized until review of the FY 2008 payment activity. The FY 2008 payment activity will be
                           sampled as part of the FY 2009 review cycle.
                           • Issued Notice PM-2615, FSA Performance Management Program Improper Payments Standard, which provided
                               the new required standard for improper payments. The Notice provided that all Field Office employees who work
                               with Farm Program payments shall have the following standard in the “Program Management”, “Execution of
                               Duties”, or similar element:
                           • “Successfully completes FSA IPIA training requirements and ensures that agency Corrective Action Plan (CAP)
                               procedures are followed to ensure that payments are accurate and that required payment documentation is up-
                               to-date and on file”;
                           • Issued Notice DCP-182, FY 2007 National CORP Review for Improper Payments for DCP, providing detailed
                               findings discovered during the FY 2007 DCP Statistical Sample including established policy and procedure
                               references for each finding; and
                           • Issued various National Notices to State and County offices re-enforcing current program policies regarding
                               program compliance through the issuance of National Notices.
                           c. Actions That Will be Taken that Impact Situations where the Payee’s Interest in Base Acres on the Farm
                             Did Not Support the Claimed Payment Share:
                           • Provide a Notice to State and COFs providing the detail findings discovered during the FY 2008 DCP Statistical
                               Sample including established policy and procedure references for each finding;
                           • Conduct National Farm Bill training to address 2009 DCP policy and provisions;
                           • Re-enforce current program policies regarding program compliance through the issuance of National notices to
                               State and COF personnel; and
                           • Review existing policy and procedures to determine program compliance inefficiencies and eliminate inadequate
                               program compliance controls.
FSA      Conservation      The three most significant causes for payments being identified as improper are as follows:
         Reserve Program   1. Payment amount is incorrect for annual rental payment and calculated cost-share assistance.
         (CRP)             2. Original CRP-1 is not on file to support what was loaded through the automated process.
                           3. Conservation Plan of Operation (CPO) that was on file lacks sufficient information to support the payment.
                           Actions taken or that will be taken to reduce the weaknesses identified are as follows:
                           a. Broad Scope Actions Taken:
                           See the actions described in the Marketing Assistance Loan Program (MAL) shown above. The same actions apply
                           to this program; and
                           b. Actions Already Taken that Impact All Causes of Improper Payments Identified.
                           The actions taken were completed late in FY 2007 or FY 2008.
                           • Integrated the employee’s individual performance results related to reducing improper payments into his/her
                               annual performance rating;
                           • Amended checklist, the CCC-770-CRP was replaced with four separate checklists to specifically address the
                               different processes involved with CRP that could impact the type of payment being issued to a participant. The
                               CCC-770-CRP1 checklist is completed during the CRP-1 contract approval process; the CCC-770-CRP2 is
                               completed before a cost-share payment, the CCC-770-CRP3 is completed before the issuance of an annual
                               rental payment, and the CCC-770-CRP4 is completed for contracts with PIP, CP-23, CP-23A, CP-37, and SIP
                               type payments., By completing the CCC-770-CRP, the COF employee is certifying that the applicable program
                               provisions have, or have not been met. The checklists are a tool for employees to use to confirm that all
                               necessary requirements for payment readiness have been completed before payment is issued;
                           • Notice CRP-575 was issued to State and County Offices on November 29, 2007, which specifically identified
                               each FY 2007 CORP finding and the appropriate policy that must be followed to prevent improper payment


266
                            FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Agency        Program                                                   Corrective Actions Planned
                                errors. State Executive Directors (SED) and applicable State Office staff developed corrective action plans
                                (CAPs) implementing applicable program procedures required by national notices and program handbooks.
                                National training sessions were held during FY 2008 with SEDs, District Directors, and Administrative Officers to
                                review results of the FY 2007 statistical sample;
                             • FSA implemented a new compliance review process for the 2007 crop year. The new compliance spot check
                                review process will allow FSA to (1) conduct a more meaningful and comprehensive spot check/compliance
                                review and; (2) utilize a better mechanism for reporting spot check results. The new reporting mechanism will
                                allow the National Office to monitor improper payments discovered as result of a producer spot check; and
                             • National Training addressing the errors that resulted in improper payments was held during October 2008 along
                                with training for the implementation of the provisions of the Food, Conservation, and Energy Act of 2008.
                             c. Actions That Will be Taken that Impact the Incorrect Payment Rates:
                             • Provide a Notice to State and COFs providing the detail findings discovered during the FY 2008 CRP Statistical
                                Sample including established policy and procedure references for each finding;
                             • Based on sample results, amend the CCC-770-CRP checklist(s), as appropriate, to ensure that COFs are
                                reminded of the necessary policies and procedures for program compliance;
                             • Contact State Office managers where the majority of improper payments were identified, according to the
                                statistical sample, to determine possible training and/or job aids the State and COF staff may need to assist in
                                facilitating compliance to controls;
                             • Review existing policy and procedures to determine program compliance inefficiencies and eliminate inadequate
                                program compliance controls;
                             • Continuation of training efforts related to improper payments for field personnel to educate them on the
                                importance of control procedures as well as the potential risks of noncompliance. Once completed, the
                                conservation training will consist of two levels and will be conducted through out FY 2008; and beyond if needed.
                                The following criteria is being used by CEPD to identify the level of training needed:
                                Basic Course: This course is strongly recommended for State Office personnel with less than 5 years of State
                                Office Conservation Reserve Program (CRP) experience who possess the basic knowledge, skills, and abilities
                                to administer CRP. The participant will elevate their basic level of understanding of CRP policy and procedures,
                                raising their performance level through practical exercises, case studies, and examples.
                                In order to provide some very efficient CRP training, CEPD will survey State Office program knowledge of CRP
                                policies and provisions.
                                Advanced Course: This course is designed for State Office personnel with 5 years or more of State Office CRP
                                experience that wish to elevate their level of quality for managing and understanding of the CRP within their
                                state.
                                This course will provide advanced CRP policy and procedure training in addition to in-depth area specific training
                                for experienced State Office Conservation personnel; and
                             • Enhancing existing web-based software and retiring legacy systems in order to more closely tie all program
                                payments to a single contract file. This migration will reduce the potential that contract payment documents and
                                records will contain inconsistent or out-of-date information.
FSA      Miscellaneous       The results of Miscellaneous Disaster Programs (Disaster Programs) FY 2008 Statistical Sample for improper
         Disaster Programs   payments were based on FY 2007 payment data for the following programs:
         (CDP)               • Livestock Compensation Program;
                             • Livestock Indemnity Program;
                             • Hurricane Indemnity Program;
                             • Tree Indemnity Program;
                             • Feed Indemnity Program;
                             • Citrus Disaster Program;
                             • Fruit and Vegetable Disaster Program; and
                             • Nursery Disaster Program
                             Each fiscal year’s payment data represents different disaster response programs based on authorities provided by
                             legislation passed by Congress. Of the eight disaster programs included in the statistical sample, none are
                             permanent programs. Approximately 92 percent of the payments sampled are limited to hurricane disaster
                             payments that were issued in six states with over 70 percent of the dollars and payments issued in Florida.
                             It is important to note that of the eight disaster programs included in the statistical sample, the majority of improper
                             payments were made under the Nursery Disaster Program. The four most significant causes for payments being
                             identified as improper and the corresponding disaster program(s) that made the improper payments were as follows:




                                                                                                                                                267
                                          OTHER ACCOMPANYING INFORMATION
Agency   Program                                             Corrective Actions Planned
                   • Required documentation (other than application) was not provided. This error only applies to the Nursery
                       Disaster Program;
                   • Payment amount is incorrect for reasons other than payee share. This error only applies to the Nursery Disaster
                       Program;
                   • Unauthorized representative signed application. This error only applies to the Nursery Disaster Program and the
                       Hurricane Indemnity Program; and
                   • Application is not on file. This error only applies to the Nursery Disaster Program and the Tree Indemnity
                       Program.
                   Actions taken or that will be taken to reduce the weaknesses identified are as follows:
                   a. Broad Scope Actions Taken:
                   • See the actions described in the Marketing Assistance Loan Program (MAL) shown above. The same s actions
                       apply to this program; and
                   • FSA implemented a new compliance review process for the 2007 and subsequent crop years. The new
                       compliance spot check review process allows FSA to (1) conduct a more meaningful and comprehensive spot
                       check/compliance review and; (2) utilize a better mechanism for reporting spot check results. The new reporting
                       mechanism allows the National Office to monitor improper payments discovered as result of a spot check.
                   b. Actions Already Taken that Impact All Causes of Improper Payments Identified:
                   The actions taken were completed late in FY 2007 or early FY 2008 so the impact would not be realized until review
                   of the FY 2008 payment activity. The FY 2008 payment activity will be sampled as part of the FY 2009 review cycle.
                   • Provided training on improper payments to field personnel and educate them on the importance of control
                       procedures as well as the potential risks of noncompliance. Training was delivered through various means
                       including in person and via Ag Learn, and is being followed up with communications and job aid to help facilitate
                       compliance controls; and
                   • Integrated the employee’s individual performance results related to reducing improper payments into his/her
                       annual performance rating.
                   In addition to the above actions, the following actions were completed in FY 2007 or early FY 2008; therefore the
                       impact will not be realized until review of the FY 2008 payment activity. The FY 2008 payment activity will be
                       sampled as part of the FY 2009 review cycle.
                   • Issued Notice PM-2615, FSA Performance Management Program Improper Payments Standard, which provided
                       the new required standard for improper payments. The Notice provided that all Field Office employees who work
                       with Farm Program payments shall have the following standard in the “Program Management”, “Execution of
                       Duties”, or similar element:
                       “Successfully completes FSA IPIA training requirements and ensures that agency Corrective Action Plan (CAP)
                       procedures are followed to ensure that payments are accurate and that required payment documentation is up-
                       to-date and on file.”
                   • Issued Notice DAP-271, FY 2007 National CORP Review for Improper Payments for Miscellaneous Disaster
                       Programs, providing detailed findings discovered during the FY 2007 Miscellaneous Disaster Programs
                       Statistical Sample including established policy and procedure reference;
                   • Developed the following new checklists for disaster programs being implemented in FY 2007:
                        – FSA-770 CDP, 2005-2007 Crop Disaster Program Application Checklist;
                        – FSA-770 LCP, 2005/2006/2007 Livestock Compensation Program Application Checklist; and
                        – FSA-770 LIP, 2005/2006/2007 Livestock Indemnity Program Application Checklist.
                   By completing the checklists, the COF employee is certifying that the applicable program provisions have, or have
                   not, been met;
                   • In September 2007, the National Office conducted 2005-2007 Crop Disaster Program National Training for State
                       and COF employees. Training was provided to State and COF personnel on program policy and procedure, and
                       included software training; and
                   • Issued various National Notices to State and County Offices re-enforcing current program policies regarding
                       program compliance through the issuance of National Notices.
                   c. Actions That Will be Taken that Impact All Causes of Improper Payments Identified:
                   • Provide a Notice to State and COFs providing the detail findings discovered during the FY 2008 Miscellaneous
                       Disaster Programs Statistical Sample including established policy and procedure references for each finding;
                   • Contact State Office managers where the majority of improper payments were identified, according to the
                       statistical sample, to determine possible training and/or job aids the State and COF staff may need to assist in
                       facilitating compliance to controls;
                   • Re-enforce current disaster programs’ policies regarding program compliance through the issuances of National
                       notices to State and COF personnel; and
                   • Based on the FY 2008 Disaster Programs Statistical Sample results, the National Office will develop a Checklist
                       for any other new miscellaneous disaster program being implemented, if determined necessary.



268
                    FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Agency        Program                                                   Corrective Actions Planned
FSA      Noninsured           The six most significant causes for payments being identified as improper were as follows:
         Assistance Program    1. Notice of loss filed late.
         (NAP)                 2. Acceptable production evidence is not on file.
                               3. Acreage report is not on file.
                               4. CCC-576, Part G is not signed by LA or FSA representative.
                               5. Notice of Loss lacks sufficient information.
                               6. Unit yield is not properly calculated.
                              Actions taken or that will be taken to reduce the weaknesses identified are as follows:
                              a. Broad Scope Actions Taken:
                              See the actions described in the Marketing Assistance Loan Program (MAL) shown above. The same actions apply
                              to this program.
                              • FSA implemented a new compliance review process for the 2007 and subsequent crop years. The new
                                  compliance spot check review process allows FSA to (1) conduct a more meaningful and comprehensive spot
                                  check/compliance review and; (2) utilize a better mechanism for reporting spot check results. The new reporting
                                  mechanism allows the National Office to monitor improper payments discovered as result of a spot check. The
                                  2007 Compliance review results have been distributed to the appropriate Divisions for review. During the 4th
                                  quarter of FY 2008, the Deputy Administrator for Farm Programs will meet with all divisions to analyze
                                  compliance review results and determine a plan of action, if needed.
                              b. Actions Already Taken that Impact All Causes of Improper Payments Identified:
                              The actions taken were completed late in FY 2007 or early FY 2008 so the impact would not be realized until review
                              of the FY 2008 payment activity. The FY 2008 payment activity will be sampled as part of the FY 2009 review cycle.
                              • Provided training on improper payments to field personnel and educate them on the importance of control
                                  procedures as well as the potential risks of noncompliance. Training was delivered through various means
                                  including in person and via Ag Learn, and is being followed up with communications and job aid to help facilitate
                                  compliance controls;
                              • Integrated the employee’s individual performance results related to reducing improper payments into his/her
                                  annual performance rating; and
                              • Developed a new checklist, the CCC-770-NAP, Noninsured Crop Disaster Assistance Program Payment
                                  Checklist, for County Office employees to use. By completing the CCC-770-NAP, the County Office employee is
                                  certifying that the applicable program provisions have, or have not been met.
                              In addition to the above actions, the following actions were completed in FY 2007 or early FY 2008; therefore the
                              impact will not be realized until review of the FY 2008 payment activity. The FY 2008 payment activity will be
                              sampled as part of the FY 2009 review cycle.
                              • Issued Notice PM-2615, FSA Performance Management Program Improper Payments Standard, which provided
                                  the new required standard for improper payments. The Notice provided that all Field Office employees who work
                                  with Farm Program payments shall have the following standard in the “Program Management”, “Execution of
                                  Duties”, or similar element:
                                  “Successfully completes FSA IPIA training requirements and ensures that agency Corrective Action Plan (CAP)
                                  procedures are followed to ensure that payments are accurate and that required payment documentation is up-
                                  to-date and on file.”
                              • Issued Notice NAP-104, FY 2007 National CORP Review for Improper Payments for NAP, providing detailed
                                  findings discovered during the FY 2007 NAP Statistical Sample including established policy and procedure
                                  references for each finding;
                              • Contacted State Office managers where the majority of NAP improper payments were identified, according to the
                                  statistical sample, to determine possible training and/or job aids the State and COF staff needed to assist in
                                  facilitating compliance to controls;
                              • Issued various National Notices to State and County Offices re-enforcing current program policies regarding
                                  program compliance through the issuance of National Notices; and
                              • Conducted National NAP Training during October 2008 for State and County office employees that addressed
                                  yield calculations. The National office also addressed other significant causes for NAP improper payments at the
                                  training session.
                              c. Actions That Will be Taken that Impact All Causes of Improper Payments Identified:
                              • Provide a Notice to State and County Offices providing the detail findings discovered during the FY 2008 NAP
                                  Statistical Sample including established policy and procedure references for each finding;




                                                                                                                                              269
                                           OTHER ACCOMPANYING INFORMATION
Agency        Program                                                    Corrective Actions Planned
                               • Based on sample results, amend the CCC-770-NAP checklist, as appropriate, to ensure that County Offices are
                                   reminded of the necessary policies and procedures for program compliance;
                               • Contact State Office managers where the majority of improper payments were identified, according to the
                                   statistical sample, to determine possible training and/or job aids the State and county staff may need to assist in
                                   facilitating compliance to controls;
                               • Re-enforce current program policies regarding program compliance through the issuance of National notices to
                                   State and county office personnel; and
                               • Review existing policy and procedures to determine program compliance inefficiencies and eliminate inadequate
                                   program compliance controls.
FS       Wildland Fire         Root cause of improper payment errors appear to be caused by noncompliance with administrative procedures, lack
         Suppression           of training and inconsistent processing procedures.
         Management            • Overpayments: failure to reconcile vendor statement to invoices;
                               • Non-business/personal related charges to Purchase Card Management System (PCMA) card;
                               • Underpayments: late payments and failure to include Prompt Payment interest on PCMS card payments; and
                               • Insufficient documentation was not an issue in FY 2008.
                               Corrective Actions.
                               • Update and clarify policy and procedures and define oversight responsibilities for cardholder;
                               • Issue Guidance on the appropriate use of Travel Card and Purchase Card use under the PCMS program;
                               • Implement stricter monitoring over purchase card transactions with monthly audits; and
                               • Implement internal controls to ensure correct posting of dates to improve timely payments and computation of
                                   prompt payment interest.
RD       Rental Assistance     Root cause of improper payment errors included:
         Program               • Incomplete documentation for income verification;
                               • Incomplete documentation for tenant verification;
                               • Tenant certification error; and
                               • Income calculation error.
                               Corrective actions include:
                               • Sent a letter to property management business partners regarding the importance of the IPIA process and the
                                  types of errors that were identified. Required industry groups to develop corrective action plans to be undertaken
                                  by their members. May 27, 2008;
                               • Implemented a quarterly audit process that will be conducted by CSC on selected states tenant files. July 31,
                                  2008;
                               • Required Agency follow-up for corrective actions on errors found in the FY 2008 improper payments report. July
                                  31, 2008;
                               • Issued an unnumbered letter to the State Offices regarding the findings from the FY 2008 improper payments
                                  report. The unnumbered letter required State Offices, with an average error rate of 2% or higher during the past
                                  three years, to develop a corrective action plan. The plan will need to include procedures to train field staff,
                                  borrowers and property managers in appropriate required documentation and follow-up with tenants and income-
                                  verifiers. May 28, 2008;
                               • Added to HB-2-3560, Multi-Family Housing Asset Management Handbook, Chapter 6 – Project Occupancy, a
                                  check sheet for property management agents to review when verifying assets, income and adjustments to
                                  income and a check list of required tenant file documentation. September 30, 2008;
                               • Developed a “Fact Sheet” for MFH tenants explaining their responsibilities and rights regarding income
                                  disclosure and verification. October 31, 2008; and
                               • The National Office will continue to pursue access to the Department of Health and Human Services New Hires
                                  database and the Department of Housing and Urban Development’s Enterprise Income Verification System to be
                                  shared with State Offices and management agents. Ongoing.
RMA      Federal Crop          RMA completed the third year of the three-year review cycle established to determine the improper payment rate for
         Insurance             the Federal Crop Insurance Program. The strategy for identifying and controlling the error rate includes identifying
         Corporation Program   error trends and policy concerns and correct them, however, as with the first 600 policies reviewed, there are still no
         Fund                  definitive trends in the 900 polices completed in 2007. No underlying policy or underwriting issues have become
                               apparent. This is in part due to the diversity of crops being reviewed and suggests it may be several cycles before
                               RMA may amass sufficient numbers of samples on any particular crop to draw meaningful comparisons in the errors
                               identified.




270
                                FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
 Agency           Program                                                    Corrective Actions Planned
                                    Data mining is used to create a comprehensive list of producers exhibiting anomalous behavior. The system was
                                    developed in partnership between Tarleton State University and Planning Systems Incorporated. It is used to
                                    facilitate crop insurance program integrity and deter program abuse.
                                    When RMA negotiated and executed the new Standard Reinsurance Agreement (SRA) starting in 2005 it
                                    emphasized improved quality controls and enhanced penalties that together should encourage participating
                                    companies who sell and service Federal crop insurance policies to improve their improper payments rate. Based on
                                    the passage of the most recent Farm Bill, it appears that RMA will have another opportunity beginning with the 2011
                                    reinsurance year to further adjust and improve SRA holder quality control requirements.
 NRCS       Conservation            Despite a zero improper payment rate; we will continue to take actions to address the difficulties realized in
            Security Program        successfully completing this audit. Lessons learned has been developed to improve our process. NRCS is including
                                    considerations for improper payments in developing and modifying program manuals to implement the new Farm
                                    Bill. NRCS has addressed the anticipated adjusted gross income compliance verification for future years and will
                                    continue to work with the Farm Service Agency to address these concerns.




               IV. Based on the Rate(s) Obtained in Step III, Set Annual Improvement Targets through FY 2010.
                   Improper Payment Reduction Outlook FY 2006 – FY 2010

Below is a summary level table for all high risk programs outlining improper payment rates for the last two years
and future reduction targets. When a number cannot be provided, an explanation is provided in the notes below.
Amounts represent when the sampling results are reported. USDA programs report results the year following
sampling activity. For example, results reported during FY 2008 represent measures of FY 2007 outlays and
program activity.
                                                Improper Payment Sampling Results ($ in millions)
                                                                                        Results                                  Results
                                                                                Reported in FY 2007                        Reported in FY 2008
                               Program                                Outlays         IP%            IP$         Outlays          IP%          IP$
 Marketing Assistance Loan Program, FSA/CCC [Note #12]                  6,306        7.52%           458           4,981         1.76%          92
 Food Stamp Program, FNS                                               29,942        5.99%          1,794         30,373         5.64%        1,713
 National School Lunch Program, FNS [Note #1]
 Total Program                                                          8,602       16.30%          1,402          8,756        16.55%        1,449
        Certification Error                                             8,602       9.42%            810           8,756        9.67%          847
 Counting/Claiming Error                                                8,602       6.88%            592           8,756        6.88%          602
 School Breakfast Program, FNS [Note #1]
 Total Program                                                          2,086       24.94%           520           2,150        25.02%         538
        Certification Error                                             2,086       9.15%            191           2,150        9.23%          198
 Counting/Claiming Error                                                2,086       15.79%           329           2,150        15.79%         339
 Women, Infants and Children, FNS [Note #2]
 Total Program                                                          3,598         N/A            N/A           3,950          N/A          N/A
                                                                        3,598         N/A            N/A           3,950          N/A          N/A
 Certification Error Component
                                                                        3,598        0.69%           25            3,950         0.87%         34
 Vendor Error Component
 Child and Adult Care Food Program, FNS [Note #2]
 Total Program                                                          2,187         N/A            N/A           2,311          N/A          N/A
                                                                         738         1.69%           12             728          1.56%         11
 FDC Homes – Tiering Decisions
                                                                         738          N/A            N/A            738           N/A          N/A
 FDC Homes – Meal Claims



                                                                                                                                                     271
                                                 OTHER ACCOMPANYING INFORMATION
                                                  Improper Payment Sampling Results ($ in millions)
                                                                                    Results                          Results
                                                                               Reported in FY 2007              Reported in FY 2008
                                 Program                             Outlays       IP%         IP$    Outlays         IP%         IP$
Milk Income Loss Contract Program, FSA                                351         2.17%         8      155           0.21%        0.3
Loan Deficiency Payments, FSA                                         4,071       0.45%        18      134           0.60%        0.8
Direct and Counter-Cyclical Payments, FSA [Note #3]                   9,550       0.37%        37      7,144         0.70%         47
Conservation Reserve Program, FSA [Note #3]                           1,851       0.45%         9      1,888         1.25%         24
Miscellaneous Disaster Programs, FSA                                  368         6.76%        25      154           3.13%         5
Noninsured Assistance Program, FSA                                     64         13.14%        8      126          14.67%         18
Wildland Fire Suppression Management, FS                              1,412       0.95%        13      1,370         0.02%         .2
Rental Assistance Program, RD                                         855         3.07%        26      887           3.95%         35
Federal Crop Insurance Corporation Program Fund, RMA [Note #4]        2,364       2.68%        63      3,508         4.70%        165
Conservation Security Program, NRCS [Note #5]                         227         0.47%         1      1,138         0.00%         0
USDA Total                                                           72,385       6.11%       4,420    67,442        6.13%       4,132


                                        Detailed Breakout of Improper Payment Reported in FY 2008
                                         Total                   Over-       Under-
                                      Payments                 Payments    Payments       Other       Incorrect               Incomplete
                                     $ in millions   IP %          %           %            %     Disbursement %             Paperwork %
Marketing Assistance Loan                4,981          1.76%       1.76%           N/A         N/A       0.19%                 1.57%
Program, FSA/CCC
Food Stamp Program, FNS [Note            30,373         5.64%       4.58%          1.06%        N/A       5.64%                  N/A
#6]
National School Lunch Program,           8,756         16.55%      12.51%          4.04%        N/A       16.55%                 N/A
FNS [Note #1]
School Breakfast Program, FNS            2,150        25.02%     21.53%            3.49%      N/A         25.02%                 N/A
[Note #1]

Women, Infants and Children,             3,950          0.87%       0.35%          0.52%        N/A       0.87%                  N/A
FNS [Note #2]
Child and Adult Care Food                  728          1.56%       1.54%          0.02%        N/A       1.56%                  N/A
Program, FNS [Note #2]
Milk Income Loss Contract                  155          0.21%       0.13%          0.08%        N/A       0.17%                 0.04%
Program, FSA
Loan Deficiency Payments, FSA              135          .60%        0.50%          0.09%        N/A       0.51%                 0.09%


Direct and Counter-Cyclical              7,144          0.70%       0.65%          0.05%        N/A       0.22%                 0.48%
Payments, FSA
Conservation Reserve Program,            1,888          1.25%       1.21%          0.04%        N/A       1.02%                 0.23%
FSA



272
                                     FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                         Detailed Breakout of Improper Payment Reported in FY 2008
                                          Total                   Over-       Under-
                                       Payments                 Payments    Payments       Other       Incorrect                        Incomplete
                                      $ in millions   IP %          %           %            %     Disbursement %                      Paperwork %
Miscellaneous Disaster Programs,          154              3.13%       3.05%        0.08%              N/A            2.52%               0.61%
FSA [Note #7]
Noninsured Assistance Program,            126              14.67%     14.20%        0. 47%             N/A            3.29%              11.38%
FSA
Wildland Fire Suppression                 1,370            0.02%       0.01%        0.01%              N/A             .02%               0.00%
Management, FS
Rental Assistance Program, RD             887              3.95%       3.95%           0.0%            N/A            1.97%               1.98%
Federal Crop Insurance                    3,508            4.70%       4.65%        0.05%              N/A            4.70%                N/A
Corporation Program Fund, RMA


Farm Security and Rural Investment        1,138            0.00%       0.00%        0.00%              N/A            0.00%               0.00%
Program, NRCS
USDA Total                               67,442            6.13%       4.97%        1.15%            0.00%            5.90%               0.22%


                                            Improper Payment Reduction Outlook ($ in millions)
                                                        FY 2009 Reporting            FY 2010 Reporting                     FY 2011 Reporting
                                                                                                                     Outlay
               Program                       Outlays          IP%       IP$      Outlays       IP%           IP$       s         IP%         IP$
Marketing Assistance Loan Program,
                                                4,935        1.65%          81    6,609       1.55%          102     6,454      1.45%          94
FSA/CCC
Food Stamp Program, FNS                      33,866          5.64%     1,910     35,189       5.60%          1,970   35,483     5.40%       1,916
National School Lunch Program, FNS
                                                9,562        16.08%    1,538      9,715       15.63%         1,518   9,981      15.19%      1,516
[Note #1]
School Breakfast Program, FNS [Note #1]         2,418        24.20%     590       2,503       23.42%         590     2,623      22.66%       590
Women, Infants and Children, FNS
                                                4,547        0.82%          37    4,492       0.77%           35     4,594      0.72%          33
[Note #2]
Child and Adult Care Food Program, FNS            757        1.51%          11    776         1.46%           11      796       1.41%          11
Milk Income Loss Contract Program, FSA
                                                  2           N/A       N/A        10         0.21%           0.1     15        0.21%        0.1
[Note #6]
Loan Deficiency Payments, FSA [Note
                                                  6           N/A       N/A        7          0.60%           0.1      7        0.60%        0.1
#6]
Direct and Counter-Cyclical Payments,
                                                3,988        0.65%          26    4,578       0.60%           27     4,406      0.60%          26
FSA
Conservation Reserve Program, FSA               1,876        1.20%          23    1,891       1.15%           22     1,933      1.10%          21
Miscellaneous Disaster Programs, FSA            2,245        3.00%          67    2,568       2.95%           76     1,291      2.90%          37
Noninsured Assistance Program, FSA                67         14.00%         9     325         12.00%          39      325       10.00%         33
Wildland Fire Suppression Management,
                                                1,900        .02%       0.4       2,090       0.02%           0.4    2,300      0.02%        0.5
FS


                                                                                                                                                  273
                                                      OTHER ACCOMPANYING INFORMATION
                                            Improper Payment Reduction Outlook ($ in millions)
                                                    FY 2009 Reporting            FY 2010 Reporting            FY 2011 Reporting
                                                                                                          Outlay
                Program                     Outlays       IP%       IP$      Outlays    IP%      IP$        s       IP%       IP$
 Rental Assistance Program, RD                924        3.90%          36    960      3.70%         36    999     3.50%          35
 Federal Crop Insurance Corporation
                                             3,600       4.60%      166       3,900    4.50%     176      3,900    4.40%      172
 Program Fund, RMA
 Farm Security and Rural Investment, NRCS    1,519       0.30%          5     1,790    0.20%         4    1,800    0.15%          3

Note #1: Does not adjust for interaction between the different sources of certification error and counting/claiming
error. Improper Payment Rates (SY 2005/06) times School Breakfast Program Outlays (FY 2006).
Note #2: WIC and CACFP tested components of their total program. WIC tested a vendor error component of the
payment process using final 2006 numbers since FY 2007 are not yet available. CACFP tested the Family Day
Care Home tiering decision component payment process of the total outlays. FNS intends to report a WIC
certification error in FY 2009.
Note #3: The FY 2008 estimated improper payment dollar amounts for the Marketing Assistance Loan program,
Direct & Counter-Cyclical Payments and the Conservation Reserve program reflect a slight variance from the
relationship between the improper payment percentage and the outlays amount. These variances result from the
complex, multi-stage statistical sampling methodology used to calculate the independent projections of the
dollars/percentages in error. The variances are not an attribute measurement, but rather a complex ratio estimate
weighted with respect to the payments within their applicable county stratification. They reflect the variability
within the payment data and occur with a 90% confidence level.
Note #4: RMA has completed the third year of a three year testing cycle.
Note #5: For FY 2008, NRCS reviewed all of its Farm Security and Rural Investment (Farm Bill) programs due to
concerns over eligibility data. For FY 2007, only the Conservation Security program was sampled. The
Conservation Security program is one of six Farm Bill programs. For FY 2006, all Farm Bill programs were
reviewed.
Note #6: The Milk Income Loss Contract (MILC) Program and Loan Deficiency Programs (LDP) will not be
sampled for the FY 2009 IPIA Review Cycle since sampling is not cost effective due to the very low outlay amounts
($2.2 million for MILC and $5.5 million for LDP).

             V. Discussion of your Agency’s Recovery Auditing effort, if applicable, including any contract types excluded
                from review and the justification for doing so; actions taken to recoup improper payments, and the
                business changes and internal controls instituted and/or strengthened to prevent further occurrences.
                In addition, complete the table below.

USDA continued its recovery audit program with eight agencies in FY 2008. All agencies used independent
recovery audit firms working on contingency.
Steps taken to reduce future errors include strengthening internal controls by providing information related to all
recovered monies and the underlying transactions to management. The most successful method of identifying funds
to be recovered has been the review of vendor statements. Most amounts identified during FY 2008 were due to the
vendor statements reviews of FY 2007 payments.


274
                                      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                FY 2008 Recovery Auditing Results ($ in Million)
                                                                                                             Cumulative
                    Amount                          FY 2008                                                   (Current &       Cumulative
                   Subject to                      Amounts                    Prior Years                    Prior Years)    (Current & Prior
                   Review for   Actual Amount      Identified    FY 2008       Amounts        Prior Years      Amounts            Years)
   Agency           FY 2008     Reviewed and          for        Amounts     Identified for    Amounts      Identified for      Amounts
  Component        Reporting      Reported         Recovery     Recovered      Recovery       Recovered        Recovery        Recovered
 Forest Service     2,010.333     2,010.333          0.041        0.111          .640           0.571           .682               0.682
 Natural
 Resources
                    1,072.288     1,072.288          0.000        0.000          0.026          0.026           0.026              0.026
 Conservation
 Service
 Agricultural
 Research           503.822        53.822            0.000        0.000          0.000          0.000           0.000              0.000
 Service
 Animal Plant
 Health
                    445.300        445.300           0.000        0.000          0.374          0.374           0.374              0.374
 Inspection
 Service
 Farm Service
                    196.985        196.985           0.000        0.000          0.047          0.047           0.047              0.047
 Agency
 Food Safety
 and
                     49.617        49.617           0.000        0.000           0.000          0.000           0.000              0.000
 Inspection
 Service
 Rural
                    232.860        232.860          0.000        0.000           0.000          0.000           0.000              0.000
 Development
 Agricultural
 Marketing           59.556        59.556            0.000        0.000          0.002          0.002           0.002              0.002
 Service
 All Others         737.765         0.000             N/A          N/A            N/A              N/A           N/A                   N/A
 USDA Total         5,308.526     4,570.161          0.041        0.111          1.089          1.020         1.131               1.131




                VI. Describe the steps the agency has taken and plans to take (including time line) to ensure that agency
                    managers (including the agency head) are held accountable for reducing and recovering improper
                    payments.


FSA
The following are steps that have or will continue to be taken to ensure agency managers are held accountable for
reducing and recovering improper payments:
The National Office will continue supporting the use of the program checklists for eligibility and program policy by
local offices processing program applications. By completing the program Checklists, the County Office (COF)


                                                                                                                                           275
                                                  OTHER ACCOMPANYING INFORMATION
employee is certifying that the applicable program provisions have or have not been met. The County Executive
Director (CED) and State Committee (STC), or their designated representative, are required to spot check a
certain number of program checklists. The CED, or their designated representative, must report to County Office
Committee (COC) and the STC representative any checklists in which CED does not concur with the preparer’s
determination. The STC, or their designee, shall submit the results of the spot checks to the State Executive
Director (SED). SEDs are required to provide the National Office with a report of FSA programs spot checked.
 FSA has a performance management program in place to improve individual and organizational effectiveness in
   accomplishing the agency’s mission and goals. This program provides for improper payments to be included in
   the SED Performance Plan, element 5 titled “Program Management”;
 National and State Office (STO) managers are held accountable for ensuring that program policies and
   procedures are provided to the STO and COF employees accurately and on a timely basis. National Office
   managers are also held accountable, as reflected in the performance based rating measures, for overall program
   administration at the national level. FSA employees’ performance elements are directly related to FSA’s
   Strategic Plan;
 COF employees, including the CED, are responsible for making payments to producers and following all
   administrative steps in doing so. Employees will be evaluated on program delivery and their compliance with
   regulations, policies, and procedures through their performance plans;
 Deputy Administrator of Field Operations will facilitate meetings with the program areas to discuss any
   additional action necessary for senior management to address accountability; and
 Employees at all levels of the agency will be held accountable for efficient and accurate delivery of all FSA
   programs.
FNS
An agency priority is to improve stewardship of Federal funds. Within this priority are specific goals applicable to
programs at high risk for erroneous payments. The goal for the Food Stamp Program, Special Supplemental
Nutrition Program for Women Infants and Children, and Child and Adult Care Food Program is to reduce the
error rates. The agency goals and priorities are incorporated into each manager’s performance plan.
FS
The entire Albuquerque Service Center management team is held accountable by performance metrics that include
compliance with the Improper Payments Information Act. Additionally, the agency chief financial officer will
provide disbursement performance information to the agency head as part of the performance appraisals for senior
leadership.
RD
RD State Offices with an error rate of two percent or higher must develop a corrective action plan. The plan will
include procedures to train field staff, borrowers and property manager in appropriate required documentation and
follow-up with tenants and income-verifiers.
RMA
RMA revised its strategic plan to provide results to enhance accountability. It also has established procedures to
ensure RMA management takes future corrective actions to address program vulnerabilities. Additionally, every
employee’s performance plan agreement contained a position-corresponding strategic objective element since FY
2005.
NRCS
NRCS has incorporated all of PMA’s goals and objectives, including IPIA, in the performance standards for all
senior executive service positions. These also are planned to be included in the regional assistant chiefs and state
conservationist performance plans.

276
                               FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
           VII A.   Discussion of your Agency’s Recovery Auditing effort, if applicable, including any contract types
                    excluded from review and the justification for doing so; actions taken to recoup improper
                    payments, and the business changes and internal controls instituted and/or strengthened to
                    prevent further occurrences.
           VII B.   If the agency does not have such systems and infrastructure, describe the resources the agency
                    requested in its FY 2007 budget submission to Congress to obtain the necessary information
                    systems and infrastructure.


While USDA is creating information systems and infrastructure to reduce improper payments, especially for
programs susceptible to significant risk, efforts in some programs are constrained by limited resources. USDA has
worked closely with OMB to develop action plans that focus available resources on the most critical needs with
regard to improper payment measurement and risk reduction.



           VIII. Describe any statutory or regulatory barriers which may limit the agencies’ corrective actions in
                 reducing improper payments and actions taken by the agency to mitigate the barriers’ effects.


FSA/CCC
The Department of Agriculture Reorganization Act of 1994, Section 281 provides that “[E]ach decision of a State,
county, or area committee or an employee of such a committee, made in good faith in the absence of
misrepresentation, false statement, fraud, or willful misconduct shall be final not later than 90 calendar days after
the date of filing of the application for benefits, [and] ...no action may be taken...to recover amounts found to have
been disbursed as a result of the decision in error unless the participant had reason to believe that the decision was
erroneous.” This statue commonly is referred to the “Finality Rule.”
FNS
Recent Child Nutrition reauthorization legislation, while it did include some changes requested by the
Administration to improve accountability, limited USDA’s ability to act in this area because of concerns about
potential barriers to participation. In many instances, the mandated goal of providing easy access to benefits must
be balanced against the goal of reducing improper and erroneous payments. In addition, program administration is
highly decentralized; there are approximately 100,000 school meals locations at which benefits are provided. Many
of these benefit providers simply do not have the capacity to develop robust accountability processes. For these
reasons, any approach to reducing school meals improper payments must:
 Improve accuracy without compromising access for low-income families. A process that keeps eligible children from
    participating would undermine the program.
 Not unduly increase burden on schools. Many schools consider the program burdensome now; adding burden could
    discourage schools from participating.
 Be cost-effective. Improving accuracy is potentially resource-intensive; policymakers must not create a process that
    increases net program costs.




                                                                                                                        277
                                          OTHER ACCOMPANYING INFORMATION
    Answer the needs of other users of program data, which often use certification data to distribute millions of dollars in
     other kinds of benefits to schools. As these needs contribute to the problem, a solution may also require new
     commitments from those users.
USDA plans to develop additional proposals to address statutory barriers as part of the Child Nutrition
reauthorization process planned for FY 2009. Opportunities for improvement in a number of areas will be explored,
including potential changes the process under which schools select and verify an annual sample of certifications for
accuracy.
RD
The RD program does not have the statutory requirements similar to the Department of Housing and Urban
Development to gain access to data from the Department of Health and Human Service’s New Hire Database,
Internal Revenue Service, Social Security Administration, and the Department of Labor to be shared with field
offices and management agents.
NRCS
Verification of eligibility will be an ongoing challenge for NRCS. It would be advantageous for NRCS to
determine adjusted gross income eligibility on current and future Farm Security and Rural Investment Program
(Farm Bill) participants by coordinating with the Internal Revenue Service (IRS). For long term contracts the IRS
requirement for participants to maintain tax records expires prior to the expiration of the Farm Bill contracts,
limiting the ability to independently verify eligibility.



             IX. Additional comments, if any, on overall agency efforts, specific programs, best practices, or common
                 challenges as a result of IPIA implementation.


USDA has no additional comments.




278
                                  FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
Appendix C—Table of Exhibits
    Exhibit 1:    Headquarters Organization......................................................................................................... 2
    Exhibit 2:    FY 2008 and 2007 USDA Program Obligations Dedicated to Strategic Goals......................... 5
    Exhibit 3:    FY 2008 and 2007 USDA Staff Years Dedicated to Strategic Goals ......................................... 6
    Exhibit 4:    Summary of Financial Statement Audit.................................................................................... 36
    Exhibit 5:    Summary of Management Assurances ...................................................................................... 36
    Exhibit 6:    Initiatives To Be Completed ..................................................................................................... 39
    Exhibit 7:    Decrease in Total Open Audit Inventory ................................................................................. 41
    Exhibit 8:    Audit Follow-Up Definitions.................................................................................................... 41
    Exhibit 9:    Inventory of Audits with Disallowed Costs .............................................................................. 42
    Exhibit 10:   Distribution of Adjustments to Disallowed Costs .................................................................... 42
    Exhibit 11:   Inventory of Audits with Funds To Be Put to Better Use1 ...................................................... 42
    Exhibit 12:   Decrease in Audits Open One or More Years Past Management Decision Date.................... 43
    Exhibit 13:   Distribution of Audits Open 1 Year or More Past the Management Decision Date,
                  Disallowed Costs, and FTBU ................................................................................................... 43
    Exhibit 14:   Audits Open 1 Year or More Past the Management Decision Date and Behind Schedule..... 44
    Exhibit 15:   Increase U.S. Export Opportunities and Trends in Expanding and Retaining Market
                  Access ........................................................................................................................................ 51
    Exhibit 16:   Data Assessment of Performance Measure 1.1.1 ...................................................................... 51
    Exhibit 17:   Support International Trade Capacity Building ....................................................................... 54
    Exhibit 18:   Support Foreign Food Assistance ............................................................................................. 56
    Exhibit 19:   Increase U.S. Export Opportunities.......................................................................................... 59
    Exhibit 20:   Number of Items Designated as Biobased for Federal Procurement........................................ 61
    Exhibit 21:   Agricultural Statistics Reports Released On-Time................................................................... 63
    Exhibit 22:   Percent of market-identified quality attributes for which USDA has provided
                  standardization .......................................................................................................................... 66
    Exhibit 23:   Providing Risk Management Tools to Farmers and Ranchers Economically Viable ............... 68
    Exhibit 24:   Providing Tools to Help Farmers and Ranchers Stay Economically Viable ............................ 69
    Exhibit 25:   Providing Tools to Help Farmers and Ranchers Stay Economically Viable ............................ 71
    Exhibit 26:   Strengthen Rural Businesses ..................................................................................................... 73
    Exhibit 27:   Improving Rural Quality of Life Through Electric Opportunities........................................... 76
    Exhibit 28:   Improving Rural Quality of Life Through Telecommunication Services................................. 76
    Exhibit 29:   Improving Rural Quality of Life Through Water and Waste Disposal Facilities .................... 77
    Exhibit 30:   Homeownership Opportunities Provided ................................................................................. 77
    Exhibit 31:   Improving Rural Quality of Life Through Community Facilities............................................ 78
    Exhibit 32:   Pathogen Reduction (Food Inspection) .................................................................................... 81
    Exhibit 33:   Reduce the Number and Severity of Pest and Disease Outbreaks............................................ 85
    Exhibit 34:   Ensure the Capabilities of Plant and Diagnostic Laboratories are Improved........................... 86
    Exhibit 35:   Improve Access to Nutritious Food .......................................................................................... 90
    Exhibit 36:   Promoting Healthier Eating Habits and Lifestyles .................................................................. 93
    Exhibit 37:   Increase Efficiency in Food Management................................................................................. 94
    Exhibit 38:   Healthy Watersheds, High Quality Soils and Sustainable Ecosystems .................................... 97
    Exhibit 39:   Enhanced Soil Quality .............................................................................................................. 99
    Exhibit 40:   Trends in Treatment of Hazardous Fuel, Private Forests and Grasslands ............................. 102
    Exhibit 41:   Improved Wildlife Habitat...................................................................................................... 105




                                                                                                                                                                       279
                                                    OTHER ACCOMPANYING INFORMATION
Appendix D—Acronyms


      A
      AARC—Alternative Agricultural Research and Commercialization   AQI—Agricultural Quarantine Inspection
      Corporation                                                    ARPA—Agricultural Risk Protection Act
      ACES—Agricultural Conservation Enrollees/Seniors               ARS—Agricultural Research Service
      AGCI—African Global Competitiveness Initiative                 ASB—Agricultural Statistics Board
      AHMS—Animal Health Monitoring and Surveillance                 ASCR—Assistant Secretary for Civil Rights
      AIIS—Automated Import Information System                       ATD—Animal Tracing Database
      AMM—Acquisition Management Module                              ATM—Audit Tracking Module
      AMP—Asset Management Plan                                      ATPS—Animal Trace Processing System
      AMS—Agricultural Marketing Service                             ATS—Automated Targeting System
      ANSI—American National Scientific Institute                    AWG—Administrative Wage Garnishment
      APEC—Access, Participation, Eligibility and Certification
      APHIS—The Animal and Plant Health Inspection Service

      B
      BBP—Building Block Plan                                        BSE—Bovine Spongiform Encephalopathy
      BMP—Best Management Practices

      C
      CACFP—Child and Adult Care Food Program                        COF—County Office
      CAFTA-DR—Central America Free Trade Agreement–Dominican        COOL—Country of Origin Labeling
      Republic                                                       CORP—County Office Review Program
      CAM—Content Analysis Module                                    CP—Career Pattern
      CAP—Corrective Action Plan                                     CPAP—Community Programs Application Processing
      CBO—Certificates of Beneficial Ownership                       CPO—Conservation Plan of Operation
      CBP—Customs and Border Protection                              CRD—Civil Rights Division
      CCAP—Child Care Assessment Project                             CRE—Coordinated Review Effort
      CCC—Commodity Credit Corporation                               CRP—Conservation Reserve Program
      CDP—Miscellaneous Disaster Programs                            CSAM—Cyber Security Assessment and Management
      CEAP–Conservation Effects Assessment Project                   CSC—Centralized Serving Center
      CED—Country Executive Director                                 CSF—Classical Swine Fever
      CEQ—Council on Environmental Quality                           CSM—Commercial Services Management
      CF—Community Facilities                                        CSP—Conservation Security Program
      CFO—Chief Financial Officer                                    CSREES—Cooperative State Research, Education and
      CI—Condition Index                                             Extension Service
      CIMS—Corporate Information Management System                   CSS—Comprehensive Surveillance System
      CNPP—Center for Nutrition Policy and Promotion                 CSS—Country Strategy Statements
      CNR—Child Nutrition and WIC Reauthorization Act of 2004        CTA—Conservation Technical Assistance Program
      COC—County Office Committee                                    CWPP—Community Wildlife Protection Plan

      D
      DC—Disallowed Costs                                            DM—Deferred Maintenance
      DCP—Direct and Counter-Cyclical Payment                        DOI—The United States Department of the Interior
      DHS—The United States Department of Homeland Security




280
                                 FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
E
E&T—Employment and Training                                        END—Exotic Newcastle Disease
EA—Enterprise Architecture                                         EO—Executive Order
ECM—Enterprise Content Management                                  EPA—The U.S. Environmental Protection Agency
EDI—Electronic Data Interchange                                    EQIP—Environmental Quality Incentives Program
EEO—Equal Employment Opportunity                                   ERS—Economic Research Service
EFNEP—Expanded Food and Nutrition Education Program                EU—European Union
EMRS—Emergency Management Response System                          EVM—Earned Value Management

F
FAD—Foreign Animal Disease                                         FLP—Farm Loan Program
FAO—Food and Agriculture Organization of the United Nations        FMD—Financial Management Division
FAS—Foreign Agricultural Service                                   FMD—Foot-and-Mouth Disease
FATER—Food Aid Targeting Effectiveness Ratio                       FMFIA—Federal Managers’ Financial Integrity Act
FB4P—Federal Biobased Products Preferred Procurement Program       FMMI—Financial Management Modernization Initiative
FCIC—Federal Crop Insurance Corporation                            FNCS—Food, Nutrition and Consumer Services
FDCC—Federal Desktop Core Configuration                            FNS—Food and Nutrition Service
FDCH—Family Day Care Home                                          FRPC—Federal Real Property Council
FDPIR—Food Distribution Program on Indian Reservations             FS–Forest Service
FECA—Federal Employee Compensation Act                             FSA—Farm Service Agency
FEMA—Federal Emergency Management Agency                           FSRIA—Farm Security and Rural Investment Act of 2002
FFA—Future Farmers of America                                      FSH—Forest Service Handbook
FFAS—Farm and Foreign Agricultural Service                         FSIS—Food Safety and Inspection Service
FFB—Federal Financing Bank                                         FSM—Forest Service Manual
FFIS—Foundation financial Information System                       FSP—Food Stamp Program
FFMIA—Federal Financial Management Improvement Act                 FSRIP—Farm Security and Rural Investment Program
FHM—Forest Health Monitoring                                       FTBU—Funds to Be Put to Better Use
FIA—Forest Inventory and Analysis                                  FTE—Full Time Equivalents
FISMA—Federal information Security Management Act of 2002          FWS—The United States Fish and Wildlife Service
FLREA—Federal Lands Recreation Enhancement Act                     FY—Fiscal Year

G
GAO—Government Accountability Office                             GS—General Schedule
GAP—Good Agricultural Practice                                   GSA—General Services Administration
GIPSA—Grain, Inspection, Packers and Stockyards Administration   GUM—General Use Module
GLS—Guaranteed Loan System                                       GUS—Guaranteed Underwriting System

H
HACCP—Hazard Analysis and Critical Control Point                 HPAI—Highly Pathogenic Avian Influenza
HEI—Healthy Eating Index                                         HSPD-12—Homeland Security Presidential Directive 12

I
IATS—Import Alert Tracking System                                IR-4—Interregional Research Project number 4
IGP—Integrated IT Governance Process                             IRS—Internal Revenue Service
IPIA—Improper Payments Information Act                           ISO—International Organization for Standardization
IPM—Integrated Pest Management                                   ISS LoB—Information Systems Security Line of Business
IPPS—In Plant Performance System                                 IT—Information Technology
                                                                 ITDS—International Trade Data System




                                                                                                                          281
                                       OTHER ACCOMPANYING INFORMATION
      K
      KEPHIS—Kenya Plant Health Inspectorate Service

      L
      L&WCF—Land and Water Conservation Fund                       LMP—Land Management Plan
      LCP—Direct and Counter-Cyclical Payments                     LMS—Learning Management System
      LDP—Loan Deficiency Payment                                  LOB—Line of Business
      LDP—Loan Deficiency Program                                  LSS—Lean Six Sigma
      Lm—Listeria Monocytogenes

      M
      MAL—Marketing Assistance Loan Program                        MITS—Management Initiatives Tracking System
      MDP—Miscellaneous Disaster Programs                          MON810—Monsanto Insect protect YieldGard tm Corn
      MILC—Milk Income Loss Contract Program                       MPR—Mathematica Policy Research
      MFIS—Multi-Family Housing Information System                 MRP—Marketing and Regulatory Programs

      N
      NAFTA—North American Free Trade Agreement                    NFS—National Forest System
      NAHLN—National Animal Health Laboratory Network              NIST—National Institute of Standards Technology
      NAHMS—National Animal Health Monitoring System               NOP—National Organic Program
      NAIS—National Animal Identification System                   NOSB—National Organic Standards Board
      NAL—National Agricultural Library                            NPDN—National Plant Diagnostic Network
      NAP—Noninsured Assistance Program                            NRCS—Natural Resources Conservation Service
      NASS—National Agricultural Statistics Service                NRE—Natural Resources and Environment
      NCP—National Conservation Planning Database                  NSLP—National School Lunch Program
      NDB—National Data Bank                                       NVS—National Veterinary Stockpile
      NDLA— National Digital Library for Agriculture               NVSL—National Veterinary Services Laboratory
      NFMA—National Forest Management Act

      O
      OCFO—Office of the Chief Financial Officer                   OIG—The Office of Inspector General
      OCIO—Office of the chief Information Officer                 OMB—The U.S. Office of Management and Budget
      OGC—Office of the General Counsel                            ORAS—Operations Review and Analysis Staff
      OIE—World Organization for Animal Health

      P
      PAR—Performance and Accountability Report                    PMA—Performance Management Agenda
      PART—Program Assessment Rating Tool                          POA&M—Plans Of Action and Milestones
      PCMA—Purchase Card Management System                         PP&E—Property, Plant, and Equipment
      PEIS—Program Evaluation and Improvement Staff                ProTracts—Program Contracts Database
      PHDCIS—Public Health Data Communications Infrastructure      PRRS—Porcine Reproductive and Respiratory Syndrome
      Systems                                                      PRS—Performance Results System
      PHICP—Public Health Information Consolidation Projects       PRV— Plant Replacement Value
      PII—Personally Identifiable Information                      PRV—Pseudorabies Virus
      PIPE—Pest Information Platform for Extension and Education   PSU—Primary Sampling Unit

      Q
      QC—Quality Control




282
                                   FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
R
RA—Rental Assistance                                           RMA—Risk Management Agency
RAP—Rental Assistance Program                                  RME—Risk Management Education
RBS—Rural Business-Cooperative Service                         RND—Results Not Demonstrated
R&D—Research and Development                                   RORA—Regional Office Review of Applications
RD—Rural Development                                           RTB— Rural Telephone Bank
REE—Research, Education and Economics                          RTE—Ready-to-Eat
RHS—Rural Housing Service                                      RUS—Rural Utilities Service

S
SBP—School Breakfast Program                                   SMI—School Meals Initiative
SBR—Asian Soybean Rust                                         SNAP—Supplemental Nutrition Assistance Program
SED—State Executive Directors                                  SPS—Sanitary and Phytosanitary
SFA—School Food Authority                                      SRA—Standard Reinsurance Agreement
SFFAS—Statement of Federal Financial Accounting Standards      STC—State Committee
SFSP–Summer Food Service Program                               STO—State Office

T
TANF—Temporary Assistance for Needy Families                   TPMC—Tucson Plant Material Center
TBT—Technical Barriers to Trade                                TRQ—Tariff Rate Quota
TES—Threatened and Endangered Species                          TSP—Technical Service Provider
TIC—Trusted Internet Connection

U
UCC—Uniform Commercial Code                                    USDA—The United States Department of Agriculture
UNECE—United Nations Economic Commission for Europe            USGSA—United States Grain Standards Act
USAID—The United States Agency for International Development   USTR—U.S. Trade Representative
USB—United Soybean Board

V
VS—Veterinary Services

W
WCF—Working Capital Fund                                       WIC—Special Supplemental Nutrition Program for Women,
WEP—Water and Environmental Programs                           Infants and Children
WFSM—Wildland Fire Suppression Management                      WRP—Wetlands Reserve program
                                                               WTO—World Trade Organization




                                                                                                                       283
                                      OTHER ACCOMPANYING INFORMATION
284
      FY 2008 PERFORMANCE AND ACCOUNTABILITY REPORT
